<html>
<title> - ENSURING THE SAFETY OF OUR NATION'S MOTORCOACH PASSENGERS</title>
<body><pre>[Senate Hearing 112-240]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-240
 
       ENSURING THE SAFETY OF OUR NATION'S MOTORCOACH PASSENGERS

=======================================================================


                                HEARING

                               before the

                 SUBCOMMITTEE ON SURFACE TRANSPORTATION

                  AND MERCHANT MARINE INFRASTRUCTURE,

                          SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 30, 2011

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
72-670                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       0SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
FRANK R. LAUTENBERG, New Jersey      JOHN THUNE, South Dakota
MARK PRYOR, Arkansas                 ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             ROY BLUNT, Missouri
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                Rebecca Seidel, Republican Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE 
                  INFRASTRUCTURE, SAFETY, AND SECURITY

FRANK R. LAUTENBERG, New Jersey,     JOHN THUNE, South Dakota, Ranking 
    Chairman                             Member
DANIEL K. INOUYE, Hawaii             JOHN ENSIGN, Nevada
JOHN F. KERRY, Massachusetts         JIM DeMINT, South Carolina
BARBARA BOXER, California            ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           JOHNNY ISAKSON, Georgia
MARK PRYOR, Arkansas                 ROY BLUNT, Missouri
CLAIRE McCASKILL, Missouri           JOHN BOOZMAN, Arkansas
AMY KLOBUCHAR, Minnesota             PATRICK J. TOOMEY, Pennsylvania
TOM UDALL, New Mexico                MARCO RUBIO, Florida
MARK WARNER, Virginia                KELLY AYOTTE, New Hampshire
MARK BEGICH, Alaska

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 30, 2011...................................     1
Statement of Senator Lautenberg..................................     1
Statement of Senator Thune.......................................     2
Statement of Senator Hutchison...................................     3
Statement of Senator Ayotte......................................     5
Statement of Senator Blunt.......................................     5
Statement of Senator Udall.......................................    77
Statement of Senator Pryor.......................................    78

                               Witnesses

Statement of Hon. Sherrod Brown, U.S. Senator from Ohio..........     6
    Prepared statement...........................................     8
Hon. Anne S. Ferro, Administrator, Federal Motor Carrier Safety 
  Administration.................................................    10
    Prepared statement...........................................    11
Ronald Medford, Deputy Administrator, National Highway Traffic 
  Safety Administration..........................................    18
    Prepared statement...........................................    19
Hon. Deborah A.P. Hersman, Chairman, National Transportation 
  Safety Board...................................................    21
    Prepared statement...........................................    23
Peter J. Pantuso, President and CEO, American Bus Association....    32
    Prepared statement...........................................    33
Joan Claybrook, President Emeritus, Public Citizen and Co-Chair, 
  Advocates for Highway and Auto Safety (Advocates)..............    39
    Letter dated 3/28/2011 to Hon. Frank R. Lautenberg and Hon. 
      John Thune from Edward Garrod--Beaumont, Texas.............    40
    Letter dated March 25, 2011 to Hon. Frank Lautenberg and Hon. 
      John Thune from Julie M. Harmon--Lima, Ohio................    41
    Letter dated March 29, 2011 to Hon. Frank Lautenberg and Hon. 
      John Thune from Elise M. Huch, West Brook Bus Crash 
      Families...................................................    42
    Letter dated March 29, 2011 to Hon. Frank Lautenberg and Hon. 
      John Thune from Martha Huch, West Brook Bush Crash Families    42
    Letter dated March 28, 2011 to Hon. Frank Lautenberg and Hon. 
      John Thune from Yen-Chi Le, Ph.D., Houston Texas, Daughter 
      of Sherman Bush Crash Victim, Catherine Tuong So Lam.......    43
    Letter dated March 29, 2011 to Hon. Frank Lautenberg and Hon. 
      John Thune from Melanie Brown Psencik......................    44
    Prepared statement...........................................    46
    Supplemental statement.......................................    70

                                Appendix

Letter dated April 13, 2011 to Hon. John D. Rockefeller IV and 
  Hon. Frank R. Lautenberg from Hon. Charles E. Schumer..........    83
Response to written questions submitted to Hon. Anne S. Ferro by:
    Hon. John D. Rockefeller IV..................................    84
    Hon. Claire McCaskill........................................    85
    Hon. Tom Udall...............................................    86
    Hon. Kay Bailey Hutchison....................................    88
    Hon. John Thune..............................................    92
Response to written questions submitted to Ronald Medford by:
    Hon. John D. Rockefeller IV..................................    92
    Hon. Tom Udall...............................................   108
    Hon. Kay Bailey Hutchison....................................   108
    Hon. John Thune..............................................   110
Response to written questions submitted to Hon. Deborah A.P. 
  Hersman by Hon. Kay Bailey Hutchison...........................   110
Response to written questions submitted to Peter J. Pantuso by:
    Hon. Kay Bailey Hutchison....................................   111
    Hon. John Thune..............................................   113
Response to written questions submitted to Joan Claybrook by Hon. 
  Kay Bailey Hutchison...........................................   114
Letter from Peter J. Pantuso, President and CEO, American Bus 
  Association to Hon. Frank R. Lautenberg........................   115
Letter ``Clarification Regarding Seat Belt Use Rates on 
  Motorcoaches'' from Advocates for Highway and Auto Safety 
  (Advocates)....................................................   116


       ENSURING THE SAFETY OF OUR NATION'S MOTORCOACH PASSENGERS

                              ----------                              


                       WEDNESDAY, MARCH 30, 2011

                               U.S. Senate,
         Subcommittee on Surface Transportation and
            Merchant Marine Infrastructure, Safety, and Security,  
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:36 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Frank R. 
Lautenberg, Chairman of the Subcommittee, presiding.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. The Senate Committee on Commerce, 
Science and Transportation and our Subcommittee on Surface 
Transportation and Merchant Marine Infrastructure, Safety and 
Security will come to order.
    The discussion about ensuring the safety of our nation's 
motorcoach passengers.
    So I welcome everyone here.
    We have serious concerns about the safety of our nation's 
buses, and the bus passengers are demanding of us that we need 
safer travel.
    During the past 3 weeks, separate tour bus crashes in New 
Jersey and New York and New Hampshire killed 17 people and 
injured dozens more. Now, our hearts go out to the families of 
those who died so tragically and we wish a speedy recovery to 
all who were injured. And also, our heartfelt wishes go out to 
all of the families and the friends of the bus accident 
victims.
    Now, many of these family members have gone to become 
powerful advocates for stronger bus safety measures. Several 
are here today, including John and Joy Betts and Yen-Chi Le, 
and we are pleased that they are here. We are saddened by your 
loss, as I say, but we are inspired by your motivation to 
action and by your tireless work on important issues.
    We owe it all to the victims of bus accidents and their 
families to get to the bottom of what caused these crashes and 
to do everything in our power to prevent things like this from 
happening in the future. The deadliest of the recent bus 
crashes occurred on March 12 in the Bronx in New York. A tour 
bus flipped on its side, slid into a signpost, and sheered off 
most of its roof. And the photograph shows the tragic 
consequences, the damage here that was done on that day, and it 
was a gruesome. It took 15 lives. It is not easy to look at 
this picture without feeling very upset by what happened and it 
quickly pushes us to think about what we can do to prevent it 
from happening again, but we need to understand the severity of 
the problem if we are going to be successful in solving it.
    In this crash, the driver had a history of driving without 
a license and had used an alias to get a new license. The bus 
company had also been cited for previous safety violations.
    Two days later, another tour bus lost control, struck a 
bridge on the New York Turnpike and then slammed into an 
embankment killing 2 people and injuring 40. The company that 
operated this line had a safety record worse than 99 percent of 
operators in the country. Imagine. We need to understand why 
these dangerous drivers and bus companies were not taken off 
the road before these disasters took place.
    There is no doubt that buses play a critical role in our 
nation's transportation network. Each year 750 million 
passengers travel aboard 35,000 motorcoaches. These vehicles 
often connect cities and communities that lack access to trains 
or commercial airlines, but they are one of the most affordable 
modes of transportation. Many Americans rely on buses to reach 
destinations, vacation, visit family, and take sightseeing 
excursions across our country.
    Buses have also been used to evacuate companies during 
emergencies, communities during emergencies including 
Hurricanes Katrina and Rita. Although buses are generally safe, 
more than 7,000 people are injured in bus crashes each year and 
on average, 16 perish. That number may not sound big when you 
look at the total number, but each one is a human being, a 
child or a parent, and one life lost is too many, especially 
when there are steps that we can take to prevent these types of 
tragedies.
    Now, I am concerned that the Department of Transportation 
is not moving quickly enough to implement its 2009 plan to make 
motorcoaches safer. Even though DOT has met some of the 
deadlines included in the plan, it has not finished writing the 
rules needed to make the buses safer.
    It is also unacceptable that bus companies continue to put 
unsafe drivers and buses on the road. And just because bus 
companies can discount prices does not mean that they can 
discount safety. If drivers are not fully trained, qualified, 
and alert, they should not be trusted with the lives of dozens 
of passengers. Now, we owe it to the public to make sure only 
the safest companies are allowed to operate motorcoaches and 
that only the safest drivers are behind the wheel.
    So I look forward to hearing from today's witnesses about 
what we must do to make sure all travelers reach their 
destination safely.
    And I will turn to our Ranking Member, Mr. Thune, to make 
his opening statement.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman, for holding today's 
hearing. This is our subcommittee's first hearing of the year 
and I am pleased that we are able to kick off our agenda with 
such an important topic. Bus safety is a very timely issue as 
we have experienced three high-profile and tragic bus crashes 
just this month.
    Bus safety improvements have been delayed for too long, but 
I am encouraged that we can move forward to reduce preventable 
crashes and to protect passengers when accidents do occur.
    I would like to thank Senator Hutchison for her 
determination to improve bus safety. She and Senator Brown have 
been committed to advancing bus safety legislation since 2007. 
I am confident that we will finally pass a bill this year 
thanks to her leadership and that of the Subcommittee and full 
Committee chairmen and others.
    Bus travel is an increasingly popular choice in areas like 
the Northeast, but it has long been a necessity for rural 
America. Millions of rural Americans, including many in South 
Dakota, rely on buses as their sole means of intercity 
transportation, and they expect and deserve bus safety 
protections when they board a bus.
    Over 2,000 communities nationwide are served by buses, 
which is roughly eight times the number of places served by the 
airlines. The annual bus passenger count is approaching that of 
the airlines at 723 million trips in 2009 versus about 800 
million for the airlines, and these travelers deserve the same 
attention to safety that we give to passengers on the nation's 
commercial aviation fleet.
    Fortunately, bus accidents remain rare events, and 
statistically speaking, motorcoaches are one of the safest 
forms of transportation. About 19 people a year are killed on 
buses as opposed to about 100 in aviation. However, many of 
these bus deaths could be prevented by making basic safety 
improvements like adding seat belts that have been standard on 
airplanes for decades.
    As some in this room know all too well, a single bus crash 
can devastate a family and an entire community. That is why we 
have a responsibility as policymakers to ensure that we are 
doing all that we can to protect the traveling public and to 
make sure that we prevent as many needless deaths and injuries 
as possible.
    I am encouraged that DOT has made some progress on the 
Motorcoach Safety Action Plan it announced in 2009. I 
understand that DOT has fallen behind in several areas, and I 
look forward to hearing about their plans to keep the program 
on track.
    Likewise, the National Transportation Safety Board has 
devoted considerable resources to bus safety efforts. They were 
on the scene at the devastating accident in New York a few 
weeks ago that killed 15 passengers, and I know we will learn 
important lessons from the NTSB to prevent similar accidents.
    Again, Mr. Chairman, thank you for holding this hearing and 
I look forward to hearing from our witnesses today.
    Senator Lautenberg. Thanks very much.
    Now Senator Hutchison. I am sorry I might have gone out of 
order.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. No. Actually I asked Senator Thune to 
take his place as the Ranking Member of the Subcommittee 
because he is, and I am pleased that he is.
    I am glad that we are having this hearing, and I want to 
thank my cosponsor, Senator Brown, for being here to testify. 
He has been a sponsor of this bill and a fighter for it for two 
years now. And we are going to pass it this year because I 
think everyone in this room and hopefully Congress understands 
the importance of doing something to prevent these tragedies. 
It is incomprehensible that it has taken so long.
    I want to say that in addition to what we have seen just 
recently with these tragic accidents, my state has seen major 
accidents. Between 2005 and 2008, we had three terrible bus 
crashes that killed 41 passengers. One of those was the mother 
of Dr. Yen-Chi Le. I would like for you to stand and thank you 
for being here and for your efforts throughout this time since 
your mother was in that accident. You are trying to help others 
not have to go through what you have. Thank you very much.
    We have, as you said, Senator Lautenberg, 750 million 
people travel by bus every year, and if we had the kind of 
safety record on airplanes or railroads that we are seeing in 
the charter bus industry especially, people would be outraged, 
and we would be taking action. And that is exactly what Senator 
Brown and I want to do is take action.
    For example, more than half of all motorcoach fatalities 
over the past 10 years have occurred as a result of rollovers, 
and what we are asking for in our bill is stronger roofs and 
stronger windows. 70 percent of the individuals killed in these 
accidents over the last 10 years have been ejected from the 
bus. They have gone through the windows or through the roofs. 
They have not had seat belts, and that has resulted in critical 
injuries and death.
    Another issue that directly affects bus safety is the 
reincarnated carriers where a bus company is taken out of 
service because it has a bad safety record or we cannot find a 
safety record, and then it is quickly operating under a new 
name and it is now a new bus company with no record of its 
terrible safety record or accident record and we have the same 
situation happening.
    Senator Brown and I began working on intercity bus safety 
legislation in 2007, and we have now reintroduced the bill 
hoping that we will be able to pass it, and it is on the first 
markup of this committee. And I am very pleased about that.
    Bus travel outpaces both air and rail transportation as the 
fastest growing mode of intercity transportation. Despite the 
announcement of a new Motorcoach Safety Action Plan, the 
Department of Transportation has not yet acted on many basic 
passenger safety protections that have been recommended for 
years by the National Transportation Safety Board, and I am 
pleased that we will hear from both DOT and the NTSB today.
    I want to say that Greyhound Bus has, on its own, 
voluntarily agreed to put seat belts in its new buses. I think 
that is a major step forward. I would hope other bus companies 
would follow, but frankly the ones that have the worst safety 
record and where these accidents mostly happen are not the 
scheduled bus carriers but the ones that are charters. It is 
the school groups that charter a bus or sports teams that 
charter a bus or recreational groups or senior citizens that 
charter buses that are most at risk. I applaud Greyhound and I 
do hope that the efforts that we are making today will 
encourage others to voluntarily move faster than the bill will 
even be able to go, but so far, we have not seen much effort to 
do that.
    So thank you, Mr. Chairman. I look forward to working with 
you to get our bill on this markup and listening to others' 
concerns, come out with a fair and reasonable plan that we can 
pass this Congress. Thank you.
    Senator Lautenberg. Thank you very much, Senator Hutchison.
    Senator Ayotte from New Hampshire, new here as well, and we 
welcome you. Obviously, within a 5-minute period if you would 
make your opening statement please.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. I appreciate the opportunity to be here 
today. I think this is a very important issue.
    We also in New Hampshire in March had a bus accident in 
Littleton. We are still waiting to hear the investigation 
results of that accident. But I think we all appreciate that it 
is important that we have safety measures to prevent these 
accidents.
    And I look forward to hearing the testimony of the 
witnesses today and I appreciate the opportunity to be here. 
Thank you.
    Senator Lautenberg. Senator Blunt?

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Thank you, Chairman. I am glad to be here. I 
am going to have to go to another meeting before the hearing is 
over, and it is not because of my lack of interest in this 
topic.
    For some time, I lived in Branson, Missouri and represented 
it in the House for a long time and now in the Senate. At one 
time, it was the number one motorcoach destination in the 
country and may very well still be. But clearly, this is an 
important part of our economy in many ways. It is sort of an 
unappreciated part of our tourism and travel economy. It is a 
critically important part of our transit economy.
    And I applaud, Chairman, your efforts and those of the 
Ranking Member and Senator Brown and Senator Hutchison to try 
to do the things that need to be done to ensure that this 
continues to be a mode of transportation that people have 
increasing reason to feel good about and increasing reason to 
use.
    I am glad to be serving with you on this subcommittee.
    Senator Lautenberg. Thank you for being here with us.
    Before we hear from today's witnesses, I want to welcome 
our colleague, Senator Sherrod Brown. Senator Brown has been a 
strong advocate for bus safety in the wake of a 2007 bus crash 
that killed five baseball players from Bluffton University in 
Ohio, and together with our full Committee Ranking Member, 
Senator Hutchison, Senator Brown has introduced a bill on bus 
safety. And I am pleased to be a cosponsor of that legislation.
    Senator Brown, we invite you to give your testimony.

               STATEMENT OF HON. SHERROD BROWN, 
                     U.S. SENATOR FROM OHIO

    Senator Brown. Thank you, Mr. Chairman. Thank you for your 
interest in this and for calling this hearing. Ranking Member 
Thune, Senator Hutchison, thank you, and Senator Blunt and 
Senator Ayotte. I appreciate the opportunity to be here today.
    Special thanks to Senator Hutchison who has done yeoman's 
work on this issue. We have had lots of meetings on the floor, 
off the floor with colleagues on this, and as she said, this is 
the year this is going to happen.
    Motorcoach accident fatalities in both our states, in Texas 
and Ohio, in 2007 and since have highlighted the need for 
common sense safety measures that protect passengers and 
motorists.
    These tragic, yet seemingly preventable fatalities have 
devastated families and communities, turning parents and 
friends into advocates and activists for safer vehicles and 
safer roads. Two Ohioans are here today who can identify with 
the pain of losing a child in a motorcoach accident, turning 
their grief into action. I would like to thank John and Joy 
Betts who are here from Bryan, Ohio, northwest Ohio. If they 
would stand up for a moment. Thanks.
    John testified to this committee last year. I am so 
appreciative of his attendance today and her attendance today. 
They had a 9-hour drive from Bryan, Ohio to get here.
    John and Joy and Yen-Chi Le, who were introduced by Senator 
Hutchison, did what courageous people do. They lost loved ones 
and turned that grief into action to honor their son or in Ms. 
Lee's case, her mother, so that other families did not have to 
go through this, and for that, they deserve a lot of credit and 
honor.
    The Betts lost their son, David, a member of the Bluffton 
University baseball team, almost exactly 4 years ago this 
month. Bluffton is a small college in Bluffton, Ohio near I-75 
in Allen and Hancock Counties in the northwestern part of the 
state.
    David's baseball team--David, who had just been named the 
starting second baseman--was on its way to Florida for spring 
training when their bus lost control on a poorly marked exit 
ramp outside Atlanta. The bus toppled from the overpass. Like 
the majority of fatal motorcoach accidents, when the bus rolled 
over, the passengers were ejected from their seats and thrown 
through the bus windows. Along with David, six others were 
killed. Many more were injured.
    The tragedy, as these do, rocked a small town, but it 
brought national attention to the need for long overdue safety 
improvements to America's motorcoaches.
    Since that day 4 years ago, Bluffton families have been 
courageous and vocal advocates, led by Joy and John, and other 
families have done the same in raising awareness of motorcoach 
safety and demanding of Senator Hutchison and me and our 
colleagues action.
    The National Transportation Safety Board's final report 
from the Bluffton accident released 3 years ago echoed 
recommendations the NTSB has been urging for years. In the 
110th, the 111th, and now the 112th Congress, Senator Hutchison 
and I introduced the Motorcoach Enhanced Safety Act which 
includes many of the NTSB's ``most wanted'' safety 
improvements.
    Specifically, the Act would address many of the major 
shortfalls from the Bluffton accident such as better protection 
systems for occupants, including seat belts, stronger windows, 
and an improved roof crush standard; updated requirements for 
motorcoach drivers and motor carriers; and the need for on-
board recorders with the capability to collect crash data.
    Many of these recommendations, including seat belts and 
better motor carrier oversight and increased fire safety, have 
languished in legislative uncertainty for decades. These 
measures are not exotic. They are not complicated. They are not 
new. We know how to do them. They are common sense safety 
features that have been and are widely used across Europe and 
Australia. But since they are not required by law, they have 
not been installed in most American motorcoaches. So the public 
safety remains at risk.
    As a father, it is disturbing to know that students are 
still traveling in motorcoaches without even the option, in 
most cases, of buckling up.
    As a Senator, it is unacceptable that our laws or lack of 
them have made our vehicles and our roads less safe for 
students and families and anyone whether they are traveling to 
Branson, Missouri for music or whether they are traveling to a 
sports event or a church event, as Senator Hutchison pointed 
out.
    This month has seen yet another rash, as the Chairman said, 
of fatal motorcoach accidents, as heartbroken families and 
communities in New York and New Jersey know all too well, 
including the accident that Senator Ayotte mentioned in her 
home state.
    Opponents of stricter motorcoach safety standards will tell 
you this is not a motorcoach problem. They would tell you that 
we have a problem with rogue bus companies and bad drivers. 
Certainly we must ensure drivers, as the Chairman suggested, 
are fit to be behind the wheel and that bus carriers are 
playing by the rules, which our bill addresses. But we simply 
cannot look the other way and reject the idea that improving 
the safety of the motorcoach vehicles themselves is 
unnecessary.
    John Betts from Bryan, Ohio has said, ``It is necessary 
through our current regulations to get bad operators off the 
road. However, it is not sufficient as it does nothing to 
ensure safety once the crash has occurred.''
    I could not agree more. We can get bad operators off the 
road, but it is not enough to ensure passenger safety in the 
tragic event of an accident.
    In the last three Congresses, Senator Hutchison and I, as I 
said, have introduced this legislation. We do it because it is 
the right thing to do, and we do it because people like the 
Betts have made it the easy thing to do. Out of their grief, 
they have asked their government to step in and protect 
American families so other families do not go through the 
incredible, unspeakable pain that they did and that the 
Bluffton community experienced. They have asked their 
government to pass a law at relatively very little cost to the 
manufacturers, as Joan Claybrook will testify, not much more 
than a nickel per ticket through the life of the bus, maybe 
even less. They have asked their Government to pass a law that 
can save lives and keep our roads much more secure.
    Thank you, Mr. Chairman. And thank you especially to 
Senator Hutchison.
    [The prepared statement of Senator Brown follows:]

    Prepared Statement of Hon. Sherrod Brown, U.S. Senator from Ohio
    Thank you, Chairman Lautenberg, Ranking Member Thune, and members 
of the Committee. I applaud you for holding this hearing on motorcoach 
safety today.
    Thank you also to Senator Hutchison--for nearly 4 years we have 
worked together to pass our Motorcoach Enhanced Safety Act into law to 
make motorcoaches safer for the millions of passengers who ride them 
every day.
    Motorcoach accident fatalities in both our states highlighted the 
need for common-sense safety measures that protect both passengers and 
motorists.
    These tragic, yet seemingly preventable fatalities have devastated 
families and communities, turning parents and friends into advocates 
and activists for safer vehicles and safer roads.
    Two Ohioans are here today who can identify with the pain of losing 
a child in a motorcoach accident--and turning their grief into action.
    I would like to thank and recognize John and Joy Betts from Bryan, 
Ohio who are in attendance today.
    The Betts' lost their son David, a member of the Bluffton 
University baseball team, on March 2, 2007.
    Bluffton University is a small college in Bluffton, Ohio, near 1-75 
in Allen and Hancock counties in the Northwest part of the state.
    David's baseball team was on its way to Florida for spring training 
when their bus lost control on a poorly marked exit ramp outside 
Atlanta.
    The bus toppled from an overpass.
    Like the majority of fatal motorcoach accidents, when the bus 
rolled over, the passengers were ejected from their seats and thrown 
through the bus windows.
    Along with David, six others were killed and dozens were injured.
    The tragedy rocked a small town but also brought national attention 
to the need for long, overdue safety improvements to America's 
motorcoaches.
    Since that day four years ago, the Bluffton families have been 
courageous and vocal advocates in raising awareness of motorcoach 
safety and demanding Congressional action.
    The National Transportation Safety Board's (NTSB) final report from 
the Bluffton motorcoach accident--released almost 3 years ago--echoed 
recommendations the NTSB has been urging for years.
    In the 110th, 111th, and now the 112th Congress, Senator Hutchison 
and I have introduced the Motorcoach Enhanced Safety Act, which 
includes many of the NTSB's ``Most Wanted'' safety improvements.
    Specifically, the Act would address many of the major safety 
shortfalls from the Bluffton accident, such as:

  <bullet> Better protection systems for occupants including seatbelts, 
        stronger windows, and an improved roof crush standard;

  <bullet> Updated requirements for motorcoach drivers and motor 
        carriers; and

  <bullet> The need for on-board recorders with the capability to 
        collect crash data.

    Incredibly, many of these recommendations--including seatbelts, 
better motor-carrier oversight, and increased fire safety--have 
languished in legislative uncertainty for decades.
    These safety measures are neither exotic nor complicated. They are 
not new, either. They are common-sense safety features that have been--
and are--widely used across Europe and Australia.
    But since they are not required by law, they have not been 
installed in most American motorcoaches.
    Instead of saving lives, the public safety remains at risk.
    As a father, it is disturbing to know that students are still 
traveling in motorcoaches without even the option of buckling up.
    As a Senator, it is unacceptable that our laws--or lack of them--
have made our vehicles and roads less safe for students, families, and 
anyone traveling our Nation's roads.
    This month has seen yet another rash of fatal motorcoach 
accidents--as heartbroken families and communities in New Jersey and 
New York know all too well.
    Opponents of stricter motorcoach safety standards will tell you 
that this isn't a motorcoach problem; they would tell you that we have 
a problem with rogue bus companies and bad drivers.
    Certainly, we must ensure drivers are fit to be behind the wheel 
and that bus carriers are playing by the rules which our bill 
addresses.
    But we simply cannot look the other way and reject the idea that 
improving the safety of our motorcoaches is unnecessary--or fiscally 
imprudent.
    John Betts has said, ``It is necessary through our current 
regulations to get bad operators off the road. However it is not 
sufficient as it does nothing to ensure safety once the crash has 
occurred.''
    I couldn't agree more. We can get bad operators off the road. But 
it's not enough to ensure passenger safety in the tragic event of an 
accident.
    If the technology to save lives and reduce injury in motorcoach 
accidents exists, we must put that technology to use.
    As motorcoach travel increases--and it has as gas prices have risen 
and airline travel has become more expensive--we need these new safety 
standards to ensure the safety of every rider and driver on the road.
    The number of serious accidents and tragic deaths will, sadly, only 
increase if we do not take action.
    In the last three Congress's, Senator Hutchison and I have 
introduced the Motorcoach Enhanced Safety Act.
    We do so because it's the right thing to do. And we do so because 
people like the Betts' have made it the easy thing to do.
    Out of their grief, they have asked their government to step in and 
protect Americans families from the heartbreak they and the Bluffton 
community experienced.
    They have asked their government to pass a law that can save lives 
and keep our roads more secure.
    I look forward to future collaboration with the Committee and our 
colleagues in the Senate to pass this bill into law and to finally 
improve motorcoach safety in our Nation.
    Thank you, Mr. Chairman.

    Senator Lautenberg. Thanks very much, Senator Brown. We 
thank you for your testimony.
    Senator Brown. Thank you very much.
    Senator Lautenberg. And now I would call the next panel to 
the desk, which includes the Honorable Deborah Hersman, 
Chairman of the National Transportation Safety Board; the 
Honorable Anne Ferro, who is Administrator of the Federal Motor 
Carrier Safety Administration from the U.S. Department of 
Transportation; Mr. Ron Medford, Deputy Administrator of the 
National Highway Traffic Safety Administration; Mr. Peter 
Pantuso, who is President and CEO of the American Bus 
Association; and the Honorable Joan Claybrook, Consumer Co-
Chair of Advocates for Highway and Auto Safety. She is the 
former NHTSA Administrator.
    As our witnesses make themselves comfortable, I am handed 
an announcement that this afternoon the U.S. Department of 
Transportation will announce that they are placing a company 
called Super Luxury Tours out of service and they are 
suspending their operating authority. This is the company that 
was involved in the New Jersey accident. And I am pleased to 
see the DOT taking such a rapid response to a terrible 
situation.
    Now I will ask Ms. Ferro--she is the Administrator, as I 
mentioned, of the Federal Motor Carrier Safety Administration. 
She is going to provide us with an overview of the current laws 
and safety practices that govern motorcoaches. We ask you to 
take 5 minutes and give us your testimony, please. Welcome.

 STATEMENT OF HON. ANNE S. FERRO, ADMINISTRATOR, FEDERAL MOTOR 
                 CARRIER SAFETY ADMINISTRATION

    Ms. Ferro. Thank you, Chairman Lautenberg, Ranking Member 
Thune, members of the Subcommittee. I greatly appreciate this 
opportunity to discuss the Federal Motor Carrier Safety 
Administration's work to advance motorcoach safety.
    First, I do want to join others in this room in expressing 
my deepest sympathies to the families that have been impacted 
by the tragedies of this month but also those past tragedies 
and terrible motorcoach crashes.
    The employees of FMCSA and our state law enforcement 
partners across the country are committed to preventing the 
kind of tragedies that we saw this past month.
    Two years ago, Transportation Secretary LaHood ordered a 
full departmental review of motorcoach safety. That work 
resulted in the DOT's Motorcoach Safety Action Plan, Mr. 
Chairman, which you mentioned. The plan incorporates 
recommendations from NTSB, from the Motorcoach Safety 
Enhancement Act that this committee has done tremendous work 
on, that Senator Brown and Senator Hutchison both spoke of, and 
it sets forth actions to address the root causes of motorcoach 
crashes.
    For FMCSA, these actions mean stronger oversight of driver, 
vehicle, and company performance. We need to do this through 
strict enforcement of current rules, introduction of new rules 
and programs that close loopholes, and vigorous scrutiny 
through roadside enforcement and through our onsite inspection 
programs.
    In the area of rules, I do want to say FMCSA has been very 
busy in the past 12 months. Among the 17 rules we have issued, 
I want to speak to four in particular.
    We issued a proposed rule to apply and require electronic 
on-board recorders on nearly all commercial vehicles, including 
motorcoaches. This is in addition to the remedial rule that is 
in place today.
    We issued a proposed rule to prohibit commercial motor 
vehicle operators from using hand-held cell phones and their 
employers from requiring them to do it and administering 
penalties accordingly.
    We issued a final rule to ban texting in commercial vehicle 
operations.
    And just this week I signed a final rule to improve the 
uniformity in commercial driver's license testing that will 
also minimize the risk of fraud and require a commercial 
learner's permit for anyone before becoming fully licensed.
    In addition to the rulemakings, we have very strong 
programs that we have introduced and implemented over the past 
year and a half, two in particular.
    The vetting program. This is a program that has been spoken 
to in the Motorcoach Safety Action Plan, NTSB, and this 
committee that requires any company applying for passenger 
carrier to go through close scrutiny by FMCSA to detect those 
companies that are trying to evade safety violations, out-of-
service actions, and penalties that we have taken. In 2 years 
of vetting work, we have rejected 24 percent of the applicants.
    Last December, in a separate program, to talk about really 
our centerpiece safety enforcement program, we issued and 
implemented the first of three components of this program, that 
program being CSA, Compliance, Safety, Accountability. The 
component I am speaking of is known as the ``Safety Measurement 
System.'' It replaces SafeStat, the tool we used to prioritize 
who we look at as high risk and who our roadside enforcement 
officers select for inspection at the roadside. CSA gives our 
own agents, our law enforcement partners, our safety advocates, 
industry, and the public a sharper focus on high-risk companies 
and where to apply the appropriate safety interventions or 
removal actions.
    Most importantly, I think for today is how is the agency 
putting these programs to work and these initiatives. We are 
doing it through strong and strict enforcement.
    First, every state's commercial vehicle safety plan must 
include a Motorcoach Safety Action Plan driven by the 
performance measures in that state. We prioritize compliance 
reviews for motorcoach operators now based on our SMS data, and 
we implement strategically and energetically motorcoach safety 
strike forces across the country and throughout the year. Just 
in the past 2 weeks, 13 states have staged strike forces to 
weed out unsafe motorcoach operators, 17 are planning strike 
forces in the coming weeks, and more than 3,500 surprise bus 
inspections were conducted, again complementing some of what 
you saw in New York do.
    And I do want to mention every high priority motorcoach 
operator identified under CSA is either undergoing today a 
compliance review or has already had one since we rolled out 
the SMS numbers.
    FMCSA's drive to improve commercial vehicle operations is 
only accomplished through our collaboration with our federal 
partners, our state partners, safety advocates, industry, and 
labor.
    And Mr. Chairman, I pledge my full cooperation in working 
with you, with this committee to advance the goals that you are 
discussing today and will be happy to answer any questions you 
may have.
    [The prepared statement of Ms. Ferro follows:]

       Prepared Statement of Hon. Anne S. Ferro, Administrator, 
              Federal Motor Carrier Safety Administration
    Chairman Lautenberg, Ranking Member Thune, and members of the 
Subcommittee, thank you for inviting me to testify today regarding the 
very serious issue of motorcoach safety.
    As we know all too well, March has been the worst month in recent 
years for motorcoach safety, with two horrific crashes within a three-
day period causing 17 fatalities and numerous injuries. The first crash 
occurred in New York on March 12 with 15 fatalities, and the second 
occurred in New Jersey on March 14 with 2 fatalities.
    Please allow me to begin my testimony by extending my deepest 
sympathy to the families who lost loved ones in these crashes and to 
assure them that we at the Federal Motor Carrier Safety Administration 
(FMCSA) are committed to doing everything we can to prevent tragedies 
like this from happening again. We have significantly increased our 
regulatory and enforcement actions over the past several years to 
improve passenger safety. However, the tragic events this month 
indicate that we have more to do at the Federal level, and in working 
with our State and local enforcement partners.
Motorcoach Safety Action Plan (The Plan)
    Safety is the U.S. Department of Transportation's number one 
priority across all modes of transportation. In 2009, Secretary LaHood 
sought to make significant improvements to motorcoach safety by tasking 
all of the appropriate DOT agencies to work together to establish a 
unified Motorcoach Safety Action Plan (Plan). The Department released 
the Plan in November 2009. It lays out concrete steps for addressing 
the driver-related cause of crashes, fatalities, and injuries and 
enhancing motorcoach: driver performance; vehicle safety and 
maintenance; operator safety oversight; crash avoidance; and occupant 
protection. The Plan also focuses on the Department's strategy for 
improving data collection and analysis for motorcoach operations.
    Based upon our review of motorcoach crash data we determined that 
driver fatigue, driver behavior, vehicle rollover, occupant ejection, 
and operator maintenance issues contribute to the majority of 
motorcoach crashes, fatalities, and injuries. As a result, FMCSA had 
responsibility for four priority safety-related action items in the 
Plan. FMCSA's priority action items are:

        1. Initiate rulemaking to require electronic on-board recording 
        devices on all motorcoaches to better monitor drivers' duty 
        hours and manage fatigue.

        2. Initiate rulemaking to propose prohibiting texting and 
        limiting the use of cellular telephones and other devices by 
        motorcoach drivers.

        3. Enhance oversight of carriers attempting to evade sanctions.

        4. Establish minimum knowledge requirements for applicants 
        seeking FMCSA authority to transport passengers.

    We made substantial progress in each of these areas and I would 
like to take a few minutes to provide you with an update.
Electronic On-Board Recorders
    On April 5, 2010, the Agency took a significant step toward 
reducing the number of fatigue related crashes by publishing a final 
rule mandating the use of electronic onboard recorders (EOBRs) by motor 
carriers that transport passengers or property and that demonstrate 
serious non-compliance with the hours of service (HOS) rules. This 
action will reduce the likelihood of falsified or incomplete records of 
duty status. The final rule establishes: (1) new performance-oriented 
standards for EOBR technology; (2) a mandate for certain motor carriers 
to use EOBRs to remediate regulatory noncompliance (a remedial 
directive); and (3) incentives to promote voluntary EOBR use by all 
carriers. It is expected that approximately 5,700 motor carriers each 
year will be required to use EOBRs.
    On February 1, 2011, the Agency published a Notice of Proposed 
Rulemaking (NPRM) to expand the requirement for motor carriers to use 
EOBRs and to require nearly all motor carriers to systematically 
monitor their drivers' compliance with HOS requirements. Specifically, 
FMCSA proposed mandatory installation and use of EOBRs in interstate 
commercial motor vehicles currently required to complete records of 
duty status, including passenger carrier operations. Additionally, the 
preamble to the rulemaking requests data and information about the 
safety of short-haul passenger carriers that currently are not required 
to maintain records of duty status.
    The proposed rule would also establish specific requirements for 
supporting documents that motor carriers are required to obtain and 
keep, as required by section 113(a) of the Hazardous Materials 
Transportation Authorization Act (HMTAA). Comments on the NPRM are due 
May 23, 2011.
Distracted Driving
    Driver distraction is a serious safety problem that must be 
addressed to continue improving commercial motor vehicle (CMV) safety. 
FMCSA developed an approach that involves Federal rulemaking, outreach, 
and enforcement.
    On September 27, 2010, FMCSA published a Final Rule prohibiting 
texting by all CMV drivers while operating in interstate commerce and 
imposing civil penalties on drivers and motor carriers that violate the 
prohibition. The final rule also provides for commercial driver's 
license (CDL) holders' disqualification when they have multiple 
convictions for violating a State or local law or ordinance on motor 
vehicle traffic control that prohibits texting. We are working closely 
with the National Highway Traffic Safety Administration and with our 
State and local safety partners in developing enforcement strategies 
for those who violate this rule.
    On December 21, 2010, FMCSA published an NPRM that would restrict 
the use of hand-held mobile telephones. The Agency proposed new driver 
disqualification sanctions for interstate drivers of CMVs who fail to 
comply with this Federal restriction and for CDL holders who have 
multiple convictions for violating a State or local law or ordinance on 
motor vehicle traffic control that restricts the use of hand-held 
mobile telephones. The comment period for the NPRM recently closed, and 
the Agency plans to issue a final rule later this year.
Enhanced Oversight Of Motorcoach Operations
    FMCSA launched several initiatives to enhance its oversight of 
motorcoach companies, the drivers they employ and the vehicles they 
operate. These efforts include strict enforcement of the current safety 
regulations, more rigorous scrutiny of all passenger carrier 
applications for operating authority, implementation of the Safety 
Measurement System (SMS) to identify at-risk carriers for targeted 
enforcement as part of our new Compliance, Safety and Accountability 
program, or ``CSA,'' and improved oversight of the medical 
certification process for drivers.
FMCSA Motorcoach Strike Forces and Oversight
    FMCSA routinely conducts strike force activities at national, 
regional and local levels to enhance our overall motorcoach enforcement 
program.
    For instance, in October 2010 we conducted a two-day strike force 
at the Bands of America/Super Regional Championship at the Alamodome in 
San Antonio, Texas. We inspected motorcoaches from 12 different 
companies. The inspectors found 45 violations and placed 4 vehicles 
out-of-service. Although this is a small event, we conducted the strike 
force because more than 50 high school bands from across Texas use 
motorcoaches to attend the competition. We want to be sure these types 
of trips end safely.
    Also last year FMCSA conducted the national passenger carrier 
strike force from August 23 to September 3. During that time period 
FMCSA, along with our State and local safety partners, conducted 5,679 
passenger vehicle inspections, 324 compliance reviews, 31 new entrant 
safety audits, and 35 Americans with Disabilities Act (ADA) reviews. We 
discovered over 900 driver violations that required over 200 drivers to 
be placed out-of-service and more than 350 drivers were cited for hours 
of service violations. We also discovered over 5,600 vehicle violations 
and placed over 900 vehicles out-of-service. As a result of these 
compliance reviews, 9 percent of the passenger carriers received safety 
ratings of ``Conditional'' and 2 percent received proposed 
``Unsatisfactory'' safety rating.
    In 2009 FMCSA conducted our national passenger carrier strike force 
for 2 weeks in May. Again, FMCSA worked in conjunction with our State 
and local safety partners to conduct 8,699 passenger vehicle 
inspections, 548 compliance reviews, and 53 new entrant safety audits. 
We discovered over 1,700 driver violations that required over 275 
drivers to be placed out-of-service and more than 500 drivers were 
cited for hours of service violations. We also discovered over 7,000 
vehicle violations and placed over 900 vehicles out-of-service. As a 
result of these compliance reviews, 9 percent of the passenger carriers 
received ``Conditional'' safety ratings, and 3 percent received a 
proposed ``Unsatisfactory'' safety rating.
    In 2009, we also conducted multiple strike force events in many 
National Parks including Yellowstone, Glacier, Mount Rushmore, Mesa 
Verde, Yosemite, and Grand Teton to name a few. During these events 
FMCSA and our safety partners inspected 146 motorcoaches, and placed 4 
drivers and 8 vehicles out-of-service. We are planning similar events 
this summer.
    FMCSA has robustly expanded our enforcement activities focused on 
motorcoach companies by holding company officials and consultants 
accountable. One example occurred in July 2010 when the FMCSA issued a 
Notice of Claim to Ernesto Segura Silva for a civil penalty of $78,170. 
The Notice of Claim charged Mr. Segura, and the two motor carrier 
company names he had used, with 36 violations of 6 separate motor 
carrier safety requirements. A separate Notice of Claim for $55,270 was 
issued to Mario A. Garcia, a consultant, for his actions in aiding and 
abetting Mr. Segura and his unfit motor carrier operation to evade 
Federal regulations, and continue transportation of passengers after a 
final unsatisfactory safety rating, without operating authority and in 
violation of FMCSA Orders to Cease.
    The Notice of Claim issued to Mr. Garcia charged him with 34 
violations of Federal requirements, including making false statements 
and providing false or misleading information in the new entrant 
registration process. This was the first time FMCSA had charged a 
safety consultant for the consultant's actions in aiding a carrier in 
violating Federal regulations and in assisting the carrier to 
reincarnate and apply for new authority to evade Federal regulations 
and avoid its safety, performance and compliance history and continue 
operating after being declared unfit and ordered to cease. FMCSA 
entered into a Settlement Agreement with Mr. Garcia which requires him 
to, among other things, cease aiding and abetting motor carriers 
evading regulation, provide FMCSA with a current list of his consulting 
clients on a regular basis, and obtain training on the Federal Motor 
Carrier Safety Regulations.
    FMCSA also sought an injunction in Federal District Court against 
Garcia and a passenger motor carrier operation he started by using 
Segura's motorcoach and driver after rejecting his application for 
operating authority. On November 30, 2010 the Court entered an order 
approving a Consent Decree permanently enjoining Garcia and this 
passenger carrier from operating any commercial motor vehicle in 
interstate or foreign commerce and Garcia is enjoined from aiding any 
motor carrier in evading FMCSA regulations, operating without authority 
or operating in violation of an FMCSA order.
    FMCSA obtained another Federal District Court order last month 
[Feb. 16] entering a Consent Decree against RLT Tours, an passenger 
carrier transporting daily commuters between Tobyhanna, Pennsylvania 
and New York City without necessary operating authority. Following a 
compliance review, FMCSA had issued RLT Tours an unsatisfactory safety 
rating, revoked its operating authority and ordered it to cease 
operations effective November 5, 2010. Yet RLT continued to operate. 
Under last month's favorable court order, RLT Tours and a related 
company were dissolved and prohibited from operating in interstate 
commerce. The Court similarly barred the individual owners from 
operating in interstate commerce without proper operating authority, 
and it expressly enjoined them--and any persons with whom they were 
acting in concert--from applying for FMCSA operating authority without 
accurately disclosing their relationship to RLT Tours.
    One of the hurdles to effective passenger carrier oversight is the 
informality with which motor coaches are leased from company to company 
and the difficulty of determining in some situations which company is 
responsible for safety of the vehicle and its operation. Unlike 
property carriers, under current regulations passenger carriers are not 
required to execute written leases specifying the party responsible for 
safety. FMCSA is committed to initiating a rulemaking on this issue.
    To combat the recent rash of crashes among motorcoaches in the New 
York and New Jersey areas, FMCSA also joined with State and local CMV 
enforcement officials to conduct strike forces designed to identify and 
remove unsafe drivers and vehicles from service. These efforts were 
very effective and I would like to share with the Committee some of the 
results.
    On March 17, FMCSA began an enforcement strategy with the New York 
State Department of Transportation (NYSDOT), the New York State Police, 
and the New York City Police Department (NYPD) to conduct a motorcoach 
strike force. This combined effort resulted in approximately 87 
inspections. The strike force deployed at multiple locations across the 
state. Locations ranged from Buffalo bridge crossings with Canada to 
popular motor coach destinations including Turning Stone Casino in 
Verona near Syracuse, the southern tier of the NY State Thruway, and 
New York City's Chinatown. NYSDOT will continue its statewide effort 
over the next week with a heavy focus in New York City.
    Governor Cuomo's office has asked the New York State Department of 
Motor Vehicles to conduct an audit of all motorcoach operators to 
determine if drivers are properly licensed and qualified to drive. 
FMCSA is supporting this effort by sharing information from our Motor 
Carrier Management Information System (MCMIS) data. There are more than 
2,000 passenger carriers in NY State. The audits will focus upon 
approximately 304 passenger carriers that operate at least one bus with 
seating for more than 40 passengers.
    These strike forces are tools that we have at our disposal to 
quickly assess the state of safety on our roads. We thank our State and 
local law enforcement officials, as well as our safety stakeholders, 
for their efforts to support these projects to improve safety 
nationwide.
    I call upon all States to follow in the footsteps of Governor 
Cuomo. If State licensing agencies perform a top to bottom review of 
the CDL holders with a passenger endorsement that are based in their 
State, together we will begin to root out individuals that received a 
CDL under false pretenses or through fraudulent practices. Only by 
working together can we solve this important safety issue.
    In addition we must not be complacent in the enforcement of safety 
regulations on motorcoach companies or other CMVs. FMCSA, the states 
and local agencies must sustain an aggressive approach to increase the 
number of inspections and reviews. The risk is too great not to take 
action.
    FMCSA has 3,681 motorcoach carriers registered with active 
operating authority. We as an Agency increased the compliance reviews 
conducted on motorcoaches by 128 percent, from 457 in 2005 to 1,042 in 
2010. Inspections of motorcoaches increased 98 percent during the same 
period, from 12,991 in 2005 to 25,703 in 2010. Motorcoach related 
fatalities have decreased from 57 in 2004 to 46 in 2009; a reduction of 
19 percent. Passenger carrier enforcement cases rose from 36 in 2008 to 
44 in 2010, a 22 percent increase. Between Fiscal Years 2007-2010, 
FMCSA placed 75 passenger carriers out-ofservice for being unfit to 
operate, after receiving an unsatisfactory rating.
    As previously stated, there are 3,681 FMCSA-registered motorcoach 
companies. On average we conduct an on-site compliance review on a 
motorcoach company every 34 years. This 3-4 year average reflects a 
more than 100 percent increase over where we were in 2005, when the 
average was more than 8 years between compliance reviews.
Operating Authority Vetting Program
    In August 2008, FMCSA implemented a more robust investigation of 
applications for passenger carrier operating authority. This was a 
necessary step toward preventing the reincarnation of unsafe passenger 
carriers that choose to evade FMCSA sanctions rather than operate in 
compliance with the regulations.
    Through the vetting program, FMCSA conducts an investigation of the 
application information to determine whether the applicant is fit, 
willing, and able to comply with the safety and other applicable 
regulations, or if the applicant is attempting to evade enforcement 
actions for violations committed under another business name.
    We believe the program is effective, and I assure you that we will 
maintain a high level of effort in this area. Since FMCSA started the 
program in 2008, the Agency has applied the vetting process to 2,666 
applications for passenger carrier operating authority. We granted 
operating authority to 1,995 applicants, 669 carriers failed to 
successfully complete the application and either withdrew their 
applications or simply failed to respond to inquiries from the Agency, 
and 2 were rejected because the Agency determined the applicant was a 
reincarnation of another unsafe motor carrier. To date, 24 percent of 
applicants have had their applications for operating authority 
rejected.
    The Vetting Program is one of our early success stories in raising 
the safety bar to enter the passenger carrier industry.
New Entrant Safety Audit Program
    One of the concerns that came to light during the development of 
the Motorcoach Safety Action Plan was the perception that new 
motorcoach operators did not have the knowledge or ability to properly 
maintain their vehicles. To aid in determining the validity of this 
perception, FMCSA modified the new entrant safety audit to ascertain 
the maintenance capabilities of new motorcoach companies. Questions 
were added asking if the motorcoach company owns or leases a facility 
for the inspection, repair, and maintenance of its vehicles or if the 
company has an arrangement or contract for the systematic inspection, 
repair, and maintenance of its vehicles.
    We also modified the new entrant safety audit to include a 
component on compliance with the ADA regulations for over-the-road bus 
(OTRB) companies. We ask if the carrier has the means to provide 
accessible service on a 48-hour advance notice basis by its owned or 
leased OTRBs. If the carrier does not have the means, then does the 
carrier have an arrangement with another carrier that operates 
accessible OTRBs to provide the service for the first carrier?
    FMCSA established an internal goal to complete the new entrant 
safety audits for passenger carriers within 9 months, rather than the 
18 months required by statute. In FY 2010, FMCSA completed 77 percent 
of the passenger carrier safety audits within 9 months and 90 percent 
in 18 months. For FY 2011, to date, the percentages are 77 percent and 
94 percent, respectively. On average, a safety audit is conducted on a 
new motorcoach company in less than 6 months.
Compliance, Safety, and Accountability (CSA)
    For the passenger carriers that are currently conducting operations 
in interstate commerce, FMCSA's CSA program enables the Agency to 
ensure that these companies have effective safety management controls 
in place in order to continue operating.
    CSA is a major FMCSA initiative for the comprehensive review, 
analysis, and restructuring of the Agency's current safety monitoring 
system, as well as our compliance and enforcement programs. CSA will 
provide a more effective operational model so that the Agency can have 
a greater impact on large truck and bus safety while optimizing the 
resources of FMCSA and its State partners.
    To this end, the Agency developed a new operational model, and 
implementation of that model is in process. Full deployment is to be 
completed by the end of 2011. The model includes four major elements: 
(1) measurement; (2) intervention; (3) safety fitness determination; 
and (4) information technology. The new measurement system pinpoints 
the specific safety problems involved, while the broader array of CSA 
interventions, including warning letters sent at the first indication 
of safety performance problems and various types of investigations for 
carriers with more severe safety performance problems, enables FMCSA to 
match the most appropriate intervention to seriousness of the carrier's 
specific safety problems.
    In December 2010, FMCSA released to the public the new CSA Safety 
Measurement System SMS and began using the system for prioritizing 
carriers for enforcement interventions. Earlier this month, the Agency 
began sending warning letters to motor carriers nationwide. The warning 
letters are used to formally notify company executives about safety 
problems observed in our inspection and crash database so that 
appropriate corrective actions can be taken. FMCSA will closely monitor 
the safety records of these carriers for the next 12 months to assure 
that corrective action has indeed occurred. Failure of the carrier to 
address the safety performance problems may result in tougher 
enforcement actions, including a Federal notice of violation, a notice 
of claim through which the Agency assesses civil penalties, or an off-
site or on-site investigation. The investigations may also result in 
civil penalties for discovered violations.
    FMCSA has implemented components to its CSA program which monitor 
the compliance and safety of motorcoach companies separately from 
trucking companies. For example, unauthorized for-hire motorcoach 
companies that have operational activity are made a top priority for an 
on-site investigation. In addition, motorcoach companies with below 
industry median performance in a safety evaluation area, operating more 
than 2 years without an on-site investigation, or operating more than 5 
years since the previous on-site investigation are a priority.
    Later this year, FMCSA plans on issuing an NPRM that will propose 
changes to our current Safety Fitness Rating Methodology for commercial 
bus and truck companies. Through this rulemaking proposal, FMCSA would 
determine a carrier's safety fitness based on CSA data consisting of 
crashes, road inspection results and violation history rather than 
exclusively data from the standard compliance review. This proposal 
would enable FMCSA to assess the safety performance of a greater 
segment of the commercial motor carrier industry with the goal of 
further reducing large truck and bus crashes and fatalities.
Enhanced Oversight of the Medical Certification Process
    A critical part of ensuring the safe operation of all CMVs is 
medical certification of drivers. Currently, FMCSA and its State 
partners check regularly during compliance reviews, new entrant safety 
audits, and roadside inspections to ensure that drivers have a valid 
medical card. When it is discovered that a driver does not have a 
medical card or a company is employing drivers without valid medical 
cards, the driver and carrier are subject to enforcement action, 
generally in the form of civil penalties. In addition, if during an 
inspection a driver is found to be operating a passenger carrying 
vehicle without possessing a valid medical card, the driver is placed 
out-of-service.
    On December 1, 2008, FMCSA published a final rule merging the 
medical certification and CDL issuance and renewal processes. The rule 
improves the Agency's and the States' ability to monitor the medical 
certification status of interstate CDL holders. The final rule requires 
CDL holders to provide a copy of their medical certificate to the State 
driver licensing agency in order to be granted a CDL or to maintain 
their existing interstate driving privileges. If a driver fails to 
renew the medical certificate, or if the driver fails the physical 
examination, the CDL will be downgraded automatically to prohibit the 
operation of CMVs in interstate commerce.
    The final rule became effective on January 30, 2009. States must 
implement the information technology system changes necessary to comply 
with the rule by January 30, 2012. All CDL holders must comply with the 
requirements to submit the medical certification information to the 
States by January 30, 2014.
    The final rule required States to make the CDL driver's medical 
certification status available electronically to motor carrier safety 
enforcement personnel. FMCSA and State enforcement personnel would then 
be able to determine during a roadside inspection whether a driver is 
medically qualified by reviewing the electronic record maintained by 
the State licensing agency. Federal, State, and local government 
enforcement officials would query the Commercial Driver's License 
Information System (CDLIS) or the National Law Enforcement 
Telecommunication System to determine whether the driver had the 
required medical certification--something they cannot now accomplish.
    In addition to the medical certification rule, FMCSA is developing 
a National Registry of Certified Medical Examiners. Later this year, 
FMCSA plans to issue a final rule requiring that all healthcare 
professionals who issue medical certificates for interstate truck and 
bus drivers complete training on the Federal physical qualifications 
regulations and pass a test to verify they understand the requirements. 
Once this program is implemented, only medical certificates issued by 
examiners listed on the National Registry will be accepted. Medical 
examiners will be required to submit to FMCSA reports providing the 
name and a unique numerical identifier for each person who applies for 
a medical certificate. Certain other information will also be submitted 
to enable the Agency to monitor medical examiners' performance and to 
identify potential instances of ``doctor shopping''--medically 
unqualified drivers making multiple attempts to obtain a medical 
certificate.
Knowledge Requirements For New Carriers
    The FMCSA acknowledges that many of the new motorcoach operators 
that enter the industry each year do not have the knowledge needed to 
put into place effective safety management controls for their company. 
The Agency initiated a rulemaking to address this issue.
    On August 29, 2010, FMCSA published an Advance Notice of Proposed 
Rulemaking requesting public comment on the methods the Agency should 
consider implementing to provide further assurance that a new applicant 
carrier is knowledgeable about the applicable safety regulations before 
being granted new entrant authority. The Agency announced that it was 
considering whether to implement a proficiency examination as part of 
our revised New Entrant Safety Assurance Process and sought information 
concerning issues that should be considered in the development and use 
of such an examination.
    In addition, the Agency requested comments on other alternatives to 
a proficiency examination to complement the processes already in place 
to demonstrate that new entrant carriers are knowledgeable about 
applicable safety requirements.
    The FMCSA also tasked its Motor Carrier Safety Advisory Committee 
(MCSAC) to provide suggestions or recommendations on approaches that 
could be implemented to improve the existing new entrant safety 
assurance processes, procedures, and requirements for ensuring that new 
entrant motor carriers are knowledgeable about Federal motor carrier 
safety mandates prior to beginning operations in interstate commerce. 
The MCSAC provided its letter report in September 2010, which included 
recommendations for mandatory testing of certain company officials 
responsible for ensuring compliance with the safety regulations and 
putting into place safeguards for ensuring that the individual taking 
the test would actually be responsible for implementing or maintaining 
the carrier's safety management controls.
    In addition to the rulemaking, FMCSA is conducting a study to 
evaluate the effectiveness of some of the recommendations. The phased 
research is progressing on analysis of safety performance cost 
effectiveness for fostering a safety culture in new entrants via 
training and testing their knowledgeability. The initial report is a 
detailed analysis of changes in safety performance that resulted from a 
predecessor simplistic new entrant training effort. Preliminary results 
of that simplistic training effort are encouraging in regard to the 
effectiveness.
    The Agency is currently reviewing the comments to the ANPRM and the 
MCSAC report in preparation for developing an NPRM to request public 
comment on a regulatory approach for ensuring new entrant carriers have 
the knowledge needed to comply with the Federal safety regulations.
Conclusion
    FMCSA's efforts to improve motorcoach safety could not be 
accomplished without the assistance of our State and local safety 
partners. We are working closely with the International Association of 
Chiefs of Police, the Governors Highway Safety Association, the 
Commercial Vehicle Safety Alliance, and others enlisting their support 
for promotion of sustained traffic enforcement against those CDL 
operators who drive unsafely. In addition, we also rely on our 
partnerships with safety advocacy groups and the many safety-conscious 
professionals in the industry to make our highways safer. With almost 
4,000 active interstate motorcoach operations, the industry has 
demonstrated that we can achieve much higher levels of safety 
performance than we witnessed earlier this month. This month's crashes 
are tragic reminders that we have much more to do.
    To that end, I want to assure you that everyone at FMCSA is 
committed to three core principles: First is to raise the safety bar to 
enter the motor carrier industry; second, is to maintain high safety 
standards to remain in the industry. And our third core principle is to 
remove high risk drivers and carriers from operating. Everything we do 
is linked to one or more of these principles.
    Mr. Chairman, we at FMCSA applaud you and your colleagues on the 
Committee and in the Congress for your leadership in the area of motor 
carrier safety. During these investigations into the recent motorcoach 
accidents, we have been in constant communication with many of you and 
your staff. We appreciate your support and your holding us to that high 
standard that we know must be achieved to avoid future crashes. As we 
go forward with efforts to reauthorize our highway safety program, we 
look forward to working with you to develop a plan that will help 
achieve great strides in the coming years.
    I would be happy to answer any questions you may have.

    Senator Lautenberg. Thank you very much, Ms. Ferro.
    Mr. Medford is the Deputy Administrator of the National 
Highway Traffic Safety Administration, and we are pleased to 
hear from you. Please tell us how the agency sets standards for 
the safety of buses and other motor vehicles.

                  STATEMENT OF RONALD MEDFORD,

                     DEPUTY ADMINISTRATOR,

         NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION

    Mr. Medford. Chairman Lautenberg, Ranking Member Thune, and 
members of the Subcommittee, thank you for the opportunity to 
update you on the activities of the National Highway Traffic 
Safety Administration on the issue of motorcoach safety.
    I want to also offer my sincere and deepest sympathy to 
those who lost loved ones in the recent horrific crashes that 
occurred in New Jersey and New York. They have our commitment 
that we will continue to work as hard as we can to improve 
motorcoach safety.
    NHTSA is responsible for conducting research on vehicle 
safety and developing and enforcing standards for all newly 
manufactured vehicles that use our roadways. In addition, we 
are responsible for ensuring that vehicles and vehicle 
equipment that have a safety defect are identified and 
recalled.
    The motorcoach safety work is a priority effort that 
Secretary LaHood and Administrator David Strickland have been 
driving at the Department. Under the leadership of the 
Secretary and the Administrator, we have been working 
aggressively to improve motorcoach safety. In 2009, at the 
direction of Secretary LaHood, NHTSA worked with the other 
modal administrations in the Department of Transportation to 
develop a comprehensive, systems-oriented safety strategy for 
enhancing motorcoach safety.
    The crash data indicated that the highest risk of 
fatalities resulted from vehicle rollover often resulting in 
occupant ejection. Seventy-five percent of all motorcoach 
fatalities from 1998 to 2008 were a result of rollover and 
ejections. NHTSA used this data to establish its highest 
priorities.
    The three high-priority actions identified in the plan are 
seat belts, electronic stability control, and roof strength. We 
have initiated a rulemaking to require seat belts in all 
seating positions on new motorcoaches and have completed 
research on rollover structural integrity and electronic 
stability control systems and plan to propose safety standards 
for these issues this year.
    NHTSA has also made significant progress in several other 
important areas related to motorcoach safety. We have also 
issued a proposal to upgrade the safety standard for commercial 
tires, including those used on motorcoaches. Research on 
motorcoach emergency exits, lighting and signage and egress 
rates is complete, and we are evaluating the results in order 
to make a decision on whether to initiate rulemaking on this 
issue later this year. Other safety areas covered by our 
research and rulemaking efforts include improving fire safety 
and enhancing data collection and analysis through the use of 
event data recorders.
    Mr. Chairman, NHTSA shares your desire to complete the 
actions that are identified in the DOT motorcoach plan. We are 
devoting a significant portion of the agency's research and 
rulemaking resources to this important safety issue. You have 
Secretary LaHood's and Administrator Strickland's commitment to 
completing the work on various motorcoach safety programs as 
quickly but as prudently as possible by ensuring that our work 
is grounded in sound engineering and science.
    The recent tragedies in New York and New Jersey that 
resulted in a large number of deaths and serious injuries 
highlight why we must act quickly on motorcoach safety. We 
recognize that these vehicles carry so many of our nation's 
citizens that have the potential in one single crash to injure 
and kill a large number of people. That is why we have placed 
such a high priority on improving the safety of these vehicles.
    Mr. Chairman, thank you for your consideration and the 
Subcommittee's ongoing efforts to improve highway safety. I 
would be glad to answer any questions that you might have.
    [The prepared statement of Mr. Medford follows:]

      Prepared Statement of Ronald Medford, Deputy Administrator, 
             National Highway Traffic Safety Administration
    Chairman Lautenberg, Ranking Member Thune, and members of the 
Subcommittee, thank you for the opportunity to update you on the 
activities of the National Highway Traffic Safety Administration 
(NHTSA) on the issue of motorcoach safety.
    I will outline the breadth of our ongoing work for you, and this 
will illustrate a significant body of research and regulatory activity 
that addresses the highest risks associated with motorcoach travel and 
how we have made significant progress toward mitigating these risks. We 
believe our work in these critical safety areas complement 
recommendations issued by the National Transportation Safety Board and 
draft legislation currently being considered by the Congress to improve 
motorcoach safety.
    NHTSA's vehicle safety program includes conducting research on and 
developing standards for a very wide range of vehicle safety issues, 
enforcing those standards, and conducting defect investigations. The 
motorcoach safety work is one of the important elements of the agency's 
extensive research and rulemaking agenda. Motorcoach safety is a 
priority for NHTSA, and we have been working very aggressively in this 
area. We know that although motorcoach crashes may be relatively rare, 
when they do happen, they can cause a significant number of fatalities 
and serious injuries in a single event. In 10 years, from 2000 to 2009, 
there were 338 motorcoaches involved in fatal crashes. In 48 of the 338 
motorcoaches involved in a fatal crash there was a fatality to one or 
more occupants (driver and/or passengers) of the motorcoach. The 
remaining fatalities were to occupants of other vehicles or 
nonmotorists involved in a crash with a motorcoach. The average for 
this period was 16 motorcoach occupant fatalities per year, but in 
2004, 2005, and 2008 a few events each resulted in a large number of 
fatalities. In 2011, the number of fatalities has already exceeded the 
annual average.
DOT Motorcoach Plan
    In 2009, NHTSA worked with other modal administrations in the 
Department of Transportation (DOT) to develop a comprehensive systems-
oriented safety strategy for enhancing motorcoach safety. The DOT 
Motorcoach Safety Action Plan is based on a two-pronged approach: 
First, it addresses possible driver related causes of motorcoach 
crashes, which are: driver fatigue, inattention, medical conditions, 
and the oversight of unsafe carriers. Second, it addresses the 
motorcoach related causes of fatalities and injuries, which are: 
vehicle rollover, occupant ejection, structural integrity, and fires.
    Based on this approach 3 high priority action items related to new 
vehicle designs were identified and have now been completed. They were:

  <bullet> Initiate rulemaking to require seat belts;

  <bullet> Evaluate and consider roof crush performance requirements; 
        and

  <bullet> Assess the benefits of electronic stability control systems;

    Other priority strategies included in the plan were:

  <bullet> Improving tire performance;

  <bullet> Improving evacuation and emergency egress;

  <bullet> Improving fire safety (fire detection, fire hardening 
        systems); and

  <bullet> Data collection and analysis through the use of event data 
        recorders.

    In these areas as well, NHTSA has made significant progress and I 
will briefly touch on all of the items related to new motorcoaches.
Electronic Stability Control
    Directional loss of control and rollover are causal factors in 
heavy vehicle crashes, including motorcoaches. By selectively applying 
the brakes on a vehicle, electronic stability control is a technology 
designed to reduce these types of crashes. NHTSA has been aggressively 
testing these systems and is currently working on a rulemaking 
proposal, which we expect to issue later this year.
Improving Tire Performance
    Tire performance plays a critical role in ensuring the safety of 
occupants in every kind of vehicle--and motorcoaches are no exception. 
We issued a proposal to improve tire performance on September 29, 
2010.\1\ That proposal included new tests aimed at improving the 
performance of new tires even when they are underinflated. We are now 
working to finalize the rule.
---------------------------------------------------------------------------
    \1\ 75 FR60036, Docket # NHTSA-2010-0132.
---------------------------------------------------------------------------
Seat Belts
    Between 1999 and 2008, there were 24 fatal motorcoach rollover 
events that resulted in 97 deaths. Seventy-six of those 97 were ejected 
from the motorcoach. We initiated a proposal to require seat belts in 
all seating positions in motorcoaches on August 18, 2010.\2\ This rule 
is intended to prevent ejections and keep passengers in their seats, 
thereby mitigating fatalities and injuries in crash and rollover 
events. The proposed rule provides a definition of a motorcoach and 
explores the issue of retrofitting seat belts on existing motorcoaches.
---------------------------------------------------------------------------
    \2\ 75 FR50958, Docket # NHTSA-2010-0112.
---------------------------------------------------------------------------
    Some manufacturers and operators have already started to equip 
their motorcoaches with seat belts. For example, Greyhound (First 
Group) is currently installing belts on new buses.
Improving Fire Safety
    There are more than 2,200 bus fires annually, which add up to a 
$24.2 million annual cost in direct property damage. NHTSA collaborated 
with the National Institute of Standards and Technology to conduct 
research on motorcoach flammability. This research program looked at 
developing more stringent flammability and fire detection requirements.
    The program also reviewed existing flammability standards and 
procedures, as well as various test procedures to assess the 
flammability of materials used in both the interior and the exterior of 
motorcoaches.
    We conducted wheel-well mockup studies to examine how fires 
propagate into motorcoach occupant compartments, countermeasures for 
fires such as fire hardening, fire detection, and fire suppression 
systems, and the tenability of the occupant compartment during a wheel-
well fire. In December 2010, we published a report on the results of 
the first year of this research.\3\ The final report on this research 
will be published this summer. We will assess the results of the 
research and make a decision whether to initiate rulemaking next year.
---------------------------------------------------------------------------
    \3\ Docket # NHTSA-2007-28793.
---------------------------------------------------------------------------
Improving Rollover Structural Integrity
    By improving the structural integrity of the vehicle, we can 
improve the chances of adequate survival space for occupants in the 
event of a rollover, and we can strengthen the bus structure 
surrounding the windows to improve their effectiveness in preventing 
ejections.
    NHTSA completed research on roof-crush test procedures and the 
agency is currently developing a rulemaking proposal, which we expect 
to issue late this year. This NPRM will consider NTSB's recommendation 
for performance standards for motorcoach roof strength, which is on its 
Most Wanted List.
    In addition to studying whether we can strengthen the bus structure 
surrounding the windows to improve their effectiveness in preventing 
ejections, we are looking into window glazing and window retention. 
Initial research and testing has been completed and we will make a 
decision whether to initiate rulemaking by the end of the year.
Improving Evacuation and Emergency Egress
    In the area of improved emergency evacuation, NHTSA and FMCSA 
completed research in 2010 \4\ at the Volpe research center on 
motorcoach emergency egress requirements and the need for enhancements 
to effectively facilitate passenger evacuation. We will make a decision 
whether to initiate rulemaking this summer.
---------------------------------------------------------------------------
    \4\ Docket # NHTSA-2007-28793-0024.
---------------------------------------------------------------------------
    The agency's work on improving evacuation and emergency egress 
considers NTSB's Most Wanted List recommendation to revise the standard 
to require floor level exits that can easily open and remain open 
during emergency egress.\5\ It also considers recommendations to revise 
standards to require emergency lighting and/or retroreflective material 
to identify exits, as well as a recommendation to conduct simulations 
to evaluate current emergency egress designs.\6\
---------------------------------------------------------------------------
    \5\ NTSB Recommendation H-99-09.
    \6\ NTSB Recommendations H-00-01, H-00-02, and H-07-08.
---------------------------------------------------------------------------
Data Collection and Analysis
    Finally, in the area of data collection and analysis and the use of 
Event Data Recorders (EDRs), NHTSA has monitored the Society of 
Automotive Engineers (SAE) Truck and Bus Event Data Recorder 
Subcommittee in the development of SAE Recommended Practice J2728, 
``Heavy Vehicle Event Data Recorders.'' These were developed to define 
specifications and requirements for heavy vehicle EDRs for the reliable 
and accurate recording of the crash parameters relevant to heavy 
vehicles. We will make a decision whether to initiate rulemaking on 
this issue this year.
Conclusion
    Mr. Chairman, NHTSA shares your desire to complete the actions that 
are identified in the DOT motorcoach plan. NHTSA is devoting a 
significant amount of its research and rulemaking resources toward 
improving the safety of motorcoaches and the recent crashes in New York 
and New Jersey highlight why we must continue to do so. We recognize 
that these vehicles carrying so many of our Nation's citizens have the 
potential in a single crash to injure and kill a large number of 
people. That is why we have placed such a high priority on improving 
the safety of these public transportation vehicles.
    Chairman Lautenberg, Ranking Member Thune, and members of the 
Subcommittee, thank you for your consideration and thank you for your 
ongoing efforts to improve highway and motorcoach safety. I would be 
pleased to answer any questions.

    Senator Lautenberg. Thank you, Mr. Medford.
    Ms. Hersman, Chairman of the National Transportation Safety 
Board, is going to update us on the agency's review of the 
recent bus accident in New York, as well as those in New Jersey 
and New Hampshire. We welcome you, Ms. Hersman, and invite you 
to give your testimony.

  STATEMENT OF HON. DEBORAH A.P. HERSMAN, CHAIRMAN, NATIONAL 
                  TRANSPORTATION SAFETY BOARD

    Ms. Hersman. Thank you very much, Chairman Lautenberg, 
Ranking Member Thune, Senator Udall, and members of the 
Committee. Thank you for the opportunity to address the 
important issue of motorcoach safety which has been placed in 
the spotlight recently because of tragic accidents in New York, 
New Jersey, and New Hampshire.
    We do have a presentation on the screen to my left.
    We immediately launched an investigation into the March 12 
fatal accident on I-95 in the Bronx, and while it is too soon 
to determine the cause of this accident, which killed 15 people 
and injured 18 more, here is what I can tell you.
    Around 5:30 a.m., a motorcoach was returning to New York 
from a Connecticut casino, traveling at up to 78 miles per 
hour, when it departed the travel lanes to the right, crossed 
over a paved shoulder, and struck a roadside barrier. The bus 
then traveled nearly 500 feet while rolling over and then 
collided with a 9-inch diameter highway signpost. The impact 
drove the post through the bus' windshield, severing the roof 
panel of the bus for nearly the length of the bus.
    We interviewed the bus driver who said that there were no 
mechanical difficulties identified but there was a truck 
involved. We also interviewed a truck driver who voluntarily 
turned himself in, and he said he witnessed the bus crash in 
front of him. An NTSB engineer examined the truck and found no 
evidence to indicate that it had come into contact with the 
bus.
    We also found a video camera mounted to the front of the 
bus, but it did not record the accident.
    With our limited resources in our Highway Office, we are 
very selective about which accidents we can launch a full team 
to in order to maximize our effectiveness. While we did launch 
a full investigation into the accident in the Bronx, for the 
New Jersey and New Hampshire accidents we are conducting 
focused investigations into the two companies' operations and 
safety performance.
    The New Jersey crash occurred on March 14 when a motorcoach 
on a scheduled run from New York City to Philadelphia departed 
the roadway and struck a concrete headwall of the New Jersey 
Turnpike. The bus re-entered, crossed the median, and came to 
rest after striking an embankment. The driver and one passenger 
were killed and 44 people were injured.
    On March 22 in Littleton, New Hampshire, the driver of a 
motorcoach traveling on I-93 from Quebec to Boston reportedly 
lost control and departed the roadway to the left. The bus went 
down an embankment and rolled onto its left side. All 25 
occupants were injured.
    The NTSB currently has about 100 open recommendations 
addressing motorcoach safety based on our accident 
investigations, and three of those issues are on our ``most 
wanted'' list of transportation improvements.
    First, stronger occupant protection, including: stronger 
roofs, window emergency exit redesign, and standards for 
passengers seating compartments.
    Second, better government oversight of operators to ensure 
that both the operational status of the vehicle is up to date 
and the drivers are safe.
    And finally, implementation of advanced vehicle 
technologies to prevent accidents from occurring in the first 
place, including lane departure warning systems, electronic 
stability control, and advanced collision warning systems.
    The DOT currently has rulemakings underway, and the 
proposed actions in those rulemakings, when completed, will 
improve safety. But after 10 years of recommending action on 
these issues and time on our ``most wanted'' list, these 
actions are still not final and many are not moving forward. We 
have seen no sense of urgency on many of our recommendations, 
and as the Betts family and Yen-Chi Le can tell you, the names 
and the locations of the accidents that we investigate may 
change, but the solutions that we identify are the same.
    We share your concern about the safety of motorcoaches and 
heavy vehicles operating on our nation's highways. That is why 
the NTSB will be conducting a forum on truck and bus safety on 
May 10 and 11.
    Mr. Chairman, this completes my statement, and I am ready 
to answer questions.
    [The prepared statement of Ms. Hersman follows:]

      Prepared Statement of Hon. Deborah A.P. Hersman, Chairman, 
                  National Transportation Safety Board
    Good morning, Chairman Lautenberg and members of the Subcommittee. 
Thank you for the opportunity to appear before you today on behalf of 
the National Transportation Safety Board (NTSB) regarding oversight of 
motorcoach safety. The NTSB is charged with investigating major 
transportation accidents, including highway accidents, determining 
their probable cause, and making recommendations to prevent similar 
accidents from happening again. Every day, there are thousands of 
accidents on our Nation's highways, resulting in tens of thousands of 
fatalities each year. Unfortunately, three very recent highway 
accidents have drawn our attention once again to the safety of 
motorcoaches.
Recent Accidents
    At about 5:37 a.m. on March 12, a motorcoach operated by World Wide 
Travel of Greater New York LTD was traveling south on 1-95 toward New 
York City from the Mohegan Sun Casinos in Uncasville, CT. There were 33 
passengers on board. The 40-year-old driver on that trip was one of the 
company's 40 full-time drivers, and he regularly drives this route. The 
company provides 14 daily roundtrips between the casino and New York.
    The driver failed to maintain his lane, drifted to the right and 
impacted the highway guardrail. The motorcoach then slid along the 
guardrail close to 500 feet before coming to rest. During the collision 
sequence, the motorcoach rolled clockwise along its longitudinal axis 
about 90 degrees on its right side before it impacted the support pole 
for an overhead sign located about six feet from the edge of the 
pavement. The pole penetrated the bus through its windshield and 
continued almost the entire length of the bus, killing 15 passengers.
    Then on March 14, at about 9 p.m., a motorcoach carrying 45 
passengers was traveling southbound on the New Jersey Turnpike near 
East Brunswick, NJ when it departed the left edge of the roadway and 
struck a concrete headwall of an exit ramp. After striking the 
headwall, the bus re-entered and crossed the roadway, and came to final 
rest upright after striking an embankment. The driver was reportedly 
ejected and killed in the accident sequence. One passenger was killed, 
and almost all the other passengers received injuries ranging from 
minor to serious. The bus was on a scheduled run from New York City to 
Philadelphia, operated by Super Luxury Tours, Inc., which has about 16 
motorcoaches and 16 drivers. The Federal Motor Carrier Safety 
Administration (FMCSA) is currently conducting a post-crash compliance 
review of this company.
    Finally, on March 21, at about 8:15 p.m., on southbound Interstate 
93 near Littleton, NH, a motorcoach departed the roadway, traveled down 
an embankment, and rolled onto its left side before coming to rest. 
This motorcoach was transporting approximately 25 Korean nationals from 
Quebec to Boston, MA. Weather reports included snow and intermittent 
fog in the area. There were no fatalities in the accident, but most of 
the occupants were injured to varying degrees.
    The NTSB launched a team of investigators to conduct a full 
investigation of the accident in New York to eventually make findings 
and determine probable cause. We are investigating the New Jersey and 
New Hampshire accidents in a limited capacity, looking for information 
from those accidents that may shed additional light on the bus 
companies' safety performance. All three investigations are in the 
early stages, and many details have not yet been determined. In the 
coming months, the NTSB will analyze the information from all three 
accidents to possibly issue recommendations aimed at improving 
motorcoach safety and preventing additional tragic accidents like 
these.
Safety Oversight
    Motorcoach operations transport 750 million passengers per year--
almost as many as the 800 million passengers in commercial aviation. 
They are one of the safest modes of transportation, averaging less than 
20 fatalities per year (vs. about 100 in aviation) or 0.006 percent of 
the total 34,000 annual fatalities on our Nation's highways.
    Unlike when travelers get in their own automobiles, passengers 
boarding a motorcoach place their lives in the hands of the motorcoach 
operator and its driver. They expect, and they deserve, the highest 
reasonable level of safety. For that reason, NTSB investigations focus 
on identifying the underlying causes of accidents and the safety 
improvements necessary to prevent their reoccurrence. Although the NTSB 
can investigate only a fraction of highway accidents, we have 
investigated a number of motorcoach accidents over the years and have 
made recommendations to improve the safety of motorcoach 
transportation. We currently have a total of 166 open safety 
recommendations issued to the U.S. Department of Transportation (DOT), 
National Highway Traffic Safety Administration (NHTSA), FMCSA, Federal 
Highway Administration (FHWA), and Pipeline and Hazardous Material 
Safety Administration (PHMSA) combined, 100 of which relate to 
motorcoach safety.
    The two most important factors related to safe motorcoach 
operations are the condition of the vehicles and the performance of the 
drivers. The NTSB believes that the FMCSA should emphasize both of 
these critical elements in its compliance reviews, and that an 
unsatisfactory rating in either vehicle or driver areas should 
disqualify the operator. Currently, operators must be found to be 
unsatisfactory in at least two of the six rating factors to be 
disqualified. In other words, they can be unsatisfactory in either the 
vehicle or driver areas and still be allowed to operate.
    The NTSB's original recommendation regarding this issue was made in 
1999 in response to a motorcoach rollover accident in Indianapolis, IN 
that killed two passengers and injured 13. The accident motorcoach had 
only 50-percent braking efficiency, and a postaccident compliance 
review of the operator by the FMCSA resulted in 10 out of 10 of the 
carrier's vehicles being placed out of service. The company had been 
inspected nine times between 1987 and 1995, so it should have been 
obvious that it had issues with its vehicle maintenance prior to the 
accident. In 1994, even though 63 percent of the vehicles met the out-
of-service criteria, the operator received a ``conditional'' rating for 
the vehicle factors and, because all the other factors were rated 
``satisfactory,'' it was given an overall rating of ``satisfactory.'' 
Thus, the operator was able to continue to operate with unsafe 
vehicles.
    The NTSB recommended that the FMCSA change the safety fitness 
rating methodology so that an adverse rating on either the vehicle or 
the driver alone would be sufficient to result in an overall 
``unsatisfactory'' rating for a carrier.\1\ Because of inaction on the 
part of the FMCSA, the NTSB added this recommendation to our Most 
Wanted List in 2000. We later investigated additional motorcoach 
accidents that involved this same issue, including a five-fatal 
motorcoach accident in Victor, NY in 2002; a 23-fatal motorcoach fire 
near Wilmer, TX in 2005; a 17-fatal motorcoach accident in Atlanta, GA 
in 2007; and a motorcoach rollover accident in Victoria, TX in 2008. To 
date, the FMCSA has not acted on this recommendation.
---------------------------------------------------------------------------
    \1\ H-99-6 To FMCSA: ``Change the safety fitness rating methodology 
so that adverse vehicle or driver performance-based data alone are 
sufficient to result in an overall unsatisfactory rating for a 
carrier.''
---------------------------------------------------------------------------
    The NTSB has also taken issue with the FMCSA's oversight of vehicle 
inspections, including inspections of commercial motorcoaches. 
Following the eight-fatal Tallulah, LA \2\ motorcoach accident and the 
17-fatal Sherman, TX \3\ motorcoach accident, we made recommendations 
that the FMCSA provide adequate oversight of private inspection 
garages.
---------------------------------------------------------------------------
    \2\ H-05-04 To FMCSA: Conduct a study on the safety effectiveness 
of the self- inspection and certification process used by motor 
carriers to comply with annual vehicle inspection requirements and take 
corrective action, as necessary.
    \3\ H-09-20 To FMCSA: Require those states that allow private 
garages to conduct Federal Motor Carrier Safety Administration 
inspections of commercial motor vehicles, to have a quality assurance 
and oversight program that evaluates the effectiveness and thoroughness 
of those inspections.
---------------------------------------------------------------------------
    In accidents involving a school bus in Moutainburg, AR and a dump 
truck in Glen Rock, PA, the NTSB found that the FMCSA lacked adequate 
oversight of pre-trip brake inspections, the qualifications of brake 
inspectors, training in brake maintenance, and training of drivers 
about the dangers of adjusting automatic slack adjusters. The same 
safety oversight issues that we have found in motor carrier and truck 
accidents also apply to motorcoaches.
    The NTSB has also found problems with commercial vehicle tires. For 
example, some tires have a speed restriction because they are not meant 
for highway speeds. If a speed-restricted tire is used in service at 
speeds above 55 mph for extended periods, a catastrophic failure can 
result. Although it did not cause the motorcoach accident in Tallulah, 
LA, the inspection process never identified the speed-restricted tires 
on this vehicle, even though it was being operated on major highways. 
The NTSB made recommendations to correct this deficiency.\4\
---------------------------------------------------------------------------
    \4\ H-05-03 To FMCSA: Revise the Federal Motor Carrier Safety 
Regulations Appendix G to Subchapter B, Minimum Periodic Inspection 
Standards, Part 10: Tires, Sections A(5) and B(7), to include 
inspection criteria and specific language to address a tire's speed 
rating to ensure that it is appropriate for a vehicles intended use.
---------------------------------------------------------------------------
    The science of passenger vehicle dynamics has evolved to where we 
now recognize that the better tires should go on the rear axle where 
they provide better stability if the vehicle loses traction with the 
roadway. However, for motorcoaches, current regulations call for deeper 
tread depths on the front axle tires than on the rear. Therefore, in 
2005, following a five-fatal accident in Hewitt, TX where the 
motorcoach lost control on a rain-soaked highway, the NTSB asked NHTSA 
to study this issue and the FMCSA to implement the results.\5\ These 
recommendations have not been implemented by either agency.
---------------------------------------------------------------------------
    \5\ H-05-18 To NHTSA: Conduct testing on the effects of differing 
tread depths for the steer and drive axle tires.
    H-05-17 To FMCSA: Once the testing in Safety Recommendation H-05-17 
is complete, modify the tread depth requirements for each axle to 
reflect the results of the research.
---------------------------------------------------------------------------
    Following the motorcoach accident in Sherman, TX that was caused by 
low air pressure on one of the front tires, the NTSB found that even 
small reductions in air pressure can cause commercial tires to be 
overloaded, overheat, and fail. This potential overloading problem is 
especially true for the front tires of motorcoaches where, even with 
proper air pressure, the tires are close to their maximum load rating. 
Therefore, the NTSB made recommendations to NHTSA and the FMCSA to 
require tire pressure monitoring systems \6\ and to require commercial 
drivers to check their tire pressure with a gauge.\7\
---------------------------------------------------------------------------
    \6\ H-09-22 To NHTSA: Require all new motor vehicles weighing over 
10,000 pounds to be equipped with direct tire pressure monitoring 
systems to inform drivers of the actual tire pressures on their 
vehicles.
    \7\ H-09-19 To FMCSA: Require that tire pressure be checked with a 
tire pressure gauge during pretrip inspections, vehicle inspections, 
and roadside inspections of motor vehicles.
---------------------------------------------------------------------------
    Finally, the NTSB discovered another oversight issue as a result of 
the motorcoach accident in Victoria, TX. This motorcoach was imported 
from Mexico and repeatedly crossed the border into Texas, although it 
should never have been allowed in the United States. It was not built 
to meet NHTSA's Federal Motor Vehicle Safety Standards (FMVSS) that are 
required of all vehicles. Therefore, the NTSB made several 
recommendations to the FMCSA and NHTSA to develop a database of FMVSS-
compliant buses \8\ and verify that operators are using FMVSScompliant 
vehicles \9\. The NTSB also recommended that the FMCSA train law 
enforcement to detect non-FMVSS-compliant vehicles \10\, and to obtain 
the authority to put operators out of service if they use such illegal 
vehicles.\11\
---------------------------------------------------------------------------
    \8\ H-09-37 & H-09-30 To FMCSA and NHTSA: Assist the National 
Highway Traffic Safety Administration in developing a Web-based 
database of FMVSS-compliant passenger-carrying commercial motor 
vehicles that can be utilized by Federal, state, and local enforcement 
inspection personnel to identify non-FMVSScompliant passenger-carrying 
commercial motor vehicles so that these vehicles (other than exempted 
vehicles) are placed out of service and cease operating in the United 
States. Implement a process to periodically update this database.
    H-09-38 To FMCSA: Require that federal and state inspectors utilize 
the database requested in Safety Recommendation H-09-37 during both 
roadside and compliance review inspections of passenger-carrying 
commercial motor vehicles to identify and place out of service non-
FMVSS-compliant vehicles.
    H-09-31 To NHTSA: When the database requested in Safety 
Recommendation H-09-30 is completed, make the database known and 
accessible to state vehicle registration agencies and to Federal, 
state, and local enforcement inspection personnel for their use during 
roadside inspections and compliance reviews to identify non-FMVSS-
compliant passenger-carrying commercial motor vehicles. (H-09-31)
    \9\ H-09-40 To FMCSA: Require that passenger motor carriers certify 
on their OP-1(P) forms--(Application for Motor Passenger Carrier 
Authority) and initial MCS-150 form (Motor Carrier Identification 
Report [Application for USDOT Number]) and subsequent required biennial 
submissions that all vehicles operated, owned, or leased per trip or 
per term met the FMVSSs in effect at the time of manufacture.
    \10\ H-09-039 To FMCSA: Institute a requirement for Federal and 
state enforcement officials to obtain training on a procedure to 
physically inspect passenger-carrying commercial motor vehicles for an 
FMVSS compliance label, and work with the Commercial Vehicle Safety 
Alliance to develop and provide this training.
    \11\ H-09-41 To FMCSA: Seek statutory authority to suspend, revoke, 
or withdraw a motor carrier's operating authority upon discovering the 
carrier is operating any non-FMVSS-compliant-passenger-carrying 
commercial motor vehicles, a violation of the FMVSS-compliant 
certification requested in Safety Recommendation H-09-40.
---------------------------------------------------------------------------
    The NTSB has made recommendations to improve the FMCSA' s new 
entrant program to prevent reincarnated motor carrier motorcoach 
operators from entering the industry. In 2002, the NTSB investigated an 
accident involving a tractor-semitrailer collision with a Greyhound bus 
in Loraine, TX which resulted in three deaths. At the time, the FMCSA 
had essentially no review or follow-up of new entrant motor carriers. 
To become a motor carrier, the owner of a truck or bus company merely 
had to fill out an online form and pay a small fee to receive operating 
authority from the FMCSA. In this case, our investigation revealed that 
when the trucking company owner submitted his application, he lied 
about his knowledge of the regulations, about having systems in place 
to comply with the regulations, and about a drug conviction for 
possession of large amounts of marijuana the year prior to his 
application. He also failed to maintain any records on his drivers or 
vehicles, he did not have a drug and alcohol program, and he did not 
conduct background checks of his drivers. Further, he knowingly 
dispatched the accident driver, who did not have a commercial driver's 
license or medical certificate.
    As a result, the NTSB recommended that the FMCSA require new motor 
carriers to demonstrate their safety fitness prior to obtaining new 
entrant operating authority.\12\ In response to this recommendation, 
the FMCSA developed the New Applicant Screening Program under which a 
new motor carrier operating in interstate commerce is subject to an 18-
month safety monitoring period and receives a safety audit sometime 
after its first 3 months of operation but before it completes 18 months 
of operation.
---------------------------------------------------------------------------
    \12\ H-03-2 To FMCSA: Require all new motor carriers seeking 
operating authority to demonstrate their safety fitness prior to 
obtaining new entrant operating authority by, at a minimum: (1) passing 
an examination demonstrating their knowledge of the Federal Motor 
Carrier Safety Regulations; (2) submitting a comprehensive plan 
documenting that the motor carrier has management systems in place to 
ensure compliance with the Federal Motor Carrier Safety Regulations; 
and (3) passing a Federal Motor Carrier Safety Administration safety 
audit, including vehicle inspections.
---------------------------------------------------------------------------
    In 2008, the FMCSA began its New Entrant Safety Assurance Program, 
under which the agency identified 16 regulations that are essential 
elements of basic safety management controls necessary to operate in 
interstate commerce and made a carrier's failure to comply with any of 
the 16 regulations an automatic failure of the safety audit. 
Additionally, if certain violations are discovered during a roadside 
inspection, the new entrant is subject to expedited actions to correct 
these deficiencies.
    Unfortunately, unscrupulous motor carriers still use the new 
entrant program to evade an enforcement action or an out-of-service 
order by going out of business and then reincarnating themselves, as if 
they are a brand new motor carrier. The NTSB found that this had 
occurred with the motorcoach operator involved in the Sherman, TX 
accident. After losing its authority to operate because of an 
unsatisfactory compliance review rating, the operator successfully 
applied for operating authority under a new name as a new entrant. The 
NTSB concluded that the FMCSA processes were inadequate to identify the 
operator as a company that was simply evading enforcement action. The 
NTSB issued a recommendation to the FMCSA to evaluate the effectiveness 
of its New Applicant Screening Program.\13\
---------------------------------------------------------------------------
    \13\ H-09-21 To FMCSA: To Develop an evaluation component to 
determine the effectiveness of its New Applicant Screening Program.
---------------------------------------------------------------------------
    The NTSB found additional deficiencies with the FMCSA's new entrant 
program during its investigation of a 2008 accident in which the driver 
fell asleep and the motorcoach overturned in Victoria, Texas, killing 
one person. The FMCSA failed to notice that the operator reincarnated 
into a new operator shortly after the accident. As a result, the NTSB 
issued recommendations to the FMCSA that ask the agency to develop 
methods to identify reincarnated carriers and seek authority to deny or 
revoke their operating authority.\14\ In September, 2009, the FMCSA's 
Motor Carrier Safety Advisory Committee echoed the NTSB's position that 
new entrants should be evaluated before being allowed to operate.
---------------------------------------------------------------------------
    \14\ H-09-34 To FMCSA: Seek statutory authority to deny or revoke 
operating authority for commercial interstate motor carriers found to 
have applications for operating authority in which the applicant failed 
to disclose any prior operating relationship with another motor 
carrier, operating as another motor carrier, or being previously 
assigned a U.S. Department of Transportation number.
    H-09-35 To FMCSA: Apply the evasion detection algorithm process 
against all interstate passenger carriers that obtained Federal Motor 
Carrier Safety Administration operating authority, after the New 
Entrant Safety Assurance Program began in 2003 but before the program 
began vetting those carriers, to verify that those new entrant carriers 
do not have a concealed history of poor safety management controls 
because they were able to reenter interstate commerce undetected as 
reincarnated carriers.
    H-09-36 To FMCSA: Establish a requirement to review all passenger 
carrier lease agreements during new entrant safety audits and 
compliance reviews to identify and take action against carriers that 
have lease agreements that result in a loss of operational control by 
the certificate holder.
---------------------------------------------------------------------------
Motorcoach Passenger Protection
    In the 12 years since the NTSB issued the recommendations 
addressing occupant protection for motorcoach passengers, we have 
investigated more than 30 motorcoach accidents that have caused 140 
fatalities, 1,070 injuries, and 259 ejections. The structural integrity 
of a motorcoach is critical to maintaining a survivable occupant space 
for passengers, because intrusion into the occupant area and inadequate 
window glazing can have dire consequences. Following our 1999 study of 
motorcoach passenger protection, we issued recommendations to NHTSA 
regarding roof strength and window glazing standards.\15\ \16\ We 
reiterated these recommendations following the investigation of the 
motorcoach accident in New Orleans, LA, and after the nine-fatal 2008 
motorcoach accident in Mexican Hat, UT. In the 2010 Dolan Springs, AZ 
mid-size bus rollover accident, the NTSB expanded its recommendations 
about roof crush, occupant protection, and window glazing to apply to 
all buses greater than 10,000 pounds.\17\ We also made a recommendation 
to NHTSA to ensure that overhead luggage racks on all buses remain 
anchored during an accident sequence.\18\
---------------------------------------------------------------------------
    \15\ H-99-50 To NHTSA: Develop performance standards for motorcoach 
roof strength that provide maximum survival space for all seating 
positions and that take into account current typical motorcoach window 
dimensions.
    H-99-51 To NHTSA: Once performance standards have been developed 
for motorcoach roof strength, require newly manufactured motorcoaches 
to meet those standards.
    \16\ H-99-49 To NHTSA: Expand your research on current advanced 
glazing to include its applicability to motorcoach occupant ejection 
prevention, and revise window glazing requirements for newly 
manufactured motorcoaches based on the results of this research.
    \17\ H-10-3 To NHTSA: In your rulemaking to improve motorcoach roof 
strength, occupant protection, and window glazing standards, include 
all buses with a gross vehicle weight rating above 10,000 pounds, other 
than school buses.
    \18\ H-10-4 To NHTSA: Develop performance standards for all newly 
manufactured buses with a gross vehicle weight rating above 10,000 
pounds to require that overhead luggage racks are constructed and 
installed to prevent head and neck injuries and remain anchored during 
an accident sequence.
---------------------------------------------------------------------------
    Since 1999, the NTSB also has made recommendations to improve 
passenger egress in the event of a crash or other emergency. One 
recommendation asks NHTSA to require that window exits and other 
emergency exits be designed so that they are easy to open and stay open 
during an emergency evacuation, whether the motorcoach is upright or at 
an unusual attitude.\19\ We also asked NHTSA to require that 
motorcoaches be equipped with an independent power source for emergency 
lighting, as well as interior luminescent or exterior retroreflective 
material or both to mark all emergency exits.\20\ Finally, we asked 
NHTSA to require motorcoach operators to provide passengers with pre-
trip safety information.\21\ The FMCSA has developed safety materials 
for the motorcoach operators to use, but is allowing each motorcoach 
company to develop an appropriate passenger safety awareness program 
for their own operations, rather than developing a Federal requirement.
---------------------------------------------------------------------------
    \19\H-99-9 To NHTSA: Require that other than floor-level emergency 
exits (i.e., windows) can be easily opened and remain open during an 
emergency evacuation when a motorcoach is upright or at unusual 
attitudes.
    \20\ H-00-01 To NHTSA: revise the Federal motor vehicle safety 
standards to require that all motorcoaches be equipped with emergency 
lighting fixtures that are outfitted with a self-contained independent 
power source.
    \21\ H-99-8 To U.S. DOT: require motorcoach operators to provide 
passengers with pre-trip safety information.
---------------------------------------------------------------------------
    Following the 2005 motorcoach fire near Wilmer, TX, the NTSB asked 
NHTSA to evaluate current emergency evacuation designs of motorcoaches 
and buses,\22\ to develop early warning detection systems to monitor 
the temperature of wheel well compartments in motorcoaches and 
buses,\23\ and to evaluate the need for a Federal vehicle standard to 
require fire detection and suppression systems on motorcoaches.\24\ 
NHTSA has been conducting research and testing to address these issues, 
but no formal rulemaking has yet been published.
---------------------------------------------------------------------------
    \22\ H-07-8 To NHTSA: Evaluate current emergency evacuation designs 
of motorcoaches and buses by conducting simulation studies and 
evacuation drills that take into account, at a minimum, acceptable 
egress times for various postaccident environments, including fire and 
smoke; unavailable exit situations; and the current above-ground height 
and design of window exits to be used in emergencies by all potential 
vehicle occupants.
    \23\ H-07-6 To NHTSA: Develop detection systems to monitor the 
temperature of wheel well compartments in motorcoaches and buses to 
provide early warning of malfunctions that could lead to fires.
    \24\ H-07-07 To NHTSA: Evaluate the need for a Federal Motor 
Vehicle Safety Standard that would require installation of fire 
detection and suppression systems on motorcoaches.
---------------------------------------------------------------------------
    On April 30, 2009, following the NTSB board meeting on the Mexican 
Hat, UT motorcoach rollover accident, Secretary LaHood ordered a full 
departmental review of motorcoach safety by NHTSA, the FMCSA, the FHWA, 
and PHMSA. The review's findings and consideration of outstanding NTSB 
recommendations to the DOT agencies became the basis for the DOT 
Motorcoach Safety Action Plan, publicly released on November 16, 2009. 
The action plan outlines the additional steps needed to improve 
motorcoach safety for the millions of Americans who rely on these 
vehicles for safe transportation. The plan provides timelines for 
rulemaking activities addressing the installation of seat belts on 
motorcoaches and enhanced emergency egress requirements focused on 
children, aging persons, and people with disabilities. NHTSA had 
planned to make a decision on regulatory action regarding roof strength 
requirements late in 2009, however, no updates have yet been released.
    In 2010, NHTSA issued an NPRM proposing that lap/shoulder belts be 
required for each passenger seating position in new motorcoaches, which 
would partially meet the NTSB's recommendations on occupant protection. 
Unfortunately, this proposed rule would not apply to smaller or medium-
size specialty buses such as the 29-passenger vehicle involved in the 
accident at Dolan Springs, AZ, or the 32-passenger vehicle involved in 
the accident in Lake Placid, FL. The proposed rule would not apply to 
either of these vehicles because they are below the 26,000-pound 
definition upon which this NPRM is focused. However, the rule would 
apply to the very similar 29-passenger medium-size bus involved in the 
Bethesda, MD accident last September because it meets the 26,000-pound 
definition. It is not reasonable to expect that the average motorcoach 
passenger understands the difference between a 29-passenger bus that 
weighs 26,000 pounds and a 29-passenger bus that is lighter. The 
average passenger expects the same level of safety no matter the size 
or the weight of the bus. That is why we have urged NHTSA to expand the 
rule to all buses and thereby lead to meaningful improvements in the 
safety of all motorcoach passengers.
Crash Avoidance Technologies
    Since 1995, the NTSB has advocated collision warning systems and 
adaptive cruise control to prevent bus and truck accidents. In 2001, as 
part of a study on Technology for the Prevention of Rear-End 
Collisions, the NTSB investigated nine commercial vehicle rear-end 
collisions in which 20 people died and 181 were injured. Common to all 
nine accidents was the degraded perception of traffic conditions ahead 
by the driver. The NTSB recommended that NHTSA issue performance 
standards for adaptive cruise control and collision warning systems for 
new commercial vehicles.\25\
---------------------------------------------------------------------------
    \25\ H-01-6 To DOT: Complete rulemaking on adaptive cruise control 
and collision warning system performance standards for new commercial 
vehicles. at a minimum, these standards should address obstacle 
detection distance, timing of alerts, and human factors guidelines, 
such as the mode and type of warning.
    H-01-7 To DOT: After promulgating performance standards for 
collision warning systems for commercial vehicles, require that all new 
commercial vehicles be equipped with a collision warning system.
---------------------------------------------------------------------------
    In 2003, the NTSB investigated a multivehicle accident near 
Hampshire, IL, in which a tractor-trailer failed to slow for the 
stopped or slow-moving traffic on the approach to the Interstate 90 
toll plaza. The tractor-trailer driver failed to detect the slowing 
traffic ahead of his vehicle and the tractor-trailer struck the rear of 
a specialty bus, killing eight passengers and injuring 12. As a result, 
the NTSB reiterated the above recommendations. In 2007, these important 
safety recommendations were added to our Most Wanted List. They were 
reiterated in 2008, in the NTSB's report on a five-fatality motorcoach 
and tractor-trailer accident in Osseo, WI, and a 15-fatality motorcoach 
rollover accident in Turrell, AR. We also reiterated these 
recommendations following the 10-fatality Miami, OK accident where a 
tractor-trailer ran into the rear of six passenger vehicles that were 
slowing or stopped on the highway. All of these accidents demonstrate 
how crash avoidance technologies such as collision warning systems and 
adaptive cruise control can help prevent rear end collisions.
    Finally, electronic stability control is standard equipment on many 
automobiles today and lane departure warning systems are becoming 
increasingly common. Both systems help drivers, who may be distracted 
or encounter challenging driving conditions, to maintain control of 
their vehicles and remain on the roadway. Therefore, in 2008, as a 
result of the Osseo, WI accident investigation, the NTSB recommended 
that NHTSA determine whether equipping commercial vehicles with 
electronic stability control systems would reduce commercial vehicle 
accidents, and if so, require their use on commercial vehicles.\26\ 
Just last year, following our investigation into the Dolan Springs, AZ 
bus rollover accident, the NTSB issued two new recommendations for 
stability control systems on all newly manufactured buses greater than 
10,000 pounds.\27\ This report also included a recommendation for lane 
departure warning systems on new commercial vehicles greater than 
10,000 pounds.\28\ These technologies help counteract basic human 
frailties of inattention and distraction that are major undocumented 
causes of highway accidents.
---------------------------------------------------------------------------
    \26\ H-08-15 To NHTSA: Determine whether equipping commercial 
vehicles with collision warning systems with active braking and 
electronic stability control systems will reduce commercial vehicle 
accidents. If these technologies are determined to be effective in 
reducing accidents, require their use on commercial vehicles.
    \27\ H-10-5 To NHTSA: Develop stability control system performance 
standards applicable to newly manufactured buses with a gross vehicle 
weight rating above 10,000 pounds.
    H-10-6 To NHTSA: Once the performance standards from Safety 
Recommendation H-10-5 have been developed, require the installation of 
stability control systems in all newly manufactured buses in which this 
technology could have a safety benefit.
    \28\ H-10-1 To NHTSA: Require new commercial motor vehicles with a 
gross vehicle weight rating above 10,000 pounds to be equipped with 
lane departure warning systems.
---------------------------------------------------------------------------
Other Safety Issues
Fatigue
    In the 1990s, the NTSB conducted two safety studies of commercial 
accidents \29\ and found that fatigue was the most frequently cited 
probable cause or factor in the fatal-to-the-driver crashes that were 
investigated. Based on these studies, the NTSB recommended that the 
FMCSA use science-based principles to revise the hours-of-service 
regulations for commercial drivers, ensure that the rule would enable 
drivers to obtain at least 8 hours of continuous sleep, and eliminate 
sleeper berth provisions that allow for the splitting of sleep periods.
---------------------------------------------------------------------------
    \29\ (a) Fatigue, Alcohol, Drugs, and Medical Factors in Fatal-to-
the-Driver Heavy Truck Crashes, Safety Study NTSB/SS-90101 (Washington, 
D.C.: NTSB, 1990); (b) Factors that Affect Fatigue in Heavy Truck 
Accidents, Safety Study NTSB/SS-95-01 (Washington, D.C.: NTSB, 1995).
---------------------------------------------------------------------------
    In December, 2010, the FMCSA issued an NPRM proposing to change the 
hours-ofservice rule. The NTSB supports those provisions that are 
scientifically based and would reduce continuous duty or driving time, 
encourage break-taking, promote nighttime sleep, and foster scheduling 
patterns that are predictable and consistent with the normal human 
diurnal circadian rhythm. However, we strongly oppose providing 
exemptions for buses and motorcoaches, and other groups because of the 
potential increased risk to the passengers and the driving public.
    Of course, no hours-of-service rule is adequate unless it is 
enforceable. Since 1977, the NTSB has advocated the use of tamperproof 
electronic on-board recorders (EOBRs) to allow better monitoring of 
hours of service and driver fatigue. The NTSB believed that the FMCSA's 
April 2010 final rule on EOBRs did not adequately address this safety 
issue, so we are encouraged that the FMCSA's new NPRM issued in January 
2011 corrects many of the inadequacies and expands the scope of the new 
rule to cover most carriers, as originally recommended by the NTSB.
    Hours-of-service regulations are important, and EOBRs will help 
enforce those rules, but fatigue management is the third leg of this 
critical safety stool. In 2008, following three fatigue-related bus 
accidents that occurred in Osseo, WI, Lake Butler, FL, and Turrell, AR, 
the NTSB asked the FMCSA to develop a plan to deploy technologies in 
commercial vehicles to reduce fatigue-related accidents,\30\ and to 
develop a methodology to assess the effectiveness of the fatigue 
management plans implemented by operators. Then last year, a 10-fatal 
accident in Miami, OK involving a fatigued truck driver prompted the 
NTSB to reiterate these recommendations and make an additional 
recommendation to require all motor carriers, including motorcoach 
operators, to adopt a fatigue management program.\31\
---------------------------------------------------------------------------
    \30\ H-08-13 To FMCSA: to develop and implement a plan to deploy 
technologies in commercial vehicles to reduce the occurrence of 
fatigue-related accidents.
    \31\ H-10-9 To FMCSA: Require all motor carriers to adopt a fatigue 
management program based on the North American Fatigue Management 
Program guidelines for the management of fatigue in a motor carrier 
operating environment.
---------------------------------------------------------------------------
    Citing many of the accidents the NTSB has investigated on the 
highway and in other modes of transportation, in which drivers, 
mariners, and train engineers had undiagnosed obstructive sleep apnea, 
the NTSB issued recommendations to the FMCSA in October 2009 addressing 
this safety problem. In particular, the NTSB recommended that the 
FMCSA: (1) require drivers with a high risk for obstructive sleep apnea 
to obtain medical certification that they have been appropriately 
evaluated and, if necessary, effectively treated for that disorder,\32\ 
and (2) provide guidance for commercial drivers, employers, and 
physicians about identifying and treating individuals at high risk of 
obstructive sleep apnea.\33\
---------------------------------------------------------------------------
    \32\ H-09-15 To FMCSA: Implement a program to identify commercial 
drivers at high risk for obstructive sleep apnea and require that those 
drivers provide evidence through the medical certification process of 
having been appropriately evaluated and, if treatment is needed, 
effectively treated for that disorder before being granted unrestricted 
medical certification
    \33\ H-09-16 To FMCSA: Develop and disseminate guidance for 
commercial drivers, employers, and physicians regarding the 
identification and treatment of individuals at high risk of obstructive 
sleep apnea (OSA), emphasizing that drivers who have OSA that is 
effectively treated are routinely approved for continued medical 
certification.
---------------------------------------------------------------------------
Medically Unqualified Commercial Drivers
    The NTSB has investigated many accidents involving commercial 
drivers with serious preexisting medical conditions that had not been 
detected or adequately evaluated. The most tragic example of this issue 
was the 1999 Mother's Day motorcoach accident in New Orleans, LA, in 
which a motorcoach driver lost consciousness while driving on an 
interstate highway and crashed into an embankment, killing 22 
passengers and injuring 21. The driver had multiple previously known 
serious medical conditions, including kidney failure and congestive 
heart failure, and was receiving intravenous therapy for three to 4 
hours a day, 6 days a week. The issue of medically unqualified 
commercial drivers has been on the NTSB's Most Wanted List since 2003.
    Although the FMCSA continues to work to address medical issues, the 
actions are piecemeal, including a final rule on merging the commercial 
driver's license with the medical certificate and an NPRM on a national 
registry of certified medical examiners. Yet, much remains to be done. 
For example, the FMCSA needs to ensure that medical certification 
regulations are updated periodically \34\ and that examiners are 
qualified and know what to look for.\35\ In addition, the national 
registry of certified medical examiners should include a tracking 
mechanism for driver medical examinations.\36\ This step would reduce 
the current practice of drivers ``doctor shopping'' to find one who 
will sign their medical forms. Likewise, a second level of review is 
necessary to identify and correct the inappropriate issuance of medical 
certification.\37\ The FMCSA should establish a system for reporting 
medical conditions that develop between examinations.\38\ Finally, the 
FMCSA needs to develop a system that records all positive drug and 
alcohol test results and refusal determinations, and require 
prospective employers and certifying authorities to query the system 
before making hiring decisions.\39\
---------------------------------------------------------------------------
    \34\ H-01-19 To FMCSA: Ensure that medical certification 
regulations are updated periodically to permit trained examiners to 
clearly determine whether drivers with common medical conditions should 
be issued a medical certificate.
    \35\ H-01-17 To FMCSA: Ensure that individuals performing medical 
examinations for drivers are qualified to do so and are educated about 
occupational issues for drivers.
    H-01-20 To FMCSA: Ensure that individuals performing examinations 
have specific guidance and a readily identifiable source of information 
for questions on such examinations.
    \36\ H-01-18 To FMCSA: Develop a tracking mechanism be established 
that ensures that every prior application by an individual for medical 
certification is recorded and reviewed.
    \37\ H-01-21 To FMCSA: Develop a review process prevents, or 
identifies and corrects, the inappropriate issuance of medical 
certification.
    \38\ H-01-24 To FMCSA: Develop mechanisms for reporting medical 
conditions to the medical certification and reviewing authority and for 
evaluating these conditions between medical certification exams; 
individuals, health care providers, and employers are aware of these 
mechanisms.
    \39\ H-01-26 To FMCSA: Develop a system that records all positive 
drug and alcohol test results and refusal determinations that are 
conducted under the U.S. Department of Transportation testing 
requirements, require prospective employers to query the system before 
making a hiring decision, and require certifying authorities to query 
the system before making a certification decision.
---------------------------------------------------------------------------
Cell Phone Use
    Driver distraction is a much-discussed issue these days, but the 
NTSB issued its first recommendation about cell phones in 2004 
following an accident in Alexandria, Virginia, in which an experienced 
motorcoach driver, who was having a heated conversation on his hands-
free cell phone, failed to move to the center lane and struck the 
underside of an arched stone bridge on the George Washington Parkway. 
Our investigation found that the driver had numerous cues to change 
lanes at the appropriate time to have enough clearance for the height 
of the bus. In fact, not only was the driver familiar with the road, he 
also was following another bus that had appropriately moved to the 
center lane. Yet, this driver did not notice the well-marked signage or 
any of the other cues as he approached the arched stone bridge. The 
accident was clearly caused by this driver's cognitive distraction, due 
to the conversation on his hands-free cell phone. The NTSB recommended 
that the FMCSA \40\ and the 50 states \41\ enact laws to prohibit cell 
phone use by commercial drivers while driving passenger-carrying 
commercial vehicles or school buses. We also recommended that 
motorcoach associations, school bus organizations, and unions develop 
formal policies to prohibit cell phone use by commercial drivers, 
except in emergencies.\42\ A current FMCSA NPRM, issued in December 
2010, proposes to limit cell phone restrictions to just hand-held 
devices, but the NTSB recommendation also includes hands-free devices.
---------------------------------------------------------------------------
    \40\ H-06-27 To FMCSA: Publish regulations prohibiting cellular 
telephone use by commercial driver's license holders with a passenger-
carrying or school bus endorsement, while driving under the authority 
of that endorsement, except in emergencies.
    \41\ H-06-28 The National Transportation Safety Board makes the 
following recommendation to the 50 States and the District of Columbia: 
Enact legislation to prohibit cellular telephone use by commercial 
driver's license holders with a passenger-carrying or school bus 
endorsement, while driving under the authority of that endorsement, 
except in emergencies.
    \42\ H-06-29. The National Transportation Safety Board makes the 
following recommendation to motorcoach industry, public bus, and school 
bus associations and unions: Develop formal policies prohibiting 
cellular telephone use by commercial driver's license holders with a 
passenger-carrying or school bus endorsement, while driving under the 
authority of that endorsement, except in emergencies.
---------------------------------------------------------------------------
Event Data Recorders
    Event data recorders are a proven technology that the NTSB has 
recommended since 1999.\43\ We reiterated these recommendations in 
2008, following the motorcoach accident involving Bluffton University 
students in Atlanta, Georgia and reiterated them again in our Pedal 
Misapplication Special Investigation Report in 2009.\44\ In 2009, 
following the Dolan Springs, AZ investigation, we closed these 
recommendations ``Unacceptable'' and replaced them with a similar 
recommendation that applied to all buses above 10,000 pounds.\45\
---------------------------------------------------------------------------
    \43\ Safety Recommendations H-99-53 and -54 to NHTSA Closed 
Unacceptable Action.
    \44\ http://www3.ntsb.gov/publictn/2009/SIR0902.pdf.
    \45\ H-10-07 To NHTSA: Require that all buses above 10,000 pounds 
gross vehicle weight rating be equipped with on-board recording systems 
that: (1) record vehicle parameters, including, at minimum, lateral 
acceleration, longitudinal acceleration, vertical acceleration, 
heading, vehicle speed, engine speed, driver's seat belt status, 
braking input, steering input, gear selection, turn signal status 
(left/right), brake light status (on/off), head/tail light status (on/
off), passenger door status (open/closed), emergency door status (open/
closed), hazard light status (on/off), brake system status (normal/
warning), and flashing red light status (on/off; school buses only); 
(2) record status of additional seat belts, airbag deployment criteria, 
airbag deployment time, and airbag deployment energy; (3) record data 
at a sampling rate sufficient to define vehicle dynamics and be capable 
of preserving data in the event of a vehicle crash or an electrical 
power loss; and (4) are mounted to the bus body, not the chassis, to 
ensure recording of the necessary data to define bus body motion. (H-
10-07) (This recommendation supersedes Safety Recommendation.)
---------------------------------------------------------------------------
Closing
    Many of the issues discussed today have been known for a number of 
years, yet they continue to cause or contribute to accidents involving 
motorcoaches, The NTSB remains hopeful that these issues will be 
addressed to bring about the necessary changes that will keep 
motorcoach operations one of the safest modes of transportation for the 
American people.
    Mr. Chairman, this completes my statement, and I will be happy to 
respond to any questions you may have.

    Senator Lautenberg. Thank you, Ms. Hersman.
    I want all of you to know that your full statement, though 
consolidated for presentation here, will be included in the 
record as it is written.
    Mr. Pantuso, President and CEO of the American Bus 
Association. It is my understanding you are going to share the 
industry's plans for improving our federal motorcoach safety 
programs, and we look forward to hearing from you, please.

STATEMENT OF PETER J. PANTUSO, PRESIDENT AND CEO, AMERICAN BUS 
                          ASSOCIATION

    Mr. Pantuso. Thank you, Mr. Chairman.
    ABA is the trade association for the private, over-the-road 
bus industry and for the tour and travel industry, all of whom 
have a deep concern about safety. Our motorcoach members 
operate nearly 60 percent of all coaches on the road and 
provide a variety of services to more than 760 million 
passengers annually.
    ABA shares this committee's concerns and frustrations over 
unsafe motorcoach operators and drivers. Recent accidents in 
New York and in New Jersey are unacceptable and we believe they 
could have been prevented with better information and clearer 
information for operators, for the public, and certainly 
stronger enforcement.
    Making bus travel safer has always been at the top of our 
agenda, and we have testified on this before Congress many 
times. The bus industry continues to be one of the safest modes 
of transportation, but we know that even one fatality is too 
many. We have numerous suggestions to enhance safety, but given 
the limited time, let me summarize just a few of those.
    Our proposals for increased bus safety are longstanding, 
and again, we ask for more effective safety regulations and 
enforcement as we did in 2006 when I testified at a House 
hearing and detailed deficiencies of certain bus operations. 
ABA was an early and enthusiastic supporter of Secretary 
LaHood's Motorcoach Safety Action Plan, and we believe in 
strengthening state bus inspection programs, enforcing the 
medical qualifications for drivers, and using technology to 
enhance safety whenever possible.
    The lack of federal and state funding leads to inconsistent 
enforcement, making it too easy for carriers that have been 
closed to reopen, too easy for financially marginal companies 
to obtain operating authority, and still too easy for 
individuals to obtain a commercial driver's license. The lack 
of consistent and adequate enforcement of current regulations 
must be addressed.
    When Secretary LaHood issued the action plan, he declared 
that a robust compliance and enforcement program was absolutely 
critical to operate safely. We do applaud FMCSA for its 
enforcement actions and its review of new motorcoach entrants. 
We welcome the NYPD's recent efforts to inspect, ticket, and 
tow buses in the wake of accidents, but federal, state, local 
one-time actions are too rare. They are much too spotty. 
Consistent, effective enforcement is the most vital factor in 
motorcoach safety.
    A review of the data shows that 54 percent of all 
fatalities that have taken place from 1999 to 2009 were on 
unsafe or illegal carriers. FMCSA needs additional staffing and 
funding to inspect bus companies, and funding for the CMV 
inspections is largely via the Federal Government's MCSAP 
program where monies are then distributed to the States. We 
believe that a certain percentage of those monies should be 
dedicated specifically for bus inspections.
    In lieu of additional staffing, we recommend that FMCSA 
hire third party inspectors, as does the Department of Defense 
for their rigorous bus inspection program. And in addition, we 
feel strongly that if specific states are unwilling or 
incapable of managing a bus inspection program, then those 
funds should be withheld and used for third party inspectors.
    As it stands now, perhaps eight states have effective bus 
inspection programs, and this inequity must end. The programs 
must be uniform from state to state so as not to create a safe 
haven for illegal operators.
    We need to raise the safety bar for passenger carriers to 
obtain operating authority, and while FMCSA has made gains in 
visiting new carriers sooner, we would like to see an inquiry 
into the fitness of an operator before the first passenger ever 
boards the bus.
    The ABA believes that Congress should require a background 
check for drivers before they can be granted a CDL, especially 
with a passenger endorsement. This background check would 
verify the applicant's identity, any drug and alcohol 
violations, work permit, driving history, suspensions or 
disqualifying conditions. When FMCSA has determined that a 
carrier presents an imminent safety hazard and issues an out-
of-service order, the current process of sending letters, 
seizing plates, impounding vehicles can take months and months, 
and that is just too long. FMCSA needs Congressional authority 
to close those operations immediately.
    ABA recommends that FMCSA undertake a consumer awareness 
campaign with easy-to-understand information for the consumers.
    And finally, regarding seat belts in motorcoaches, ABA and 
its members do not oppose seat belts. We do support seat belts 
in new buses, and following the type of testing that was done 
to determine what type of belt, seat design, and anchorage 
would be required to save lives.
    Regarding other enhancements, they must be viewed as a 
system and engineered to the bus when it is being manufactured.
    Mr. Chairman, I thank you and members of the Committee for 
giving us the opportunity, and we will look forward to working 
with you.
    [The prepared statement of Mr. Pantuso follows:]

      Prepared Statement of Peter J. Pantuso, President and CEO, 
                        American Bus Association
    Mr. Chairman and members of the Subcommittee, my name is Peter J. 
Pantuso and I am the President and CEO of the American Bus Association. 
The ABA is the trade association for the private motorcoach industry. 
The ABA is home to over 800 bus operating companies, and 60 percent of 
all private motorcoaches on the road, who provide all manner of 
transportation services to the public. In addition to scheduled service 
operations provided by companies such as: Greyhound Lines, Peter Pan 
Bus Lines headquartered in Massachusetts, Bolt Bus, Megabus, Academy 
Bus Lines in New Jersey and Jefferson Lines in Minnesota, ABA members 
such as Capitol Bus Lines in Columbia, South Carolina; Abbot Trailways 
in Roanoke, Virginia and Cav's Coach Company in Charleston, West 
Virginia provide charter and tour services, airport shuttle services 
and commuter services throughout the United States and Canada. In total 
the private bus industry has provided 760 million passenger trips in 
2008. In addition, ABA members also include an additional 3,000 member 
companies which provide motorcoach passengers with services. These 
members include tour operators, tourist attractions, destinations, 
hotels, restaurants, bus manufacturers and those companies that serve 
bus manufacturers and bus companies.
    On behalf of the ABA's membership I would like to thank you, Mr. 
Chairman, for having this hearing. The fight to make bus travel safer 
is one that the ABA has been in the forefront of for many years. Over 
the last 6 years I and other ABA staff have testified several times 
before Congress on this issue and what is required to make bus travel 
safer. Early in 2006 ABA staff toured lower Manhattan with the New York 
City Police Department for a first-hand look at intercity bus service 
to and from the City.
    I have to note that the bus industry is one of the safest modes of 
transportation. The National Safety Council in its report ``Injury 
Facts 2011'' notes that the intercity bus transportation accident death 
rates for the years 2006-2008 (the latest year statistics were 
available) was 0.03 per 100 million passenger miles, which is twenty 
times safer than travel by passenger car. Of course, as you rightly 
point out, even one fatality is too many and we all must do everything 
we can to improve bus travel. ABA is ever mindful that it is not only 
our customers who ride our buses, but our neighbors, family, employees 
and friends.
    Mr. Chairman, as indicated above, ABA's proposals for increased bus 
safety are long standing. Almost exactly 6 years ago in a published 
letter to the Editor of the newspaper ``Roll Call'' (April 4, 2005) I 
noted that ``not all bus companies are alike'' and that customers had 
to beware of ``. . . unsafe operators . . . who do not follow Federal 
and state requirements, have improper registration, insurance and 
shoddy maintenance and do not provide (lawfully mandated) service to 
disabled passengers . . .''. (A copy of my letter is appended to this 
testimony). Of course barely a month later, a Washington Post columnist 
extolled the virtues of what was obviously an unsafe operator whose 
driver cheerfully broke several Federal and state laws while 
transporting the columnist to New York City. I mention this to ensure 
the Committee that the Committee's frustration on the issue of unsafe 
passenger carriers mirrors ABA's frustration.
    ABA continued, and continues today, to beat the drum for more, and 
more effective bus safety regulation and particularly enforcement. In 
the spring of 2006 I testified at a House Transportation and 
Infrastructure Committee hearing on bus safety and ADA regulatory 
compliance. At that hearing I detailed the deficiencies of certain bus 
operators in addition to failure to abide by the ADA. Among the issues 
raised at that time were the lack of a procedure to test the validity 
of drivers' commercial driver's licenses (CDL); the lack of some 
drivers' ability to understand or speak English and even understand the 
traffic laws.
    In addition, ABA was an early and enthusiastic supporter of the 
September 2009 United States Department of Transportation's Motorcoach 
Safety Action Plan. ABA believes in strengthening State bus inspection 
programs, enforcing the medical qualifications of drivers as well as 
contributing to their well-being. ABA agrees with the necessity of 
continuing research in fatigue issues relating to motorcoach drivers 
and in using technology to enhance motorcoach safety whenever possible.
    Since 2005, I and ABA staff have testified on bus safety before the 
House of Representatives, this Committee (September 18, 2008) as well 
as other state and local political authorities, including the New York 
City City Council (October 12, 2006) on bus safety. In all our 
testimony our conclusions have been consistent. There is an unfortunate 
lack of money and other resources, as well as inconsistent enforcement 
of the existing safety regulations. It has been, in the pass, too easy 
for carriers that have been closed down for safety violations to reopen 
down the street with a new name but with the same management and same 
lax safety attitude, although, the current FMCSA Administration has 
worked diligently to close this loophole. Many of the issues ABA raised 
in 2005 have recently begun to be addressed but overall it is still too 
easy for financially marginal individuals to obtain authority to 
operate; and it is too easy for individuals to obtain and keep a 
commercial driver's license. Since 2005 the ABA has advanced specific 
proposals that if implemented will lead to a safer industry.
    First, the lack of consistent and adequate enforcement of current 
federal regulations concerning bus operators must be addressed. We 
agree with Secretary LaHood and the Motorcoach Safety Action Plan when 
it declares that: ``A robust compliance and enforcement program is 
critical to ensuring the motorcoach carriers operate safely.'' (U.S. 
DOT Motorcoach Action Plan, pg. 26). ABA does applaud the FMCSA for 
some of its enforcement actions, for example a 2005 ``sweep'' of 400 
bus companies by a combined federal, state and local task force here in 
Washington, D.C. led to the agency placing 56 buses and 13 drivers out 
of service. ABA also welcomed the New York City Police Department's 
effort to inspect, ticket and, if need be tow buses away, in the wake 
of the recent tragic accident in the Bronx and in New Jersey. But such 
enforcement actions while appropriate are too rare. Enforcement is the 
most vital factor because a review of the data shows that 54 percent of 
all motorcoach fatalities in the last decade (1999-2009) were accidents 
of either unsafe or illegal carriers. In other words, over half of 
fatalities in the last 10 years have been the result of bus operators 
that should have never been allowed to operate under current Federal 
regulations or bus drivers who never should have been allowed to 
operate a vehicle. These fatalities could have been avoided through 
stronger enforcement.
    In light of this, FMCSA needs additional staffing and money to 
inspect bus operators, and in some instances the money for commercial 
motor vehicle (CMV) inspections should be reallocated. Funding for CMV 
inspections are largely funded via the Federal Government's Motor 
Carrier Safety Assistance Program (MCSAP). This program was established 
by section 210 of the Motor Carrier Safety Act of 1984 (49 U.S.C. 
31142) to provide funds for States to inspect commercial motor vehicles 
(CMVs). While the program prescribes Federal standards for annual 
inspections of CMVs the States are largely required to complete the 
inspection or use a State inspection program that is comparable to, or 
as effective as, the Federal inspection requirements. However, most 
states use the bulk of MCSAP funds to inspect trucks. Indeed, an ABA 
analysis of CMV inspections demonstrates that between FY 2005 and FY 
2009 there have been fewer than 200,000 combined bus vehicle and driver 
inspections for out-of-service violations annually, compared with over 
five million combined truck vehicle and driver inspections each year. 
That is that one out of every twenty-four inspections involved a 
motorcoach. Last year ABA submitted a proposal to Congress that a 
certain percentage of MCSAP funds be specifically allocated for bus 
inspections and that States certify this use to the U.S. Department of 
Transportation. We renew that recommendation here (a copy of that ABA 
recommendation and our analysis of the FMCSA/MSCAP inspection data is 
appended to my testimony).
    In lieu of additional staffing for more bus inspections ABA 
recommends FMCSA hire third party inspectors for the task. ABA has also 
long recommended this step. The Department of Defense (DOD) has a 
rigorous bus inspection program which is accomplished by third party 
inspectors. The DOD program is considered by the motorcoach industry to 
be the most comprehensive. In addition, FMCSA should adopt the results 
of a DOD inspection as satisfying the FMCSA inspection regime. As it is 
many ABA members are inspected by, and approved by, both agencies. It 
appears to ABA that one clearance should be satisfactory, thus freeing 
resources for other inspections. We have requested this for over a 
decade as a way to reduce the burden on FMCSA's current resources.
    Second, and related to the first recommendation, ABA recommends 
that a portion of MCSAP funds be withheld from states if those states 
are unable or unwilling to implement a bus inspection program that 
meets Federal program standards. As it stands now, perhaps eight states 
have active and, in ABA's view, effective bus inspection programs and 
less than half of the states have any bus inspection program at all. 
This inequity must end. If you agree that inspection is a key component 
to enforcement then you have to agree that more inspections are 
warranted here. And bus inspection programs must be uniform. We have to 
ensure that unscrupulous bus operators cannot move from a ``high'' 
enforcement state to a state with a less effective bus inspection 
program for the purpose of defying safety.
    Third, we must raise the safety bar on who can become a passenger 
carrier operator. As it stands now all one needs to get passenger 
carrier operating authority is an application fee of $300.00, proof 
that you have an agent for service of process, proof that you are 
willing and able to comply with applicable ADA requirements and 
evidence that your company has the requisite minimum five million 
dollar liability insurance policy. The applicant submits this 
information to the FMCSA and the agency issues your operating 
authority. Thereafter, the agency (within 18 months) will visit your 
facility and determine your fitness to continue operations. Here the 
agency has made gains by reducing the time for a bus safety audit to 4 
months. But here again ABA believes more can be done. Our members would 
like to see some kind of inquiry into the fitness of an operator before 
that individual is granted authority to operate. We fully support the 
application of a written test and interview of perspective new entrants 
into the bus industry. ABA has also called for a safety audit to begin 
within 45 days of authority being granted so that once equipment is 
purchased and drivers are hired Federal inspectors can review 
operations before they have begun in earnest.
    Fourth, with respect to the CDL process for passenger carrying 
drivers, ABA believes that the Congress should explore requiring an 
applicant background check before a state can grant a CDL. 
Specifically, this background check would verify the information 
required under the ``Background and Character'' section of 49 CFR Part 
391.21. That section requires verification of the applicant's identity 
and any drug and alcohol violations, verification of the applicant's 
work permit (if any) and history and a review of the applicant's 
driving history for suspensions or disqualifying conditions.
    Fifth, after the Secretary has issued an out-of-service order 
against a motor carrier of passengers and has determined that the 
carrier presents an imminent safety hazard, the Secretary will notify 
the state MCSAP lead agency of the out-of-service order. After which 
the MCSAP lead agency will ensure that the carrier has ceased 
operations and if the agency finds a violation of that out-of-service 
order the lead agency will seize the license plates of the vehicle. 
Alternatively, FMCSA should have the authority to shut a company down, 
pull the plates off of and impound the vehicles.
    Finally, ABA recommends that FMCSA undertake with ABA the 
development of a brochure that will explain the bus industry to 
consumers and lay out how to contract for motorcoach service. Part of 
our safety problem is the lack of information available to explain what 
a consumer should look for in a motorcoach company.
    I would like to address Senator Hutchison's point about the 
necessity for seat belts in motorcoaches. ABA and its members do not 
oppose seat belts on new buses just as we do not oppose standards for 
advanced window glazing, roof strength standards, requiring electronic 
on board recorders (EOBRs) or deciding whether additional emergency 
egress options are necessary. ABA believes in testing and through 
appropriate engineering integrating implementation. Our comments 
submitted to the National Highway Traffic Safety Administration (NHTSA) 
on the proposed seatbelt regulation could not be any clearer on the 
point that we support seat belts in new buses. However, crash testing 
was first needed to determine what kind of belt, seat design and 
anchorage was required to actually save lives. Testing that we 
requested NHTSA undertake over a decade ago. A loaded 45 foot coach 
weighing almost 52,000 pounds creates a far different crash environment 
than that of an automobile. On integration of other vehicle 
enhancements like roof strength and window glazing, our industry 
engineers believe that the motorcoach must be viewed as a system in 
which one enhancement does not interfere or degrade the effectiveness 
of another. Testing and engineering and safety analyses must be 
completed on all structural changes to the vehicle to ensure that we do 
not cause greater problems in different accident scenarios by the 
changes we make to one part of the vehicle. NHTSA's discretion to adopt 
new standards should not be compromised in our view.
    Last Congress, ABA, the Amalgamated Transit Union (ATU), Greyhound 
Lines and other industry groups and companies, supported a bill (H.R. 
1135) that would have required NHTSA to research safety issues 
concerning roof strength, emergency egress, fire prevention and 
suppression, window glazing and seat belts and if required issue 
regulations concerning those safety items. This Committee reported out 
a similar bill, S. 544.
    I must say that S. 544 differed from the ABA supported bill largely 
in the time given the agency to promulgate the needed regulations and 
the number of issues NHTSA would have been required to complete in an 
accelerated timeframe. I will only say that safety, in the form of seat 
belts or new windows or adding an exit to a bus cannot just be 
``added'' to any vehicle. As it did with seat belts NHTSA must have the 
time to research the problem before advancing solutions to it. What is 
crucial is that any new systems or mandates be engineered into the bus 
as it is being manufactured for proper use and effectiveness. That said 
ABA hopes to work with Senator Hutchison and the other members of the 
Committee to ensure that safe buses are the end product.
    Thank you Mr. Chairman, I will answer any questions you or any of 
the members of the Subcommittee may have for me.
                                 ______
                                 

                    Roll Call--Monday, April 4, 2005

                    Bus Companies Are Not All Alike

    Thank you for highlighting the benefits of bus travel in your March 
28 Travel & Adventure article ``Competition Gives Travelers Lots of 
Options.'' You're right, motorcoaches are an economical way to travel. 
In face, the motorcoach industry is the Nation's most economical and, 
more importantly, safest form of commercial public transportation. And, 
while policymakers continue to debate the merits (and expense) of 
supporting a national rail passenger system at a time when the Federal 
Government coffers are dwindling, the workhorse of public 
transportation, the motorcoach industry, moves more than 774 million 
passengers annually with little or no government subsidy.
    But not all bus companies are alike. When some companies offer 
rates that are too good to be true, often they are.
    Consumers who choose bargain-basement operators may be 
inadvertently tipping the scales toward unsafe operators that could 
undercut safety and quality of service as well as giving our industry a 
black eye. If the consumer knew that there are some operators who do 
not follow Federal and state requirements, have improper registration, 
insurance, and shoddy maintenance, and do not provide (lawfully 
mandated) service to disabled passengers, they might think twice about 
riding their buses.
    Travelers can and should find safe, quality operators in their area 
to make sure they are getting the best value--which, in our view, means 
safety, comfort and affordability. If they don't know who those 
operators are, they can visit www.buses.org for listings and consumer 
safety tips. The site, operated by the American Bus Association, keeps 
a list of members who operated under our Code of Ethics. Or they can 
log onto www.safersys.org, a website maintained by the Federal Motor 
Carrier Administration.
    Finally, I want to acknowledge your point about the distance 
between Washington, D.C.'s main bus terminal and Union Station--the 
city's public transportation hub built with bus parking, loading and 
unloading in mind. We understand the frustration and inconvenience for 
travelers nationwide and in our Nation's capital when they choose 
public transportation yet can't connect conveniently with other modes. 
We have asked Congress to authorize funds for intermodal facilities, so 
travelers can have seamless transitions in our Nation's transportation 
network. That would make a big difference in your ride.
            Thank you for your time.
                                          Peter J. Pantuso,
                                                   President & CEO,
                                              American Bus Association.
                                 ______
                                 

               Funds for Bus Inspections Urgently Needed

    In the last several years there has been an increase in the number 
of accidents involving illegal or unsafe motorcoaches operating in 
interstate commerce. According to an analysis by the American Bus 
Association, the trade association for the private over- the-road bus 
industry, illegal and unsafe passenger motorcarrier operators flaunt 
the law by operating without authority to do so, using equipment that 
may not comply with United States motor carrier safety regulations and 
by continuing to operate after their authority has been revoked by the 
Federal Government. Indeed, over the last decade, almost 60 percent of 
the fatalities in bus crashes were caused by an illegal or unsafe bus 
operator.
    The Motor Carrier Safety Assistance Program (MCSAP) established by 
Section 210 of the Motor Carrier Safety Act of 1984 (49 U.S.C. 31142) 
was set up to provide funds for States to use to inspect commercial 
motor vehicles (CMVs) including motorcoaches. While the program 
prescribed Federal standards for annual inspection of CMVs (49 CFR Part 
396), the States are largely required to complete the inspection or use 
a State inspection program that is comparable to, or as effective as, 
the Federal inspection requirements.
    The rash of motorcoach accidents in the recent past is a problem 
caused in part by the lack of inspections of buses in many states. In 
1998 the U.S. Department of Transportation could find that only half 
the States had any CMV inspection program comparable to, or as 
effective as, the Federal inspection requirements (63 Fed. Reg. 8516-
8517, February 19, 1998). That number of states has not changed. 
Moreover, between FY 2005 and FY 2008 there have been less than 150,000 
roadside bus inspections annually and over three million truck 
inspections. That is, only one out of every twenty-four inspections 
involved a bus, the carrier of fifty-five passengers. Even worse, 
according to the American Bus Association, only half a dozen states 
have effective bus inspection programs. Most states have largely put 
their money on inspecting other CMVs, largely trucks.
    While we do not quarrel with the need for truck inspections, we do 
believe that more funds should be allocated to motorcoach inspections. 
Indeed, we know of no metric that measures how much money goes to bus 
inspections in any state. For these reasons we conclude that the states 
must be required to use 10 percent (10 percent) of the MCSAP money to 
inspect motorcoaches and certify its use to the Department of 
Transportation. This is the most effective way to ensure that 
motorcoaches remain safe.

                                                     FMCSA/MCSAP Enforcement Summary FY 2005-FY 2008
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                   <triangle>%                  <triangle>%                  <triangle>%
               Year                    FY 2005       '05-'06        FY 2006       '06-'07        FY 2007       '07-'08        FY 2008          Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
<bullet> Total Compliance Reviews          12,575        21%            15,185         6%            16,115        -3%            15,622          59,497
<bullet> Total Compliance                     457        41%               646        91%             1,233         6%             1,306           3,642
 Reviews, Buses
<bullet> Federal Compliance                 7,978        22%             9,722         5%            10,256        -6%             9,642          37,598
 Reviews
<bullet> Federal Compliance                   340        48%               504       107%             1,041         0%             1,039           2,924
 Reviews, Buses
<bullet> State Compliance Reviews           4,597        19%             5,463         7%             5,859         2%             5,980          21,899
<bullet> State Compliance                     117        21%               142        35%               192        39%               267             718
 Reviews, Buses
<bullet> Total Number of                    4,102         7%             4,403        20%             5,281        -3%             5,138          18,924
 Enforcement Cases Closed
<bullet> Number of Enforcement                 73        70%               124       130%               285       -39%               175             657
 Cases Closed, Passenger Carriers
<bullet> Unsatisfactory/Unfit out-            518        -5%               494        57%               774        31%             1,015           2,801
 of-service orders
<bullet> Total Number of Truck          2,928,612         6%         3,093,996         3%         3,179,923         4%         3,287,738      12,483,269
 OOS Inspections, Driver
<bullet> Truck OOS Rate, Driver             6.60%                        7.00%                        6.90%                        6.60%
<bullet> Total Number of Truck          2,156,648         5%         2,273,467         0%         2,263,702         0%         2,270,174       8,963,991
 OOS Inspections, Vehicle
<bullet> Truck OOS Rate, Vehicle           23.60%                       23.70%                       23.20%                       23.20%
<bullet> Total Number of Bus OOS           35,574        49%            52,959         4%            54,854        -6%            51,339         194,726
 Inspections, Driver
<bullet> Bus OOS Rate, Driver               4.60%                        4.00%                        3.70%                        4.80%
<bullet> Total Number of Bus OOS           43,287       143%           105,257        20%           125,926         4%           130,942         405,412
 Inspections, Vehicle
<bullet> Bus OOS Rate, Vehicle              9.40%                        9.00%                        7.70%                        7.70%
<bullet> Roadside Inspections,          2,966,860         6%         3,153,079         2%         3,228,268         3%         3,336,776      12,684,983
 Trucks
<bullet> Roadside Inspections,             56,084       126%           126,626        17%           147,867         1%           149,669         480,246
 Buses
<bullet> Total New Entrant Safety          34,414        15%            39,488        -3%            38,326        -2%            37,395         149,623
 Audits
<bullet> Federal New Entrant               11,734       -13%            10,187       -44%             5,706       -30%             3,997          31,624
 Safety Audits
<bullet> State New Entrant Safety          22,680        29%            29,301        11%            32,620         2%            33,398         117,999
 Audits
<bullet> Total MCSAP Funding         $169,391,273         8%      $182,652,162         3%      $188,761,276         7%      $201,155,148    $741,959,859
--------------------------------------------------------------------------------------------------------------------------------------------------------


    Senator Lautenberg. Thank you for your excellent 
recommendations. We will look to see that they are followed up 
on. Thank you.
    Ms. Claybrook, Consumer Co-Chair, Advocates for Highway and 
Auto Safety, a group that advocates very strenuously, actively 
for improved bus safety, I want to thank you for being here and 
ask you to give your testimony.

STATEMENT OF JOAN CLAYBROOK, PRESIDENT EMERITUS, PUBLIC CITIZEN 
AND CO-CHAIR, ADVOCATES FOR HIGHWAY AND AUTO SAFETY (ADVOCATES)

    Ms. Claybrook. Thank you, Mr. Chairman. You should know 
that we are tough advocates because we advocate to you all the 
time. Thank you very much.
    We want to commend you and members of the Subcommittee for 
holding the hearing, Mr. Chairman, on the safety of 
motorcoaches and motorcoach operations, and we want to thank 
Senators Brown and Hutchison for leading the effort to enact S. 
453, legislation that is vitally needed for improvements in 
motorcoach safety.
    This month, as has already been mentioned, three tragic 
crashes occurred and it marks the anniversary of the Georgia 
and--excuse me--Bluffton, Ohio baseball team crash--that 
happened in Georgia. This is an anniversary that we did not 
want to have, when seven students were killed and 21 injured in 
that crash.
    And then further, of course, I want to take a moment just 
to recognize that yesterday, March 29, marked the fifth 
anniversary of the Beaumont, Texas bus crash in which two 
members of the Westbrook High School girls soccer team were 
killed and at least dozens of others were injured.
    Five years later, Congress still has not enacted this 
legislation to require enhanced occupant protection and 
operational standards to prevent families from experiencing and 
having these crashes and having the same suffering throughout 
their whole families and friends.
    I would like to just comment that Mr. Pantuso said that the 
key is enforcement. I believe the key is not enforcement alone. 
Enforcement, of course, is very important, but we have to have 
new safety standards. We have to have improved bus design. The 
provisions in this legislation are very, very important for 
achieving that.
    Those who travel by motorcoach rather than air do not 
expect to be treated as second-class citizens when it comes to 
safety and they do not expect the motorcoach to be a death trap 
in the event of a crash.
    The failures of the Federal Motor Carrier Safety 
Administration to regulate this industry and the failure of the 
National Highway Traffic Safety Administration to issue safety 
standards to ensure crash avoidance and crash-worthiness of 
these vehicles has contributed to needless deaths and injuries.
    The National Transportation Safety Board--we thank you so 
much--has been issuing safety recommendations for the 
motorcoach industry and DOT for decades, and they have been 
summarily ignored. For example, the NTSB first recommended that 
seat belts be required on motorcoaches 40 years ago, and only 
recently has NHTSA proposed a rule to do that.
    Similarly, the Federal Motor Carrier Safety Administration 
has rebuffed many of the NTSB recommendations over the years, 
and while FMCSA has recently issued a proposal to require 
electronic on-board recorders on commercial vehicles, including 
motorcoaches, a longstanding NTSB recommendation, many other 
NTSB recommendations to keep unsafe operators and unsafe 
drivers off the road have never been considered.
    Despite the development of a DOT action plan in 2009, which 
we are very grateful for, only three regulatory actions from 
the plan have been proposed in the intervening 16 months, that 
is, seat belts, EOBR's, and the non-use of cell phones. The 
delays and excuses by the bus industry and the DOT can no 
longer be tolerated. Congress must step in and ensure the 
safety improvements that NTSB has recommended, and there is a 
vehicle for doing this and that vehicle is this legislation, S. 
453. There is no doubt that when Congress sets a safety agenda, 
the federal agencies respond quickly by developing action 
plans, conducting tests, issuing rules that improve 
transportation safety, and this is the model that should be 
followed for motorcoach safety.
    The bipartisan Motorcoach Enhanced Safety Act is supported 
by the parents and relatives of the victims and survivors, and 
you have already met today John Betts and his wife from Ohio 
who lost their son, David, and Yen-Chi Le from Texas, whose 
mother died in Sherman, Texas. And I want to submit for the 
record letters from the families of the victims of motorcoach 
crashes who are unable to be with us today.
    [The information referred to follows:]

                                                          3/28/2011
Hon. Frank Lautenberg, Chair,
Hon. John Thune, Ranking Member,
Surface Transportation Subcommittee,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

RE: MESA bill, S. 453

Dear Sir:

    As a father of two athletic daughters I have had many occasion to 
watch them board a bus which was bound for one event or another. After 
March 29, 2006, I will not make that mistake again (at least not until 
measures are put in place to ensure that motorcoach safety has been 
enhanced). Like many others who put their children at risk--without 
real knowledge of what they were actually doing--I put my daughter 
Courtney at risk by letting her board a charter with her Beaumont West 
Brook Soccer Team. After her bus overturned- I have learned just how 
very unsafe motorcoach travel really is. I urge you to pass this Senate 
Bill and make a difference for future children and passengers in 
general.
    I drive for a living and I see just how distracted drivers are 
creating havoc--all over the roads of America. It only takes one poor, 
distracted driver, or one poorly maintained motorcoach to cause 
multiple fatalities and severe injuries. To be honest, every time I am 
on the road and see a shiny new motorcoach it makes me sick to my 
stomach. For it to have this much effect on me--imagine what it must 
have on my daughter who slid down and off a highway when her 
motorcoach's windows disintegrated into shards. Imagine what she must 
see when she sees multiple motorcoaches, with no safety glass or 
seatbelts, and reflects on not only her own pain but those who perished 
around her. It is past time for change!
    In short, I ask you to take action and see this bill through. I 
find it amazing that the motorcoach industry would not have forced 
safety measures on its own, but I have witnessed and lived its 
nightmare--so I know it has not. Surely your committee will show the 
foresight to get something passed which forces safety measures which 
are so very far overdue!
            Sincerely
                                             Edward Garrod,
                                                       Beaumont, Texas.
                                 ______
                                 
                                                     March 25, 2011
Hon. Frank Lautenberg, Chair,
Hon. John Thune, Ranking Member,
Surface Transportation Subcommittee,
Committee on Commerce, Science, and Transportation,
U.S. Senate
Washington, DC.

RE: Motorcoach Safety

    Our family has had a personal tragedy, along with feeling connected 
to others who have had this experience, in regard to inadequate safety 
standards with motorcoach safety. We are hoping the following is truly 
read and understood so that there will be no more delays in passing 
this necessary long overdue bill.

        (1) March 2, 2007 Atlanta, GA Bluffton Univ. Baseball Bus Crash

        (2) Scott Graham Harmon, age 19 our son and brother

        (3) Scott, seated in seat #4, doorside. Scott died as a result 
        of the first impact on top of the ramp. Blunt for trauma from 
        hitting the seat in front & across the aisle from him, his seat 
        stayed Intact. In other words, he was NOT ejected but thrown 
        around the inside of the bus. Fulton County Medical Examiner 
        (GA) stated he would have survived if he would have had a 
        seatbelt as there was no head trauma, no broken bones except 2 
        ribs.

        (4) We have been told that more scientific evidence is needed 
        to pass the bill, my question . . . how much evidence had to be 
        taken for the recent updates of child restraint seats in 
        automobiles, which already are mandated since 1966 to be 
        equipped with seatbelts. How many children wonder why they get 
        to sit ``freely'' in a school bus/motorcoach when they don't in 
        a private vehicle. I drove a school bus for 12 years, you might 
        be surprised what the answer would be. Airplanes have mandatory 
        seatbelts for take off, landing or in air turbulence-why? To 
        keep you in the seat compartment area, just ask those on the 
        jet who landed in the Hudson River.

        (5) Motorcoach drivers-there are many good drivers, 
        unfortunately, there are many that are not.

                a. Go to your DMV, take a written CDL exam--no training 
                necessary

                b. Drive a bus around the parking lot of the employer, 
                feel comfortable? There is a trip next week, do you 
                want to take it? Inexcusable!

                c. Pre-trip meetings--to go over the trip, i.e., 
                dangerous intersections, road construction, food 
                consumption, sleep requirements . . . I've been told by 
                companies it isn't necessary because their insurance 
                company doesn't require it, if there is a problem, the 
                driver can call on a radio/cell phone or if tired, take 
                a nap when they get to their destination . . . they 
                have to get there first!

                d. Background checks-school bus drivers are 
                fingerprinted and FBI background checks, motorcoach 
                drivers?--not required

                e. Down time--Supposed to be 12 hour down time between 
                driving a company vehicle. Our Driver drove a company 
                van to GA on March 1, ordered a pizza which was 
                delivered at 9:30 p.m., he then was up at 3:30 a.m. on 
                March 2nd, boarded the bus at 4:30 a.m. and the crash 
                was at 5:43 a.m.--you do the math.

                f. Retired aged drivers--luring retirement age drivers/
                couples as a ``free vacation''. There is a big 
                difference between driving your own vehicle than a bus 
                with the number of mirrors (can be distorting) vehicle 
                weight and length, etc.--reflexes must stay sharp.

        (6) Companies--There are reputable companies that operate with 
        a conscience, unfortunately, there are those who don't. They 
        get into some trouble, they shut down and reopen under a 
        different name. Until a tragedy occurs, this information does 
        not come to light. Inexcusable!

    As I previously stated, this is a short version of what needs to be 
done. We are not trying to put reputable responsible companies out of 
business, only make them travel as safely as possible. I realize money 
is needed to make these changes, however, I'd rather be able to afford 
only 2 coaches that I know are as safe as possible vs. a fleet that are 
playing Russian roulette.
    One last point. . .
    An accident is something that happens when you do everything 
possible to prevent it; a tragedy happens when one or more are 
negligent.
            Sincerely,
                                           Julie M. Harmon,
                                                              Lima, OH.
                                 ______
                                 
                                                     March 29, 2011
Hon. Frank Lautenberg, Chair,
Hon. John Thune, Ranking Member,
Surface Transportation Committee,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

    My name is Elise Huch, a member of the West Brook Bus Crash 
Families from Beaumont, Texas. On March 29, 2006 my high school soccer 
team was involved in an accident on the way to a state play-off game. I 
was injured , along with many of my teammates, some very seriously. 
Tragically, two of my teammates, Ashley Brown and Alicia Bonura, were 
killed. Ashley and Alicia were truly inspirational girls, as teammates, 
Christians and friends. They are both greatly missed.
    Since the accident, the W.B.B.C.F. have worked very hard to get the 
laws passed here in Texas and in Washington D.C. It has been a long 
hard battle but we have been successful in passing the Ashley and 
Alicia Law in Texas, which required safety belts on all new school 
buses purchased beginning Sept. 2010. With that being said, please 
accept this letter as my strong support for the MESA bill S. 453. I 
hope that I can look forward to seeing this bill become a law. In light 
of the recent accidents in NY, NJ and NH, it is time that something is 
done in this country to require safer buses for all those who travel on 
motorcoaches.
    In the past 5 years, not a day goes by that I don't think of that 
terrible day in March. I wonder if Ashley and Alicia would still be 
alive had the bus been equipped with proper safety devices. Obviously, 
I will never know the answer to that question, but I can do something 
to honor their memory and to help prevent future Americans from 
experiencing a similar tragedy, which is why I strongly support this 
bill and I pray that with your help, it will soon become a law.
    Thank you very much for reading my letter and allowing my voice to 
be heard. I hope to someday meet you both and thank you personally for 
making motor coach traveling safer in this country.
            Sincerely,
                                             Elise M. Huch,
                                     West Brook Bus Crash Families.
                                 ______
                                 
                                                     March 29, 2011
Hon. Frank Lautenberg, Chair,
Hon. John Thune, Ranking Member,
Surface Transportation Committee,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Honorable Frank Lautenberg and Honorable John Thune,

    My name is Martha Huch, Vice-President of the West Brook Bus Crash 
Families. Today marks the five year anniversary of the West Brook 
soccer team's fatal bus crash in Beaumont, Texas. Therefore, it is with 
deep sadness that I write you this letter on a day when we remember 
Ashley Brown and Alicia Bonura, the two beautiful girls that were 
killed in the bus crash. My daughter, Elise Huch, was one of several 
girls that were injured that day. The bus crash has changed our lives 
forever. It has left a deep wound in our hearts and great sadness for 
the Brown and Bonura families.
    It is however, with great hope that the MESA bill S. 453 will soon 
become a law that is long overdue. Since the West Brook crash, I have 
been brought to my knees too many times when I hear of yet another bus 
crash that has claimed yet more lives. I think of the families of the 
victim and the survivors as well and feel their suffering and know the 
never ending pain of living with the aftermath of such a tragedy.
    The past five years we have work tirelessly to pass laws in Texas 
to required safety belts on school buses. In September 2010, our dreams 
of required school districts to purchase school buses equipped with 3 
point shoulder harnesses was realized. However, our work is not over 
yet. We will not rest until the MESA bill S. 453 is passed and becomes 
a law.
    I pray that God will lay his hands on all lawmakers to act 
responsibly in representing the people of our country and make motor 
coach travel safer for it passengers. I call upon those whom we elect 
into office to become heroes in saving the lives of those they serve. 
They will certainly be heroes in my eyes.
    It breaks my heart to think of what my daughter went through day 
fateful day. At the time, my daughter was 16 years old. The things she 
witnessed were horrifying and are deeply imbedded in to her memory. 
Some of the injuries she saw were similar to what grown men have 
witnessed in Iraq. How is it, that in our country, young girls have to 
board a bus not equipped with safety belts and end up scarred for life? 
The time is now to pass the MESA bill S. 453 so that no one else has to 
go through what my daughter and her teammates had to go through.
    I thank you in advance for reading my letter, but more importantly, 
I thank you for your efforts in making a difference in getting this law 
passed. I hope that someday in the near future I will be able to shake 
your hand and personally thank you for your wisdom and perseverance in 
hearing our pleas for safer buses and making our dreams a reality. May 
God guide you in your service to His people.
            Thank you,
                                               Martha Huch,
                                     West Brook Bus Crash Families.
                                 ______
                                 
                                                     March 28, 2011
Hon. Frank Lautenberg, Chair,
Surface Transportation Subcommittee,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Hon. John Thune, Ranking Member,
Surface Transportation Subcommittee
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

RE: Letter of Support for S. 453, Motorcoach Enhanced Safety Act (MESA)

    Dear Chairman Lautenberg, Ranking Member Thune, and distinguished 
Subcommittee Members:

    On behalf of the Sherman Bus Crash families, I am writing to 
express my unequivocal support for the Motorcoach Enhanced Safety Act 
(MESA) bill sponsored by Senators Kay Bailey Hutchison and Sherrod 
Brown.
    My mother, Catherine Tuong So Lam, was killed in the Sherman Bus 
Crash on August 8, 2008. To briefly recap, the Sherman bus crash 
occurred at 12:45 a.m. on August 8, 2008. The retreaded, front tire of 
the bus had blown out and the bus hit the guardrail of the overpass and 
fell eight feet to the dry creek bed below. My mother was among the 17 
people who died. The driver and the other 38 passengers sustained 
moderate to serious injuries.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In my community, husbands have lost wives, parents have lost 
children, children have been orphaned, and families have been fractured 
by the burden of caring for crash victims who are stuck in between 
living and death. For example, Paul was a MBA business executive with 
two small children whose brain injury was so severe that he know has 
the cognitive functioning of a second grader. It is not easy for me to 
share such personal details about my mom and our community, but I want 
you to be aware of the personal costs of allowing the motorcoach 
industry to treat safety as an option and not a requirement.
    The National Highway and Traffic Safety Administration (NHTSA) 
estimate the cost of installing personal occupant protection systems on 
motorcoaches at $7,000 per coach. The direct medical costs of those 
injured or killed in the Sherman Bus Crash exceed $3.75 million. This 
does not include loss of life, loss of future earnings, or continuing 
and future medical costs. Given the average 25-30 year lifespan of 
motorcoaches, requiring the motorcoach industry to spend $7,000 in 
order to save lives is a negligible cost to the industry. But the 
industry will not make motorcoach safety a requirement until Federal 
regulations are in place for to ensure the safety of motorcoach 
passengers.
    In closing, I implore you to support S. 453, the Motorcoach 
Enhanced Safety Act. If this bill had been law, my mom would be alive 
today.
            Sincerely,
                                         Yen-Chi Le, Ph.D.,
                                                        Houston, Texas,
                                  Daughter of Sherman Bus Crash victim,
                                                Catherine Tuong So Lam.
                                 ______
                                 
                                             March 29, 2011
Hon. Frank Lautenberg, Chair,
Hon. John Thune, Ranking Member,
Surface Transportation Subcommittee,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Dear Senator Lautenberg:

    I am writing in support of the MESA bill, S. 453, which mandates 
``three-point'' lap-shoulder seatbelts on motor coaches. Five years ago 
today, the Beaumont West Brook Girl's Soccer Team was heading to a 
play-off game. The chartered motorcoach they rode in did not even meet 
current safety requirements to protect them. I now know, from first 
hand experience, the price paid in not using seat belts on buses. I am 
the mother of Ashley Brown, one of the players killed in the accident. 
I believe that Ashley's life would have been saved and many injuries 
prevented if the motor coach had been equipped with seatbelts.
    I believe that each new motor coach purchased, from now on, should 
have lap-shoulder restraints. It makes no sense to teach our children 
to ``buckle up for safety'' in our personal automobiles and then send 
them off on buses with no seat belts. We all know that seatbelts save 
lives, especially in the case of a rollover accident.
    Not just the parents and students of Beaumont ISD were affected by 
the tragedy that occurred just outside of Devers, TX on Highway 90 that 
rainy day in March. Our entire state of Texas was devastated when we 
lost two beautiful girls, Alicia Bonura and my daughter, Ashley. We all 
have to live daily with the injuries, both physical and emotional.
    Now, there is no excuse. We now have the knowledge and the 
technology to argue with weak Federal oversight of the motor coach 
industry. There is no common sense argument against the use of three-
point seat belts on buses. So that other parents never have to 
experience the same tragedy that I have endured, please help us in our 
mission to enact legislation that will protect passengers of the 
motorcoach industry. I thank you in advance for your favorable support 
in the consideration of the MESA bill, S. 453.
            Sincerely,
                                     Melanie Brown Psencik.

    Ms. Claybrook. The cost of building in safety features in 
this MESA bill, S. 453, is minimal compared to the cost in 
terms of life lost in just a single motorcoach crash. For 
example, the recent crash on March 12, 2011 in New York 
resulted in 15 fatalities, and based on DOT's value of a 
statistical life of $6 million, that bus alone generated $90 
million in costs for just the fatalities. This figure does not 
include the enormous costs associated with numerous injuries 
and surviving passengers or the huge emotional toll on the 
families whose loved ones have been lost.
    A number of safety technologies included in this bill have 
already been developed and are being voluntarily installed in 
motorcoaches, as Senator Hutchison mentioned. For example, Bolt 
Bus Lines already has seat belts installed in many of its 
vehicles, and Greyhound has announced in 2009 the purchase of 
140 buses equipped with safety belts and advanced seating which 
provide occupant compartmentalization.
    In addition, other motorcoach manufacturers already offer 
these safety technologies. Volvo, MCI, Prevost, and Van Hool 
offer electronic stability control, advanced glazing, occupant 
compartmentalization, and greater roof protection, tire 
pressure monitoring systems, and some form of fire protection 
and suppression system. A list of these technologies is 
attached to my testimony.
    The motorcoach gold-plated cost figures for safety 
improvements are wildly inflated, unreliable, and undocumented. 
This industry claims that the improvements in this bill would 
cost between $80,000 and $89,000 per motorcoach. These absurd 
and exaggerated figures are a tactic to confuse the issues and 
obscure the truth. But in fact, a trade association never has 
the details about costs because this information is a company 
trade secret, and it would be an antitrust violation for an 
association to involve itself in calculating this information 
from its member companies. So instead what we get is a bunch of 
hogwash. Of course, various industries use this tactic all the 
time to scare Congress, and it happened when I was 
Administrator of NHTSA and there were the air bags----
    Senator Lautenberg. We are going to take your full 
statement in the record.
    Ms. Claybrook. OK.
    Senator Lautenberg. We will have to move along.
    Ms. Claybrook. Well, I would just thank you very much, Mr. 
Chairman, and I would like to have the Committee look carefully 
at these cost issues because they are not anywhere near 
reality. Thank you so much.
    [The prepared statement of Ms. Claybrook follows:]

   Prepared Statement of Joan Claybrook, President Emeritus, Public 
Citizen and Co-Chair, Advocates for Highway and Auto Safety (Advocates)
    Good afternoon. My name is Joan Claybrook and I am President 
Emeritus of Public Citizen and the Co-Chair of Advocates for Highway 
and Auto Safety (Advocates), a coalition of consumer, health, safety, 
medical organizations and insurers working together to advance Federal 
and state programs and policies that prevent deaths and injuries on our 
neighborhood streets and highways. I commend the Subcommittee for 
holding hearings on the safety of motorcoaches and motorcoach 
operations.
    This hearing today is another in a long series of oversight 
hearings held by the Surface Transportation and Merchant Marine 
Infrastructure, Safety, and Security Subcommittee because of its 
concern over the quality of motorcoach and motor carrier safety. The 
Subcommittee held a hearing just last year, on September 10, 2010, on 
motorcoach safety and prior to that held a hearing on May 1, 2007, to 
receive testimony on the value of Electronic On-Board Recorders (EOBRs) 
and their important contribution to reducing commercial driver 
fatigue., an issue relevant to both motorcoach and motor carrier safety 
enforcement. That hearing was extraordinarily important because it 
showed how members of the motor carrier community have found that EOBRs 
are not only valuable for keeping commercial drivers within the limits 
of Federal hours of service regulations, but also help to expedite 
freight delivery and conserve fuel, keep big trucks from using illegal 
routes, and track motorcoaches in real-time to help ensure passenger 
safety.
    This month we observe the anniversaries of two tragic motorcoach 
crashes. The Bluffton Ohio college baseball team bus crashed in 
Atlanta, Georgia, 3 years ago on March 2, 2007. Seven (7) students were 
killed and 21 injured in that crash. That tragedy is just one in a long 
list of crashes that have motivated Advocates and other organizations 
to support the Motorcoach Enhanced Safety Act (MESA). I would also like 
to take a moment to recognize that yesterday, March 29, marked the 
fifth anniversary of the Beaumont, Texas bus crash, in which two (2) 
members of the West Brook High School girls' soccer team were killed 
and at least a dozen others were injured when the motorcoach carrying 
the team swerved on Highway 90 and rolled over. Five years later, 
Congress has still not enacted legislation to require enhanced occupant 
protection and operational standards to prevent other families from 
experiencing the same suffering as the West Brook bus crash families.
    Yet, despite this history of crashes and sad anniversaries, not 
much has changed. Three recent crashes of motorcoaches, in New York, 
New Jersey and New Hampshire this month have joined the infamous list, 
with the loss of 17 lives and 82 injuries. These crashes further 
underscore the fact that compromises and half measures taken by the 
motorcoach industry and safety regulators endanger the safety of the 
traveling public.
    Older travelers who take motorcoaches to casinos plan on gambling 
but they do not expect to play Russian roulette with their safety en 
route. Those who travel by motorcoach rather than by air due to cost 
know the trip will take longer but they do not expect to be treated as 
second-class citizens when it comes to safety. Young people who take 
motorcoaches for convenience, price and the Wi-Fi do not expect the 
motorcoach to be a deathtrap in the event of a crash.
    Motorcoach safety is a serious concern for anyone who relies on and 
uses this growing and affordable mode of transportation. Unfortunately, 
when it comes to choosing a safe motorcoach, consumers have been forced 
to select motorcoach carriers blindly, without adequate information on 
their safety or the safety of the vehicles and drivers. Many of us in 
this hearing room have put our excited children on charter buses for 
out-of-town school field trips and team sporting events, boarded 
motorcoaches to take part in church and community outings, or waved 
goodbye to retired parents who traveled by tour coach to vacation 
destinations. Some have even taken advantage of low cost fares to 
travel between Washington, D.C., New York or Boston on ``curbside'' 
buses that leave from downtown locations rather than bus terminals.
    Motorcoaches make 750 million passenger trips a year, and transport 
hundreds of thousands of passengers each day, often carrying more 
passengers--55 to 59 people when fully loaded--than most commuter 
airline flights. Yet, motorcoach safety is not being held to the same 
high safety standards as passenger aviation even though motorcoaches 
operate in a much more dangerous and congested highway environment. 
Motorcoach drivers are not required to meet the rigorous medical and 
safety requirements of airline pilots; most of the vehicle safety 
design and performance standards for passenger vehicles, especially for 
occupant protection, are not required for motorcoaches; and motorcoach 
companies are governed by the same weak, ineffectual safety oversight 
and enforcement regime that is used for trucking freight.
    Despite the widespread use of motorcoach transportation in our 
everyday lives, the public is almost completely in the dark about the 
safety of motorcoach transportation because of chronic and continuing 
failures by the Federal Motor Carrier Safety Administration (FMCSA) to 
exercise its legal authority to regulate the safety of this industry, 
and the failure of the National Highway Traffic Safety Administration 
(NHTSA) to require the same basic safety improvements required for 
light passenger vehicles to ensure the crash avoidance and crash 
worthiness of motorcoaches. These failures have contributed to numerous 
tragic motorcoach crashes in recent years.
    My testimony today will address the safety problems and the 
documented need to improve motorcoach safety; the means available to 
provide improved occupant protection in motorcoach crashes and other 
emergencies, such as fires; enhanced crash avoidance capabilities, and 
the importance of strengthening Federal oversight of motorcoach 
operations to ensure that unsafe motorcoach companies and drivers are 
detected and kept off the road before they can do harm.
Motorcoach Crashes Are Frequent and Deadly
    Over the past four decades, the National Transportation Safety 
Board (NTSB) has investigated nearly 70 motorcoach crashes and fires 
that resulted in several hundred passenger deaths and many hundreds of 
severe injuries. NTSB's motorcoach crash investigations over the decade 
from 1998-2007, involved the deaths of 255 passengers and more than one 
thousand injuries.\1\ In some of these incidents more than 20 people on 
board were killed in a single crash or vehicle fire. Not all motorcoach 
crashes resulting in death and injury are investigated by NTSB or any 
other agency at the Federal level. I have attached to my testimony a 
list of the motorcoach crashes that Advocates has compiled from the 
NTSB investigation reports and reliable newspaper and wire service 
reports found on the Internet. But even this list, containing over 150 
motorcoach crashes and fires in the past 20 years, is far from 
complete.
---------------------------------------------------------------------------
    \1\ Motorcoach Override of Elevated Exit Ramp Interstate 75, 
Atlanta, Georgia, March 2, 2007, Appendix C, National Transportation 
Safety Board Accident Report HTSB/HAR-08/01, July 8, 2008 (Bluffton 
University Motorcoach Crash Report).
---------------------------------------------------------------------------
    According to NHTSA data, there were 400 fatal motorcoach crashes 
from 1994 through 2005 in which 571 people died.\2\ Of that total of 
fatal crashes and associated deaths, 2005 was an especially tragic 
year--70 motorcoach occupants died in crashes, the highest total ever 
recorded. Data covering a much longer period of time, 1975 through 
2005, shows 1,107 fatal crashes involving 1,117 motorcoaches and 
resulting in 1,486 deaths to passengers in motorcoaches, people in 
other vehicles and pedestrians.\3\ While the industry touts the 
historic safety record of motorcoaches, the three recent crashes that 
occurred within days of each other emphasize that we cannot rely on 
statistical averages to ensure public safety. The number of deaths in 
the first 3 months of this year, 21 that we know of, already exceeds 
the historic annual fatality average with 9 months remaining in the 
year. Rather than ignore these recurrent and all too predictable 
crashes, we need to protect the public by building safety into 
motorcoaches instead of hoping that the inevitable crashes will not 
occur.
---------------------------------------------------------------------------
    \2\ Data supplied by the NHTSA.
    \3\ Id.
---------------------------------------------------------------------------
    That is why it is crucially important to have a comprehensive, 
multi-faceted approach to motorcoach safety that emphasizes major 
safety countermeasures for motorcoach occupant protection, as well as 
dramatic improvements in motorcoach crash avoidance capabilities that 
will ensure that these big, heavy vehicles provide crash protection to 
the motorcoach occupants while also reducing both the number and the 
severity of collisions with other highway users.
Motorcoach Crashes in Recent Years Illustrate Severe Safety Risks
    While detailed investigation of the cashes that have taken place 
this month are not yet available, press reports indicate that all three 
motorcoaches lacked seat belts and that at least in one case there are 
questions about driver fatigue and whether the driver had previous 
hours of service violations. Advocates is certain that many of the same 
safety deficiencies previously found by the NTSB in earlier crashes 
will be found, yet again, in these new incidents. Among the major 
motorcoach crashes and fires that have taken place in the past few 
years the following examples are emblematic of the safety perils in 
motorcoach travel:

  <bullet> The Bronx, New York: On March 12, 2011, a motorcoach 
        operated by World Wide Travel transporting passengers from a 
        Connecticut casino in the early morning rolled on its side on 
        I-95, skidded along a guardrail, and rammed into a support 
        pole, slicing through the upper half of the bus. Fifteen people 
        were killed and 18 were injured in the crash. Initial media 
        reports indicate that the bus swerved repeatedly before the 
        crash and the driver may have been fatigued. World Wide Tours 
        has previously been flagged by the Federal Motor Carrier Safety 
        Administration (FMCSA) for fatigued drivers.\4\
---------------------------------------------------------------------------
    \4\ Bus Swerved Repeatedly Before Crash, Riders Say, NY Times, 
March 13, 2011, available at http://www.nytimes.com/2011/03/14/
nyregion/14bus.html and, Carnage on I-95 After Crash Rips Bus Apart, NY 
Times, Mar 12, 2011, available at http://www.nytimes.com/2011/03/13/
nyregion/13crash.html?pagewanted=1&_r=1&ref=nyregion.

  <bullet> Sacaton, Arizona: On March 5, 2010, a motorcoach owned by 
        Tierra Santa Inc., a California company, en route from Mexico 
        to Los Angeles, rear-ended a pickup truck, swerved, and rolled 
        over on I-10. Nine passengers were ejected from the bus, 
        killing six. An additional 16 were injured. A report by the 
        Arizona Department of Public Safety indicated that the bus 
        company was operating illegally, that driver hours of service 
        were not maintained, and that the vehicle had defective brakes. 
        Reports also suggested that the company's owner had previously 
        owned other motorcoach companies that had been shut down for 
        safety violations.\5\
---------------------------------------------------------------------------
    \5\ Bus Carrier in I-10 Crash Skirts Ban, Arizona Republic, Mar 26, 
2011, available at http://www.azcentral.com/arizonarepublic/news/
articles/2011/03/26/20110326carriers-tierra-los-angeles.html.

  <bullet> Sherman, Texas: On August 8, 2008, an Angel Tours, Inc. 
        motorcoach with 54 passengers, restarted its motorcoach 
        business under a different name, Iguala Busmex, only 3 days 
        after it had been judged an ``imminent hazard'' by FMCSA and 
        prohibited from providing transportation services. In a 
        catastrophic crash, the Iguala Busmex motorcoach broke through 
        a guardrail in rural Grayson County, Texas and plummeted from 
        an overpass into a dry creek bed in a rollover crash that 
        resulted in 17 people dead and 38 injured. Angel Tours, Inc., 
        had been ordered to stop operating by the FMCSA on June 23, 
        2008, only 6 weeks earlier. The reconstituted business, Iguala 
        Busmex, according to preliminary information in media reports, 
        had no insurance and had no Federal interstate operating 
        authority.\6\
---------------------------------------------------------------------------
    \6\ Motorcoach Run-Off-the-Bridge and Rollover, Sherman, Texas, 
August 8, 2008, National Transportation Safety Board. 2009, Highway 
Accident Report NTSB/HAR-09/02, available at http://www3.ntsb.gov/
publictn/2009/HAR0902.pdf.

    The new company even used the same business address to restart 
        operations. FMCSA was unaware that Angel Tours had transformed 
        into the rogue motorcoach company, Iguala Busmex. In fact, the 
        company had no legal authority to provide motorcoach 
        transportation services for compensation even within the state 
        of Texas. In far too many cases, motor carriers both of 
        passengers and of freight are ordered to stop operations for 
        safety reasons, but then restart their businesses under 
        different company names, leaving law enforcement officials with 
        the task of identifying and proving which companies are 
        conducting illegal operations. Sometimes, as in this case, 
        Federal authorities find this out only after a tragic crash, 
        when deaths and severe injuries have already occurred. While 
        FMCSA has improved efforts to screen for reincarnated passenger 
        motor carriers, the agency still lacks authority to revoke 
        registration and impose criminal penalties on persons who 
---------------------------------------------------------------------------
        commit this type of violation.

    The motorcoach in the Sherman, Texas, crash was operated by a 
        driver who had no valid medical certificate. FMCSA had also 
        determined prior to its ``cease operations'' order that Angel 
        Tours was using a driver without the company having received a 
        pre-employment report, a Federal requirement. Angel Tours also 
        failed to require drivers to prepare vehicle inspection 
        reports. In addition, the motorcoach was fitted with retreaded 
        tires on the front steer axle, another Federal regulatory 
        violation. It appears that this illegal tire suddenly failed 
        and destabilized the motorcoach, making it difficult to control 
        and facilitating its crash into the overpass guardrail.

  <bullet> Tunica, Mississippi: On August 10, 2008, a casino motorcoach 
        operated by Harrah's Entertainment packed with 43 tourists 
        rolled over in a highway intersection in northwestern 
        Mississippi. The roof of the motorcoach collapsed and its 
        windows were shattered. Three passengers died and 27 were 
        injured, one in critical condition.\7\
---------------------------------------------------------------------------
    \7\ Three Killed, Several Injured in Mississippi Bus Crash, 
Associated Press, Aug 10, 2008, available at http://
www.nydailynews.com/news/national/2008/08/10/2008-08-10_three_
killed_several_injured_in_mississi-1.html.

  <bullet> Primm, Nevada: Another casino motorcoach crash occurred the 
        same day on I-15 near Primm, Nevada. Luckily, no one died in 
        this crash, but 29 people of the 30 people on board were 
        injured, three of them critically. This was the second 
        motorcoach crash involving casino workers that occurred between 
        Las Vegas and Primm. Previously, a crash injured at least 25 
        people before the motorcoach burst into flames and was 
        destroyed on January 17, 2008. Once again, it appears that 
        there may have been a problem of tire tread separation that 
        could have triggered the rollover crash.\8\
---------------------------------------------------------------------------
    \8\ Third Bus Crash in Three Days Injures 20, CNN, Aug 11, 2008, 
available at http://articles.cnn.com/2008-08-11/us/nevada.bus_1_bus-
nevada-highway-patrol-church-trip?_s=PM:
US.

    These cases, even without the benefit of a thorough crash 
        investigation, point out two serious safety problems. First, in 
        the Sherman, Texas crash, the illegal operation of the company 
        is an extremely serious issue, especially in light of the 
        company history of safety problems. Unfortunately, FMCSA 
        currently has authority only to impose fines for such conduct. 
        Criminal penalties are not available for such illegal operation 
        but are clearly appropriate where the company owners and 
        officers neglect safety and take such intentional actions in 
---------------------------------------------------------------------------
        defiance of legal orders.

    Second, although there are many safety issues and factors in these 
        crashes that will be investigated, it appears that tire tread 
        separation may have been a major contributing factor to both 
        the Angel Tours and Primm, Nevada, crashes. Although retreaded 
        tires are allowed by FMCSA on the other, non-steering axles of 
        motorcoaches, and on tractor-trailer rigs and straight (single-
        unit) trucks operated in interstate commerce, there are no 
        Federal standards administered by NHTSA specifying the quality 
        and safety performance of retreaded tires on commercial motor 
        vehicles. At the present time, there are only voluntary 
        industry standards. Advocates asked the agency more than a 
        decade ago to adopt such standards to ensure that retreated, 
        recapped, and regrooved commercial motor vehicle tires met the 
        same safety performance requirements as new tires. However, 
        NHTSA has failed to put forward any proposal to adopt a 
        performance standard for retreaded tires on motorcoaches and 
        other commercial vehicles.

  <bullet> Bluffton University Motorcoach Crash: On March 2, 2007, a 
        motorcoach hired to transport the Bluffton University baseball 
        team from Ohio to Georgia vaulted a bridge parapet after taking 
        a left exit ramp that led to a perpendicular entrance to an 
        overpass above I-75 in Atlanta, Georgia. The vehicle struck the 
        bridge parapet at right angles and plunged to the roadway below 
        the ramp. Of the 35 passengers and a driver on board, seven 
        were killed and several others, including the coach of the 
        school's baseball team, were transported to the hospital with 
        severe injuries. Twelve of the motorcoach's occupants were 
        ejected, four through the windshield or left front side windows 
        even before the motorcoach left the roadway, and six passengers 
        were ejected through the left side windows when the vehicle 
        slammed into I-75, the impact that stopped its fall.

    None of the occupants on-board had three-point safety belts 
        available to restrain them. Of the 59 seats on board, only the 
        driver's seat, the ``jump seat,'' and the first row of two 
        passenger seats immediately behind the driver had two-point lap 
        belts. The driver and his wife, both of whom had fastened their 
        lap belts, died.

    The company that operated the over-the-road bus, Executive Coach, 
        received a Satisfactory safety rating from FMCSA on April 4, 
        2007, only a month following the crash. However, NTSB's 
        findings and recommendations produced by its investigation 
        listed several major deficiencies in motorcoach operating 
        safety.\9\ The vehicle issues identified by NTSB included the 
        lack of interior occupant impact protection; the ease with 
        which unrestrained passengers were ejected through large side 
        windows; and FMCSA's inadequate motor carrier driver oversight. 
        The driver issues included the fact that the motorcoach 
        driver's medical certification had expired, the driver's 
        logbook clearly had been falsified, and that the driver had 
        medical conditions and had taken medications that may have 
        impaired his ability to drive. Also, the company that operated 
        the motorcoach had no formal driver training program, no 
        written policies on driver procedures such as an emergency 
        response protocol for evacuation and other passenger safety 
        needs, and the company's alcohol and drug testing program did 
        not comply with Federal requirements.\10\
---------------------------------------------------------------------------
    \9\ Bluffton University Motorcoach Crash Report.
    \10\ Title 49 CFR  382.305.

    It should be pointed out that motorcoaches in foreign countries 
        equip their vehicles with safety protection features not 
        provided for passengers in the United States. For example, the 
        motorcoach that was involved in the Atlanta, Georgia, crash 
        only had a few lap belts in the front seating positions and was 
        not equipped with three-point lap/shoulder belts. The same 
        motorcoach built in Australia comes equipped with three-point 
        lap/shoulder seat belts at every seating position and with 
        seats and their floor anchors tested for maximum crash 
---------------------------------------------------------------------------
        resistance.

  <bullet> Hurricane Rita Nursing Home Motorcoach Crash: On September 
        23, 2005, a motorcoach operated by Global Limo, Inc., carrying 
        assisted living and nursing home residents fleeing the imminent 
        landfall of Hurricane Rita, caught fire and exploded, initially 
        killing 24 of the 44 people on board who were residents and 
        employees of a Dallas-area home for seniors. Most of the 
        residents of the senior living facility had moderate to severe 
        disabilities and were not able to evacuate the motorcoach 
        during the fire without assistance. Evacuation involved 
        concerted efforts by the nursing staff, rescue personnel, and 
        bystanders who were able to help the residents exit the 
        motorcoach.

    NTSB found that the motorcoach was operated in an unsafe manner and 
that FMCSA oversight of motorcoach safety was lax. The major safety 
issues identified through the NTSB investigation included poor fire 
reporting information and inconsistent data in Federal crash data 
bases; FMCSA's ineffective compliance review program; lack of adequate 
emergency exits from motorcoaches; lack of fire resistant motorcoach 
materials and designs; inadequate manufacturer maintenance information 
on wheel bearing components; transportation of highly flammable, 
pressurized aluminum cylinders; and poor safety procedures for the 
emergency transportation of persons with special needs.\11\
---------------------------------------------------------------------------
    \11\ Motorcoach Fire on Interstate 45 During Hurricane Rita 
Evacuation Near Wilmer, Texas, September 23, 2005, National 
Transportation Safety Board, 2007, Highway Accident Report NTSB/HAR-07/
01, available at http://www3.ntsb.gov/publictn/2007/HAR0701.pdf.
---------------------------------------------------------------------------
    While the driver of the Global Tours motorcoach possessed a Mexican 
commercial driver's license, the Licencia Federal de Conductor (LFC), 
he had not obtained a Texas-issued commercial driver's license (CDL), 
even though the driver had been in the U.S. since at least February 
2005. Drivers are required to apply for a Texas-issued CDL within 30 
days after taking up residence in Texas. This means that the driver had 
no legal CDL or federally-required commercial driver medical 
certificate, nor had he complied with requirements to prove his 
identity, provide a social security number, supply documentation of 
vehicle registration and liability insurance, and surrender his LFC. 
These are legal requirements for drivers that the company should have 
ensured were being met. Also, the driver was unable to communicate in 
English, relying on an interpreter for his post-crash interviews, 
another violation of FMCSA regulations.\12\ According to NTSB, the 
driver may have been fatigued at the time of the motorcoach fire. The 
driver had violated multiple requirements of the FMCSA hours of service 
regulations (HOS), including having failed to take a minimum of 8 
consecutive hours off-duty before working or driving, and driving for 
over 15 consecutive hours starting at 3 PM on September 22, 2005, until 
the fire began at about 6 AM on September 23, 2005.
---------------------------------------------------------------------------
    \12\ Title 49 CFR  391.11(b)(2).
---------------------------------------------------------------------------
    FMCSA conducted a compliance review (CR), the agency's method of 
assessing the safety of a motor carrier,\13\ of the company on February 
6, 2004, and found seven violations of the Federal Motor Carrier Safety 
Regulations (FMCSR). Nevertheless, FMCSA issued a Satisfactory safety 
rating to the motor carrier just 6 days later, even though the company 
had multiple Out of Service (OOS) violations prior to the CR and more 
driver OOS violations prior to the September 23, 2005, motorcoach fire. 
An Unsatisfactory safety rating cannot be triggered unless violations 
have occurred in both driver and vehicle categories.
---------------------------------------------------------------------------
    \13\ See, 49 CFR Pt. 385 for a description of FMCSA's safety rating 
process.
---------------------------------------------------------------------------
    According to NTSB in its report, the motorcoach itself was 
evidently inadequately maintained. Inadequate lubrication of an axle on 
the vehicle led to ``frozen'' bearings that generated extreme heat 
that, in turn, triggered the fire. Fires in motorcoaches are started 
from various sources, such as engine compartments, electrical wiring 
and batteries, auxiliary heaters, and underinflated or failed tires. 
Motorcoach fires consume many of the materials from which the vehicles 
are manufactured, and are evidently a chronic problem, as admitted by 
the former Administrator of FMCSA before the House Committee on 
Transportation and Infrastructure, Subcommittee on Highways, Transit, 
and Pipelines on March 2, 2006.\14\ In fact, motorcoach floors are 
usually made of sheets of plywood.
---------------------------------------------------------------------------
    \14\ http://testimony.ost.dot.gov/test/Sandberg1.htm, May 2, 2006.
---------------------------------------------------------------------------
Comprehensive Motorcoach Safety Improvements Are Stalled at DOT 
        Despite Urgency
    From this brief review of just a few motorcoach crashes and fires, 
it should be evident that motorcoach safety has not been a primary 
focus of Federal agencies or the bus industry and is in dire need of 
regulatory action to improve safety. The NTSB has been issuing safety 
recommendations to the motorcoach industry and the U.S. Department of 
Transportation (DOT) and its agencies for decades, but those 
recommendations essentially have been ignored. Unfortunately, very few 
NTSB recommendations have been implemented by NHTSA and FMCSA, and 
certainly not in the complete and effective manner that NTSB 
recommended.
    In the Bluffton University Motorcoach Crash Report, NTSB reviewed 
the 40-year history of its frustrated attempts at achieving agency 
action in accordance with multiple recommendations for motorcoach 
drivers, passengers, vehicles, and operations. NTSB asserted that 
``motorcoaches transport a substantial number of people traveling in a 
single vehicle with a high exposure to crash risk,'' with other special 
safety requirements, and that ``[t]hese factors demand that 
motorcoaches meet the highest level of safety.'' \15\ NTSB also stated 
in its findings and recommendations that NHTSA had unacceptably delayed 
defining and acting on regulations for motorcoach occupant protection 
safety performance standards, emphasizing that the traveling public in 
motorcoach trips were inadequately protected during collisions, 
especially in rollovers.\16\
---------------------------------------------------------------------------
    \15\ Bluffton University Motorcoach Crash Report at 52.
    \16\ Id. at 54.
---------------------------------------------------------------------------
    For example, NTSB has repeatedly asked NHTSA to require stronger 
seats and to mandate seat belt assemblies at every designated seating 
position in motorcoaches. But NTSB finally had to close out these 
recommendations with notations of ``Unsatisfactory Action'' because 
NHTSA continually deflected NTSB's recommendations on requiring 
stronger seats and mandating seat belts.\17\
---------------------------------------------------------------------------
    \17\ For example, see NTSB's recommendation H-71-35 that was closed 
out on October 29, 1975.
---------------------------------------------------------------------------
    But NTSB did not give up, despite NHTSA's endless inaction. Over 
and over it beat the drum in support of occupant restraints with 
successive reports on horrific motorcoach crashes where restraints 
would have saved many lives. For decades NHTSA deflected every one of 
those recommendations. There are many other examples of critical 
motorcoach safety recommendations sent to NHTSA since 1968 that were 
ignored--and the result was more deaths and injuries that could have 
been prevented.
    Similarly, the Federal Highway Administration (FHWA), and its 
successor agency, FMCSA, have also rebuffed many NTSB recommendations 
over the years, despite evidence showing the need for major safety 
countermeasures for existing passenger motor carriers and for 
improvements in FMCSA enforcement. NTSB was frustrated with FMCSA's 
enforcement scheme for motor carrier safety violations because the 
agency would provide Satisfactory ratings to motor carriers even if 
they had several serious driver or vehicle violations. FMCSA's policy 
is that there must be violations in both areas to trigger an 
Unsatisfactory rating that could result in a company ordered to stop 
operations. But NTSB recommended that serious violations in either area 
should be enough to trigger imposition of an Unsatisfactory rating.\18\ 
In this regard it must be pointed out that Angel Tours before the 
Sherman, Texas crash had a Satisfactory rating because although FMCSA 
had recorded several driver violations, there were no vehicle 
violations for the company. Accordingly, under that rating system, 
FMCSA had no basis for threatening the company with an Unsatisfactory 
safety rating. FMCSA has repeatedly avoided acting on this NTSB 
recommendation, despite several reports from the U.S. DOT Office of the 
Inspector General and Government Accountability Office demonstrating 
multiple weaknesses in FMCSA enforcement regimes and actions.\19\
---------------------------------------------------------------------------
    \18\ NTSB Safety Recommendation H-99-6, ``Change the safety fitness 
rating methodology so that adverse vehicle and driver performance-based 
data alone are sufficient to result in an overall unsatisfactory rating 
for the carrier'', issued February 26, 1999, added to NTSB Most Wanted 
List: 2000, ``Selective Motorcoach Issues,'' NTSB/SIR99/01, p. 37. 
Available at http://www3.ntsb.gov/publictn/1999/SIR9901.pdf.
    \19\ See, e.g., Commercial Motor Vehicles: Effectiveness of Actions 
Being Taken to Improve Motor Carrier Safety Is Unknown. Report to the 
Chairman, Subcommittee on Transportation and Relative Agencies, 
Committee on Appropriations, House of Representatives, GAO/RCED-001-89 
(July 2000); Significant Improvements in Motor Carrier Safety Program 
since 1999 Act but Loopholes for Repeat Violators Need Closing, OIG 
Report Number MH<INF>2</INF>006-046, April 21, 2006; Improvements 
Needed in Motor Carrier Safety Status Measurement System, OIG Report 
Number MH-2004-034, (Feb. 2004); A Statistical Approach Will Better 
Identify Commercial Carriers That Pose High Crash Risks Than Does the 
Current Federal Approach, GAO-07-585 (June 2007); Motor Carrier Safety: 
Federal Safety Agency Identifies Many High-Risk Carriers but Does Not 
Assess Maximum Fines as Often as Required by Law, GOA-07-584 (Aug. 
2007).
---------------------------------------------------------------------------
Federal Legislation Is Needed to Direct DOT to Implement Comprehensive 
        Motorcoach Safety Reforms and Comply with NTSB Recommendations
    The delays and excuses by the bus industry and DOT can no longer be 
tolerated as innocent people die and are badly injured. The Congress 
must to step in and ensure that the safety improvements NTSB has 
recommended for decades are adopted by the DOT agencies with the 
authority to issue motor vehicle and motor carrier regulations. 
Experience has shown that when Congress requires safety action, the 
agencies find the ways and means to meet the challenge. Several years 
ago, the Senate Commerce Committee took a leadership role in addressing 
deadly rollover crashes and other major motor vehicle safety issues. In 
the Safe, Accountable, Flexible, Efficient Transportation Equity Act of 
2005--A Legacy for Users (SAFETEA-LU),\20\ Congress required NHTSA to 
issue regulations on safety problems that had languished for years 
without agency action. NHTSA has taken action to comply with each of 
those vehicle safety rulemaking requirements. More recently, the 
Cameron Gulbransen Kids Transportation Safety Act of 2007 \21\ required 
NHTSA to issue rules on safety problems to protect children from 
dangers in vehicles that the agency had previously refused to address. 
The agency is in the process of meeting its statutory obligations under 
that law.
---------------------------------------------------------------------------
    \20\ Safe, Accountable, Flexible, Efficient Transportation Equity 
for the Twenty-First Century: A Legacy for Users, Pub. L. 109-59 (Aug. 
10, 2005).
    \21\ Cameron Gulbransen Kids Transportation Safety Act of 2007, 
Pub. L. 110-189 (Feb. 28, 2008).
---------------------------------------------------------------------------
    There is absolutely no doubt that when Congress sets the safety 
agenda, the Federal agencies respond quickly by developing action 
plans, conducting tests, and issuing rules that improve transportation 
safety. This is the model that Congress should follow for motorcoach 
safety.
    The right vehicle to accomplish this approach has already been 
introduced in Congress--The Motorcoach Enhanced Safety Act of 2011. 
This pending legislation, S. 453, introduced on March 2, 2011, by 
Senators Sherrod Brown (D-OH) and Kay Bailey Hutchinson (R-TX), and its 
companion bill in the House, H.R. 873, introduced by Representative 
John Lewis (D-GA), sets a reasonable and achievable regulatory safety 
agenda for reforming motorcoach safety. The Motorcoach Enhanced Safety 
Act deals with each of the major aspects of motorcoach safety: vehicle 
design and performance, operating safety and inspection, and driver 
safety, including training and medical certification.
    The Motorcoach Enhanced Safety Act addresses almost all NTSB safety 
issues in a comprehensive manner, including crash protection of 
occupants, such as seat belts and windows that prevent occupant 
ejection in crashes; protection against roof crush, especially 
catastrophic single-vehicle events involving rollovers; improved fire 
protection and the need to use materials and technology to assist in 
fire resistance and suppression; better methods to facilitate passenger 
evacuation in emergency conditions; crash avoidance technology, such as 
adaptive cruise control and electronic stability control to prevent 
crashes; vehicle maintenance and inspection needs; and operator 
qualifications, including driver skills and medical certification. 
Finally, the Motorcoach Enhanced Safety Act sets very reasonable 
timelines for DOT, NHTSA and FMCSA to review the safety problems, 
complete testing, conduct rulemaking and issue safety rules to 
implement those recommendations so that lives can be saved and injuries 
prevented as soon as possible.
    The Motorcoach Enhanced Safety Act, is supported by parents and 
relatives of victims and survivors of motorcoach crashes. Many family 
members who lost relatives in motorcoach crashes have traveled to 
Capitol Hill numerous times since the bill was first introduced in 
2007. The bill is also strongly supported by Advocates and safety 
groups, including Public Citizen, Center for Auto Safety, Citizens for 
Reliable and Safe Highways (CRASH), Consumers for Auto Reliability and 
Safety, the Trauma Foundation, the Consumer Federation of America and 
the Enhanced Protective Glass Automotive Association.
    The DOT agencies with responsibility for motorcoach safety, NHTSA 
and FMCSA, have failed to fulfill their safety missions. Although NHTSA 
has proposed a rule for 3-point seat belts on motorcoaches, the agency 
has failed to move quickly to adopt other NTSB recommendations for 
crash protection and crash avoidance, even though some of those safety 
improvements were included in a motorcoach safety research and testing 
program and the DOT motorcoach safety plan. It is evident that, without 
a Congressional directive to issue safety standards based on the NTSB 
recommendations, there is no assurance that the agency will address all 
the safety issues identified by the NTSB over the years, much less 
establish stringent safety standards that adopt those recommendations 
in a timely manner.
    FMCSA has been entirely delinquent in its role as the federal 
administrator of safe motorcoach operations. As with its duties to 
improve general motor carrier safety, FMCSA has failed to issue or 
properly enforce even the most basic safety requirements and has shown 
no inclination to be proactive regarding the adoption of safety 
standards and regulations to improve public safety on motorcoaches. 
FMCSA rarely acts proactively and needs to be compelled by explicit 
Congressional legislation to take action and, even then, the agency 
frequently fails to comply with either the clear letter of the law or 
to meet legislated deadlines. The safety community has had to 
repeatedly sue FMCSA to compel the agency to comply with Congressional 
mandates and issue effective regulations to improve key areas of motor 
carrier safety.
    While our testimony cannot survey all the safety provisions 
addressed in these comprehensive bills, the remainder of this testimony 
highlights the major gaps in motorcoach safety and how key provisions 
of S. 453 and H.R. 873 will save lives, prevent injuries, and reduce 
other motorcoach crash losses.
Motorcoach Occupant Protection is Inadequate and Contributes to Deaths 
        and Injuries
    There are serious deficiencies with the crashworthiness features of 
motorcoaches for protecting occupants against severe and fatal 
injuries. In the 2007 Bluffton University motorcoach crash in Atlanta, 
GA, and in many others investigated in the last several years by NTSB, 
occupants were ejected through side windows and the windshield. Serious 
injuries and deaths in motorcoach rollover crashes are highly 
predictable when these vehicles do not have three-point seat belts and 
fail to have the kind of windows that could withstand a crash and 
prevent ejection. These severe occupant safety defects have been 
documented time and again in NTSB investigations and reports.
    While NHTSA has established 22 separate standards for vehicle 
crashworthiness as part of the Federal Motor Vehicle Safety Standards 
(FMVSS) administered by the agency, nearly all of these are for light 
motor vehicles (mainly light passenger vehicles that weigh less than 
10,000 pounds). Most of these standards exempt motorcoaches with gross 
vehicle weight ratings of over 10,000 pounds. For example, no NHTSA 
safety regulation requires that motorcoaches in the U.S. have any 
occupant protection systems of any kind, including seat belts, seat 
mounting retention, seatback strength, whiplash protection, or upper 
and lower vehicle interior occupant impact protection. Although 
motorcoaches are required to comply with requirements specifying 
motorcoach window retention and release for evacuation (FMVSS No. 217), 
and governing the flammability of interior materials (FMVSS No. 302), 
motorcoaches do not have to comply with many safety standards required 
for other types of buses, including school buses, and for passenger 
vehicles. As a result, motorcoach passengers are not afforded the same 
basic safety features and types of protection required for passengers 
in other vehicles.
    Among the important safety shortcomings that need to be improved in 
motorcoaches, the Motorcoach Enhancement Safety Act would require:

  <bullet> Seat belts: Three-point lap/shoulder belt systems have been 
        required for passenger vehicles since 1968 and are required on 
        smaller buses and on big passenger vans, yet are not required 
        in motorcoaches. Lap/shoulder belt restraint systems, not just 
        lap belts, are essential for keeping motorcoach occupants in 
        their seats to avoid injuries sustained within the compartment 
        in all crash modes.

  <bullet> Rollover: Motorcoaches are very top heavy, with high centers 
        of gravity especially when fully laden with passengers, so 
        their rollover propensity is much higher than for smaller 
        passenger vehicles. Crash avoidance technology such as 
        electronic stability control, now required on light passenger 
        vehicles, and adaptive cruise control can help keep 
        motorcoaches out of crashes in the first place. But since 
        rollovers of motorcoaches are inevitable, a strong roof crush 
        resistance safety standard is needed to ensure the structural 
        integrity of the roof that preserves occupant survival space 
        and prevents infliction of severe occupant trauma.

  <bullet> Ejection: A major safety issue in motorcoaches is preventing 
        occupants from being ejected during a crash, especially in a 
        rollover. According to NHTSA, more than half of the deaths in 
        motorcoach crashes are the result of occupant ejections. More 
        than one-third of all deaths of motorcoach occupants in 
        motorcoach crashes occur in rollovers, and occupant ejection is 
        the reason for 70 percent of occupant deaths in motorcoach 
        rollovers.\22\ Three-point lap shoulder belts are the first 
        line of defense against ejection. But in addition, for those 
        who are not wearing seat belts at the time of a crash, advanced 
        window glazing that can survive crash impacts will prevent 
        occupant ejection and save more lives.
---------------------------------------------------------------------------
    \22\ NHTSA's Approach to Motorcoach Safety, Aug. 6, 2007.

    The major topics of occupant restraint within the motorcoach 
passenger compartment and the additional prevention of ejection in 
catastrophic events have been engaged by both the European Economic 
Community \23\ and Australia.\24\ Three-point belts restraining 
motorcoach occupants became mandatory in Australia 14 years ago, the 
European Union has just mandated that passengers must wear safety belts 
in motorcoaches beginning in May 2008, and anyone traveling by 
motorcoach in Japan must use their safety belts beginning June 2008. It 
is obvious that keeping motorcoach occupants safely in their seats is 
desperately needed so that passengers do not impact each other, strike 
unforgiving interior surfaces and equipment in motorcoaches, and are 
prevented from being thrown from the vehicle. Three-point lap/shoulder 
belt restraints initially are the best way to accomplish keeping each 
passenger in their seat. The rest of the world is moving on to higher 
levels of crash protection for motorcoach occupants while U.S. safety 
regulators fail to take action.
---------------------------------------------------------------------------
    \23\ E. Mayrhofer, H. Steffan, H. Hoschopf, Enhanced Coach and Bus 
Occupant Safety, Paper 05-0351, Graz University of Technology Vehicle 
Safety Institute, Austria, 2005.
    \24\ M. Griffiths, M. Paine, R. Moore, Three Point Seat Belts on 
Coaches--The First Decade in Australia, Queensland Transport, 
Australia, Abstract ID -5-0017, 2005. The authors report that, since 
1994 when 3-point belts were required in motorcoaches, several serious 
crashes have occurred, no belted coach occupant has received either 
fatal or disabling injuries.
---------------------------------------------------------------------------
    The Motorcoach Enhanced Safety Act bill contains the provisions 
necessary to direct NHTSA to dramatically improve motorcoach 
crashworthiness in all crash modes, including rollovers, as well as in 
side and frontal impacts. Without congressional directives requiring 
the issuance of new and improved safety standards by specific dates, 
NHTSA will intermittently study the safety issues over many years 
without addressing the major motorcoach crashworthiness and crash 
avoidance safety issues that NTSB long ago recommended should be 
adopted. NHTSA has proven over and over that it will delay major safety 
standards that can save lives and prevent injuries, not only for years, 
but also for decades, unless Congress gives it a mandate in no 
uncertain terms and with firm deadlines for action.
The Cost of the Lifesaving Technologies in the MESA Bill are Minimal
    The MESA bill proposes to provide motorcoach passengers the same 
type of life-saving technologies that are already available and 
standard equipment in passenger vehicles. These technologies are 
already being offered and advertised as options by a number of 
motorcoach manufacturers. The technologies include seatbelts, enhanced 
protective interiors, collision avoidance devices, electronic stability 
control systems, tire pressure monitoring systems, crashworthiness 
protections, and event data recorders. However, the public has no 
assurance of the performance quality or effectiveness of these systems 
because they are not required to meet any minimum government safety 
standards.
    The cost of building-in these safety features for new vehicles is 
minimal compared to the cost in terms of lives lost in just a single 
major motorcoach crash. For example, the recent March 12, 2011 bus 
crash in New York resulted in 15 fatalities. That one crash alone 
generated $90 million in costs related just to the fatalities suffered 
in the crash based on the current Department of Transportation (DOT) 
value of a statistical life which is set at $6.0 million.\25\ That 
figure does not include the costs associated with the numerous injuries 
to the surviving passengers or the huge emotional toll on the families 
of those killed and injured. This cost is astronomical even when 
compared with even the motorcoach industry's grossly inflated per 
vehicle estimated cost of between $80,000 and $89,000 for adoption of 
the safety advances required in the MESA bill, and including some 
additional requirements cited by the industry that are not included in 
the bill. In other words, the costs associated with the loss of life in 
the recent New York bus crash could pay for all of the safety advances 
proposed for a fleet of over 1,000 new motorcoaches.
---------------------------------------------------------------------------
    \25\ U.S. DOT Memorandum from Joel Szabat, Deputy Assistant 
Secretary for Transportation Policy to Secretarial Officers and Modal 
Administrators, dated March 18, 2009, updating the previous figure of 
$5.8 million in the Departmental Guidance Memorandum, Published 
February 5, 2008.
---------------------------------------------------------------------------
    A number of the safety technologies included in the MESA bill have 
already been developed in other vehicles and are being voluntarily 
installed in motorcoaches. For example, the Bolt Bus (a collaboration 
between Greyhound and Peter Pan Bus Lines) already has seat belts 
installed in its vehicles and Greyhound announced in 2009 the purchase 
of a new 140 bus fleet equipped with seat belts and advanced seating 
which provide occupant compartmentalization. In addition, some new 
buses include electronic stability control (MCI, Prevost, Volvo, Van 
Hool), advanced glazing (Prevost, MCI), occupant compartmentalization 
(Prevost), greater roof protection (Volvo, Prevost, Van Hool, 
Girardin), tire pressure monitoring systems (Prevost, MCI, Van Hool), 
and some form of fire protection and suppression systems (MCI, Volvo, 
Prevost, Van Hool).
The Motorcoach Industry Cost Estimates are Exaggerated
    The motorcoach industry cost figures, however, are highly inflated 
and unreliable. The motorcoach industry has recently circulated their 
opinion on the costs that will be associated with the adoption of the 
safety measures included in the MESA bill. The correct term is 
``opinion'' because for many of the safety features the industry 
provides limited or no support for the inflated cost figures and cites 
no references for the sources of their estimates. The anonymous and 
undated document disseminated by the motorcoach industry, called the 
``per-bus estimated cost,'' estimates that the improvements required in 
the MESA bill will cost between $80,000 and $89,000 per motorcoach. 
This ludicrous estimate, nearly 20 percent of the current cost of a new 
motorcoach, is yet another example of a tactic used by an industry that 
opposes safety and occupant protection--inflating the real cost of 
safety technology. Furthermore, while the bus trade association is 
purposefully throwing around these absurd and exaggerated cost figures, 
it has presented no direct data on vehicle safety costs because this is 
proprietary information known to the suppliers and manufacturers and is 
not shared with the trade association that lobbies on behalf of the 
companies as a whole. It is also not evident whether the numbers 
represent cost or price information--a big difference. In the past, 
this very same approach has been used by automobile manufacturers to 
oppose airbags and electronic stability control systems.
    The most poignant example is the regulation of airbags in passenger 
vehicles. At the time when rulemaking on airbags was being initiated, 
industry representatives stated that the cost per airbag would be 
between $1,200 and $1,500. Later, information obtained by a Member of 
Congress who demanded that General Motors supply its true cost figures 
revealed that the actual cost of manufacturing frontal airbags was 
between $150 and $175. The industry was quoting prices 10 times their 
actual cost. Today, as a result of mass production and further 
technological improvements, the per-unit manufacturing cost of far more 
sophisticated airbag units is only about $30. Furthermore, despite the 
adamant opposition of industry to the airbag mandate, which they fought 
for over twenty years, today it is tough to find even a single 
contemporary motor vehicle advertisement or sales pitch that does not 
tout the safety performance of the vehicle's airbag systems.
    Another example of this industry tactic of inflating costs occurred 
in the regulation of electronic stability control systems or ESC. ESC 
was among the safety technology improvements required as part of the 
SAFETEA-LU legislation that was crafted by the Senate Commerce, 
Science, and Transportation Committee and this subcommittee in 2005. 
Before that legislation was enacted, manufacturers asserted that the 
cost of including ESC systems was very high. An earlier Australian 
government study found that auto manufacturers were charging as much as 
$2,254 for ESC as a vehicle option. The Australian government study 
identified the ``approximate reasonable cost'' of ESC as $649. In 
opposing the SAFETEA-LU provision, manufacturers claimed much higher 
costs for ESC but NHTSA found, in a 2005 teardown analysis, that the 
estimated incremental per-vehicle cost of ESC was actually only $58.
    Available safety technologies have already been developed and 
tested that will improve motorcoach occupant protection at reasonable, 
not exorbitant, cost. While the motorcoach industry, the motor carriers 
and fleets that purchase motorcoaches object to adding safety on the 
buses they buy, motorcoach manufacturers and suppliers are already 
providing these technologies either as options or as standard equipment 
on new motorcoaches at costs far below those in the industry cost 
document.
Effective Motorcoach Operation Safety Oversight and Enforcement is 
        Lacking
    According to figures from FMCSA,\26\ there are about 3,700 U.S. 
passenger-carrying companies conducting interstate operations employing 
100,000 drivers to operate about 34,000 to perhaps 40,000 
motorcoaches.\27\ Many of the Federal motor carrier safety regulations, 
FMCSRs, that govern commercial motor carriers, vehicles, and drivers 
generally, also apply to motor carriers of passengers. Despite the 
relatively small numbers of motorcoaches and motorcoach companies, 
FMCSA is failing in its stewardship responsibilities for motorcoaches 
as badly as it is for large trucks.
---------------------------------------------------------------------------
    \26\ http://www.fmcsa.dot.gov/facts-research/facts-figures/
analysis-statistics/cmvfacts.htm. There are no separate figures for 
motorcoaches provided, but the United Motorcoach Association estimates 
that there are probably about 45,000 to 50,000 commercial over-the-road 
motorcoaches in the U.S. There is, in addition, an unknown number of 
``private'' motorcoaches such as those used for schools, church groups, 
and other organizations, some of which are interstate and must conform 
to most Federal Motor Carrier Safety Regulations. It is difficult to 
reconcile these figures with those from FMCSA (see, the text and 
footnote below) and the figures provided by the American Bus 
Association in its Motorcoach Census 2005: Second Benchmarking Study of 
the Motorcoach Industry in the United States and Canada, September 
2006, in which it is stated that in 2004 the industry consisted of 
3,500 companies operating nearly 40,000 motorcoaches.
    \27\ See, Statement of John Hill, Administrator, Federal Motor 
Carrier Safety Administration, before the House Committee on 
Transportation and Infrastructure, Subcommittee on Highways, Transit, 
and Pipelines, March 20, 2007. Also, see, http://ai.fmcsa.dot.gov/
International/
border.asp?dvar+3&cvar=pass&redirect=HistoricalOverview.asp&p=1. 
However, there are substantial discrepancies throughout FMCSA's website 
on the number of passenger carriers. For example, one page providing 
figures states that there were 5,211 passenger carriers registered with 
the agency as of 2006. http://www.fmcsa.dot.gov/facts-research/facts-
figures/analysis-statistics/cmvfacts.htm. There is no explanation of 
what kinds of passenger carriers this includes.
---------------------------------------------------------------------------
    Almost all of NTSB's 40 years of investigated motorcoach crashes 
have resulted in findings that encompass vehicle performance, 
maintenance, inspection, driver qualifications, and motor carrier 
company safety management. The examples of recent motorcoach crashes 
provided earlier in this testimony confirm that multiple safety 
problems afflict all aspects of interstate motorcoach operations. 
Although severe motorcoach crashes often appear at first glance to be 
the result of an isolated problem, digging deeper almost always reveals 
multiple problems involving vehicle maintenance, driver qualifications 
and performance capabilities, and company safety management. NTSB has 
confirmed this multifactorial nature of motorcoach crashes to be true 
in numerous crash investigations.
    FMCSA has not only failed to adopt NTSB's safety recommendations, 
the agency has also failed to issue other safety regulations needed to 
improve motor carrier and motorcoach safety. As a result, major areas 
of driver training and certification, motorcoach safety inspection, 
data quality and systems for identifying potentially dangerous 
motorcoach companies, and agency oversight and enforcement of the 
FMCSRs are undeniably inadequate as had been documented repeatedly by 
the U.S. DOT's OIG and by GAO. Key rulemaking actions to address these 
and other issues languish year after year without action. The 
Motorcoach Enhanced Safety Act directs FMCSA to address major 
deficiencies in its regulations governing driver qualifications, 
vehicle safety condition, and motor carrier safety management.
    Motor carrier safety issues that directly impact motorcoach 
operating safety include:

  <bullet> Weak Federal and State Requirements for Motorcoach Driver 
        Training Among the many areas in the Motorcoach Enhanced Safety 
        Act aimed at improving motorcoach operational safety are 
        provisions intended to substantially strengthen motorcoach 
        driver CDL testing and training requirements. Motorcoach 
        drivers are required to have CDLs with a passenger endorsement 
        added on the basis of a separate knowledge and skills test. 
        However, there are no substantive training requirements in 
        Federal law and regulation for entry-level commercial motor 
        vehicle drivers, and there are none for the additional 
        endorsements for operating hazardous materials vehicles, school 
        buses, or motorcoaches. In short, there is no specific Federal 
        training requirement for an interstate commercial driver 
        transporting passengers.

    Federal safety agencies spent over 20 years studying commercial 
driver training issues, producing a Model Curriculum for training both 
drivers and instructors and conducting rulemaking pursuant to Section 
4007(a) of the Intermodal Surface Transportation Efficiency Act of 1991 
(ISTEA).\28\ Despite this long background of deep involvement in the 
needs of commercial driver training, FMCSA did an abrupt about-face in 
May 2004 and issued a final rule that avoided adopting any basic 
knowledge and skills training requirements, including behind-the-wheel 
driving instruction, for entry-level commercial drivers.\29\ Instead, 
the agency published a regulation that only required drivers to gain 
familiarity with four ancillary areas of CMV operation--driver 
qualifications, hours of service requirements, driver health issues, 
and whistleblower protection. Not only did FMCSA not require driver 
training as a prerequisite for a candidate seeking an entry-level CDL, 
the agency rule excused almost all novice drivers from even being 
considered entry-level commercial drivers. This rulemaking outcome was 
a complete reversal from earlier agency statements that the majority of 
new commercial drivers were not receiving adequate training.
---------------------------------------------------------------------------
    \28\ Pub. L. 102-240, 105 Stat. 1914 (Dec. 18, 1991).
    \29\ 69 FR 29384 et seq., May 21, 2004.
---------------------------------------------------------------------------
    Since the FMCSA action reversed its own previous findings that 
basic knowledge and skills entry-level driver training was inadequate 
and should be required, Advocates and Public Citizen filed suit against 
the agency. In a unanimous decision, the U.S. Court of Appeals for the 
District of Columbia found that the final rule was arbitrary, 
capricious, an abuse of agency discretion, and remanded the rule to 
FMCSA. Advocates for Highway and Auto Safety v. FMCSA \30\ (Entry-Level 
Driver Training Decision). In its opinion, the appellate court stated 
that the rule ``focuses on areas unrelated to the practical demands of 
operating a commercial motor vehicle'' and that the rule was ``so at 
odds with the record assembled by DOT that the action cannot stand.'' 
\31\
---------------------------------------------------------------------------
    \30\ 429 F.3d 1136 (D.C. Cir. 2005).
    \31\ Id. at 3-4.
---------------------------------------------------------------------------
    Incredibly, when FMCSA reopened rulemaking on commercial driver 
training requirements in response to the adverse court decision on its 
final rule, the agency did not propose a training curriculum 
specifically designed for motorcoach operators.\32\ The curricula 
content of the proposed rule is entirely oriented toward the operation 
of trucks of different weights and configurations. The proposed rule 
has no specific requirements anywhere just for motorcoach operators.
---------------------------------------------------------------------------
    \32\ 72 FR 73226 (Dec. 26, 2007).
---------------------------------------------------------------------------
    Further, in the December 2007 FMCSA proposed rule, the minimum 
number of hours of training time for entry-level student drivers of 
motorcoaches plummets to 120 hours for students wanting to operate 
motorcoaches and other large commercial motor vehicles with ``Class B'' 
CDLs.\33\ There is no explanation anywhere in the preamble of the 
proposed rule or in the appendix of why this specific number of 
instructional hours was selected, nor why the amount of training was 
severely abbreviated from the 320 or more hours recommended in the 1985 
Model Curriculum. No final rule on entry-level driver training has yet 
been issued.
---------------------------------------------------------------------------
    \33\ 72 FR 73227-73228.
---------------------------------------------------------------------------
    Advocates regards FMCSA's entry-level driver training requirements 
for motorcoach drivers to be unspecific to the special tasks that 
motorcoach operation imposes, as perfunctory in its requirements and 
its safety impact, and as falling well short of what is needed. The 
proposed rule does not fulfill either the Court of Appeals' 
expectations or the agency's legislated responsibilities. 
Substantively, the proposed curriculum fails to ensure that motorcoach 
operators will be properly trained in the multiple, significant safety 
responsibilities the job demands. To add insult to injury, the proposed 
rule also would impose a 3-year moratorium on requiring compliance with 
training requirements for new CDL applicants.\34\ This action would 
exclude tens of thousands of new CDL applicants from badly needed 
knowledge and skills training requirements.
---------------------------------------------------------------------------
    \34\ Id. at 73231-73232.
---------------------------------------------------------------------------
    Thus, twenty years after Congress required the Secretary of 
Transportation to issue minimum entry-level driver training 
requirements, and 6 years after the Court of Appeals upheld Advocates 
legal challenge to the agency's ineffectual 10-hour classroom rule, 
because it lacked any actual behind-the-wheel driver training, there 
are still no requirements for entry-level motorcoach or truck driver 
training.

  <bullet> Compliance Reviews Do Not Stop Dangerous Motorcoach 
        Companies From Operating--A central problem undermining agency 
        effectiveness in overseeing motor carrier safety and reducing 
        FMCSR violations is the low annual numbers and percentage of 
        both roadside inspections and compliance review (CRs). Based on 
        the results of a CR, a motor carrier is assigned a safety 
        rating of Satisfactory, Conditional or Unsatisfactory. For 
        example, the Bluffton University motorcoach crash that took 
        seven lives and inflicted severe injuries involved a motorcoach 
        company that had a Satisfactory safety rating assigned 6 years 
        earlier, in January 2001. Similarly, the company that operated 
        the motorcoach that crashed in Sherman, Texas in August, 2008, 
        killing 17 people, was awarded a Satisfactory safety rating 
        despite the fact that the company had received repeated driver 
        out of service orders. The truth is that a dated Satisfactory 
        safety rating is no assurance of contemporary operating safety 
        fitness, yet companies--both rogue and more responsible--use 
        the ``Satisfactory'' designation to promote their reputations.

    The implementing regulations for conducting CRs specify criteria 
for assigning one of three safety rating categories to a motor carrier: 
Satisfactory, Conditional, Unsatisfactory.\35\ FMCSA is required by law 
to issue a safety rating to all motor carriers.\36\ However, the agency 
basically decided long ago that it would no longer attempt to fulfill 
the statutory requirement.\37\ Even without attempting to assign safety 
ratings to all motor carriers, FMCSA conducts CRs on only a tiny 
percentage of carriers. Barely 2 percent of motor carriers receive a CR 
each year, and only a tiny part of 1 percent of all registered motor 
carriers are given Unsatisfactory ratings. In 2010, only 2.5 percent of 
the nearly 15,000 motor carriers that were rated received an 
Unsatisfactory rating. On its face, it is improbable that assigning 
Unsatisfactory safety ratings to so few registered interstate motor 
carriers has any deterrent effect.
---------------------------------------------------------------------------
    \35\ The most recent statement of the governing regulations for 
determining safety fitness is the FMCSA final rule of August 22, 2000 
(65 FR 50919), which was a response to the increased stringency of 
safety fitness requirements enacted in Section 4009 of TEA-21 that 
amended 49 U.S.C.  31144, originally enacted by Section 215 of the 
Motor Carrier Safety Act of 1984 (Pub. L. 98-554). This final rule 
amended the regulations for safety fitness determinations in 49 CFR 
Pts. 385 and 386. Pt. 385 contains the controlling criteria for making 
safety fitness determinations and Pt. 386 contains the rules of 
practice for the agency controlling the issuance of CR ratings, 
petitions, hearings, orders, and other administrative machinery for 
conducting the oversight and enforcement programs of FMCSA. It should 
also be noted that FMCSA recognizes that its administrative selection 
of the three rating categories of safety fitness, Satisfactory, 
Conditional, and Unsatisfactory, has been legislatively enshrined 
through explicit mention and use of the three ratings in Section 15(b) 
of the Motor Carrier Safety Act of 1990. 49 U.S.C.  31144.
    \36\ Section 215 of the Motor Carrier Safety Act of 1984 requires 
the Secretary to maintain, by regulation, a procedure for determining 
the safety fitness of an owner or operator of commercial motor 
vehicles. 49 U.S.C.  31144.
    \37\ Motor Carrier Safety Program, DOT Office of Inspector General, 
Report Number AS-FH-7-006, March 26, 1997. The goal of assigning safety 
ratings to all motor carriers by September 30, 1992, was a self-imposed 
target by FHWA that could not be attained, as pointed out in the GAO 
report of January 1991, Truck Safety: Improvements Needed in FHWA's 
Motor Carrier Safety Program, Report No. GAO/RCED-91-30. At the time of 
GAO's preparation of this report, FHWA had not rated about 60 percent 
of interstate motor carriers. As GAO points out in this report, the 
agency decided that its safety oversight resources would be better 
spent than attempting to safety rate all motor carriers in accordance 
with legislative requirements. On October 1, 1994, FHWA discontinued 
safety reviews to assess unrated motor carriers.
---------------------------------------------------------------------------
    Other organizations and agencies have for many years called for 
improvements to the safety rating process. For example, NTSB's current 
list of the Most Wanted Transportation Safety Improvements--Federal 
Issues \38\ argues that the safety fitness regime operates too 
leniently with criteria that do not result frequently enough in motor 
carriers being shut down or drivers having their licenses revoked. 
Motor carriers with only vehicle or driver violations, but not both, 
are allowed to continue to operate. In fact, in the past, some 
motorcoach companies have been awarded Satisfactory safety ratings with 
no safety scores in any of the four rating categories under the 
previous rating system. In addition, high percentages of unrated 
motorcoaches are still listed for many states on FMCSA motorcoach 
website.\39\
---------------------------------------------------------------------------
    \38\ See, http://www.ntsb.gov/Recs/mostwanted/truck safety.htm. As 
previously mentioned, NTSB recommends that if a carrier receives an 
Unsatisfactory rating for either the vehicle factor or the driver 
factor, that alone should trigger a pending Unsatisfactory rating. 
According to NTSB, this recommendation ha been reissued annually since 
199, but FMCSA does not plan full implementation of any changes to its 
safety rating system and other oversight processes until 2010 at the 
earliest.
    \39\ http://ai.fmcsa.dot.gov/Passenger/find_carrier.asp.
---------------------------------------------------------------------------
    We have yet to determine whether the new Compliance, Safety, 
Accountability (CSA) program, with the Motor Carrier Safety Measurement 
System, which has only just been applied nationwide, will make a 
significant difference in the way FMCSA manages and enforces commercial 
vehicle safety on our highways.
    Although the FMCSA has apparently made progress in rating new 
entrant passenger motor carriers in 9 months or less, the outstanding 
backlog of unrated carriers or carriers that were last rated more than 
3 years ago still dominates the field.

  <bullet> Consumers Denied Essential, Lifesaving Information on 
        Motorcoach Safety--FMCSA's passenger motor carrier website 
        claims that it provides information on motorcoach companies so 
        that consumers can be confident that they are choosing safe 
        motorcoach companies. How does that claim hold up under close 
        examination?

    A review of the current status of safety ratings of motorcoaches 
registered in Texas is not very encouraging. There are 182 motorcoach 
companies with FMCSA interstate operating numbers. Of those, 152, or 84 
percent, have Satisfactory ratings. All the rest of the companies have 
either Conditional ratings (12), or are Unrated (18). One company's 
Satisfactory rating was awarded back in 1989--22 years ago. 
Furthermore, of the 152 Satisfactory companies, 50, or 32.6 percent, 
are in an ALERT status for at least one of the BASIC categories on 
which carriers are rated for safety under the new CSA system, and 30 
companies have insufficient information on which FMCSA could generate 
an evaluation for all the BASIC Categories. And it should be stressed 
that a Satisfactory rating for FMCSA only means that a motorcoach 
company minimally complies with the Federal safety standards for motor 
carriers--it is not a mark of superior safety.
    Similarly, consumers in New Jersey have little to choose from in 
selecting a motorcoach company with the best safety credentials for 
long-distance trips. There are 149 companies headquartered in New 
Jersey that are registered with FMCSA for interstate transportation of 
passengers. However, 32 of these businesses--21 percent or nearly a 
quarter--have no safety ratings at all. Three (3) companies are 
operating with Conditional safety ratings. No companies have 
Unsatisfactory ratings.
    One hundred and fourteen (114) New Jersey motorcoach companies 
carry Satisfactory safety ratings. One company received its 
Satisfactory rating back in 1982, and there are eight others with 
Satisfactory ratings assigned during the 1990s. It is important to 
recognize that a safety rating, even a Satisfactory rating, is just a 
snapshot of a company. A company's safety practices can quickly 
deteriorate so that a Satisfactory rating can become meaningless in a 
short amount of time. Many companies can come into compliance to 
achieve a Satisfactory safety rating only to lapse in its compliance 
with major motorcoach safety regulatory areas such as driver 
qualifications and certification, vehicle safety maintenance, and 
company safety management quality.
    Of the 114 New Jersey motorcoach companies with Satisfactory 
ratings, 15, or 13.2 percent, are in an ALERT status for at least one 
BASIC under the current CSA system and 37 companies have insufficient 
information on which FMCSA could generate an evaluation for all BASIC 
Categories. Therefore, if a consumer in New Jersey wants to apply a 
high standard for choosing a company, it would be best to use a 
motorcoach company that has a Satisfactory rating in all five BASIC 
categories. Only 2 companies of the remaining 65 companies with a 
Satisfactory rating had ratings in all 5 BASIC categories; the other 62 
companies had at least one BASIC, if not more, in which there was 
insufficient data on which to calculate a rating. Based on Advocates' 
sampling of state information on FMCSA's website, this is the case with 
most states--the listing of active motorcoach companies provided by 
FMCSA for each state, if rigorously evaluated by a consumer, is 
dramatically reduced oftentimes to only a handful of companies to 
choose from.
    When motorcoaches are stopped and inspected, the results are still 
discouraging. For 2010, 6.7 percent of the vehicle inspections resulted 
in an out of service (OOS) order. While this figure is an improvement 
over past years, it still represents a total of nearly 5,500 
motorcoaches that failed inspections and had to be placed OOS. 
Similarly, driver safety is a serious concern--driver inspections in 
2010 placed 4.8 percent of U.S. drivers of interstate motor carriers of 
passengers OOS for various violations, a total of 2,200 driver OOS 
orders. These aggregate figures are frightening, especially for patrons 
of interstate motorcoach companies, and they show slow progress in 
substantially improving motorcoach safety on a nationwide basis.

  <bullet> Unknown Status and Effectiveness of State Annual Bus Safety 
        Inspection Programs--The Secretary of Transportation is 
        required to prescribe standards for annual, or more frequent, 
        inspection of commercial motor vehicles, including 
        motorcoaches, or approve equally effective state inspection 
        programs.\40\ In 1998 the Federal Highway Administration (FHWA) 
        issued a notice on the status of state bus inspection 
        programs\41\ and subsequently listed 25 of 50 states with 
        approved, equivalent periodic inspection programs.\42\
---------------------------------------------------------------------------
    \40\ Title 49 Code of Federal Regulation (CFR) Part 396; Sec. 210 
of the Motor Carrier Safety Act of 1984 (49 U.S.C.  31142).
    \41\ 63 FR 8516 et seq. (February 19, 1998).
    \42\ 66 FR 32863 (June 18, 2001).

    It should be stressed here that the minimum period for the required 
vehicle inspection is only once a year.\43\ Since it is well known that 
inspection of CMVs, including motorcoaches, needs to be much more 
intensive and frequent than for personal or light motor vehicles, a 
once-ayear inspection regime is clearly no guarantee of safe 
motorcoaches. Many companies even in states that have bus inspection 
programs can come into compliance just for an annual inspection, only 
to allow major safety features of their motorcoaches to fall into 
disrepair or become inoperative soon after passing the annual 
inspection. Moreover, Advocates could find no information from FMCSA's 
website on the effectiveness of state motorcoach inspection programs to 
detect safety problems or how well or for how long state motorcoach 
inspection programs ensure compliance with all Federal motor carrier 
safety requirements.
---------------------------------------------------------------------------
    \43\ Section 210, Motor Carrier Safety Act of 1984, op. cit., 
codified at 49 U.S.C.  31142.
---------------------------------------------------------------------------
    Several provisions in the Motorcoach Enhanced Safety Act directly 
address the issue of timely, accurate motorcoach and bus safety 
inspections, including both FMCSA and state actions that are necessary, 
and how FMCSA must administer the state inspection programs in 
connection with the Motor Carrier Safety Assistance Program (MCSAP).

  <bullet> Electronic On-Board Recorders Are Long Overdue on 
        Motorcoaches and All Motor Carriers--Electronic On-Board 
        Recorders (EOBRs) have been increasingly used on large trucks 
        and motorcoaches for a variety of purposes, including 
        monitoring the drivers' hours of service (HOS) driving, 
        working, and off-duty time of commercial drivers, and ensuring 
        compliance with current HOS regulations. Many countries around 
        the world now require the use of EOBRs to ensure that truck 
        drivers comply with the limits of each nation's HOS. Currently, 
        all European Union countries, along with Turkey, Israel, Japan, 
        South Korea, Brazil, Venezuela, and Singapore, require 
        automated recording devices to monitor driver hours of service 
        compliance.

    EOBRs can automatically record the hours that commercial operators 
drive trucks and motorcoaches in interstate commerce. EOBRs can also 
link with engines, transmissions, and global positioning system (GPS) 
devices to record the distance and speed a commercial motor vehicle has 
traveled and whether it has used an illegal route or traversed a 
weight-posted bridge. Motor carriers that have voluntarily installed 
EOBRs are still only a small percentage of commercial motor vehicles, 
but motor carriers that use EOBRs praise the advantages they provide in 
terms of safety and efficiency since they eliminate the need for paper 
logbooks. This was stressed by a motor carrier industry witness in last 
year's hearing on EOBRs conducted by this Subcommittee.\44\
---------------------------------------------------------------------------
    \44\ ``Electronic On-Board Recorders (EOBRs) and Truck Driver 
Fatigue Reduction,'' Committee on Transportation and Infrastructure, 
Subcommittee on Surface Transportation and Merchant Marine 
Infrastructure, Safety, and Security, U.S. Senate, May 1, 2007.
---------------------------------------------------------------------------
    Commercial driver fatigue is a major safety problem for both 
motorcoach operators and truck drivers. EOBRs are especially crucial to 
raising the level of motorcoach safety by ensuring that well-rested, 
alert drivers are in charge of the safety and lives of up to 58 
occupants on-board. EOBRs can ensure that drivers do not exceed maximum 
shift driving time and that they take the required off-duty rest time 
to restore their performance at the wheel. Moreover, EOBRs on 
interstate motorcoaches permit real-time monitoring of the routing and 
location of a motorcoach so that, in the event of a serious event such 
as a crash or fire, expeditious response by emergency medical personnel 
and enforcement authorities can make a substantial difference in the 
number of deaths and severe, disabling injuries that result from these 
serious incidents.
    FMCSA should be congratulated for finally, after years of delay, 
issuing a proposed rule to require EOBRS on some commercial vehicles, 
namely those driven by truck and bus drivers who are subject to the HOS 
and records of duty status (RODS) requirements. The proposed rule was 
only recently issued and the public comment period will not close until 
late May. Advocates is supportive of the proposed rule because its 
implementation will improve safety and bring motor carrier enforcement 
into the modern era. However, we remain concerned that opposition to 
the proposal could deter the agency from issuing a final rule. For that 
reason we still believe that there is need to have congressional action 
to ensure this basic, reasonable and overdue safety improvement is 
completed without additional delay. At least with regard to 
motorcoaches, the Motorcoach Enhanced Safety Act includes a provision 
to ensure this result.
Conclusion and Recommendations
    Passenger transportation safety by over-the-road motorcoaches is 
not held to the high safety standards of commercial passenger aviation. 
Motorcoach crashes can take many lives in a single event and inflict 
severe injuries on numerous passengers. NTSB's studies and crash 
reports document the deadly outcome of a catastrophic motorcoach crash, 
and its safety recommendations provide solutions that will dramatically 
improve motorcoach safety. Because DOT and the safety agencies have not 
implemented recommended safety countermeasures, despite having had 
ample opportunity to do so and reams of supporting evidence, Congress 
must take action to increase the level of motorcoach safety and improve 
the quality of Federal and state oversight.
    Advocates recommends that the Subcommittee embrace the Motorcoach 
Enhanced Safety Act of 2007, S. 453. It had broad support in the last 
Congress and should be a top priority for this Committee and for Senate 
floor action. This legislation will ensure that motorcoach safety is 
put on an equal footing with passenger car and airline occupant safety 
by requiring basic safety improvements on reasonable timelines for U.S. 
DOT rulemaking action. The outcome in just several years would be fewer 
motorcoach crashes with fewer injuries and deaths.
    We further recommend, however, that additional provisions be added 
to S. 453 to address the need for the imposition of criminal penalties 
for persons who illegally continue to operate as a motor carrier after 
having been ordered to cease operations, to establish a performance 
standard for retreaded tires used on commercial motor vehicles, and to 
require event data recorders (EDRs) on motorcoaches to assist crash 
investigators in reconstructing how and why each motorcoach crash 
occurs. NTSB has repeatedly called for EDRs as critically important to 
passenger transportation safety.\45\
---------------------------------------------------------------------------
    \45\ See, NTSB Recommendation H-99-53, reissued as one of the NTSB 
recommendations in the recently published report on the motorcoach 
crash of the Bluffton University baseball team, ``Motorcoach Override 
of Elevated Exit Ramp Interstate 75, Atlanta, Georgia, March 2, 2007,'' 
op. cit.
---------------------------------------------------------------------------
    Thank you for the opportunity to provide this information to the 
Subcommittee on a major safety problem. Advocates looks forward to 
working with the Subcommittee and the full Committee on these issues, 
and I am prepared to respond to any questions you may have.
                              Attachments
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                  Motorcoach Crashes & Fires Since 1990
   150 Motorcoach Crashes & Fires--At Least 323 Deaths, 2,470 Injuries
------------------------------------------------------------------------
     Date             Location                 Crash Description
------------------------------------------------------------------------
3-21-11         Littleton, NH         Motorcoach traveling from Quebec
                                       to Boston on I-93 rolls onto its
                                       side and into the median after
                                       the driver loses control in icy
                                       conditions--23 injured.
3-14-11         East Brunswick, NJ    Motorcoach traveling on the New
                                       Jersey turnpike drives into the
                                       median, strikes an overpass, and
                                       slams into an embankment on the
                                       side of the road--2 killed, 41
                                       injured.
3-12-11         Bronx, NY             Motorcoach swerves, rolls onto its
                                       side, and skids along a guardrail
                                       before ramming into a support
                                       pole--15 killed, 18 injured.
2-28-11         Hagerstown, MD        Pickup truck crosses the median on
                                       I-70 and slams into a motorcoach
                                       on the shoulder of the
                                       interstate--1 killed, 6 injured.
2-27-11         Homosassa, FL         Motorcoach and passenger vehicle
                                       collide--1 killed.
2-21-11         San Bernardino, CA    Motorcoach carrying Korean church
                                       youth group drifts into opposing
                                       lane on California 189 highway,
                                       plummets down an embankment, and
                                       slams into a tree--1 killed, 23
                                       injured.
1-12-11         Palo Alto, CA         Motorcoach carrying 35 Japanese
                                       tourists catches on fire, causing
                                       heavy heat damage to the engine
                                       area and extensive smoke damage
                                       in the passenger area.
1-11-11         Bucyrus, OH           Motorcoach carrying the University
                                       of Mount Union wrestling team
                                       collides with a snow plow when
                                       the motorcoach tries to pass the
                                       vehicle on U.S. Highway 30--1
                                       killed, 4 injured.
9-29-10         Bethesda, MD          Motorcoach carrying tourists,
                                       including children, near I-270
                                       crashes through guardrail on a
                                       skyramp and falls down a 45-foot
                                       embankment, rolling over once--1
                                       killed, 12 injured.
9-29-10         Tucson, AZ            Motorcoach carrying prison inmates
                                       rear-ends a construction vehicle
                                       on I-10--2 injured.
9-28-10         Charlestown, WV       Car crosses centerline and
                                       collides head-on with motorcoach,
                                       causing the bus to go over an
                                       embankment and roll onto its
                                       side--21 injured.
9-26-10         East Ridge, TN        Motorcoach transporting college
                                       students is struck by car on I-
                                       75--16 injured.
9-18-10         Sanger, TX            Motorcoach en route from Dallas to
                                       Oklahoma City crashes into a
                                       highway barrier, ejecting some
                                       passengers through windows that
                                       broke from the impact--18
                                       injured.
9-12-10         Tillamook, OR         Tour bus catches fire on Highway
                                       101--8 injured.
9-11-10         Syracuse, NY          Motorcoach traveling from
                                       Philadelphia to Toronto crashes
                                       when the driver, using his own
                                       GPS device, attempts to drive
                                       under low clearance railway
                                       bridge--4 killed, 20 injured.
8-14-10         Englewood, NJ         A New York-bound motorcoach
                                       heading to the Port Authority Bus
                                       Terminal and a police cruiser
                                       collide--3 injured.
8-10-10         Pleasantville, PA     A motorcoach heading back to
                                       Johnstown from casinos in
                                       Harrisburg and a car collide on
                                       Route 56--1 killed.
8-08-10         Cedar City, UT        Motorcoach carrying Japanese
                                       tourists rolls over on I-15--3
                                       killed, 11 injured.
8-08-10         Polk County, TN       Motorcoach and a car collide on
                                       Highway 64--1 killed.
8-04-10         Eau Claire, WI        Motorcoach and moped collide.
7-22-10         Fresno, CA            Motorcoach carrying 36 people from
                                       Los Angeles to Sacramento strikes
                                       an overturned SUV, slams into
                                       concrete center divider, clips
                                       another vehicle, travels off the
                                       right shoulder of the highway and
                                       down a 15-foot embankment before
                                       hitting a tree--6 killed/20
                                       injured.
6-24-10         Atlantic City, NJ     A motorcoach carrying 50 gamblers
                                       from New York City's Chinatown to
                                       the seaside casino resort crashes
                                       into two other vehicles-- 24
                                       injured.
6-21-10         Rosemead, CA          Motorcoach is involved in a head-
                                       on collision after two passenger
                                       cars collide into each other and
                                       the impact pushes them into
                                       incoming traffic--23 injured.
6-10-10         Florence, KY          Motorcoach fire breaks out on a
                                       bus headed from Detroit to
                                       Tennessee--1 injured.
6-03-10         Middletown, NJ        Motorcoach flips over near I-114
                                       after the driver fell asleep at
                                       the wheel.
6-02-10         Lynchburg, VA         Two motorcoaches catch fire due to
                                       an engine component problem,
                                       causing more than $135,000 in
                                       damage, on the Liberty University
                                       campus.
5-24-10         Dearborn, MI          Motorcoach fire along eastbound I-
                                       94 closes two lanes, backs up
                                       traffic for a quarter mile.
5-20-10         High Point, NC        Motorcoach collides with van on
                                       N.C. Highway 62--2 killed.
4-26-10         Brunswick, GA         Motorcoach carrying high school
                                       band students crashes on I-95--10
                                       injured.
4-24-10         Rogers, AK            Motorcoach carrying church members
                                       returning from a retreat in
                                       Little Rock, AK rolls over on I-
                                       40--2 killed/17 injured.
3-24-10         Orlando, FL           Motorcoach is rear-ended by a Walt
                                       Disney World tour bus near the
                                       entrance of Epcot theme park--8
                                       injured
3-16-10         Campbellton, TX       A Mexican motorcoach traveling
                                       from San Antonio to Matamoros,
                                       Mexico and carrying 40 people
                                       overturns along a southern Texas
                                       highway--2 killed/30 injured.
3-05-10         Sacaton, AZ           Motorcoach en route from the
                                       central Mexican state of
                                       Zacatecas to Los Angeles rolls
                                       over on I-10 South--6 killed/16
                                       injured.
2-19-10         Buford, GA            Several motorcoaches carrying 6th
                                       grade students from Greenville,
                                       SC to Atlanta, GA are involved in
                                       a chain reaction bus crash--3
                                       injured.
2-13-10         Caddo Parish, LA      A pickup truck drifts into
                                       oncoming traffic and crashes head-
                                       on into a motorcoach carrying
                                       country music star Trace Adkins--
                                       2 killed/at least 5 injured.
1-26-10         Carbondale, IL        Motorcoach crashes into the wall
                                       of the University Place Shopping
                                       Center--4 injured.
12-20-09        LeRoy, NY             Motorcoach en route from New York
                                       City to Toronto slides off
                                       Interstate 90 after the driver
                                       nodded off.
12-19-09        Gore Hill, MT         Motorcoach en route from Helena to
                                       Great Falls collides with the
                                       rear of a pickup truck on
                                       Interstate 15--3 injured.
12-06-09        Glen, NY              Motorcoach carrying the rock band
                                       Weezer slides on ice, hits the
                                       median and some reflective posts,
                                       crosses over the median, goes
                                       over a guardrail and lands in a
                                       ditch--2 injured.
12-05-09        Casper, WY            Motorcoach crashes into an
                                       overturned tractor-trailer
                                       blocking Interstate 25 in central
                                       Wyoming--1 killed/at least 40
                                       injured.
12-04-09        Greenville, SC        Motorcoach carrying South Carolina
                                       students home from a field trip
                                       runs off the road and into trees--
                                       15 injured.
11-24-09        Oakland, CA           Motorcoach catches fire closing
                                       several westbound lanes along the
                                       eastern span of the Bay Bridge.
11-20-09        Richmond, VA          Motorcoach carrying Miley Cyrus'
                                       crew drifts off the road and
                                       overturns--1 killed/9 injured.
11-18-09        Austin, MN            Motorcoach carrying mostly senior
                                       citizens swerves off the freeway
                                       and rolls into a ditch after the
                                       driver suffered an aneurysm--2
                                       killed/21 injured.
11-13-09        Warrensburg, NY       Motorcoach carrying more than 30
                                       students from a Montreal College
                                       crashes through a guard rail and
                                       lands on the median on I-87 after
                                       the driver fell asleep at the
                                       wheel--8 injured.
11-11-09        Chatham County, GA    Motorcoach fire begins in rear
                                       tire axle, engulfing the
                                       motorcoach in flames.
10-31-09        Henry County, GA      2 the I-675 merge, flips twice and
                                       comes to a rest on its side,
                                       injuring over a dozen students.
10-10-09        McCammon, ID          Motorcoach carrying 54 high school
                                       band students crashes. Band
                                       instructor grabbed the wheel when
                                       she saw the driver slumped
                                       forward and the motorcoach
                                       veering off the road. The band
                                       instructor is fatally injured in
                                       the crash and dozens are injured.
9-27-09         Tampa, FL             Motorcoach carrying church group
                                       from Sarasota to Gatlinburg,
                                       Tennessee involved in chain
                                       reaction crash--14 taken to
                                       hospital.
9-21-09         Columbus, OH          Motorcoach carrying incoming
                                       college students crashes into a
                                       dump truck, severing the driver's
                                       right leg.
9-21-09         Cranbury, NJ          Motorcoach crashes into tractor-
                                       trailer along the New Jersey
                                       turnpike--6 injured.
9-18-09         Plymouth Twp, MI      Motorcoach catches fire while
                                       traveling from Toronto to Chicago
                                       along westbound M-14.
9-13-09         Pleasantville, NJ     Motorcoach catches fire while
                                       driving along the westbound lanes
                                       of the Atlantic City Expressway,
                                       near exit 5.
9-06-09         Newburyport, MA       Motorcoach catches fire while
                                       traveling northbound from New
                                       England to Main along 1-95. The
                                       fire is believed to have been
                                       caused by a rear tire blowout.
9-02-09         Houston, TX           Motorcoach driver crashes into a
                                       concrete barrier on the N.
                                       Freeway HOV lane--6 injured.
8-17-09         Houston, TX           Motorcoach traveling from Laredo
                                       to Houston catches fire. Driver
                                       is ticketed for expired license.
8-04-09         Dodge County, WI      Motorcoach carrying Special
                                       Olympics athletes crashes into a
                                       guardrail and turns over--8
                                       injured.
7-30-09         Moberly, MO           Motorcoach carrying high school
                                       students catches fire after a
                                       tires blows out along Highway 63--
                                       2 injured.
7-16-09         Toledo, OH            Motorcoach pulls over on I-75
                                       south after catching fire. The
                                       driver noticed smoke coming from
                                       the rear wheel well.
7-13-09         Riley County, KS      Motorcoach carrying job corps
                                       students is hit by a semi truck--
                                       at least 20 injured.
7-09-09         Lauderdale County,    Motorcoach carrying church youth
                 MS                    blows tire, flips 3 times and
                                       lands on its side--2 killed/27
                                       injured.
7-05-09         Lake George, NY       Motorcoach rolls on its side and
                                       crashes into sledge rock on the
                                       left side of the highway--1
                                       killed/8 injured.
7-03-09         Madison, WI           Motorcoach carrying 80 passengers
                                       crashes along Highway 151--17
                                       injured.
6-26-09         Toledo, OH            Motorcoach carrying high school
                                       youth orchestra strikes the back
                                       of a semi and crashes along I-80--
                                       at least 1 injured.
6-21-09         Indianapolis, IN      Motorcoach carrying Canadian semi-
                                       pro football team crashes into
                                       SUV--1 killed/11 injured.
6-06-09         South Strabane Twp,   Motorcoach rear-ends a tractor-
                 PA                    trailer--6 injured.
5-19-09         Fairfax, VA           3 motorcoaches carrying staff and
                                       students from Harrisonburg, VA
                                       elementary school involved in
                                       chain reaction crash--37 injured.
5-14-09         Carbon County, PA     Motorcoach is heavily damaged
                                       after fire that began in the
                                       engine of the vehicle.
5-03-09         Winona County, MN     2 motorcoaches carrying Winona
                                       County DARE students from a
                                       Minnesota Twins game involved in
                                       chain reaction crash--2
                                       hospitalized and dozens injured.
5-03-09         Montgomery, AL        Motorcoach carrying 29 passengers,
                                       mostly children, catches fire
                                       after brake defect.
5-02-09         Perris, CA            Motorcoach carrying 28 people
                                       aboard crashes returning from
                                       Cinco de Mayo activity sponsored
                                       by city of Colton--all 28
                                       injured.
4-27-09         Lincoln, AL           Motorcoach crashes after tire
                                       blows out--21 injured.
4-07-09         Near Franksville, WI  Motorcoach catches fire and causes
                                       major back-up along I-94.
4-03-09         Round Rock, TX        Motorcoach carrying 42 high school
                                       band students crashes--2 injured.
3-30-09         Millard County, UT    Motorcoach carrying 52 high school
                                       choir students crashes--4
                                       injured.
3-27-09         Franklin County, GA   Motorcoach carrying 40 University
                                       of New Hampshire college students
                                       catches fire after tire blows
                                       out.
3-05-09         Maysville, NC         3 Motorcoaches carrying 59 U.S.
                                       Marines in chain-reaction crash--
                                       14 injured.
2-19-09         Beckett, MA           Motorcoach carrying minor league
                                       hockey team crashes--5 injured.
2-15-09         West Haven, CT        Motorcoach rear-ends another
                                       motorcoach--128 injuries.
2-07-09         Honolulu, HI          Motorcoach strikes and kills
                                       pedestrian standing at a marked
                                       crosswalk.
2-04-09         Belleplain, NJ        Motorcoach rear-ends box truck.
1-30-09         Dolan Springs, AZ     Motorcoach carrying Chinese
                                       tourists crashes near Hoover Dam--
                                       7 killed/10 injured.
1-23-09         Near Donegal, PA      Motorcoach carrying tourists
                                       catches fire after tire blows out
                                       along PA turnpike.
12-26-08        Corona, NM            Motorcoach crashes in inclement
                                       weather--2 killed/others injured.
12-19-08        Seattle, WA           Motorcoach carrying 80 young
                                       adults crashes through guardrail--
                                       minor injuries.
10-05-08        Williams, CA          Motorcoach traveling to casino
                                       resort crashes--9 killed/35
                                       injured.
8-10-08         Primm, NV             Motorcoach crashes after tire
                                       failure--29 injured.
8-10-08         Tunica, MS            Motorcoach crashes and roof
                                       collapses during rollover--3
                                       killed.
8-08-08         Sherman, TX           Motorcoach carrying 55 Vietnamese-
                                       American pilgrims crashes after
                                       blowing a tire, skidding off of
                                       highway, and hitting guardrail--
                                       17 killed/40 injured.
5-11-08         Mount Vernon, MO      Motorcoach tour bus carrying
                                       gospel singer crashes--1 killed/7
                                       injured.
4-05-08         Albertville, MN       Motorcoach carrying students and
                                       chaperones home from a band trip
                                       to Chicago crashes, killing a 16
                                       year-old student and injuring
                                       dozens.
1-17-08         Primm, NV             Motorcoach crashes and catches
                                       fire--25 injured.
1-06-08         Mexican Hat, UT       Motorcoach carrying 51 passengers
                                       ran off curvy road, rolled
                                       several times, roof was split
                                       open, and tires were stripped
                                       off. Passengers were thrown from
                                       the bus. A contributing factor
                                       was the driver's negotiation of
                                       the turn--9 killed.
1-02-08         Victoria, TX          Motorcoach crashes probably due to
                                       driver fatigue--1 killed.
1-02-08         Henderson, NC         Motorcoach crashes into tractor-
                                       trailer--50 injured.
11-25-07        Forrest City, AR      Motorcoach crashes--3 killed/15
                                       injured.
6-25-07         Bowling Green, KY     Motorcoach crashes probably do to
                                       driver fatigue--2 killed/66
                                       injured.
3-02-07         Atlanta, GA           Motorcoach carrying Bluffton
                                       University baseball team crashes
                                       through an overpass bridge wall
                                       and fell onto Interstate 75
                                       landing on its side--7 killed/21
                                       injured.
5-20-07         Clearfield, PA        Motorcoach crashes--2 killed/25
                                       injured.
9-06-06         Auburn, MA            Motorcoach rollover crash--34
                                       injured.
8-28-06         Westport, NY          Motorcoach rollover crash--4
                                       killed/48 injured.
3-30-06         Houston, TX           Motorcoach carrying girls' soccer
                                       team crashes and overturns--2
                                       killed/more injured.
10-25-05        San Antonio, TX       Motorcoach crashes into two 18-
                                       wheelers after tire failure--1
                                       killed/3 injured.
10-16-05        Osseo, WI             Motorcoach crashes--4 killed/35
                                       injured.
9-23-05         Wilmer, TX            Motorcoach carrying 44 assisted
                                       living facility residents and
                                       nursing staff as part of the
                                       evacuation in anticipation of
                                       Hurricane Rita caught fire. 23
                                       killed/of 21 injured.
7-25-05         Baltimore, MD         Motorcoach crashes--33 killed.
1-29-05         Geneseo, NY           Motorcoach crashes--3 killed/20
                                       injured.
11-14-04        Alexandria, VA        Motorcoach carrying 27 high school
                                       students crashes--11 injured.
10-09-04        Turrell, AR           Motorcoach crashes--14 killed/15
                                       injured.
8-06-04         Jackson, TN           Motorcoach crashes--2 killed/18
                                       injured.
6-24-04         Phoenix, AZ           Motorcoach crashes--1 killed/38
                                       injured.
5-24-04         Anahuac, TX           Motorcoach crashes--1 killed.
2-22-04         North Hudson, NY      Motorcoach crashes--47 injured.
11-12-03        Apache Co., AZ        Motorcoach crashes--44 injured.
10-13-03        Tallulah, LA          Motorcoach crashes into tractor-
                                       trailer--8 killed/7 injured.
2-14-03         Hewitt, TX            Motorcoach crashes--5 killed/
                                       others injured.
10-01-02        Nephi, UT             Motorcoach crashes--6 killed/20
                                       injured.
6-23-02         Victor, NY            Motorcoach crashes--5 killed/41
                                       injured.
6-09-02         Loraine, TX           Motorcoach crashes into tractor-
                                       trailer--3 killed/29 injured.
4-24-02         Kinder, LA            Motorcoach crashes--4 killed and
                                       driver medically incapacitated.
10-03-01        Manchester, TN        Motorcoach crashes--6 passengers
                                       killed/unknown injuries.
8-19-01         Pleasant View, TN     Motorcoach crashes--1 killed/38
                                       injured.
5-28-01         Bay St. Louis, MS     Motorcoach crashes--16 injured.
1-20-01         Allamuchy, NJ         Motorcoach crashes--39 injured.
1-02-01         San Miguel, CA        Motorcoach crashes--2 killed/3
                                       injured
6-30-01         Fairplay, CO          Motorcoach crashes--45 injured.
8-27-00         Eureka, MO            Motorcoach crashes--25 injured.
12-21-99        Canon City, CO        Motorcoach crashes--3 killed/57
                                       injured.
5-09-99         New Orleans, LA       Motorcoach crashes--22 killed/21
                                       injured.
4-30-99         Braidwood, IL         Motorcoach crashes--1 killed/23
                                       injured.
3-02-99         Santa Fe, NM          Motorcoach carrying 34 middle
                                       school children crashes--2 killed/
                                       35 injured.
12-24-98        Old Bridge, NJ        Motorcoach crashes--8 killed/14
                                       injured.
6-20-98         Burnt Cabins, PA      Motorcoach crashes--7 killed/16
                                       injured.
9-12-97         Jonesboro, AR         Motorcoach crashes--1 killed/6
                                       injured.
7-29-97         Stony Creek, VA       Motorcoach crashes--1 killed/32
                                       injured.
6-06-97         Albuquerque, NM       Motorcoach crashes--1 killed/35
                                       injured.
8-02-96         Roanoke Rapids, NC    Motorcoach crashes due, driver was
                                       fatigued--19 injured.
10-14-95        Indianapolis, IN      Motorcoach crashes--2 killed/38
                                       injured.
7-23-95         Bolton Landing, NY    Motorcoach crashes--1 killed/30
                                       injured.
4-24-94         Chestertown, NY       Motorcoach crashes and rolls over--
                                       1 killed/20 injured.
1-29-94         Pueblo, CO            Motorcoach crashes and rolls over--
                                       1 killed/8 injured.
9-17-93         Winslow Twp, NJ       Motorcoach crashes because truck
                                       drifted into lane--6 killed/8
                                       injured.
9-10-93         Phoenix, AZ           Motorcoach crashes and rolls over
                                       because of driver fatigue--33
                                       injured.
6-26-93         Springfield, MO       Motorcoach crashes--1 killed/46
                                       injured.
7-26-92         Vernon, NJ            Motorcoach crashes--12 passengers
                                       ejected/ 6 killed.
1-24-92         South Bend, IN        Motorcoach crashes--2 killed/34
                                       injured.
6-26-91         Donegal, PA           Motorcoach crashes--1 killed/14
                                       injured.
8-03-91         Caroline, NY          Motorcoach crashes--33 injured.
2-02-91         Joliett, PA           Motorcoach crashes--2 killed/44
                                       injured.
5-18-90         Big Pine, CA          Motorcoach crashes--2 killed/43
                                       injured
------------------------------------------------------------------------


         What Does the Motorcoach Enhanced Safety Act (MESA) Do?
      It Turns Decades of Critical NTSB Recommendations into Action
------------------------------------------------------------------------
 Provision of MESA (S.
     453/H.R. 873)                         Explanation
------------------------------------------------------------------------
Overview of Bill         Issuance of Safety Standards:
                         Requires issuance of standards based on
                          comprehensive safety recommendations of
                          National Transportation Safety Board (NTSB)
                          for improvements in occupant protection
                          systems, roof crush protection, design
                          standards, crash avoidance, passenger
                          evacuation, fire mitigation, on board
                          recorders (EOBRs), event data recorders
                          (EDRs), tire pressure monitoring, and
                          retreaded tires.
                        ------------------------------------------------
                         Content of Safety Standards:
                         A number of specific aspects of safety
                          standards, and NTSB recommendations must be
                          adopted in regulation.
                        ------------------------------------------------
                         Research and Testing:
                         Requires application of existing data, current
                          research and completed testing on available
                          technology to address safety problems; allows
                          agency's expertise to conduct additional
                          research and development where necessary.
                        ------------------------------------------------
                         Retrofit of Motorcoaches Built Before Standards
                          Issued:Senate version contains a discretionary
                          retrofit provision while the House version
                          contains a compulsory retrofit provision.
------------------------------------------------------------------------
                 Analysis of Specific Safety Provisions
------------------------------------------------------------------------
Safety Belts             DOT to issue a regulation within 1 year of
                          enactment to require new motorcoaches be
                          equipped with seat belts at designated seating
                          positions. Based on NTSB Recommendations H-99-
                          47 & H-99-48, and on the NTSB Most Wanted
                          List.*
------------------------------------------------------------------------
Firefighting Equipment   DOT to issue a regulation within 1 year of
                          enactment to require the installation of
                          improved firefighting equipment to suppress
                          fires in new motorcoaches.
------------------------------------------------------------------------
Roof Strength Standard   DOT to issue a regulation within 1 year
                          (Senate) or 18 months (House) of enactment to
                          require that roofs of motorcoach provide
                          substantial improvement in protection against
                          deformation and intrusion to prevent serious
                          occupant injury. Based on NTSB Recommendation
                          H-99-50, and on the NTSB Most Wanted List.*
------------------------------------------------------------------------
Anti-Ejection Window     DOT to issue a regulation within 1 year
 Glazing                  (Senate) or 18 months (House) of enactment to
                          require advanced window glazing that resists
                          breaking and prevents occupant ejection at all
                          passenger window locations in new
                          motorcoaches. Based on NTSB Recommendation H-
                          99-49, and on the NTSB Most Wanted List.*
------------------------------------------------------------------------
Reduced Rollover         DOT to issue a regulation within 1 year
 Crashes                  (Senate) or 2 years (House) of enactment that
                          requires new motorcoaches be equipped with
                          stability enhancing technologies, such as
                          electronic stability control or torque
                          vectoring, to provide crash avoidance
                          protection and reduce the incidence of
                          rollover crashes. Based on NTSB
                          Recommendations H-99-47, H-08-15, H-10-05 & H-
                          10-06.
------------------------------------------------------------------------
Tire Pressure            DOT to issue a regulation, within 2 years of
 Monitoring System        enactment, to require motorcoachesto have
 (TPMS)                   direct tire pressure monitoring systems that
                          perform at all times, at allspeeds, on all
                          road surfaces, and during all weather
                          conditions, after repairs, andon spare tires.
                          Based on NTSB Recommendation H-03-17.
------------------------------------------------------------------------
Safety Standards for     Requires upgrade of 1973 standard for safety
 New Tires                performance of tires used onmotorcoaches,
                          including enhanced endurance and high-speed
                          performance tests.
------------------------------------------------------------------------
Retrofit of              Senate: Secretary has 2 years to assess the
 Motorcoaches             feasibility, costs and benefits of
                          retrofitting motorcoaches built prior to the
                          issuance of the safety standards required in
                          the Act. Retrofit of previously built
                          motorcoaches is entirely in the discretion of
                          the Secretary.
                         House: Motorcoaches are required to be
                          retrofitted with safety belts and firefighting
                          equipment 2 years after the regulation is
                          issued, or up to 5 years in the case that the
                          Secretary determines hardship exists.
------------------------------------------------------------------------
Fire Safety and          DOT to evaluate, within 18 months, flammability
 Emergency Evacuation     standard for exterior components, smoke
                          suppression, resistance to wheel well fires,
                          passenger evacuation and automatic fire
                          suppression on motorcoaches; DOT to issue new
                          performance requirements for fire safety and
                          passenger evacuation within 3 years of
                          enactment. Based on NTSB Recommendations H-99-
                          09, H-07-01, H-07-04, H-07-05, H-07-06, H-07-
                          07, H-07-08 & H-07-11, and on the NTSB Most
                          Wanted List.*
------------------------------------------------------------------------
Seating Safety           DOT to complete research within 2 years of
                          enactment on enhanced seat
                          compartmentalization to reduce the risk of
                          passengers being thrown from their seats and
                          injured within the motorcoach; DOT to issue a
                          regulation 4 years after enactment to improve
                          seating area compartmentalization. Based on
                          NTSB Recommendations H-99-47, H-99-48 & H-99-
                          50, and on the NTSB Most WantedList.*
------------------------------------------------------------------------
Interior Impact          DOT to complete research within 2 years of
 Protection               enactment and issue a regulation not later
                          than 4 years after enactment to establish
                          requirements for enhanced occupant impact
                          protection for the interiors of new
                          motorcoaches. Based on NTSB Recommendations H-
                          99-48, H-99-50, H-09-23 & H-09-24.
------------------------------------------------------------------------
Crash Avoidance          Complete research within 2 years of enactment
                          and issue a regulation not later than 4 years
                          after enactment to improve motorcoach crash
                          avoidance. Based on NTSB Recommendations H-08-
                          15, H-10-05 & H-10-06, and on the NTSB Most
                          Wanted List.*
------------------------------------------------------------------------
New Entrants             Amends current law to prohibit registration of
 Requirements             new entrant motorcoach services providers
                          until DOT: (a) conducts a pre-authorization
                          safety audit within 90 days of receiving an
                          application for operating authority; (b)
                          performs a safetymanagement review; and (c)
                          new entrants pass a written proficiency exam
                          and disclose common relationships with other
                          carriers in past 3 years. Based on NTSB
                          Recommendation H-03-02.
------------------------------------------------------------------------
Reincarnated Carriers    Amends current law to require new entrant motor
                          carriers to disclose prior ownership
                          relationships with previous motor carriers
                          within past 3 years; and authorizes Secretary
                          to suspend or revoke grant of registration
                          where motor carrier failed to disclose a
                          material fact in registration application.
------------------------------------------------------------------------
Oversight of Motorcoach  Amends current law to require DOT to determine
 Operators (Motor         the safety fitness of providers of motorcoach
 Carriers)                services and assign a safety fitness rating to
                          carriers within 3 years; DOT is also required
                          to establish a process for monitoring the
                          safety performance of such providers and to
                          conduct periodic safety reviews to reassess
                          assigned safety ratings every 3 years. Based
                          on NTSB recommendations H-81-15, H-87-38 & H-
                          99-06.
------------------------------------------------------------------------
Driver Training          DOT to issue a final rule in the pending
                          minimum training curriculum requirements,
                          Docket No. FMCSA 2007-27748, within 18 months
                          (Senate) and 6 months (House); and, report to
                          Congress within 2 years on feasibility of
                          establishing training program certification
                          system. Based on NTSB Recommendation H-75-009.
------------------------------------------------------------------------
CDL Testing              DOT to issue a final rule in the pending
                          rulemaking on CDL Testing Standards, Docket
                          No. FMCSA 2007--27659, to require a more
                          stringent test of driver knowledge and driving
                          skills within 6 months.
------------------------------------------------------------------------
CDL Report               Senate: DOT to issue a regulation requiring
                          drivers of 9-15 passenger vans to be subject
                          to requirements for CDL and random drug and
                          alcohol testing. House: DOT is required to
                          report to Congress within 18 months with a
                          plan regarding which classes of drivers of 9-
                          15 passenger vans should be subject to current
                          requirements for CDL and random drug and
                          alcohol testing.
------------------------------------------------------------------------
CDL Medical Certificate  Requires DOT to develop prerequisites for
 and Physical Fitness     listing medical examiners on national
 Oversight                registry, including courses/materials, passing
                          grade on written exam, certification, ability
                          to comply;
                         Requires DOT to issue rule within 18 months of
                          enactment requiring examiners to submit the
                          medical exam form to the proper state
                          licensing agency;
                         Amends federal law to require that state
                          licensing agencies compare the medical exam
                          forms received from the medical examiner with
                          the information received from the driver in
                          order to reduce fraud;
                         Requires DOT to review the licensing agencies
                          of 10 states to assess the accuracy, validity
                          and timeliness of submission of physical and
                          medical reports.
                         DOT to establish National Registry of Medical
                          Examiners within 6 months of enactment.
                         Based on NTSB Recommendations H-99-06, H-01-21,
                          H-01-22 & H-01-24, among others, and on the
                          NTSB Most Wanted List.*
------------------------------------------------------------------------
Electronic On-Board      DOT to issue rule, within 1 year, to require
 Recorders (EOBRs)        EOBRs on all motorcoaches to enforce hours of
                          service and reduce driver fatigue. Based on
                          NTSB Recommendations H-90-28 & H-98-23, and on
                          the NTSB Most Wanted List.*
------------------------------------------------------------------------
Event Data Recorders     Provides that 1 year after enactment DOT shall
 (EDRs)                   prescribe performance requirements for EDRs on
                          motorcoaches, including vehicle operations,
                          events and incidents, and system information
                          to be recorded by EDRs, and issue a rule to
                          implement the performance requirements within
                          2 years (Senate) or 3 years (House) of
                          enactment. Based on NTSB Recommendations H-99-
                          53 & H-99-54.
------------------------------------------------------------------------
MCSAP Safety Inspection  DOT to issue a regulation, within 3 years of
 Programs                 enactment, that considers requiring states to
                          conduct annual inspections of commercial motor
                          vehicles designed or used to transport
                          passengers. Based on NTSB Recommendations H-81-
                          15, H-87-38, H-05-07, H-05-08 & Hwy-99-FH102.
------------------------------------------------------------------------
Prohibition of           Provides that within 1 year of enactment, DOT
 Distracted Driving       must issue regulations on the use of
                          electronic or wireless devices by an
                          individual employed as the operator of a
                          motorcoach based on accident analysis,
                          research and other information. Basedon NTSB
                          Recommendation H-06-27, and on the NTSB Most
                          Wanted List.*
------------------------------------------------------------------------
Rental and Leasing       Amends current law to include companies that
 Companies                rent and/or lease motorcoaches within the
                          definition of the term ``employer'' as defined
                          in 49 U.S.C.  31132.
------------------------------------------------------------------------
Registration of Brokers  House Only: Amends current law to include
                          transportation of passengers within the
                          requirement for registration by brokers.
------------------------------------------------------------------------
* The National Transportation Safety Board (NTSB)'s Most Wanted
  Transportation Safety Improvements 2009-2010 identifies critical
  changes needed to reduce transportation accidents and save lives.
  Available athttp://www3.ntsb.gov/recs/brochures/MostWanted_2010.pdf.

  Safety Features Required by the Motorcoach Enhanced Safety Act Are 
    Already Available and Voluntarily Installed in Some Motorcoaches
    Many of the safety measures required under the Motorcoach Enhanced 
Safety Act (MESA), S. 453 and H.R. 873,are already found on some newly 
manufactured motorcoaches. A survey of motorcoach manufacturer websites 
revealsthat brochures and marketing materials tout many of the MESA 
safety measures as features or options on somemotorcoach models. 
Regulatory uniformity is needed to ensure that lifesaving safety 
systems such as seat belts,stronger roof strength, anti-ejection 
glazing and tire pressure monitoring systems among others are not 
merelyoptional equipment, but are standard features provided for the 
protection of every passenger on every motorcoach.
    Just as there is federal safety oversight of passenger airlines, 
there needs to be federal safety oversight of motorcoachsafety. Each 
year, over 750 million passenger trips are taken on motorcoaches that 
carry up to 55 passengers. Theresults of a crash can be catastrophic. 
While motorcoach manufacturers currently offer on a voluntary basis 
certainsafety features on specific models, those safety features are 
not subject to federal standards that establish minimumperformance 
requirements. Passage of MESA would ensure that safety features on 
motorcoaches would performeffectively in the event of a crash.

------------------------------------------------------------------------
                            Safety Features Offered on Some Motorcoach
  MESA Safety Feature                        Models *
------------------------------------------------------------------------
                           Occupant Protection
------------------------------------------------------------------------
Lap/shoulder seat belts  <bullet> Volvo and Van Hool buses are equipped
 at all seating           with 3-point belts.
 positions               <bullet> Prevost buses are equipped with seat
                          belt anchorages.
------------------------------------------------------------------------
Anti-ejection advanced   <bullet> Prevost has patented frameless
 window glazing           thermopane side windows.
                         <bullet> MCI provides laminated glass windows
                          to protect against ejection.
------------------------------------------------------------------------
Improved roof crush      <bullet> Prevost has fiber composite and
 safety standards         stainless steel outer shells.
                         <bullet> Volvo models feature enhanced roof
                          crush strength to minimize roof collapsing.
                         <bullet> Van Hool models are rollover certified
                          in accordance with European requirements.
                         <bullet> Girardin models have reinforced
                          structural beams combined with steel roof
                          bows.
------------------------------------------------------------------------
Interior impact          <bullet> Volvo designs interiors that are soft
 protection               and free from protruding parts or sharp edges.
------------------------------------------------------------------------
                            Safety Technology
------------------------------------------------------------------------
Rollover crash           <bullet> Prevost, Volvo, and MCI equip their
 avoidance technology     motorcoaches with electronic stability control
                          systems (ESC) and Anti-lock Braking Systems
                          (ABS).
                         <bullet> Van Hool buses are equipped with ABS
                          and have the option for ESC.
                         <bullet> Setra Coaches are equipped with ABS
                          but not ESC.
------------------------------------------------------------------------
Collision avoidance      <bullet> Volvo offers Front Impact Protection
 technologies             (FIP).
                         <bullet> Van Hool offers an optional lane
                          departure warning system.
------------------------------------------------------------------------
                               Fire Safety
------------------------------------------------------------------------
Fire prevention and      <bullet> Prevost is equipped with automatic
 smoke suppression        fire suppression.
                         <bullet> MCI is equipped with a fire-
                          suppression system and a fully multiplexed
                          solid-state electrical system.
                         <bullet> Van Hool offers an optional fire
                          suppression system.
------------------------------------------------------------------------
Fire extinguishers and   <bullet> Glaval Bus is equipped with a safety
 other available fire-    package, including fire extinguisher, First
 fighting equipment       Aid kit, triangles, and backup alarm.
------------------------------------------------------------------------
Emergency evacuation     <bullet> Prevost models have escape hatches.
 features including      <bullet> Glaval Bus models have escape hatches
 updated emergency exit   and emergency duel pane egress windows.
 designs and interior
 lighting
------------------------------------------------------------------------
                               Tire Safety
------------------------------------------------------------------------
Direct tire pressure     <bullet> Prevost is equipped with tire pressure
 monitoring systems       monitoring systems.
                         <bullet> MCI and Van Hool buses are equipped
                          with integrated tire pressure monitoring
                          systems with always-on sensors.
------------------------------------------------------------------------
* Reference to a safety feature included on this chart does not indicate
  that all motorcoach models of a specificmanufacturer are equipped with
  the same safety feature or technology, but only reflects that the
  safety feature ortechnology is available on at least one of the
  motorcoach models built by that manufacturer either as an option or
  asstandard equipment.

                                 ______
                                 
 Supplement to Testimony of John Claybrook, President Emeritus, Public 
Citizen and Co-Chair, Advocates for Highway and Auto Safety (Advocates)
Cost of Lifesaving Technologies in the Motorcoach Enhanced Safety Act 
        are Minimal
    The MESA bill proposes to provide motorcoach passengers the same 
type of life-saving technologies that are already available and 
standard equipment in passenger vehicles. These technologies are 
already being offered and advertised as options by a number of 
motorcoach manufacturers. The technologies include seatbelts, enhanced 
protective interiors, collision avoidance devices, electronic stability 
control systems, tire pressure monitoring systems, crash worthiness 
protections, and event data recorders. However, the public has no 
assurance of the performance quality or effectiveness of these systems 
because they are not required to meet any minimum government safety 
standards.
    The cost of building-in these safety features for new vehicles is 
minimal compared to the cost in terms of lives lost in just a single 
major motorcoach crash. For example, the recent March 12, 2011 bus 
crash in New York resulted in 15 fatalities. Based on the current 
Department of Transportation (DOT) value of a statistical life, set at 
$5.8 million, that bus crash alone generated $87 million in costs just 
for the fatalities suffered. This figure does not include the costs 
associated with the numerous injuries to the surviving passengers or 
the huge emotional toll on the families of those lost and injured. This 
cost is astronomical even when compared with the motorcoach industry's 
grossly inflated per vehicle estimated cost of $80,000 to $89,000 for 
adoption of all of the safety advances required in the MESA bill and 
some additional improvements not included in the bill. In other terms, 
the costs associated with the loss of life alone in the New York bus 
crash could pay for all of the safety advances proposed for a fleet of 
over 1,000 new motorcoaches; even using the Bus Associations wild cost 
estimates. Our research has indicated that the actual costs are well 
below those quoted by the industry.
    A number of the safety technologies included in the MESA bill have 
already been developed in other vehicles and are being voluntarily 
installed in motorcoaches by a number of companies. For example, the 
Bolt Bus (a collaboration between Greyhound and Peter Pan Bus Lines) 
already has seatbelts installed in many of its vehicles and Greyhound 
announced in 2009 the purchase of a new 140 bus fleet equipped with 
seatbelts and advanced seating which provides occupant 
compartmentalization. In addition, some new buses include electronic 
stability control (MCI, Prevost, Volvo, Van Hool), advanced glazing 
(Prevost, MCI), occupant compartmentalization (Prevost), greater roof 
protection (Volvo, Prevost, Van Hool, Girardin), tire pressure 
monitoring systems (Prevost, MCI, Van Hool), and some form of fire 
protection and suppression systems (MCI, Volvo, Prevost, Van Hool). 
Recent information from suppliers and manufacturers indicate costs of 
less than $1,400 for electronic stability control, $1,115 or less for 
advanced window glazing, $600 for electronic on-board recorders, under 
$3,000 for fire suppression systems and as little as $500 for fire 
protection. An independent review and analysis of vehicle supplier 
costs and advertised claims by motorocoach manufacturers finds that 
this subset of safety technologies could be attained at a cost of about 
$6,500 per motorcoach, or just over 1 percent (1 percent) of the cost 
of a new motorcoach and far less than the overblown $30,000 cost figure 
for these same items claimed by the motorcoach industry. While we 
cannot obtain accurate data for other cost items, it is certain that 
the actual costs will be found to be far less than those asserted by 
the motorcoach industry. Furthermore, with widespread implementation of 
these safety technologies, after the first year or two, suppliers and 
manufacturers will see the significant cost reductions associated with 
mass production and production experience.
    Just to put the Bus Association's cost claims in perspective, even 
assuming hypothetically that the industry cost estimate of $89,000 is 
valid, the cost of improving the safety of motorcoaches is just pennies 
per passenger, per trip. A new motorcoach makes over 400,000 passenger 
trips \1\ during its useful life,\2\ that means that the additional 
cost for all the MESA bill safety improvements, at the inflated 
industry cost estimates, is only 22 cents per passenger trip. Is there 
any passenger who would not gladly pay an extra 22 cents for major 
safety improvements? And because the actual costs are far less than the 
industry claims, the real cost for the MESA bill safety improvements 
will be just pennies per trip.
---------------------------------------------------------------------------
    \1\ Bourquin, P., ``Motorcoach Census Update 2010,'' Nathan 
Associates, sponsored by the American Bus Association (Dec. 8, 2010).
    \2\ Motorcoach Definition, Notice of Proposed Rulemaking, 75 FR 
50958, (Aug 18, 2010) (``The service life of a motorcoach can be 20 
years or longer'').
---------------------------------------------------------------------------
The Motorcoach Industry Cost Estimates are Exaggerated, Lack 
        Credibility and Include Phantom Mandates
    The motorcoach industry cost figures clearly are highly inflated 
and unreliable. The motorcoach industry has recently circulated their 
opinion on the costs that will be associated with the adoption of the 
safety measures included in the MESA bill. The correct term is 
``opinion'' because for many of the safety features the industry 
provides limited or no support for the inflated cost figures and cites 
no references for the sources of their estimates. The anonymous and 
undated document disseminated by the motorcoach industry, called the 
``per-bus estimated cost'', estimates that the improvements required in 
the MESA bill will cost between $80,000 and $89,000 per motorcoach. 
This ludicrous estimate, nearly 20 percent of the current cost of a new 
motorcoach, is yet another example of a tactic used by an industry that 
opposes safety and occupant protection--inflating the real cost of 
safety technology. Furthermore, the bus trade association which is 
purposefully throwing around these absurd and exaggerated cost figures, 
has presented no direct data on vehicle safety costs because this is 
proprietary information known to the suppliers and manufacturers and is 
information not shared with the trade association that lobbies on 
behalf of the companies as a whole. It is also not evident whether the 
numbers represent cost or price information--a big difference. In the 
past, this very same approach has been used by automobile manufacturers 
to oppose airbags and electronic stability control systems.
    The most poignant example is the regulation of airbags in passenger 
vehicles. At the time when rulemaking on airbags was being initiated, 
industry representatives stated that the cost per airbag would be 
between $1,200 and $1,500. Later, information obtained by a Member of 
Congress who demanded that General Motors supply its true cost figures 
revealed that the actual cost of manufacturing frontal airbags 
initially was between $150 and $175. The industry was quoting prices 10 
times their actual cost. Today, as a result of mass production and 
further technological improvements, the per-unit manufacturing cost of 
far more sophisticated airbag units is only about $30. Furthermore, 
despite the adamant opposition of industry to the airbag mandate, which 
they fought for over twenty years, today it is tough to find even a 
single contemporary motor vehicle advertisement or sales pitch that 
does not tout the safety performance of the vehicle's airbag systems.
    Another example of this industry tactic of inflating costs occurred 
in the regulation of electronic stability control systems or ESC. These 
were required as part of the 2005 Safe, Accountable, Flexible, 
Efficient, Transportation Equity Act: A Legacy for Users (SAFETEA-
LU),\3\ whose safety advancements were crafted by the Senate Commerce, 
Science, and Transportation Committee and this subcommittee. Before 
that legislation was enacted, manufacturers asserted that the cost of 
including ESC systems was very high. An earlier Australian government 
study found that auto manufacturers were charging as much as $2,254 for 
ESC as a vehicle option. The Australian government study identified the 
``approximate reasonable cost'' of ESC as $649. In opposing the 
SAFETEA-LU provision, manufacturers claimed much higher costs for ESC 
but NHTSA found, in a 2005 teardown analysis, that the estimated 
incremental per-vehicle cost of ESC was actually only $58.
---------------------------------------------------------------------------
    \3\ Pub. L. 109-59 (Aug. 10, 2005).
---------------------------------------------------------------------------
    The examples of airbags and ESC technology costs point out that not 
only does industry inflate costs of safety technology, but industry 
cost estimates are also unreliable because they omit any consideration 
of the fact that with regulation and mass production come reductions in 
per-unit production costs due to production efficiencies and per-unit 
savings. Moreover, to be credible, cost estimates from industry need to 
include details indicating if the costs quoted are retail or production 
costs, a distinguishing fact not found in many of the motorcoach 
industry's cost claims. Prices for voluntarily installed systems vary 
with the number of units manufactured and the level of quality and 
safety specified by the manufacturer. Manufacturers are not required to 
guarantee a specified level of safety performance for unregulated, 
optional equipment, and can reduce costs by lowering the level of 
safety they provide. The establishment of Federal standards for these 
devices ensure a minimum performance capability for the safety of 
passengers and a level playing field for motorcoach companies.
    Other examples of the gross overestimation and overstatement of 
technology and component costs include the following that have been 
researched with suppliers and manufacturers:

  <bullet> Electronic Stability Control: The motorcoach industry claims 
        that it will cost as much as $3,000 for electronic stability 
        control (ESC) systems even though suppliers of motorcoach ESC 
        systems indicated a retail price to manufacturers of $1,350;

  <bullet> Advanced Glazing: The motorcoach industry cost document 
        cites a cost of $7,000 for laminated glass in all motorcoach 
        windows to protect occupants from ejection and cuts, even 
        though equipping an exemplar motorcoach, the MCI J4500, with 
        advanced glazing was found, at retail, to cost no more than 
        $1,115 more than current standard glass, less than one sixth 
        the cost claimed by industry;

  <bullet> Electronic On-Board Recorders: The motorcoach industry 
        claims a cost of $2,500 for EOBRs, but the FMCSA identified the 
        actual cost for EOBRs to be between $500 and $600;

  <bullet> Fire Suppression: The motorcoach industry cost document 
        includes the cost for an automatic fire suppression system at 
        $6,000, but retailers of these systems indicate that current 
        state-of-the-art factory installed fire suppression systems 
        cost less than $3,000;

  <bullet> Fire Protection: The motorcoach industry claims that it will 
        cost $11,000 to provide enhanced interior fire protection but 
        textile manufacturers state that the addition of a ``flame 
        block'' to new interiors would add only $2 per yard of 
        material, resulting in a total cost of less than $500 to 
        enhance interior fire protection, thus making the industry cost 
        claim 22 times the actual cost.

    What is even more shocking is that the industry supports including 
better fire suppression and fire protection in motorcoaches while at 
the same time opposing these requirements in the MESA bill. In November 
of 2010, a motorcoach industry spokesman stated that there was 
``absolute agreement by all parties [attendees of the Fire in Vehicles 
Conference] on the need for the early detection of high heat conditions 
that can ignite a fire.'' \4\ Among other things the motorcoach 
industry called for using fire resistant materials in bus construction 
and installation of fire suppression systems, requirements that are 
covered in the MESA bill. Given the motorcoach industry's past 
opposition to the MESA bill, the industry's endorsement of quick 
legislative and regulatory action on these issues was even more 
surprising. Yet, the industry cost document designed for its lobbying 
campaign against the legislation includes grossly inflated costs of up 
to $17,000 associated with fire protection as evidence in opposition to 
the bill even though the industry has stated its ``absolute agreement'' 
regarding the necessity for these safety measures.
---------------------------------------------------------------------------
    \4\ ``Preventing bus fires: What must be done?'', BusRide. Nov. 22, 
2010, available at http://busride.com/2010/11/preventing-bus-fires-
what-must-be-done/.
---------------------------------------------------------------------------
    In addition to grossly inflating the costs of a number of items 
that are required in the MESA bill, and ignoring efficiencies that 
reduce production costs, the motorcoach industry cost document includes 
the costs of technologies and items that are either not required by the 
MESA bill or which are subject to future research and agency decision 
so that any cost estimate is entirely speculative since the ultimate 
requirement is unknown. For example, the motorcoach industry originally 
claimed a cost of $4,500 for the inclusion of improved fuel systems, 
enhanced conspicuity and adaptive cruise control. However, none of 
these improvements are required in the proposed bill.
    The industry also included cost claims for items that would be 
subject to further agency study, at the behest of the motorcoach 
industry, so no decision as to specific performance requirements would 
be made by the agencies until 2 or 3 years later. Nevertheless, without 
knowing what will eventually be required, if anything, the motorcoach 
industry has estimated that the per-bus cost for improved exits for 
evacuation, an automatic fire suppression system, emergency interior 
lighting, improved compartmentalization, enhanced interior impact 
protection and collision avoidance systems will cost a minimum total of 
$19,000 per vehicle. These items are all subject to a further 2-3 years 
of research and examination before any rulemaking would begin. This 
makes any assertion of cost by the industry without knowing the 
specific requirements highly speculative.
    In the latest update of their cost claims, the industry continues 
to claim costs for items which are already the subject of regulatory 
action that is, they are very likely to be required in final rules 
regardless of enactment of the MESA bill. These items include $15,000 
for seatbelts, $2,500 for electronic on-board recorders (EOBR), and 
$600 for upgraded tires. All of these items are currently the subject 
of notices of proposed rulemaking issued either by NHTSA or FMCSA 
within the last year, illustrating that DOT has identified these items 
as important safety features. Even for these essential, long overdue 
safety improvements, the industry has inflated the cost, for example 
while the industry claimed a cost of $2,500 for EOBRs, FMCSA identified 
the actual cost for EOBRs to be between $500 and $600.
    Finally, the industry indicated at several points in their cost 
claims that retrofit costs for several of the safety enhancements would 
be triple the already inflated and speculative costs for those same 
items in new motorcoaches. This claim is made despite the fact that the 
motorcoach industry has been successful in making retrofitting entirely 
discretionary instead of mandatory in the bill. That means that none of 
the technological safety improvements required by the MESA bill for new 
motorcoaches would be applicable to existing motorcoaches, that is, 
motorcoaches built prior to the issuance of the final rule, unless the 
Secretary of Transportation separately determines that such safety 
improvements are warranted for older motorcoaches. The only safety 
improvement that the Secretary and NHTSA have indicated might 
potentially be considered is for the retrofit of seatbelts and, even in 
that case, it would only apply to the most recently built motorcoaches, 
i.e., only to motorcoaches built after the date the final rule is 
issued and before the date on which full compliance is required. This 
means that only a very limited number of motorcoaches would be subject 
to any retrofit and some of those would probably be already equipped 
with seatbelts anyway.
    The industry cost claims related to motorcoach safety are highly 
inflated, entirely speculative, undocumented, and most are just 
incorrect. The recent New York bus crash and many others like it over 
the years illustrate that even based on the industry's suspect cost 
estimates, providing superior safety for motorcoach occupants can be 
justified in terms of benefit/cost analysis by avoiding or preventing 
just one serious crash. Research has shown that motorcoach safety 
technologies are available and affordable. History illustrates how 
widespread industry adoption of technology greatly increases the safety 
of passenger vehicles and the affordability of these technologies.

    Senator Lautenberg. We will do that. Thank you very much.
    Mr. Medford and Ms. Ferro, the Federal Motor Carrier Safety 
Administration has made substantial progress on only three of 
the seven priority items outlined in DOT's 2009 Motorcoach 
Safety Action Plan. But in light of recent accidents, how do we 
expedite completing the remaining elements of the action plan, 
Ms. Ferro? Again, I caution you to make the answers as short as 
you can, please.
    Ms. Ferro. Yes, sir. As you said, Mr. Medford and I will 
share this answer.
    Of the seven, four were FMCSA-specific. The one that is 
outstanding is relating to the operating knowledge of 
applicants, in effect, pre-application testing. That is an 
element that we continue to work on. We did issue an NPR, and 
we had our Motorcoach Safety Advisory Committee also recommend 
components of what a pre-application knowledgeability test 
would be for applicants for motorcoach passenger carrier 
authority. That is still an element that is under review. You 
are correct. It is not complete.
    The other elements, electronic on-board recorders, cell 
phones, and the vetting process to ensure a tighter screening, 
in other words, raising the bar to come into the industry, are 
well underway and we have every intent of completing them.
    Senator Lautenberg. Mr. Medford, is there anything you want 
to add to that?
    Mr. Medford. I will just add, Senator, that the 2009 plan 
that the Secretary directed be put together in terms of 
research and regulation of the motorcoach is a complete rehaul 
and makeover for bus safety. We have research in almost every 
aspect of safety with respect to the bus and regulatory 
activities started on those. I will just give you a quick list.
    We are doing seat belts on buses.
    We are doing electronic stability control research on buses 
and ready to propose a regulation.
    We have completed the research on both the side structural 
integrity and the roof integrity on roof crush, and we are 
ready to propose this year a regulation for that.
    We have already proposed a regulation for all heavy-duty 
trucks, or tires, which will account for both under-inflation, 
high-speed performance, and load endurance that did not exist 
before.
    We have completed research on emergency egress with respect 
to what it takes to make sure we get occupants during a crash 
out quickly.
    Senator Lautenberg. Are you satisfied with the pace of 
things, Mr. Pantuso? Sorry. Mr. Medford?
    Mr. Medford. I think we are dedicated to getting this done 
as fast as we can. We have missed some of the milestones. And I 
think what we have found is we have taken on a large effort in 
order to get this done, and we are committed to moving as 
quickly as we can, but we do want to do it based on good 
science and good engineering.
    Senator Lautenberg. We would appreciate an even faster 
response, but we want it thorough. So we appreciate that.
    Ms. Ferro--or Mr. Pantuso, the current system relies on 
drivers to notify their employers if their driving privileges 
are suspended, but because of this loophole, the bus driver in 
the New York accident was able to hide his suspended license 
from his employers and at least 11 other New York drivers, 
including a school bus driver, were able to do the same thing. 
What can we do here to make sure that we have a system in place 
that alerts companies when one of their drivers has a suspended 
license?
    Ms. Ferro. Would you like me to start, Mr. Chairman?
    Senator Lautenberg. Well, let me start with Mr. Pantuso, 
please.
    Mr. Pantuso. Thank you, Mr. Chairman. The issue of not 
having adequate driver information is nothing new. When we look 
back at the 1998 Mothers Day crash in New Orleans, there was a 
lack of information about the driver, about his medical 
condition. This accident that happened in New York is the same 
information, just lack of information that is available many 
times to the operator, to the owner of the company. We think 
there has got to be much more vigorous information available. 
It has got to be managed at the state level, but it has got to 
be shared among states so that we do not see drivers moving 
from state to state, bad drivers moving, to be employed by 
operators who really do not know much about them other than the 
fact that they have walked through the door with a current CDL 
with a passenger endorsement.
    We also think that passenger endorsement should be 
something very special, should be much more rigorous than a 
standard commercial driver's license, and should be looked at 
differently by the agency and by the states.
    Senator Lautenberg. Thank you.
    While I have a moment left here, I would ask Ms. Hersman a 
question. The bus operator that crashed in New Jersey has a 
driver safety record worse than 99.6 percent of all bus 
companies. But the FMCSA gave the company a satisfactory 
rating. Now, I think we have taken care of that with the 
suspension that has been offered. So I do not know whether 
there is anything else you would like to add to what has taken 
place except to say that their license has been suspended.
    Ms. Hersman. This is an issue that is consistent in 
accident investigations. If you have an indication of problem 
drivers or vehicles, the time to address it is when those 
issues arise, not after a fatal accident occurs when you 
conduct a full compliance review and then place an operator out 
of service. The reason why this information is being collected 
at the roadside is to give early indications of a problem, and 
the reason why this driver was rated in the worst 99th 
percentile was because of those roadside inspections where they 
had violations of hours of service or problems with the driver 
records.
    Senator Lautenberg. So it was late and should never have 
occurred. We cannot go back in time, but we can learn for the 
future.
    Now Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Ms. Hersman, many of the safety benefits in the Brown-
Hutchison legislation will be derived by rulemakings. These 
rulemakings would require updates to bus safety technologies. 
And I know you referred to some of these things in your 
remarks. But is there a particular technology that you believe 
would bring the greatest safety benefit if it was installed in 
motorcoaches?
    Ms. Hersman. There are a number of different technologies, 
and the important thing is to do good research to quantify 
those as far as the benefits. That is not the NTSB's mandate, 
but it is the mandate of those agencies that actually 
promulgate the rules.
    We know that the technology exists. My minivan has adaptive 
cruise control in it. It is 5 years old. We have mandates for 
electronic stability control in passenger vehicles, but those 
technologies are so important for heavy vehicles, for buses and 
for trucks. If you are involved in a collision and you are hit 
from the rear by a heavy truck or a heavy bus, the outcome will 
be much more significant than if you are hit by a passenger 
car.
    We know that we have fatigue issues, and so identifying 
lane departure warning systems, electronic stability control to 
keep vehicles from rolling over, adaptive cruise control, and 
advance collision warning systems--these technologies can 
prevent the accidents from occurring in the first place. These 
technologies do exist, and it is important that they be applied 
to the vehicles that are most in need of them. That is why we 
have this issue on our ``most wanted'' list.
    Senator Thune. If you stay outside the realm of technology 
improvements, what would be your top priority for DOT? In other 
words, what more is there that the government could or should 
do to keep bad drivers and dishonest carriers off the road?
    Ms. Hersman. The NTSB has made recommendations that are on 
our ``most wanted'' list about better oversight. These 
recommendations are from 1999. For years before that, we looked 
at this issue. Drivers and vehicles are very good indicators of 
whether or not a company is going to have problems. Senator 
Lautenberg just referred to the bad driving record of this 
company in New Jersey. Unfortunately, we have seen time and 
time again in our accident investigations that some of these 
indicators are there. We know what the national average is for 
out-of-service vehicles or out-of-service drivers, and when you 
see companies that have two times the national average, and 
three times the national average, that is a red flag that needs 
to be addressed. We want to make sure that if companies have 
drivers or vehicles that are at poor quality, that are giving 
bad data at roadside inspections, that those companies be 
placed out of service, and that they be issued unsatisfactory 
ratings and those problems be addressed.
    FMCSA has been working on CSA for many, many years, and 
they have told us that CSA will likely address these issues, 
but we have not seen that initiative yet.
    Senator Thune. Let me ask Ms. Ferro. The FMCSA is working 
to prevent carriers who have been previously placed out of 
service from being granted operating authority under a 
different name, and they are referred to as ``chameleon'' or 
``reincarnated'' operators. At least that is the terminology 
that is used in the industry. Do you believe that the new 
applicant screening system is effective at catching these 
operators when they try to re-enter the market? Is there 
anything else that your agency ought to be working on in this 
area?
    Ms. Ferro. Senator Thune, yes. The vetting system that we 
referred to that you referred with regard to reincarnated 
entities or companies that are trying to evade enforcement 
action currently applies only to household goods carriers and 
passenger carrier authority applicants. We have found that 
program to be very effective. What we are finding now is they 
are being rejected time and again and looking for other ways to 
get around--that small number of entities that is going to try 
and continue to push the limits. Consequently, we have taken 
action by identifying the carriers we have rejected and 
researched whether there is ongoing activity either through our 
violation database or their own advertising and gone after them 
as unauthorized carriers.
    The next step in a vetting program, as proposed in our 
Fiscal Year 2012 budget, is in fact a vetting program that 
applies to any applicant for authority, whether that is a 
freight carrier, a passenger carrier or household goods. That 
is the next step in this evolution in order to catch the entire 
population. Again, it is a few perpetrators, but they, as we 
have already seen, do serious damage and we have got to stop 
them. So those are the best strategies right there.
    Senator Thune. Let me ask Mr. Pantuso that question too 
because, obviously, this has got to be a major issue among your 
members. These entities give good actors a bad name, and I am 
wondering how does your organization assess FMCSA's efforts to 
keep these ``chameleon'' or ``reincarnated'' carriers off the 
road?
    Mr. Pantuso. Thank you very much, Senator. I think you are 
right. They very much give us a bad name. When you look at the 
history of the industry, we have a very safe history. It is a 
very few carriers that give the industry the black eye.
    When we look at the CSA system or the safety management 
system, we think it is a far step above what has gone on 
before, but we think there could be some changes. For example, 
we think trucks and buses should be separated in that system. 
There ought to be a different way to look at buses from trucks.
    We think that the database should be searchable so that the 
customer, whether it is an individual or whether it is somebody 
who is chartering a bus, has the ability to go in and search in 
a different way than currently exists those buses in their 
area, which ones are the safest, which ones are the least safe. 
We think that will go a long way to help the market drive the 
bad folks out.
    And we also think that when alerts appear, that somebody 
should go and immediately visit that company.
    Senator Thune. Thank you. I see my time has expired, Mr. 
Chairman. Thank you all very much.
    Senator Lautenberg. Thank you very much.
    Senator Udall?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Mr. Chairman, and thanks for 
holding this hearing.
    Mr. Medford, I wanted to focus a little bit on the issue of 
seat belts, and I am pleased to hear you have initiated a 
rulemaking to require seat belts in all motorcoach seating 
positions. Do you have any data on seat belt use in 
motorcoaches and should we be going further to ensure that not 
only are seat belts available but are they used, and if so, 
what additionally should be done?
    Mr. Medford. Thank you, Senator Udall. It is a great 
question.
    We do not have, of course, any good data in the United 
States since hardly any buses are equipped with seat belts. But 
the best information that we have comes from Australia who has 
had seat belts for many years. The latest information from 
Australia is that about 20 percent of bus riders use the belts. 
So we believe, based on what we know about passenger car 
vehicles in the United States, that there is a lot of effort 
that is needed by the state authorities which are really the 
people that govern the use of belts in vehicles. It is both an 
enforcement effort and an education effort that has to be 
sustained for a long period of time. So I think we agree that 
just putting the belts on the buses will not be a sufficient 
safety strategy for us in the United States and that we will 
need to work with States and authorities to find ways to 
educate consumers and to get States to monitor and perhaps pass 
laws that affect seat belt use.
    Senator Udall. What did the Australian data show, exactly?
    Mr. Medford. The only thing I recall from the Australian 
data--and we can follow back if we have better information--is 
that they just surveyed the use in Australia and found that it 
was low. I do not know what strategies they have used to 
increase that, but we would provide that for the record for 
you. I am just not familiar with it.
    Senator Udall. That would be great if you would do that.
    Ms. Claybrook, do you have any thought on the seat belt 
issue?
    Ms. Claybrook. Well, you know, you cannot take off in an 
airplane without having your belt fastened. So, if the bus 
driver is not going to drive the bus until everyone has their 
belt on, then you are going to have 100 percent usage. And 
these are in interstate commerce. So I see no reason why there 
cannot be a federal requirement, just as there is for an 
aircraft, that you have to have your belt buckled. And it 
works. You know, it works. I think that to say that this has to 
be a state authority issue--how is the state going to enforce 
this? I think it has to be enforced through a federal rule. 
That would be my reaction to your question. I think it is a 
great question and I would certainly hope that this would 
occur.
    Senator Udall. Do any of the other panelists have any 
thought on this issue on her comment or any other part of this? 
Yes, Mr. Pantuso?
    Mr. Pantuso. Thank you, Senator. Yes, absolutely, a couple 
of thoughts. First of all, in Australia it has also been our 
understanding--and we will certainly double check--that it is 
certainly mandated that the passenger buckle the seat belt, but 
the onus is on the passenger. And I think on a going-forward 
basis, as we look to increase the number of seat belt equipped 
coaches, which obviously is coming very, very rapidly, that has 
to happen here. The driver cannot be the driver, the hostess, 
the flight attendant, and all things to all people. So the onus 
really has to be on the passenger to make sure, just as you are 
in your car, you are responsible for buckling your seat belt.
    Ms. Claybrook. But Mr. Pantuso said that the key to this 
was enforcement. So I do not know why he would not be in favor 
of this.
    Senator Udall. Ms. Hersman?
    Ms. Hersman. One thing that we do have experience with are 
restraint systems used in different modes of transportation, 
and I will tell you that we have seen a shift in our culture 
with respect to restraint use. I suspect all of you have had 
the same experience that I have. When I was a child, we did not 
wear our seat belts in the car. We traveled in a station wagon 
and we sat or laid down wherever we could. Now, I have my own 
children, and they have been buckled up in appropriate 
restraints since the time that they left the hospital. They 
will not allow me to pull out of the garage without telling me 
that I need to buckle up. Having vehicle-appropriate seat belts 
in the buses will allow passengers who choose to use them to 
wear them. And I do think that we have gone in a generation's 
time, we have gone from very low seat belt usage in this 
country to over 80 percent usage nationwide, and in some states 
the compliance is significantly higher. You have to have the 
belts available in order for people to take advantage of them.
    Senator Udall. Thank you very much. I think this panel, Mr. 
Chairman, has given excellent testimony. Thank you.
    Senator Lautenberg. Thank you.
    Senator Pryor?

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman, and thank you for 
having this.
    First, I want to add my agreement to what Senator Thune was 
talking about a few moments ago with the rogue motorcoach 
carriers. That is a concern of mine.
    But, Mr. Medford, let me start with you, if I may. In the 
Motorcoach Enhanced Safety legislation, S. 453, Senator Brown 
and Senator Hutchison--one provision in the bill says basically 
that NHTSA has to have regulations within a year for safety 
belts, improved roof crush standards, advanced window glazing, 
and electronic stability control technologies. Of course, I 
have a question about the cost of all that.
    But I also want to ask you is that an adequate amount of 
time for you to try to do all of that in one year.
    Mr. Medford. It is really a very big challenge. To the 
extent that we were far along on some of those things, as you 
know, we have already proposed a seat belt requirement, and so 
we probably could finish the seat belt rule in that kind of a 
period of time. But most of those time periods really are not 
sufficient to do the research and the adequate requirements 
that are required for Federal rulemaking. I think that we would 
need some more time. We would like to discuss that with the 
members.
    Senator Pryor. If you did all those things, does NHTSA have 
an estimate of how many lives that might save a year?
    Mr. Medford. I am not sure that we have one--we do not have 
estimates for all of those technologies. We have done them for 
those packages that we put together for regulations so far, but 
we do not have them for all.
    Senator Pryor. I do have a question about the cost. Ms. 
Claybrook, why do I not start with you? I know it will add to 
the costs of the vehicles. Do you have an estimate about how 
much cost that will add?
    Ms. Claybrook. We do not have a cost for the entire bill, 
but we do know that the claims of the bus industry are grossly 
exaggerated. And for some of the major systems, it would be 
about $7,000, about one percent of the cost for a motorcoach. 
But given the number of trips that any motorcoach takes, we 
estimate it is about a nickel to ten cents per occupant, per 
passenger for all the safety provisions in the bill. It is a 
gross estimate because we do not always have the exact data 
from the industry. But we have talked to a lot of suppliers, 
and we believe that it is a minuscule amount.
    And certainly if you ask any occupant of one of those buses 
would they pay an extra 5, 10, or even 20 cents for safety 
provisions such as roof crush and safety belts and occupant 
compartmentalization and tire safety and tire inflation 
measurement and all these other provisions that are in the 
bill, no one is going to say no.
    And so it is spread out among so many trips for that one 
particular bus, 400,000 trips. I mean, it is huge. So we think 
that it is a very de minimis cost.
    Senator Pryor. Mr. Pantuso, it sounds like you may disagree 
with that.
    Mr. Pantuso. I very much disagree with that. Thank you, 
Senator, for asking.
    Absolutely we have looked at the cost. We have talked to 
the manufacturers. On the issue of seat belts alone--and again, 
we are not opposing seat belts in new buses--but manufacturers 
will tell you that it is somewhere in the neighborhood of 
$13,000 to $15,000 for a new coach to put seat belts in. In the 
case of retrofitting an existing coach, they are estimating 
retrofits at somewhere in the neighborhood of $40,00 to 
$45,000. All the additional changes that could take place on 
the coach if all of the changes are made, are going to amount 
to $75,000. If you look at the cost of a motorcoach less than a 
decade ago, it was about $350,000 per vehicle. Now it is about 
$500,000 per vehicle. The fleet is aging. It is about 60 
percent older than it used to be because people cannot afford 
to buy new equipment. We used to have a number of domestic 
manufacturers of equipment. We no longer have domestic coach 
manufacturers. So the cost is really having an impact on the 
industry itself and on their ability to comply with the 
regulations.
    Ms. Claybrook. Could I just say, Senator, that over time 
these costs go down. So the first year that you put something 
in, of course, it is much more expensive. The first year for 
air bags was $175. Now it is $30. So these prices go 
dramatically down and particularly where there is mass 
production and there is a mandate for them to be in all 
vehicles. So if it is optional equipment, it is much more 
expensive. If it is mandated equipment, it is much less 
expensive.
    Senator Pryor. All right. Let me ask Ms. Ferro a question--
I just have a few seconds left--and that is, on electronic on-
board recorders. Of course, fatigue and highway safety is a big 
concern. Tell me your feelings what you believe we should do in 
terms of requiring electronic on-board recorders for buses but 
also for 18-wheelers and other carriers that are on the road.
    Ms. Ferro. Senator Pryor, the FMCSA is on record as 
advancing an electronic on-board recorder proposed rule for 
virtually all motorcoach and freight-carrying commercial 
vehicles. The only ones that are excepted are those that 
maintain time cards as opposed to logs or records of duty 
status. So 95 percent of the industry would be covered under 
the proposed rule that we have put forward. As we explained in 
our rule proposal, we find it a much better tool, as has been 
documented time and again, for employers to monitor compliance 
with hours of service, for us to monitor and enforce, and our 
state law enforcement partners.
    Senator Pryor. Mr. Chairman, I know that I am out of time, 
but I was wondering if I could ask each one of the panelists to 
comment on electronic on-board recorders. Mr. Medford?
    Senator Lautenberg. Please do.
    Mr. Medford. I do not have expertise here, but I think it 
makes great sense to me.
    Ms. Hersman. I am not often in the position of 
complimenting the Department, but I do want to recognize 
Administrator Ferro and her team for their efforts on EOBR's. 
The original rule that was proposed several years ago was a 
very de minimis rule and was almost a punitive measure. We 
believe that EOBR's should be required for all operators so 
that it does level the playing field; we have many operators 
who are using EOBR's on their fleets system-wide. We think that 
everyone should be using them and that it will help with hours 
of service compliance.
    Mr. Pantuso. Senator, regarding on-board recorders, we 
certainly do not oppose that, but I go back to my original 
statement. Enforcement is key and enforcement is number one. I 
would guess that a couple of the recent accidents that we have 
seen--the drivers were probably not over the hours and probably 
were compliant. Without the enforcement, it does not matter 
what electronic technology or technologies you have. You have 
got to enforce the rules, especially for carriers that you know 
are in violation.
    Ms. Claybrook. Of course, EOBR's are designed for 
enforcement, and so I should think you would favor them, Mr. 
Pantuso. But we certainly do. That is incredibly important for 
important hours-of-service enforcement too.
    Senator Pryor. Thank you.
    Thank you, Mr. Chairman.
    Senator Lautenberg. Yes. Ms. Ferro, I do not know whether 
you remember our discussion as you were taking this post about 
on-board computers.
    Ms. Ferro. And I would say, above all, I want to commend 
you and compliment you for your leadership on on-board 
recorders. Your message was very clear and has been very 
consistent in that regard, and we are very pleased to be on 
that track.
    Senator Lautenberg. Thank you.
    I want to ask Mr. Pantuso a question here. The New York bus 
crash was, I guess, one of the worst bus accidents that we have 
seen. And the accident raised several safety concerns including 
the fact that the driver was able to hide a prior suspended 
license. Now, is there a shortage of driver availability?
    Mr. Pantuso. I would say, Senator, for commercial vehicle 
drivers, whether it is buses or trucks, there continues to be a 
shortage of drivers. Absolutely.
    Senator Lautenberg. Well, might that accidentally or 
unintentionally cause a company to get desperate and search for 
personnel to kind of ignore a poor driving record?
    Mr. Pantuso. I do not think, Mr. Chairman, regardless of 
the shortage of drivers, regardless of cost, regardless of any 
method of doing business, that safety should ever be 
compromised. So regardless of whether there is a shortage or 
not, it should never be a compromise for safety.
    Senator Lautenberg. I do not know whether it could happen.
    With that, I thank you all for your testimony. I think this 
was a very good hearing, and we know that we have got to stay 
on the job, that responses have to be quick and thorough, and 
that we continue to be able to tell the American people you 
will be safe when you get in that bus. Thank you all very much.
    Ms. Claybrook. Mr. Chairman, I want to be sure that my 
supplemental statement is included in the record. Mr. Chairman, 
I just want to be sure my supplemental statement on costs is 
included in the record.
    Senator Lautenberg. Absolutely.
    Ms. Claybrook. Thank you.
    Senator Lautenberg. Thank you.
    [Whereupon, at 3:55 p.m., the hearing was adjourned.]
                            A P P E N D I X

                                                     April 13, 2011
Hon. John D. Rockefeller IV,
Chairman,
Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Frank R. Lautenberg,
Chairman,
Surface Transportation and Merchant Marine Infrastructure, Safety, and 
            Security Subcommittee,
Washington, DC.

Dear Chairmen Rockefeller and Lautenberg:

    I would like to thank you for holding this important hearing on 
Ensuring the Safety of Our Nation's Motorcoach Passengers. Chairman 
Lautenberg and I share a unique and unfortunate connection to this 
issue, having both experienced devastating motorcoach accidents in our 
home states in recent weeks.
    As you are aware, a bus operated by World Wide Tours was involved 
in a horrific crash in New York during the early morning hours of March 
1th that left 15 individuals dead and countless others injured. In the 
days and weeks following this crash, details have emerged which raise 
significant questions about oversight of the low-cost intercity 
motorcoach industry. I am especially concerned about this because, in 
the last decade, intercity bus service has seen a significant increase 
in ridership across the Northeast Corridor, and in New York City in 
particular. This rising popularity of intercity bus travel is largely 
due to low-cost ``curbside'' carriers which do not operate out of 
terminals like traditional bus services, but instead use city streets 
and sidewalks to drop off and pick up passengers. According to a recent 
New York City Department of City Planning study, curbside bus travel in 
the Chinatown area of Manhattan has increased significantly since 1997 
when the first buses began shuttling passengers between Manhattan and 
other states' Chinatowns, producing more than 2000 arrival and 
departures weekly.
    The March 12 crash has triggered an investigation by the National 
Transportation Safety Board (NTSB) who are now looking into the causes 
of this accident. I have called on the NTSB to expand its investigation 
of the incident to review the possible safety risks that curbside bus 
carriers pose, the efficacy of current regulations for these carriers, 
and whether or not new regulations or better enforcement are needed. 
NTSB has agreed to my request and will conduct an additional study on 
the safety aspects of the low-cost intercity motorcoach industry. I 
look forward to the results of this study and the crash investigation 
and am committed to working with you and the Department of 
Transportation (DOT) to increase safety protections within this 
industry.
    DOT regulations require bus operators to ensure passenger safety, 
adequately maintain buses and place strict requirements on driver 
qualifications. Unfortunately, the events of March 12 demonstrate a 
clear failure of the system which puts the public in harm's way. For 
this reason, I am also a cosponsor of the Motorcoach Enhanced Safety 
Act, sponsored by my colleagues Senators Brown and Hutchinson. This 
bill would implement NTSB safety recommendations to protect passengers 
and keep unsafe buses and drivers off the road. Most importantly, it 
will save lives. I am pleased that your Committee has reviewed this 
bill and I fully support its passage.
    Thank you for holding this timely hearing to review the safety of 
our Nation's motorcoach industry. I look forward to continuing to work 
with you to promote safety on our roads.
            Sincerely,
                                        Charles E. Schumer.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Hon. Anne S. Ferro
    Question 1. Administrator Ferro, the Motorcoach Safety Action Plan 
includes a priority action item for FMCSA to establish new rules to 
prohibit texting and limit the use of cellular telephones and other 
devices by motorcoach drivers. This is also addressed in my distracted 
driving bill. When will FMCSA complete this rulemaking?
    Answer. Driver distraction is a serious safety problem that must be 
addressed to continue improving commercial motor vehicle (CMV) safety. 
FMCSA developed an approach that involves Federal rulemaking, outreach, 
and enforcement.
    On September 27, 2010, FMCSA published a Final Rule prohibiting 
texting by all CMV drivers while operating in interstate commerce and 
imposing civil penalties on drivers and motor carriers that violate the 
prohibition. The Final Rule also provides for commercial driver's 
license (CDL) holders' disqualification when they have multiple 
convictions for violating a State or local law or ordinance on motor 
vehicle traffic control that prohibits texting. The Agency is working 
closely with the National Highway Traffic Safety Administration and 
with our State and local safety partners in developing enforcement 
strategies for those who violate this rule.
    On December 21, 2010, FMCSA published a Notice of Proposed 
Rulemaking (NPRM) that would restrict the use of hand-held mobile 
telephones. The Agency proposed new driver disqualification sanctions 
for interstate drivers of CMVs who fail to comply with this Federal 
restriction and for CDL holders who have multiple convictions for 
violating a State or local law or ordinance on motor vehicle traffic 
control that restricts the use of hand-held mobile telephones. The 
comment period for the NPRM recently closed, and the Agency plans to 
issue a Final Rule by the end of 2011.

    Question 2. Administrator Ferro, FMCSA has not fully implemented 
its new safety enforcement model despite it being originally scheduled 
to be operational at the end of 2010. Part of the reason is because 
FMCSA has not yet implemented the safety fitness rating criteria. When 
will FMCSA complete the safety fitness determination rulemaking?
    Answer. Later this year FMCSA plans to issue a Notice of Proposed 
Rulemaking that will propose changes to our current Safety Fitness 
Rating Methodology for commercial bus and truck companies. Through this 
proposed rule, FMCSA would determine a carrier's safety fitness based 
on data consisting of crashes, road inspection results and violation 
history rather than exclusively data from the standard compliance 
review. This proposed rule would enable FMCSA to assess the safety 
performance of a greater segment of the commercial motor carrier 
industry with the goal of further reducing large truck and bus crashes 
and fatalities. The FMCSA anticipates completion of the rulemaking in 
2012.

    Question 3. Administrator Ferro, I remain deeply concerned about 
the Administration's proposal to restart the Mexican cross border truck 
program, and I want to make sure that any program will make public 
safety and economic security priority number one. Furthermore, I am 
concerned that the Mexican government has refused to allow U.S. 
companies to own Mexican bus companies that provide domestic service in 
Mexico, despite our country allowing Mexican companies to own U.S. 
companies providing domestic bus service in the Unites States. Do you 
agree that the Mexican government's actions against the U.S. bus 
industry are restricting these American companies from competing?
    Answer. Chairman Rockefeller, I would first like to address your 
concerns about the Administration's proposal to begin a new U.S.-Mexico 
cross-border long-haul trucking pilot program. Safety is our number one 
priority. In developing the concepts for the new pilot program, we were 
guided by the safety concerns that Congress and other stakeholders 
raised about the previous pilot program. Secretary LaHood personally 
reached out to approximately 30 Members of Congress, and DOT/FMCSA met 
with the representatives from various organizations including the 
Owner-Operator Independent Drivers Association, the International 
Brotherhood of Teamsters, the Advocates for Highway and Auto Safety, 
and the Truck Safety Coalition.
    In addition, as a result of input we received from, and 
recommendations issued by, FMCSA's Motor Carrier Safety Advisory 
Committee, we included program elements that the Department believes 
will further enhance the safety requirements above those set in the 
previous program. For example, we propose to use electronic on-board 
recorders to track participating Mexican vehicles as they operate in 
the United States and to verify each driver's compliance with hours-of-
service requirements. We intend to continue to inspect vehicles at a 
heightened level of monitoring, while at the same time recognizing the 
safety performance of those Mexico-domiciled motor carriers that prove 
they can operate safely in the United States. We believe that these and 
the other safety features outlined in our April 13, 2011, Federal 
Register notice will ensure safety for the general public and help the 
United States meet its international obligations.
    As we continue to work out necessary program requirements for a new 
cross border pilot program for the transportation of cargo by Mexico-
domiciled commercial motor vehicles--with reciprocal access rights 
accorded by the Government of Mexico to United States-domiciled motor 
carriers--we recognize a significant amount of work needs to be done 
regarding cross-border transportation of passengers by motorcoach. 
Under NAFTA, the Government of Mexico must allow for reciprocal 
investment and access opportunities for United States-domiciled 
motorcoach companies that wish to perform domestic operations in 
Mexico. We are committed to working with the Office of the United 
States Trade Representative and Department of Commerce on this issue.

    Question 4. What steps is the Administration taking to resolve this 
issue?
    Answer. The prohibition of U.S. ownership in Mexican motorcoach 
companies that provide domestic transportation services is primarily a 
NAFTA investment and trade issue. We have made the Office of the United 
States Trade Representative and Department of Commerce aware of the 
issue. Additionally, Secretary LaHood has identified this as an issue 
with Mexico's Secretary of Communication and Transportation. We believe 
that successfully addressing the cross-border truck access issue will 
also enhance our ability to successfully resolve this issue.

    Question 5. Administrator Ferro and Deputy Administrator Medford, 
the President's FY 2012 budget proposes to expand the Highway Trust 
Fund into a new Transportation Trust Fund that would fund all of the 
Federal surface transportation programs. I am concerned that the 
funding level for DOT's safety programs could be put at risk because 
the Highway Trust Fund does not currently generate sufficient revenues 
to support the programs it is supposed to fund. Administrator Ferro and 
Deputy Administrator Medford, how does the Administration propose to 
make sure Federal transportation safety programs receive full funding 
and are not undercut by commitments to other surface transportation 
programs?
    Answer. Under the DOT Fiscal Year 2012 Budget, existing Highway 
Trust Fund revenues will continue to be dedicated to highway and motor 
carrier safety. In addition, the Budget includes new (or increased) 
revenues sufficient to ensure solvency of the Transportation Trust Fund 
through 2021. As a matter of policy, the Administration believes the 
proceeds from existing Highway Trust Fund excise taxes should continue 
to be dedicated solely to the Highway and Mass Transit accounts, and no 
existing revenue would be diverted to the new accounts for rail and the 
National Infrastructure Bank. The additional revenues would be 
sufficient to maintain the solvency of the Transportation Trust Fund, 
but are not associated with any specific policy proposal. Rather, the 
Administration intends to work with Congress to authorize sufficient 
revenue for the Transportation Trust Fund.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                           Hon. Anne S. Ferro
    Question 1. USA Today published an article on March 23, 2011 
stating that two tour bus companies involved in fatal crashes in March 
have not received full government safety audits in more than 2 years, 
even though roadside inspections found problems that were serious 
enough to place them on ``alert'' status. Why have these audits not 
occurred? How rampant is the lack of audits?
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    FMCSA implemented additional components to the passenger carrier 
program to monitor the compliance and safety of motorcoach companies 
separately from trucking companies. For example, unauthorized for-hire 
motorcoach companies that have operational activity, such as 
inspections, are made a top priority for an on-site investigation. In 
addition, motorcoach companies with below industry median performance 
in a CSA criteria, or operating more than 2 years without an on-site 
investigation, or operating more than 5 years since the previous on-
site investigation are a priority.
    The SMS did identify for intervention the motorcoach company 
involved in the New Jersey crash, and FMCSA had assigned an 
investigator to conduct an on-site compliance review. FMCSA was in the 
process of scheduling the review when the crash occurred.
    FMCSA is responsible for the oversight of more than 500,000 truck 
and bus companies. This includes approximately 4,000 motorcoach 
companies. In the last 6 years we have significantly increased our 
focus and resources on motorcoach companies. On average we conduct an 
on-site compliance review on each motorcoach company every 3-4 years. 
The Agency has cut this time-frame by more than half since 2005 when 
the average time between on-site compliance reviews was more than 8 
years.

    Question 2. The article also states that 433 of the 3100 motor 
coach operators are listed as on ``alert'' by FMCSA. I understand that 
alerts are based on spot inspections of buses and drivers. How many of 
the operators are actually inspected? Do you have any reason to believe 
that the number of operators who are on alert may actually be higher 
than the 433 than were cited? How many of the companies are bus tour 
companies that operate in MO and/or transport passengers into MO from 
other states?
    Answer. The FMCSA and our State partners increased the on-site 
compliance reviews conducted on motorcoach companies by 128 percent, 
from 457 in 2005 to 1,042 in 2010. Inspections of motorcoaches 
increased 98 percent during the same period, from 12,991 in 2005 to 
25,703 in 2010.
    The number of motorcoach companies registered with FMCSA changes as 
new companies enter the business and others withdraw. Currently, we 
have approximately 4,000 motorcoach companies registered. In addition, 
the SMS is updated monthly to incorporate the new data generated by the 
inspections and compliance reviews. The number of ``alerts'' will 
change with each update.
    In Fiscal Year 2010, the FMCSA Missouri Division and our State 
partners conducted compliance reviews on 32 of the approximately 40 
motorcoach companies domiciled in Missouri. In addition, we conducted 
1,295 inspections in Missouri on passenger carrying vehicles and 
drivers. Approximately 35 percent of the inspections conducted in 
Missouri were on passenger carrying vehicles and drivers operated by 
companies domiciled in other States.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                           Hon. Anne S. Ferro
    Question 1. Although you testified that an on-site compliance 
review is conducted for each carrier every three to 4 years, Ms. 
Claybrook testified that some safety ratings have been in place for 
over 20 years. That hardly seems recent enough to be confident in the 
carrier's compliance. What is the FMCSA doing to ensure that every 
company has a rating that is current?
    Answer. FMCSA is responsible for the oversight of more than 500,000 
truck and bus companies. This includes approximately 4,000 registered 
motorcoach companies. Currently, FMCSA conducts on-site compliance 
reviews to assign safety ratings. In the last 6 years, we have 
significantly increased our focus and resources on motorcoach 
companies. Specifically, FMCSA and our State partners increased the 
compliance reviews conducted on motorcoach companies by 128 percent, 
from 457 in 2005 to 1,042 in 2010. In 2008, we implemented a policy 
that any passenger carrier with no safety rating or a safety rating 
more than 5 years old received a higher compliance review priority.
    The combination of these actions increased the frequency of 
conducting a compliance review on a motorcoach company and reduced the 
average time between reviews from 8 years to 3-4 years. We are well on 
our way to ensuring that all passenger carriers receive a new safety 
rating every 5 years or less under our current Safety Fitness Rating 
Methodology. From the testimony, it is not clear whether Ms. 
Claybrook's characterization of the age of some safety ratings was 
referring to the age of safety ratings issued to passenger carriers 
or--more likely--ratings issued to some of the more than 500,000 
trucking companies we also regulate. In any case, we are taking action, 
described in the next paragraph, to improve our ability to make safety 
fitness determinations more frequently and on more motor carriers.
    Later this year, FMCSA plans to issue a Notice of Proposed 
Rulemaking that will propose changes to our current Safety Fitness 
Rating Methodology for commercial bus and truck companies. Through this 
proposed rule, FMCSA would determine a carrier's safety fitness based 
on data consisting of crashes, road inspection results and violation 
history rather than exclusively data from the standard compliance 
review. This proposed rule would enable FMCSA to assess the safety 
performance of a greater segment of the commercial motor carrier 
industry, with the goal of further reducing large truck and bus crashes 
and fatalities. The FMCSA anticipates completion of the rulemaking in 
2012.
    In the interim, FMCSA implemented additional components to the 
passenger carrier program to monitor the compliance and safety of 
motorcoach companies separately from trucking companies. For example, 
unauthorized for-hire motorcoach companies that have operational 
activity, such as inspections, are made a top priority for an on-site 
investigation. In addition, motorcoach companies with below industry 
median performance in the CSA criteria, or operating more than 2 years 
without an on-site investigation, or operating more than 5 years since 
the previous on-site investigation are a priority.

    Question 2. I am shocked to learn, that, as Ms. Claybrook 
testified, despite studies and a rulemaking required by ISTEA in 1991, 
today there are essentially no Federal requirements for a commercial 
driver's license. I understand that the FMCSA is moving toward issuing 
a final rule to address this concern. Can you tell me what the FMCSA is 
proposing and the timeline for implementation?
    Answer. There are extensive Federal requirements for a commercial 
driver's license (CDL). Federal regulations for CDLs were first 
required by the Commercial Motor Vehicle Safety Act of 1986. The 
Federal Highway Administration (FHWA) published the first Final Rule 
implementing the requirements on June 1, 1987. Additional regulations 
have been issued in response to program needs and Congressional 
actions. All commercial motor vehicle drivers subject to the 
regulations were required to obtain a CDL that met the Federal 
standards by April 1, 1992.
    When FMCSA was created in 2000, the Federal oversight 
responsibility for CDL was transferred from FHWA. The current Federal 
regulations detailing the CDL requirements for drivers and their 
employers are contained in Title 49 CFR Part 383--Commercial Drivers 
License Standards; Requirements and Penalties. The Federal regulations 
for States issuing CDLs are contained in Title 49 CFR Part 384--State 
Compliance with Commercial Driver's License Program.
    In December 2007, FMCSA initiated a rulemaking to require behind-
the-wheel and classroom training for persons who must hold a commercial 
driver's license to operate commercial motor vehicles in interstate 
commerce. This action was in response to the U.S. Court of Appeals for 
the District of Columbia Circuit's December 2005 decision remanding the 
Agency's May 21, 2004, Final Rule, ``Minimum Training Requirements for 
Entry-Level Commercial Motor Vehicle Operators'' to the Agency for 
further consideration.
    The notice of proposed rulemaking (NPRM) would require 120 hours of 
training for entry-level drivers of heavy trucks seeking a Class A CDL 
and 90 hours of training for those seeking either a Class B or Class C 
CDL. Drivers of motorcoaches and school buses employed by private 
entities (typically contractors to local educational agencies) are 
Class B CDL holders, and would be required to obtain 90 hours of 
training under the proposal. The proposed training program is split 
between classroom and behind-the-wheel training, with the on-road 
component requiring at least 44 hours for Class A and 32 hours for 
Classes B and C. FMCSA is currently drafting a final rule to follow-up 
on the 2007 NPRM. The Agency anticipates publication of the final rule 
by the end of 2011.
    On December 1, 2008, FMCSA also published a final rule merging the 
medical certification and CDL issuance and renewal processes. The rule 
improves the Agency's and the States' ability to monitor the medical 
certification status of interstate CDL holders. The final rule requires 
CDL holders to provide a copy of their medical certificate to the State 
driver licensing agency in order to be granted a CDL or to maintain 
their existing interstate driving privileges. If a driver fails to 
renew the medical certificate, or if the driver fails the physical 
examination, the CDL will be downgraded automatically to prohibit the 
operation of CMVs in interstate commerce. The final rule became 
effective on January 30, 2009. States must implement the information 
technology system changes necessary to comply with the rule by January 
30, 2012. All CDL holders must comply with the requirements to submit 
the medical certification information to the States by January 30, 
2014.
    The final rule also required States to make the CDL driver's 
medical certification status available electronically to motor carrier 
safety enforcement personnel. FMCSA and State enforcement personnel 
would then be able to determine during a roadside inspection whether a 
driver is medically qualified by reviewing the electronic record 
maintained by the State licensing agency. Federal, state, and local 
government enforcement officials would query the Commercial Driver's 
License Information System (CDLIS) or the National Law Enforcement 
Telecommunication System to determine whether the driver had the 
required medical certification--something they cannot accomplish today.
    On September 27, 2010, FMCSA published a Final Rule providing for 
CDL holders' disqualification when they have multiple convictions for 
violating a State or local law or ordinance on motor vehicle traffic 
control that prohibits texting. On December 21, 2010, FMCSA published a 
Notice of Proposed Rulemaking (NPRM) that would also restrict the use 
of hand-held mobile telephones. The Agency proposed new driver 
disqualification sanctions for interstate drivers of CMVs who fail to 
comply with this Federal restriction and for CDL holders who have 
multiple convictions for violating a State or local law or ordinance on 
motor vehicle traffic control that restricts the use of hand-held 
mobile telephones.

    Question 3. Ms. Ferro, in your testimony you state that informal 
leasing creates difficulty in determining who is responsible for 
motorcoach vehicle safety and that the FMCSA is committed to initiating 
a rulemaking to address this concern. What is your timeline for this 
rulemaking?
    Answer. The proposed timeline will be determined when the 
rulemaking is initiated.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                           Hon. Anne S. Ferro
    Question 1. What is the status of the Motorcoach Safety Action Plan 
items under FMCSA's jurisdiction? What are the top action item 
priorities for your agency?
    Answer. The majority of the FMCSA-related Motorcoach Safety Action 
Plan (Plan) items are either completed or on track for completion. The 
Plan listed 7 priority items, 3 assigned to the National Highway 
Traffic Safety Administration and 4 assigned to FMCSA. Listed below are 
FMCSA's priority items from the Plan and the actions taken by FMCSA in 
regard to the items.

  <bullet> Initiate rulemaking to require electronic on-board recording 
        devices on all motorcoaches to better monitor drivers' duty 
        hours and manage fatigue.

    <bullet> On April 5, 2010, the Agency took a significant step 
            toward improving compliance with hours-of-service 
            regulations by publishing a final rule mandating the use of 
            electronic on-board recorders (EOBRs) by motor carriers 
            that transport passengers or property and that demonstrate 
            serious non-compliance with the hours of service (HOS) 
            rules. This action will reduce the likelihood of falsified 
            or incomplete records of duty status. The final rule 
            establishes: (1) new performance-oriented standards for 
            EOBR technology; (2) a mandate for certain motor carriers 
            to use EOBRs to remediate regulatory noncompliance (a 
            remedial directive); and (3) incentives to promote 
            voluntary EOBR use by all carriers. It is expected that 
            approximately 5,700 motor carriers each year will be 
            required to use EOBRs.

    <bullet> On February 1, 2011, the Agency published a Notice of 
            Proposed Rulemaking (NPRM) to expand the requirement for 
            motor carriers, including passenger carriers, to use EOBRs 
            and to require nearly all motor carriers to systematically 
            monitor their drivers' compliance with HOS requirements. 
            Specifically, FMCSA proposed mandatory installation and use 
            of EOBRs in interstate commercial motor vehicles (CMVs) 
            currently required to complete records of duty status, 
            including passenger carrier operations. Additionally, the 
            preamble to the rulemaking requests data and information 
            about the safety of short-haul passenger carriers currently 
            not required to maintain records of duty status.

  <bullet> Initiate rulemaking to propose prohibiting texting and 
        limiting the use of cellular telephones and other devices by 
        motorcoach drivers.

    <bullet> On September 27, 2010, FMCSA published a Final Rule 
            prohibiting texting by all CMV drivers while operating in 
            interstate commerce and imposing civil penalties on drivers 
            and motor carriers that violate the prohibition. The final 
            rule also provides for commercial driver's license (CDL) 
            holders' disqualification when they have multiple 
            convictions for violating a State or local law or ordinance 
            on motor vehicle traffic control that prohibits texting. We 
            are working closely with the National Highway Traffic 
            Safety Administration and with our State and local safety 
            partners in developing enforcement strategies for those who 
            violate this rule.

    <bullet> On December 21, 2010, FMCSA published an NPRM that would 
            restrict the use of hand-held mobile telephones. The Agency 
            also proposed new driver disqualification sanctions for 
            interstate drivers of CMVs who fail to comply with this 
            Federal restriction and for CDL holders who have multiple 
            convictions for violating a State or local law or ordinance 
            on motor vehicle traffic control that restricts the use of 
            hand-held mobile telephones. The comment period for the 
            NPRM recently closed, and the Agency plans to issue a final 
            rule later this year.

  <bullet> Enhance oversight of carriers attempting to evade sanctions.

    <bullet> FMCSA launched several initiatives to enhance its 
            oversight of motorcoach companies, the drivers they employ 
            and the vehicles they operate. These efforts include strict 
            enforcement of the current safety regulations, more 
            rigorous scrutiny of all passenger carrier applications for 
            operating authority, implementation of the Safety 
            Measurement System (SMS) to identify at-risk carriers for 
            targeted enforcement as part of our new Compliance, Safety, 
            Accountability program, or ``CSA,'' and improved oversight 
            of the medical certification process for drivers.

    <bullet> FMCSA routinely conducts strike force activities at 
            national, regional and local levels to enhance our overall 
            motorcoach enforcement program. The venues range from 
            traditional areas such as the northeast corridor to 
            activities conducted at sporting events, amusement parks 
            and national parks. The number of inspections conducted per 
            event may range from 50 or less for a local, 1 day activity 
            to more than 8,500 for a 2-week national activity. In 
            addition to inspections some strike force events include 
            compliance reviews and new entrant safety audits. Again the 
            amount of activity will depend on the size and location of 
            the strike force.

    <bullet> FMCSA increased the compliance reviews conducted on 
            motorcoach companies by 128 percent, from 457 in 2005 to 
            1,042 in 2010. Inspections of motorcoaches increased 98 
            percent during the same period, from 12,991 in 2005 to 
            25,703 in 2010. Passenger carrier enforcement cases rose 
            from 36 in 2008 to 44 in 2010, a 22 percent increase. 
            Between Fiscal Years 2007-2010, FMCSA placed 75 passenger 
            carriers out-of-service for being unfit to operate, after 
            receiving an unsatisfactory rating.

    <bullet> In August 2008, FMCSA implemented a more robust 
            investigation of applications for passenger carrier 
            operating authority. This was a necessary step toward 
            preventing the reincarnation of unsafe passenger carriers 
            that choose to evade FMCSA enforcements and penalties 
            rather than operate in compliance with the regulations. 
            Through the vetting program, FMCSA conducts an 
            investigation to determine whether the applicant is fit, 
            willing, and able to comply with the safety and other 
            applicable regulations, or if the applicant is attempting 
            to evade enforcement actions for violations committed under 
            another business name. As of March 28, FMCSA had applied 
            the vetting process to 2,666 applications for passenger 
            carrier operating authority. The Agency granted operating 
            authority to 1,995 applicants, 669 carriers failed to 
            successfully complete the application and either withdrew 
            their applications or the application was rejected because 
            the carrier failed to respond to inquiries from the Agency, 
            and 2 applications were rejected because the Agency 
            determined the applicant was a reincarnation of another 
            unsafe motor carrier. To date, 24 percent of applicants 
            have had their applications for operating authority 
            rejected. During this process the Agency continuously 
            identifies and implements more effective and efficient 
            procedures.

  <bullet> Establish minimum knowledge requirements for applicants 
        seeking FMCSA authority to transport passengers.

    <bullet> On August 29, 2010, FMCSA published an Advance Notice of 
            Proposed Rulemaking (APRM) requesting public comment on the 
            methods the Agency should consider implementing to provide 
            further assurance that a new applicant carrier is 
            knowledgeable about the applicable safety regulations 
            before being granted new entrant authority. This rulemaking 
            includes all applicants in addition to passenger carriers. 
            The Agency announced that it was considering whether to 
            implement a proficiency examination as part of our revised 
            New Entrant Safety Assurance Process and sought information 
            concerning issues that should be considered in the 
            development and use of such an examination. In addition, 
            the Agency requested comments on other alternatives to a 
            proficiency examination to complement the processes already 
            in place to demonstrate that new entrant carriers are 
            knowledgeable about applicable safety requirements.

    <bullet> The FMCSA also tasked its Motor Carrier Safety Advisory 
            Committee (MCSAC) to provide suggestions or recommendations 
            on approaches that could be implemented to improve the 
            existing new entrant safety assurance processes, 
            procedures, and requirements for ensuring that new entrant 
            motor carriers are knowledgeable about Federal motor 
            carrier safety mandates prior to beginning operations in 
            interstate commerce. The MCSAC provided its letter report 
            in September 2009 (available at http://mcsac.fmcsa.dot.gov/
            documents/Final%20Report%2009-03.pdf), which included 
            recommendations for mandatory testing of certain company 
            officials responsible for ensuring compliance with the 
            safety regulations and putting into place safeguards for 
            ensuring that the individual taking the test would actually 
            be responsible for implementing or maintaining the 
            carrier's safety management controls.

    <bullet> In addition to the rulemaking, FMCSA is conducting a study 
            to evaluate the effectiveness of some of the 
            recommendations. The phased research is progressing on 
            analysis of safety performance cost effectiveness for 
            fostering a safety culture in new entrants via training and 
            testing their knowledgeability. The initial report is a 
            detailed analysis of changes in safety performance that 
            resulted from a experimental new entrant training effort. 
            Preliminary results from that research are encouraging.

    <bullet> The Agency is currently reviewing the comments to the 
            ANPRM and the MCSAC report in preparation for developing an 
            NPRM to request public comment on a regulatory approach for 
            ensuring new entrant carriers have the knowledge needed to 
            comply with the Federal safety regulations.

    Question 2. Can you please describe FMCSA's efforts to keep unsafe 
or unqualified bus drivers off of the road? How many actions have you 
taken in the past 2 years that led to the suspension or removal of 
these drivers?
    Answer. In Fiscal Year 2009, there were a little more than 99,000 
bus inspections conducted by FMCSA and State/local law enforcement 
agencies. The bus driver out-of-service rate was 4.2 percent. In Fiscal 
Year 2010, we conducted more than 95,000 bus inspections resulting in a 
4.9 percent out-of-service rate for bus drivers.
    FMCSA continues to actively engage State and local law enforcement 
agencies to increase routine traffic enforcement of all CMV operators, 
including bus drivers. FMCSA also works with State and local courts and 
State Driver Licensing Agencies to ensure the timely, complete, and 
accurate posting of convictions and disqualifications so that bus 
drivers convicted of certain offenses lose their privileges to operate 
these vehicles. As data quality improves, more unsafe drivers are 
removed from the highways. Beyond conducting inspections and placing 
drivers out-of-service for violations such as driving while suspended, 
failure to be medically qualified, or drug and alcohol use, FMCSA has 
no authority to engage in routine traffic enforcement of CMV operators. 
However, violations cited during FMCSA inspections can lead to the 
driver's disqualification, which prohibits operation in interstate 
commerce. Further, violations cited during State/local law enforcement 
inspections that lead to conviction can result in disqualification from 
operating a CMV.

    Question 3. SAFETEA-LU, the last highway reauthorization bill that 
became law in August 2005, required FMCSA to establish a national 
registry of medical examiners by August 2006. Yet this registry has not 
yet been established. The bus safety legislation introduced by Senator 
Brown and myself would mandate that this requirement be completed 
within 6 months of the bill's enactment. Why is there a delay in 
establishing this registry, which is now over 5 years behind?
    Answer. The rulemaking schedule for the National Registry of 
Certified Medical Examiners was revised because of substantial effort 
required on other significant rulemakings such as the Hours of Service 
Notice of Proposed Rulemaking (NPRM), Electronic On-Board Recorders 
NPRM, Prohibition Against Texting Final Rule, Restriction on Handheld 
Cell Phones NPRM, and CDL Learner's Permits Final Rule. The Agency has 
greatly increased the number of safety rulemakings being issued each 
year and we fully intend to issue the National Registry Final Rule in 
2011.

    Question 4. Unsafe reincarnated or ``chameleon'' carriers are one 
of the major issues in motorcoach safety. Our legislation would permit 
FMCSA to revoke existing operating authority if the Agency finds that a 
carrier has failed to disclose its prior operating history. What more 
can FMCSA do to address this serious safety problem of reincarnated 
carriers?
    Answer. Under current statutes, we do not have the authority to 
deny a motorcoach company's application for a USDOT number. The 
authority to consider requiring the disclosure of recent affiliation 
with other carriers as a condition of USDOT number issuance will help 
prevent reincarnated carriers. Congress could grant this authority to 
FMCSA within a broader authority to consider requiring safety audits 
prior to USDOT number issuance if the benefits justify the costs.
    Though not related to reincarnated carriers, Congress could also 
grant authority to FMCSA to consider requiring safety management 
interviews and written examinations when justified by the benefits. 
These requirements could replace the need for post-registration safety-
audits. The motorcoach company will still be required to undergo the 18 
month monitoring period established by section 31144(g) of Title 49 
U.S.C.

    Question 5. I understand FMCSA is undertaking a rulemaking to 
review the minimum knowledge requirements for bus drivers, but that you 
have fallen behind schedule in that effort. Comments to the proposed 
rule were due in October 2009, but we have not seen a final rule. When 
does FMCSA plan to release a final rule addressing this issue?
    Answer. FMCSA issued the ANPRM addressing the Motor Carrier Safety 
Improvement Act of 1999, (P.L. 106-159, December 9, 1999), Section 
210(b) new entrant motor carrier knowledgeability requirement on August 
25, 2009. Section 210(b) of MCSIA says:

        . . . the Secretary shall consider the establishment of a 
        proficiency examination for applicant motor carriers as well as 
        other requirements to ensure such applicants understand 
        applicable safety regulations before [emphasis added] being 
        granted operating authority.

    FMCSA does not have background information about the cost-
effectiveness or safety performance of new entrant motor carriers that 
would result from requiring a test or other requirements to ensure new 
entrants are knowledgeable about the Federal Motor Carrier Safety 
Regulations (FMCSRs). Thus, the August 25, 2009, ANPRM included a 
number of questions intended to elicit information on options to assist 
in carrying out this consideration of whether to proceed with a 
rulemaking. Responses to the ANPRM's questions did not provide any 
clear direction for how FMCSA should proceed with this consideration.
    At the same time as the ANPRM, FMCSA also requested the Motor 
Carrier Safety Advisory Committee (MCSAC) provide recommendations on 
how to ensure new entrants know the FMCSRs before being issued a USDOT 
number. Their recommendations can be found at http://
mcsac.fmcsa.dot.gov/documents/Final%20
Report%2009-03.pdf.
    Since the mandate is to consider whether to establish some 
requirement or requirements, FMCSA needs well supported cost-
effectiveness data if we are to undertake a rulemaking. Thus, the 
Agency's Research Division undertook a demonstration project to acquire 
cost-effectiveness data that could support a rulemaking.
    Because we cannot require any action by a motor carrier relating to 
Section 210(b) prior to issuing a final rule, the research project--in 
keeping with ideas of the MSCAC to promote development of a safety 
culture in new entrants--is testing proactive training of new entrants 
as soon after they receive their USDOT number, and before they receive 
the required Safety Audit. The current demonstration project is using a 
classroom style of delivery.
    Preliminary results comparing improvement in safety performance of 
those new entrants who receive the training, with a representative 
control group, are very compelling that such training, accompanied by 
performance testing, is very effective. A detailed analysis of 
effectiveness of this approach is nearing completion for submission to 
FMCSA. We will be adding an analysis of cost for this approach shortly.
    The next step is to develop and test a hybrid training curriculum 
incorporating computer assisted methodologies delivered with a 
facilitator in a classroom setting--such as in community colleges with 
computer work stations. Theory shows such an approach could lower the 
cost, more effectively influence the new entrants that are resistant to 
the ideas, and make it easier to find personnel capable of facilitating 
such training nationwide.
    Additionally, FMCSA is developing Web based training it plans to 
post on the Agency's website available to any interested new entrants 
that are located in parts of the country served by broadband access to 
the Internet. This web-based media would form a logical augmentation 
resource to whatever might be required as part of a knowledgeability 
requirement before being issued a USDOT number.
    Once the cost-effectiveness data is available for the hybrid 
approach, the next step will be the publication of an NPRM based on the 
research results for these alternatives. Comments received to the 
docket on the alternative approaches will then support the next step 
toward issuing a final rule.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                           Hon. Anne S. Ferro
    Question. Beyond new technologies, what is the most important thing 
the government can do to reduce the number of bus accidents? In other 
words, how do we prevent bad drivers and dishonest companies from 
entering this business?
    Answer. There are two actions that will aid in preventing bad 
drivers from acquiring a commercial driver's license.
    First, we believe full implementation of the 2005 Test Model System 
in all 50 States and the District of Columbia will prevent potentially 
bad drivers from passing the new CDL test. The upgraded skills test is 
more difficult to pass and the new scoring sheets for the skills test 
allow examiners to identify poor driving behavior multiple times 
throughout the test. Currently some States are still using a CDL test 
developed in the late 1990s.
    One obstacle to achieving full implementation is that some States 
are reluctant to adopt standardized or preferred testing because of the 
perceived high costs associated with building new facilities that will 
cover all the testing scenarios. This is a misperception. Although the 
testing does cover all of the basic maneuvering required by a CDL 
driver, it allows for adaptations by including a list of testing 
scenarios which enables the States to pick the specific task to test at 
a given facility. There is no need to build new pads or docks.
    The 2005 Test Model provides flexibility for each State while still 
assuring competency by the driver being tested. Almost all the States 
have accepted this Model but there is some push-back by others. Using 
the new test does ``raise the bar'' for proficiency testing.
    Second, FMCSA does not have the statutory authority to prevent an 
applicant from being issued a CDL based on his or her previous driving 
record. The current legal standard is possession of a valid base 
license on the day the CDL is issued. If the applicant has passed the 
appropriate tests, the State cannot deny him or her a CDL, even if the 
person's driving history shows a pattern of violations or poor 
performance. We believe this is a safety gap in the overall program.
    As to how to keep dishonest companies from entering the business, 
implementing the changes discussed in our response to Senator 
Hutchison's question about reincarnated carriers would move the FMCSA 
goal of raising the bar to entry forward.
                                 ______
                                 
Response to Written Questions submitted by Hon. John D. Rockefeller IV 
                           to Ronald Medford
    Question 1. Deputy Administrator Medford, ten action items of the 
Motorcoach Safety Action Plan fall under NHTSA's jurisdiction. 
Unfortunately, NHTSA has slipped on various milestones listed in the 
Plan. What are the reasons for these delays?
    Answer. While there have been minor delays on some of the 
milestones, NHTSA has made good progress on its motorcoach safety 
initiatives. NHTSA completed its three priority action items listed in 
the Motorcoach Safety Action Plan and established the next milestones 
to complete the regulatory process. Some of the milestones in the Plan 
were delayed due to the need for additional coordination, completion of 
scientific testing, or additional study (i.e., new issues identified 
from testing that required further evaluation).

    Question 2. Has NHTSA set new milestones to complete these action 
items, and what is NHTSA doing to ensure that these milestones are met?
    Answer. For those action items that were delayed, the agency set 
new milestones and prioritized its work to ensure that the milestones 
will be met. Specific details can be found in NHTSA's Vehicle Safety 
and Fuel Economy Rulemaking and Research Priority Plan 2011-2013. (The 
plan follows.)

    Question 3. Administrator Ferro and Deputy Administrator Medford, 
the President's FY 2012 budget proposes to expand the Highway Trust 
Fund into a new Transportation Trust Fund that would fund all of the 
federal surface transportation programs. I am concerned that the 
funding level DOT's safety programs could be put at risk because the 
Highway Trust Fund does not currently generate sufficient revenues to 
support the programs it is supposed to fund. How does the 
Administration propose to make sure federal transportation safety 
programs receive full funding and are not undercut by commitments to 
other surface transportation programs?
    Answer. Under the DOT Fiscal Year 2012 Budget existing Highway 
Trust Fund revenues will continue to be dedicated to highway and motor 
carrier safety. In addition, the Budget includes new (or increased) 
revenues sufficient to ensure solvency of the Transportation Trust Fund 
through 2021. As a matter of policy, the Administration believes that 
the proceeds from existing Highway Trust Fund excise taxes should 
continue to be dedicated solely to the Highway and Mass Transit 
accounts, and no existing revenue should be diverted to the new 
accounts for rail and the National Infrastructure Bank. The additional 
revenue would be sufficient to maintain the solvency of the 
Transportation Trust Fund, but are not associated with any specific 
policy proposal. Rather, the Administration intends to work with 
Congress to authorize sufficient revenue for the Transportation Trust 
Fund.
                                 ______
                                 
NHTSA Vehicle Safety and Fuel Economy Rulemaking and Research Priority 
                            Plan--2011-2013
I. Introduction
    The National Highway Traffic Safety Administration's primary 
mission is to ``save lives, prevent injuries, and reduce economic costs 
due to road traffic crashes.'' One of the most important ways in which 
the agency carries out its safety mandate is to issue Federal Motor 
Vehicle Safety Standards (FMVSS). Through these rules, NHTSA strives to 
reduce the number of crashes and to minimize the consequences of those 
crashes that do occur. NHTSA's mission also includes issuing Corporate 
Average Fuel Economy (CAFE) standards under the Energy Independence and 
Security Act of 2007. Increasing fuel economy not only contributes to 
energy security, but also addresses climate change by reducing tailpipe 
emissions of carbon dioxide (CO<INF>2</INF>).
    This NHTSA Vehicle Safety and Fuel Economy Priority Plan describes 
the projects the agency plans to work on in the rulemaking and research 
areas for calendar years 2011 to 2013. This is not an exhaustive list. 
Only programs and projects that are priorities or will take significant 
agency resources are listed. Furthermore, NHTSA's enforcement, data 
collection, and analysis programs--vital elements in achieving NHTSA's 
goals--have their own set of priorities that are not listed here. Each 
of these programs supports NHTSA's rulemaking and research priorities 
by providing necessary safety data, economic analysis, expertise on 
test procedures, and technical issues gleaned from enforcement 
experience.
    This plan is an internal management tool as well as a means to 
communicate to the public NHTSA's highest priorities to meet the 
Nation's motor vehicle safety, energy and environmental challenges. 
Among them are programs and projects involving rollover crashes, 
children (both inside as well as just near vehicles), motorcoaches and 
fuel economy that must satisfy Congressional mandates or Secretarial 
commitments. Since these are expected to consume a significant portion 
of the agency's rulemaking resources, they affect the schedules of the 
agency's other priorities listed in this plan. This plan lists the 
programs and projects on which the agency anticipates working even 
though there may not be a rulemaking notice planned to be issued by 
2013, and in several cases, the agency does not anticipate that the 
research will be completed by the end of 2013. Thus, in some cases, the 
next step would be an agency decision in 2013 or 2014. NHTSA is also 
currently in the process of developing a longer-term motor vehicle 
safety strategic plan that would encompass the period 2014 to 2020.
II. Background
    Motor vehicle crashes killed more than 33,000 people and injured 
over 2.2 million others in 2009. In addition to the terrible personal 
toll, these crashes make a huge economic impact on our society with an 
estimated annual cost of $230 billion,\1\ an average of $750 for every 
person in the United States.
---------------------------------------------------------------------------
    \1\ These estimates are in year 2000 dollars
---------------------------------------------------------------------------
    Motor vehicle crashes can be viewed through several different 
perspectives:

  <bullet> Vehicle type;

  <bullet> Crashworthiness;

  <bullet> Crash avoidance;

  <bullet> Crash partners;

  <bullet> Body region injured; and

  <bullet> Societal costs.

    Figure 1 and Table 1 look at fatalities by vehicle type. Passenger 
vehicles still account for the majority of fatalities (68 percent or 
25,351 fatalities), but also account for about 90 percent of the 
vehicle miles traveled (VMT).
Figure 1: Fatalities by Vehicle Type, 2009
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


              Table 1.--2009 U.S. Fatalities by Person Type
------------------------------------------------------------------------
                                                          Fatalities
------------------------------------------------------------------------
      Total Fatalities                                           33,808
------------------------------------------------------------------------
Passenger Vehicle Occupants                                      23,382
------------------------------------------------------------------------
Motorcyclists                                                     4,462
------------------------------------------------------------------------
Large Truck, Bus, Other Vehicle Occupants                         1,092
------------------------------------------------------------------------
Nonoccupants                                                      4,872
------------------------------------------------------------------------
        Pedestrian                                                4,092
------------------------------------------------------------------------
        Pedalcyclists                                               630
------------------------------------------------------------------------

    From the crashworthiness perspective, NHTSA looks at occupant 
fatalities or crash types by what part of the vehicle was struck first. 
Typically for passenger vehicles the initial impact point in fatal 
crashes would be frontal in 55 percent of fatalities, side impacts in 
26 percent, non-collisions (which include rollovers) in 7 percent, rear 
impacts in 5 percent, and other or unknown locations in 6 percent. 
However, rollovers can be examined as the initial impact, or as any 
event in the crash. If rollovers are examined as any event in the 
crash, almost 9,000 rollovers occur per year in fatal crashes, or about 
20 percent of the vehicle total.
    From the crash avoidance perspective, NHTSA looks at types of 
crashes that might be mitigated by new technologies. Based on the 
General Estimates System (GES) and the Fatality Analysis Reporting 
System (FARS), four types of crashes total 85 percent of all crashes. 
These include Run-Off-Road (23 percent), Rear-End (28 percent), Lane 
Change (9 percent), and Crossing Path (25 percent). Those same four 
types of crashes also equal 75 percent of all road fatalities. These 
include Run-Off-Road (41 percent), Rear-End (5 percent), Lane Change (4 
percent), and Crossing Path (14 percent).
    The fourth perspective of looking at fatal motor vehicle crashes is 
crash type with respect to what the vehicle impacted, if anything, as 
the most harmful event (see Figure 2). For both passenger cars and 
light trucks in 2009, frontal crashes with other motor vehicles account 
for the highest percentage of vehicles involved in fatal crashes, 32 
percent and 36 percent respectively. For passenger cars in fatal 
crashes, side impacts with other motor vehicles account for 16 percent, 
and collision with fixed objects accounts for 20 percent of vehicles in 
fatal crashes. In fatal crashes involving light trucks, non-collisions 
(which include rollovers) remain an issue, accounting for 23 percent of 
vehicles involved.
    Electronic Stability Control (ESC) is changing the fatal crash 
picture as more and more new vehicles come equipped with ESC and the 
on-road fleet of ESC increases. ESC is dramatically reducing the number 
of run-off-road crashes and rollovers. NHTSA is performing a follow up 
evaluation of ESC and is already assuming reductions in relevant target 
populations when new safety standards are being analyzed.
    A fifth and a sixth perspective are those of body region injured 
and societal costs. Brain injuries and ankle and knee injuries that 
have long-term disability associated with them have very high societal 
costs.
    NHTSA looks at crashes from all these different perspectives in 
determining the priorities for the agency. Countermeasures affect 
different types of crashes in different ways and have to be examined 
individually and compared to the applicable target population.
Figure 2: Vehicles Involved in Fatal Crashes by Most Harmful Event, 
        2009
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Priority Programs and Projects
    Programs and projects that warrant priority consideration fall into 
the following four categories: (1) large safety benefits; (2) 
vulnerable populations; (3) high-occupancy vehicles; and, (4) other 
considerations.
    Programs and projects that are in Category 1, large benefits, have 
the potential for large safety benefits based upon factors such as:

  <bullet> The size of the target population;

  <bullet> The effectiveness of countermeasures and their potential to 
        save lives and prevent injuries;

  <bullet> The availability and practicability of these 
        countermeasures; and

  <bullet> The potential that countermeasures could be developed in the 
        future that could be reasonably effective against a large 
        target population.

    It should be noted that some projects require additional research 
before specific countermeasures can be identified and their benefits 
can be quantified and therefore the priority designation is based on 
the agency's judgment of potential safety impacts.
    Programs and projects in Category 2, vulnerable populations, affect 
children, older people, the vision-impaired, or other populations that 
are considered vulnerable.
    Category 3, high-occupancy vehicles, involves buses or motorcoaches 
and other high-occupancy vehicles.
    Category 4, other considerations, includes priority projects that 
may not be captured in the other categories, but either reduce the 
impact of motor vehicles on energy security and climate change or 
address other specific items.
Other Significant Programs and Projects
    This plan also includes a comprehensive list of other significant 
programs and projects on which the agency expects to work in the 2011-
2013 timeframe. This area is fluid, because the agency receives 
petitions that require action, Congress may request that the agency 
address other areas, the Administration may set additional and/or 
different priorities, or some event may influence NHTSA's priority 
agenda. For example, the agency could add projects based on its 
evaluation of current standards as required by Executive Order 12866 of 
September 30, 1993 and the new Executive Order 13563 of January 18, 
2011, Improving Regulation and Regulatory Review.
    Some programs and projects described in the plan require additional 
research before any rulemaking action can be taken. These programs may 
not be priorities now because NHTSA is not confident that an effective 
countermeasure can be found. However, with research on-going, there is 
the possibility that countermeasures may be discovered that have 
significant death and injury reduction benefits.
Dates Provided
    Programs and projects that are in the research stage are noted with 
milestones indicating when NHTSA plans to decide whether and how to 
proceed. In general, this is an agency decision about whether the 
program or project is ready and worthy to move from the research stage 
into the rulemaking stage, whether the program or project requires 
further research, or whether the potential benefit does not warrant 
further allocation of resources. This ``agency decision'' is based on 
many factors, including estimates of the target population, readiness 
of technology, potential effectiveness of countermeasures, development 
of a test protocol, and what information remains unknown. (Dates are 
given in calendar years, not fiscal years.)
    For projects that NHTSA believes will be in the rulemaking stage, 
the agency has indicated dates when it anticipates issuing a Notice of 
Proposed Rulemaking (NPRM) or a Final Rule. Those dates are subject to 
change for a variety of reasons, such as complications encountered in 
the research phase, or new priority activities interrupt a project's 
progress, etc.
Program Areas
    The projects have been divided into the following program areas: 
light-vehicle crash avoidance and mitigation advanced technologies, 
motorcycles, rollovers, front-impact occupant protection, side-impact 
occupant protection, rear-seat occupant protection, children, older 
people, global technical regulations (international harmonization), 
heavy vehicles, CAFE, and others (a catchall category for projects that 
don't fit in the listed program areas).
    Crash avoidance projects and programs are listed first because 
their focus is on the first opportunity to save lives and reduce 
injuries by preventing crashes from occurring in the first place. In 
addition, they serve to reduce property damage and traffic congestion 
that are the inevitable result of most crashes.
III. Priority Projects by Program Area
Light-Vehicle Crash Avoidance and Mitigation--Advanced Technologies
Forward Collision Avoidance and Mitigation
    Description: Develop performance criteria and objective tests to 
support the identification of effective advanced safety technologies 
that provide a warning of an impending forward collision and/or 
automatically brake/slow the vehicle. NHTSA has developed a forward 
crash warning test for New Car Assessment Program (NCAP) purposes that 
will appear in NCAP data on a warning system in model year 2011 
vehicles The agency will decide whether to initiate rulemaking to 
require forward collision warning and/or automatic crash-imminent 
braking.

        Priority Category: Large Benefit

        Next Milestone: Agency decision in 2011

Vehicle Communications
    Description: Advanced technologies that utilize vehicle-based 
sensors have been demonstrated to be effective at helping drivers avoid 
crashes. Vehicle-to-vehicle (V2V) communications can improve the 
effectiveness and availability of these safety systems. Communications 
can also enable numerous other safety applications, such as speed 
management and intersection collision avoidance. Human factors research 
to examine the interaction between driver, vehicle, and the environment 
is underway. Vehicle-to- infrastructure (V2I) work is also being 
considered. The agency will assess the research data, technologies and 
potential countermeasures and decide on next steps.

        Priority Category: Large Benefit

        Next Milestone: Agency decision in 2013

Distraction
    Description: Driver distraction presents a significant and complex 
problem in highway safety. The agency published a comprehensive 
distraction plan in April 2010. This plan frames the issue, discusses 
safety consequences, presents agency goals, and lays out upcoming 
research initiatives that include both technological and behavioral 
approaches. The Strategic Highway Research Plan II (SHRP2) initiative 
will provide data on distraction.

        Priority Category: Large Benefit

        Next Milestone: Publish guidelines for visual manual 
        distraction in 2011

Vehicle Based Alcohol Detection (Basic Research)
    Description: NHTSA entered into a 5-year cooperative agreement with 
the Automotive Coalition for Traffic Safety (ACTS) in early 2008 aimed 
at conducting basic research on alcohol detection technologies to 
reduce drunk driving that could have widespread deployment and are non-
invasive, reliable, accurate, and precise. To achieve this goal the 
project aims to: (1) assess the current state of alcohol detection 
devices, and (2) support the development and testing of prototypes and 
subsequent hardware that may be installed in vehicles. The prototypes 
would then undergo extensive laboratory and field testing. The agency 
will assess the research data and technologies and decide on next 
research steps.

        Priority Category: Large Benefit

        Next Milestone: Agency decision in 2013
Children
Child Restraints in Side Impacts
    Description: Propose test procedures in FMVSS No. 213 to assess 
child restraint performance in near-side impacts. Amend Part 572 to add 
the Q3s dummy, the 3-year-old side impact version of the Q-series of 
child dummies.

        Priority Category: Vulnerable Population

        Next Milestone: NPRM in 2012

New Car Assessment Program Vehicle-Child Restraint System (CRS) Fit 
        Program
    Description: A consumer service program that provides vehicle-CRS 
``fit'' recommendations on www.safercar.gov by encouraging vehicle 
manufacturers to voluntarily recommend child restraint models that 
``fit'' in each vehicle.

        Priority Category: Vulnerable Population

        Next Milestone:

                Request for comments: February 25, 2011
                Final Notice: 2012

Rear Visibility of Vehicles
    Description: A backover crash involving a light vehicle at low 
speed is tragic, with a small child or elderly person most often being 
the victim. The agency has conducted research on a variety of rear-
visibility technologies to mitigate these types of crashes. NHTSA 
published a Notice of Proposed Rulemaking (NPRM) on rear visibility on 
12/7/10.

        Congressional Requirements: The Cameron Gulbransen Kids 
        Transportation Safety Act of 2007

        Priority Category: Vulnerable Populations

        Next Milestone:
                Public Hearing March 23, 2011
                Final Rule: December 2011

Power Windows
    Description: A rulemaking to consider requiring power windows on 
motor vehicles to automatically reverse direction when closing when 
such power windows detect an obstruction to prevent children and others 
from being trapped, injured, or killed. An NPRM was published September 
1, 2009. After further review, the agency has withdrawn this rulemaking 
action.

        Congressional Requirements: The Cameron Gulbransen Kids 
        Transportation Safety Act of 2007

        Priority Category: Vulnerable Population

        Last Milestone: Withdrawal March 2, 2011
Heavy Vehicles \2\
---------------------------------------------------------------------------
    \2\ ``Heavy vehicles'' include most vehicles over 10,000 pounds 
GVWR, including truck tractors, single-unit trucks, buses, 
motorcoaches, etc.
---------------------------------------------------------------------------
Truck Tractor and Motorcoach Stability Control
    Description: Develop test procedures for a standard on stability 
control systems for truck tractors and motorcoaches. The stability 
control system is aimed at addressing rollover and loss of control 
crashes.

        Priority Category: Large Benefit

        Next Milestone: NPRM: 2011

Medium Truck and Bus Stability Control
    Description: Develop test procedures for a standard on stability 
control for medium trucks, buses, and all other vehicles over 10,000 
pounds GVWR not covered in the truck tractors and motorcoaches 
activity. The agency will decide whether to initiate rulemaking to 
require such systems on these vehicles.

        Priority Category: Large Benefit

        Next Milestone: Agency decision in 2014

Heavy-Vehicle Forward Collision Avoidance and Mitigation
    Description: Develop performance criteria and objective tests to 
support the identification of effective advanced safety technologies 
that provide warning of an impending forward collision and/or 
automatically brake/slow the vehicle. The agency will assess the 
research data, technologies and potential countermeasures and decide on 
next steps.

        Priority Category: Large Benefit

        Next Milestone: Agency decision in 2013

Motorcoach Lap/Shoulder Belts
    Description: The NPRM, published August 18, 2010, proposed 
requiring lap/shoulder belts for motorcoaches. This action supports the 
DOT Motorcoach Safety Action Plan (HS 811 177) and related NTSB 
recommendations.

        Priority Category: High-Occupancy Vehicle

        Next Milestone: Final Rule: 2012

Motorcoach Fire Safety
    Description: Consider upgrading the fire standards that apply to 
motorcoaches. This action supports the DOT Motorcoach Safety Action 
Plan (HS 811 177) and related NTSB recommendations. The agency will 
decide whether to initiate rulemaking to upgrade the fire standards 
that apply to motorcoaches.

        Priority Category: High-Occupancy Vehicle

        Next Milestone: Agency decision in 2012

Motorcoach Emergency Evacuation
    Description: Consider upgrading the motorcoach evacuation 
standards. This action supports the DOT Motorcoach Safety Action Plan 
(HS 811 177) and related NTSB recommendations. The agency will decide 
whether to initiate rulemaking to upgrade the motorcoach evacuation 
standards.

        Priority Category: High-Occupancy Vehicle

        Next Milestone: Agency decision in 2011

Motorcoach Rollover Structural Integrity
    Description: Propose new rollover structural integrity requirements 
for motorcoaches. This action supports the DOT Motorcoach Safety Action 
Plan (HS 811 177) and related NTSB recommendations.

        Priority Category: High-Occupancy Vehicle

        Next Milestone: NPRM: 2011
Fuel Economy
Passenger Car and Light-Truck Fuel Economy Standards (Corporate Average 
        Fuel Economy (CAFE) standards) for Model Years 2017-2025
    Description: Fuel economy regulation of light-duty vehicles. The 
Energy Independence and Security Act (EISA) requires that CAFE 
standards be prescribed separately for passenger automobiles and non-
passenger automobiles for each model year and that combined fleet fuel 
economy achieves at least 35 mpg by model year 2020. For model years 
2021 and beyond, EISA requires that the standards be set at the maximum 
feasible for each model year. On March 31, 2010, DOT and EPA issued a 
joint final rule for MY 2012-2016 passenger cars and light trucks. On 
May 21, 2010, President Obama issued a memorandum directing NHTSA and 
EPA to conduct a joint rulemaking (NHTSA regulating fuel economy and 
EPA regulating greenhouse gas emissions) for 2017-2025 model year 
vehicles, and to issue a Notice of Intent to Issue a Proposed Rule 
(NOI) by September 30, 2010.

        Congressional Requirements: Energy Independence and Security 
        Act (EISA)

        Priority Category: Energy Security and Climate Change Benefits





        Next Milestone:  NPRM:                    2011
                         Final Rule:              2012



Medium/Heavy-Duty Vehicles and Work Truck Fuel Efficiency Rules
    Description: Fuel efficiency regulation of medium- and heavy-duty 
vehicles and work trucks. As required by EISA, the National Academy 
provided Congress with a report on March 18, 2010. The NHTSA study was 
issued October 25, 2010. EISA also requires NHTSA to complete a final 
rule establishing a fuel efficiency program for these vehicles 24 
months after the completion of the NHTSA study and to provide at least 
4 full model years of regulatory leadtime and 3 full model years of 
regulatory stability (i.e., the standards must remain in effect for 3 
years before they may be amended). On May 21, 2010, President Obama 
issued a memorandum directing NHTSA and EPA to conduct a joint 
rulemaking (NHTSA regulating fuel efficiency and EPA regulating 
greenhouse gas emissions), and to issue a final rule by July 30, 2011. 
Under consideration are rules for trucks produced in 2014-2018. An NPRM 
was published 11/30/10.

        Congressional Requirements: Energy Independence and Security 
        Act

        Priority Category: Energy Security and Climate Change Benefits

        Next Milestone: Final Rule: 2011

Fuel Economy/Greenhouse Gas Labeling Rule
    Description: EISA mandates NHTSA to develop a labeling system for 
new automobiles with information on fuel economy, greenhouse gas (GHG) 
emissions, and other emissions. EPA and NHTSA are combining efforts to 
create a rating system. An NPRM was published 9/23/10.

        Congressional Requirements: Energy Independence and Security 
        Act

        Priority Category: Energy Security and Climate Change Benefits

        Next Milestone: Final Rule: 2011 (per statute 6/19/11)

        Consumer Education Campaign and Alternative Fuel Labeling
    Description: EISA mandates NHTSA to develop a fuel economy 
education program. This entails: (1) Labeling vehicles with a permanent 
and prominent display of automobiles capable of operating on 
alternative fuels. (2) Requiring owner's manual for vehicles capable of 
operating on alternative fuels to include information describing 
capability and benefits of using alternative fuels (e.g., renewable 
nature and environmental benefits). (3) Improving consumer 
understanding of automobile performance with regard to fuel economy and 
greenhouse gas and other emissions. (4) Informing consumers of the 
benefits of using alternative fuel in automobiles. (5) Identifying 
locations of stations with alternative fuel capacity. (6) Establishing 
a consumer education campaign on fuel savings that would be recognized 
from the purchase of vehicles equipped with thermal management 
technologies, including energy efficient air conditioning systems and 
glass. (7) Requiring a label to be attached to the fuel compartment of 
vehicles capable of operating on alternative fuels, with the form of 
alternative fuel stated on the label.

        Congressional Requirements: Energy Independence and Security 
        Act

        Priority Category: Energy Security and Climate Change Benefits

        Next Milestone: NPRM: 2011

Tire Fuel Efficiency Consumer Information Program
    Description: EISA mandated that NHTSA develop a national tire fuel 
efficiency consumer information program ``to educate consumers about 
the effect of tires on automobile fuel efficiency, safety, and 
durability,'' and ``to assist consumers in making more educated tire 
purchasing decisions.'' On March 30, 2010, NHTSA published a final rule 
to establish the test methods to be used by tire manufacturers for this 
new program, however it did not specify how the information will be 
explained and provided to consumers. This information will be provided 
to consumers at the point of sale and online and will encourage the 
purchase of better performing replacement tires. NHTSA is conducting 
additional consumer testing and trying to resolve important issues 
raised by public comments on the agency's proposal regarding the 
program. NHTSA will proceed with the testing and then develop and 
publish a new proposal for these aspects of the new program.

        Congressional Requirements: Energy Independence and Security 
        Act

        Priority Category: Energy Security and Environmental Benefits

        Next Milestone: NPRM: 2012
Other
Alternative Fuel Systems
CNG
    Description: Research is required to assess the causes of high 
pressured cylinder ruptures on aging CNG vehicles which have occurred 
during refueling and in vehicle-related fires. NHTSA is working with 
the Department of Energy and the Clean Vehicle Education Foundation to 
obtain used cylinders of the types that have failed for evaluation. The 
goal is to improve safety codes and standards to prevent these failure 
modes in future cylinder designs. The agency will assess the research 
data and decide on next steps.

        Priority Category: Environmental Benefits/Safety Concerns

        Next Milestone: Agency decision in 2013

Batteries
    Description: NHTSA is researching the potential safety risks posed 
by battery storage devices through basic research and cooperative 
agreements with vehicle OEM's and/or battery manufacturers. The agency 
has initiated a basic study on the potential failure modes for lithium 
ion battery storage systems, and is developing an RFP for vehicle and 
battery OEMs to analyze risks and develop technical requirements, 
appropriate test procedures, and acceptance criteria, considering a 
broad range of potential lithium ion storage strategies. The agency 
will also develop a research approach to examine methods to ensure the 
safety of the complex electronic control systems that are inherent to 
these battery technologies. With the results of these programs, the 
agency will assess the research data and decide on next steps.

        Priority Category: Environmental Benefits/Safety Concerns

        Next Milestone: Agency decision in 2014
IV. Other Significant Projects by Program Area
Light-Vehicle Crash Avoidance and Mitigation--Advanced Technologies
Lane Departure Prevention
    Description: NHTSA has developed a test for NCAP purposes that will 
appear in NCAP MY 2011 data on a lane departure warning system. Lane 
departure prevention or automatic lanekeeping is the next step in 
development. NHTSA would work toward developing performance criteria 
and objective tests to support identification of effective advanced 
safety technologies that keep drivers in their lanes. The agency will 
assess the research data, technologies and potential countermeasures 
and decide on next steps.

        Next Milestone: Agency decision in 2011
Blind Spot Detection
    Description: Examine the potential of sensors and mirrors to detect 
vehicles in blind spots to assist in lane changing. The agency will 
assess the research data, technologies and potential countermeasures 
and decide on next steps.

        Next Milestone: Agency decision in 2013

Sound for Hybrid and Electric Vehicles
    Description: Develop performance requirements for a sound that 
allows blind and other pedestrians to detect a nearby electric or 
hybrid vehicle operating below speeds at which tire noise, wind 
resistance and other factors provide audible cues.

        Congressional Requirements: Pedestrian Safety Enhancement Act 
        of 2010

        Next milestones: NPRM: 2012

Pedestrian Detection
    Description: Determine ability of sensor systems to detect a 
pedestrian and then reduce vehicle speed. The agency will assess the 
research data, technologies and potential countermeasures and decide on 
next steps.

        Next Milestone: Agency decision in 2013
Motorcycles
Motorcycle Helmet Labeling
    Description: Amend labeling of motorcycle helmets to reduce sale 
and use of novelty helmets. The agency published an NPRM in October 
2008.

        Next Milestone: Final Rule: 2011
Rollovers
Dynamic Rollover Test Research
    Description: The agency is currently undertaking a multi-year 
project to study the feasibility of a dynamic rollover test to identify 
occupant injury risk. Issues such as the field-relevance, repeatability 
and reproducibility and adaptability to incorporate vehicle based 
countermeasures for such a test are being explored. Additional research 
is underway to determine an appropriate crash dummy that can predict 
rollover injury mechanisms as well as evaluate occupant restraint 
performance in rollover crashes such as pretensioners, integrated seat 
belts, 4-point belts, and air belts. The agency will assess the 
research data and decide on next steps.

        Next Milestone: Agency decision in 2014

Front Impact Occupant Protection
Seat Belt Reminder Systems
    Description: Seat Belt Reminder Systems tell drivers and front-
right passengers they have not buckled up. Many different systems are 
currently being provided in new cars, but NHTSA does not have a 
standard requiring them. This project will consider whether to develop 
performance requirements for seat belt reminder systems to improve seat 
belt usage. The agency will decide whether to initiate rulemaking to 
improve seat belt usage.

        Next Milestone: Agency decision in 2011

Small Overlap/Oblique Frontal Crashes
    Description: Analysis of frontal-crash fatalities for those belted 
with air bags shows offset and oblique crashes as the second largest 
group of fatalities after those of extreme severity. NHTSA will develop 
test procedures for these crashes and examine the potential for 
reducing fatalities and injuries. The agency will decide whether to 
initiate rulemaking to address these types of crashes.

        Next Milestone: Agency decision in 2011

Next Generation NCAP
    Description: In the final decision notice published on July 19, 
2008, the agency discussed possible future enhancement efforts (beyond 
the newly enhanced program) in frontal impact, side impact, rear impact 
and rollover programs. The agency will consider updating injury 
criteria in frontal and side impact programs, adjusting the baseline 
injury risk in all three programs to ensure that vehicles are measured 
against a meaningful benchmark, revising testing protocols, and 
providing improved consumer information. The agency also plans to 
conduct real-world crash data analyses to identify crash modes and 
additional beneficial advanced technologies for the NCAP program beyond 
ESC, LDW, and FCW systems. Where appropriate, the agency will develop 
relevant advanced technology test procedures.

        Next milestone: Multiple decisions from 2012 through 2013
Rear-Seat Occupant Protection
Low Delta V Restraint Protection
    Description: Evaluation of air belt or other technologies suitable 
for improving thoracic protection to older persons in low-speed 
crashes. The agency will assess the research data, technologies and 
potential countermeasures and decide on next steps.

        Next Milestone: Agency decision in 2014
Side-Impact Occupant Protection
Side Impact Dummies--Adults
    Description: The agency is participating in an international 
research effort to determine biofidelity, repeatability and 
reproducibility and associated injury criteria for the 5th percentile 
female and 50th percentile male family of WorldSID side-impact dummies. 
The efforts of this collaboration will help to prepare the dummies for 
Federalization. The agency will decide whether to initiate rulemaking 
to Federalize each or either of the dummies.

        Next Milestone: Agency decisions in 2014
Children
Improve Frontal Protection for Children--Booster Seats
    Description: Add into FMVSS No. 213 ``Child Restraint Systems'' 
requirements for booster seats for older children, and add a 10-year-
old crash test dummy to Part 572. A SNPRM was published 11/24/10.

        Next Milestone: Final Rule: 2011

Improve Frontal Protection for Children--Lower Anchors and Tethers for 
        Children (LATCH)
    Description: Address issues related to using LATCH in the center 
rear seat, tether anchorage locations, weight limit differences between 
child safety seats and tether anchorages, and labeling of anchorage 
locations. The agency will decide whether to initiate rulemaking to 
address LATCH-related issues.

        Next Milestone: Agency decision in 2011

Improve Frontal Protection for Children--Test Requirements
    Description: Examine how well the test parameters of the FMVSS No. 
213 sled test replicate the real world, including crash pulse, test 
velocity, excursion limits, the test seat, adding a lap/shoulder belt, 
etc. The agency will assess the research data, existing requirements 
and potential countermeasures and decide on next steps.

        Next Milestone: Agency decision in 2013
Older Persons
    Description: The agency is developing a plan to coordinate intra-
agency older driver safety activities in data collection and analysis, 
vehicle, human factors and behavioral research and program activities 
to meet agency and departmental goals for older occupants. The results 
from this work may help to direct regulatory programs aimed at enhanced 
older occupant protection.

        Next Milestone: Develop an agency plan in 2012

Global Technical Regulations
Pedestrian
    Description: Based on GTR 9, Pedestrian Impact Protection, NHTSA 
will propose regulations affecting the hood and bumper areas of light 
vehicles to reduce injuries and fatalities to struck pedestrians. The 
pedestrian dummy leg, if proposed, would be added to Part 572.

        Next Milestone: NPRM: 2011

Head Restraints--Phase 1
    Description: Amend FMVSS 202 based on the requirements in GTR 7.

        Next Milestone: NPRM: 2011

Head Restraints--Phase 2
    Description: Working with the international community under WP.29, 
the agency will assess several rear-impact dummies, including the 
BIORID II, determine the most biofidelic one, and assess next steps. 
The agency will also work with the international group on the 
development of a dynamic test to assess the potential for whiplash 
injuries based on the biofidelic responses of the rear-impact dummy. 
The agency will assess the research data, dummy performance and 
potential countermeasures and decide on next steps.

        Next Milestone: Agency decision in 2013

Global Technical Regulation for Hydrogen-powered Vehicles--Phase 1:
    Description: Develop and establish a Global Technical Regulation 
(GTR) for Hydrogen-powered Vehicles, including fuel-cell vehicles that: 
(1) attains or exceeds the equivalent levels of safety as those for 
conventional gasoline fueled vehicles; and, (2) is performance-based 
and does not restrict future technologies. The GTR will include 
performance requirements for the whole vehicle as well as specific 
components and subsystems with focus on the following areas:

  <bullet> Performance requirements for fuel containers, pressure 
        relief devices, and fuel lines.

  <bullet> Electrical safety and protection against electric shock for 
        in-use and post-crash situations.

  <bullet> Performance requirements for sub-systems integration in the 
        vehicle.

  <bullet> Maximum allowable hydrogen leakage for in-use and post-crash 
        situations.

    Additionally, this work will encompass foundational research that 
will be necessary to determine future requirements, such as research on 
performance of high-pressure cylinders in fires, localized flame 
impingement on cylinders, electrical integrity of high- voltage fuel 
cell propulsion systems, and developing criteria for post-crash 
hydrogen leakage.

        Next Milestone: Agency Decision in 2012

    The agency will assess the research data and decide on next steps.
Heavy Vehicles
Heavy-Vehicle Event Data Recorders
    Description: Develop performance requirements for heavy-vehicle 
event data recorders (EDRs). The agency will decide whether to initiate 
rulemaking to require EDRs in newly manufactured heavy vehicles.

        Next Milestone: Agency decision in 2011

Heavy-Vehicle Truck Tires
    Description: Upgrade the endurance test in FMVSS 119 ``New 
Pneumatic Tires for Vehicles Other Than Passenger Cars'' and add a new 
high-speed test for heavy-vehicle tires. The NPRM was published 9/29/
10. The agency will assess the docket comments and research data and 
decide on next steps

        Next Milestone: Agency decision: 2012

Heavy-Vehicle Speed Limiters
    Description: NHTSA was petitioned by the American Trucking 
Association and Roadsafe America to require the installation of speed 
limiting devices on heavy trucks. In response, NHTSA has requested 
public comment on the subject and received thousands of comments 
supporting the petitioner's request. Based on the available safety data 
and the ancillary benefit of reduced fuel consumption, NHTSA published 
a grant notice on 1/3/11 were we announced our intention to propose a 
new Federal Motor Vehicle Safety Standard that would require the 
installation of speed limiting devices on heavy trucks.

        Next Milestone: NPRM: 2012

Truck Underride Guards
    Description: Analysis of frontal fatalities for those with air bags 
and wearing seat belts showed truck underride as the third largest 
group of fatalities behind extreme severity crashes and corner/oblique 
impacts. Evaluation shows more severe intrusion in offset crashes. The 
agency will assess research data and decide on the next steps.

        Next Milestone: Agency decision in 2012
Other
Biomechanics Program
    Description: The biomechanics program develops injury assessment 
methods including advanced anthropometric test device (ATD) research 
and associated injury criteria. A comprehensive research plan has been 
developed that will generate injury mechanism data, advanced dummy 
performance characteristics and assessment of potential countermeasures 
to reduce injury. Priority programs and timelines are:

        Next milestone: Publish biomechanics plan in 2011

        Rotational brain injury criteria--Agency decision 2011

        Multi-point chest injury criteria--Agency decision 2012

        THOR 50th percentile dummy--Agency decision 2013

        THOR 5th percentile dummy--Agency decision 2014

        Advanced 3-, 6-, 10-year-old child dummies--Agency decision 
        2014/2015

Advanced Automatic Collision Notification (AACN)
    Description: AACN provides emergency personnel with pre-arrival 
information (crash severity, GPS coordinates, other occupant and 
vehicle data) when a severe crash occurs. The agency is working with 
the Centers for Disease Control (CDC) and EMS providers to examine 
required data elements and potential benefits and triage capabilities 
of AACN to transport those seriously injured to a Level 1 trauma 
hospital. The agency will review research results and decide on next 
steps.

        Next Milestone: Agency decision in 2013

Lighting Standard
    Description: Develop a performance-based standard for FMVSS No. 108 
``Lamps, Reflective Devices, and Associated Equipment.'' The agency 
will decide whether to initiate rulemaking to upgrade FMVSS No. 108 to 
a performance-based standard.

        Next Milestone: Agency decision in 2012

Tire Aging
    Description: Require an oven-aging test for tires prior to running 
them through an endurance test. This could help reduce tread 
separations that occur in hot weather States. The agency will test 
tires that meet FMVSS 139 and then decide whether to initiate 
rulemaking to require an oven-aging test.

        Next Milestone: Agency decision in 2012

Light Vehicle EDR Requirement
    Description: Expand the availability and future utility of EDR data 
captured in light vehicles. The agency is developing a rulemaking 
proposal to require EDRs on light vehicles to which Part 563 applies 
and an advance proposal for future enhancements to their capabilities 
and applicability.



Next Milestone:          NPRM:                    2011
                         ANPRM:                   2011


Update Accelerator Control Standard (FMVSS 124)
    Description: The agency is considering several revisions to FMVSS 
No. 124. First, we are considering revisions to the test procedures for 
vehicles with electronically controlled throttles as well as electric 
vehicles and hybrid vehicles. These test procedures are the product of 
several workshops and public meetings. Second, we are considering 
adding a new requirement for a brake-throttle override system on light 
vehicles. Under certain conditions, this would require that the braking 
system overrides the throttle control in the event of a conflict.

        Next Milestone: NPRM: 2011

Update FMVSS No. 114 for Keyless Ignitions
    Description: The agency is considering several revisions to address 
emerging safety concerns regarding keyless ignition controls. The 
concerns are drivers who are unable to shut down the propulsion system 
of their vehicle in the event of any on-road emergency; drivers who 
shut off the propulsion system without putting their vehicle in 
``park'' and walk away from the vehicle, leaving it prone to roll away; 
and drivers who do put their vehicle in park, but inadvertently leave 
the propulsion system active increasing the risk of carbon monoxide 
poisoning in a closed environment.

        Next Milestone: NPRM: 2011

Pedal Placement
    Description: Examine pedal placement and spacing and examine 
minimum clearances for foot pedals with respect to other pedals, the 
vehicle, floor, and any other potential obstructions. The agency will 
assess the research data and potential countermeasures and decide on 
next steps.

        Next Milestone: Agency decision in 2013
V. Crosswalk between 2009-2011 Rulemaking and Research Priority Plan of 
        October 2009 and this Plan
    This section provides a comparison to the October 2009 plan, a 
project by project progress review, and a short description of what 
priority actions have occurred in the last year.
Comparison to the October 2009 Plan
    The following bullets provide a summary comparison of the October 
2009 published 2009-2011 plan and this 2011-2013 plan. The plan is a 
dynamic document that changes as new issues or circumstances arise. 
These tables were updated in early March 2011. Tables 2 and 3 at the 
end of this section provide a project by project short description of 
what has occurred over the past 2 years, the NPRMs and Final Rules 
issued, the decisions made, and the differences in the plans.

  <bullet> There were 56 projects in the 2009-2011 plan and there are 
        53 projects in the 2011-2013 plan. Combining the two plans, 
        there are 67 separate actions.

  <bullet> Of the 56 projects in the 2009-2011 plan, 25 were priority 
        projects and 31 were other significant projects. Of the 53 
        projects in the 2011-2013 plan, there are 23 priority projects 
        and 30 other significant projects.

  <bullet> Of the 25 priority projects in the 2009-2011 plan, the 
        schedule for 1 was moved forward, 3 were completed with final 
        rules, 1 had a final rule issued but more work is continuing, 7 
        project deadlines were met (typically issuing an NPRM or making 
        an agency decision), progress has been made on an additional 4 
        projects and they are still on schedule, 1 was combined with 
        the hydrogen GTR project in the other significant projects, and 
        8 projects are behind the original schedule.

  <bullet> There were 3 new priority projects added for the 2011-2013 
        plan.

  <bullet> Of the 31 ``other significant projects'' in the 2009-2011 
        plan, 1 was moved forward, 1 was completed with a final rule, 5 
        project deadlines were met by making an agency decision, 
        progress has been made on 7 projects and they are still on 
        schedule, 12 are behind schedule, 4 have been delayed beyond 
        2013, and I was dropped from the plan because we decided it did 
        not reach a priority level of being an ``other significant 
        project.''

  <bullet> 8 new ``other significant projects'' were added for the 
        2011-2013 plan.

    In summary, in the last 2 years (2009-2010) the agency completed 
more projects and made more progress on its priority list (17 of 25 
priority projects were completed or are on schedule), than on the 
``other significant projects'' list (progress made on 14 of 31 
projects).
    Several abbreviations are used for Tables 2 and 3, to manage the 
width of the tables.
    These are:

    AD--Next agency decision
    FR--Final Rule
    Guide--Guidelines for visual manual distraction
    HV--Heavy Vehicle
    NI--Not included in the plan
    Notice--A non-rulemaking notice, concerning issues like NCAP, 
consumer education, or a notice of intent.
    NPRM--Notice of Proposed Rulemaking
    RFC--Request for Comment
    TBD--To be determined
    Under the ``Progress?'' column, the abbreviations are:

    + Completed the action or completed the first milestone on time
    +/- Completed an action but are behind the original schedule for 
the next action
    - Behind original schedule
    AS Ahead of Schedule
    Delay Likely not to have staff available to work on this until 
after 2013
    Drop Taken off the priority list
    OS On Schedule, progress has been made and we remain on schedule

                       Table 2--Priority Projects
 Comparison between the 2009-2011 Plan (October 2009) and this Plan for
                                2011-2013
------------------------------------------------------------------------
   Priority      2009-2011   2011-2013                  Discussion of
   Projects        Plan        Plan      Progress?         Changes
------------------------------------------------------------------------
Forward         AD 2011     AD 2011     OS
 Collision
 Warning
Lane Departure  AD 2011     AD 2011     OS          Moved out of
 Prevention                                          Priority Projects
                                                     to Other
                                                     Significant
                                                     Projects
Vehicle         AD 2013     AD 2013     OS
 Communication
 s
Distraction     Plan 2010   Guide 2011  +           Plan published April
                                                     2010
Alcohol         AD 2012     AD 2013     -           Need time to analyze
 Initiative                                          results of research
Ejection        NPRM 2009   NI          +FR         Final Rule published
 Mitigation      FR 2011                             1/19/2011
Child           AD 2010     NPRM 2012   +           Agency decision was
 Restraints in                                       made in 2010 to
 Side Impact                                         move forward with
                                                     an NPRM
NCAP Fit        Notice      RFC 2011    -           Decided to send out
 Program         2010        Notice                  a Request for
                             2012                    Comments
Rear            NPRM 2009   Withdrawl   +/-         NPRM published 12/7/
 Visibility                  2011                    2010
Power Windows   NPRM 2009   Withdrawal  +/-         NPRM published 9/1/
                 FR 2010     2011                    2009; Final
                                                     Decision date
                                                     changed via Letter
                                                     to Congress;
                                                     Decision to
                                                     Withdraw NPRM
Brake           NPRM 2009   NI          +FR         Completed, NPRM
 Transmission    FR 2010                             published 8/25/2009
 Shift                                               FR published 3/31/
 Interlock                                           2010
HV Truck        NPRM 2010   NPRM 2011   -           Additional
 Tractor                                             Coordination
 Stability                                           Required
 Control
Medium Truck    NI          AD 2014     Add         Added to Plan
 and Bus
 Stability
 Control
HV Forward      AD 2011     AD 2013     -           Resources
 Collision                                           reallocated to
 Avoidance                                           medium truck and
                                                     bus stability
                                                     control
Motorcoach Lap/ NPRM 2009   FR 2012     +/-         NPRM published 8/18/
 Shoulder        FR 2010                             10, required
 Belts                                               additional
                                                     coordination
Motorcoach      AD 2011     AD 2012     -           Staffing constraints
 Fire Safety                                         forces delay
Motorcoach      AD 2010     AD 2011     -           Staffing constraints
 Evacuation                                          forces delay
Motorcoach      AD 2009     NPRM 2011   +           Previously named
 Rollover                                            Motorcoach Roof
 Structural                                          Strength; Decision
 Integrity                                           to proceed with
                                                     rulemaking
Fuel Economy    FR 2010     NI          +FR         Completed, FR issued
 MY 2012-16                                          3/31/2010
 light vehicle
 CAFE
Fuel Economy    NI          NPRM 2011   Add OS      Added to Plan; NOI
 MY 2017-25                  FR 2012                 published 10/13/10,
 light vehicle                                       SNOI published 12/8/
 CAFE                                                10
Fuel Economy    AD 2011     FR 2011     AS          NPRM published 11/30/
 Medium/Heavy                                        10
 Truck
CAFE/           NPRM 2010   FR 2011     +           NPRM published 9/23/
 Greenhouse                                          10
 Gas Labeling
 Rule
Fuel Economy    NPRM 2010   NPRM 2011   -           Additional
 Consumer                                            coordination
 Education                                           required
Fuel Tank       NPRM 2010               OS          Combined with
 Labeling                                            consumer education
 Program
Consumer Tire   NPRM 2009   NPRM 2012   +FR/-       NPRM published 6/22/
 Rating                                              2009 FR published 3/
 Program                                             30/2010, but more
                                                     work to do on label
CNG             NI          AD 2013     Add         Added to Plan
Batteries       AD 2011     AD 2014     -           Research Ongoing
------------------------------------------------------------------------


                   Table 3--Other Significant Projects
 Comparison between the 2009-2001 Plan (October 2009) and this Plan for
                                2011-2013
------------------------------------------------------------------------
     Other
  Significant    2009-2001   2011-2013   Progress?      Discussion of
   Projects        Plan        Plan                        Changes
------------------------------------------------------------------------
Blind Spot      AD 2013     AD 2013     OS
 Detection
Sound for       AD 2010     NPRM 2012   +           New Act, have made
 Electric                                            significant
 Vehicles                                            progress
Pedestrian      NI          AD 2013     Add         Added to plan
 Detection
Motorcycle      FR 2010     FR 2011     -           More complicated
 Helmet                                              than originally
 Labeling                                            thought
Motorcycle      AD 2010     NI          +           Decision to evaluate
 Braking--ABS                                        with more data
                                                     later
Restraint       AD 2010     NI          +           Decision made to add
 Effectiveness                                       into Dynamic
 in Rollovers                                        Rollover project
Dynamic         NI          AD 2014     Add         Added to Plan
 Rollover
Seat Belt       AD 2011     AD 2011     OS
 Reminder
 System
Oblique/Low     AD 2011     AD 2011     OS          Agency decided in
 Offset                                              2010 to continue
 Frontal                                             research
Compatibility   AD 2010     NI          +           Decision to remove
                                                     from plan
Pre-Collision   AD 2010     NI          Delayed     Staffing constraints
 Air Bag/                                            forces delay
 Safety System
 Activation
Next            AD 2010-12  AD 2012-13  -           Staffing constraints
 Generation                                          forces delay
 NCAP
Monroney Label  NPRM 2009   NI          Drop        Taken off plan, not
 NCAP                                                a priority FR
                                                     planned for 2011
Rear Seat Low   AD 2012     AD 2014     -           Staffing constraints
 Delta V                                             forces delay
Side Impact     AD 2011     AD 2014     -           International
 Dummies--Adul                                       Research effort
 ts
Children--Boos  SNPRM 2009  FR 2011     -           SNPRM published 11/
 ter Seats                                           24/10. Staffing
                                                     constraints forces
                                                     delay
Children--LATC  AD 2011     AD 2011     OS
 H
Children--213   AD 2010     AD 2013     -           Staffing constraints
 Frontal Test                                        forces delay
 Requirements
Older Occupant  AD 2010     Plan 2012   +           Agency decision to
 Protection                                          develop a plan
Pedestrian GTR  NPRM 2010   NPRM 2011   -           Staffing constraints
                                                     forces delay
Motorcycle      FR 2010     NI          Delayed     Staffing constraints
 Brakes--GTR                                         forces delay
Glazing--GTR    NPRM 2009   NI          Delayed     Staffing constraints
                                                     forces delay
Head            NPRM 2010   NPRM 2011   -           Staffing constraints
 Restraints--P                                       forces delay
 hase 1 GTR
Head            AD 2013     AD 2013     OS
 Restraints--P
 hase 2
Hydrogen GTR    NI          AD 2012     Add         Added to plan
HV Stopping     FR 2009     NI          + FR        Completed--FR
 Distance                                            published 7/27/09
HV Event Data   AD 2010     AD 2011     -           Staffing constraints
 Recorder                                            forces delay
HV Truck Tires  NPRM 2009   AD 2012     -           NPRM published 9/29/
                                                     10, staffing
                                                     constraints forces
                                                     delay
HV Speed        NI          NPRM 2012   Add         Granted petition 1/3/
 Limiters                                            11 and added to
                                                     plan
HV Truck        NI          AD 2012     Add         Added to Plan,
 Underride                                           Evaluation shows
 Guards                                              problem in offset
                                                     crashes
Biomechanics    AD 2011-15  Plan 2011   OS          Publish biomechanics
 Program                                             plan first
Advanced        AD 2010     AD 2013     -           Requires further
 Automatic                                           study
 Collision
 Notification
Lighting        AD 2012     AD 2012     OS
 Standard
Rear Turn       AD 2009     NI          Delayed     Staffing constraints
 Signals                                             forces delay
Tire Aging      AD 2010     AD 2012     -           Assess tires that
                                                     meet new FMVSS 139
Light Vehicle   AD 2012     NPRM 2011   AS          Moved up and
 EDR                         and ANPRM               considering in two
                             2011                    parts, issuing an
                                                     NPRM for one and
                                                     ANPRM for other
Brake Override  NI          NPRM 2011   Add         Added to Plan
 and update
 FMVSS 124
Keyless         NI          NPRM 2011   Add         Added to plan
 Ignition
 Systems
Pedal           NI          AD 2013     ADD         Added to plan
 Placement
------------------------------------------------------------------------

                                 ______
                                 
      Response to Written Question Submitted by Hon. Tom Udall to 
                             Ronald Medford
    Question. Last year I introduced legislation to require event data 
recorders in all vehicles. If it had been adopted it would have 
included motorcoaches and buses. The NTSB has recommended EDRs in 
vehicles since 1997 and last year the Society of Automotive Engineers 
established minimum standards for heavy vehicle EDRs. What is NHTSA 
doing to move toward addressing the recommendation?
    Answer. For the past several years, NHTSA has been working with the 
Society of Automotive Engineers (SAE) Truck and Bus Committee in the 
development of SAE Recommended Practice J2728, ``Heavy Vehicle Event 
Data Recorder (HVEDR)--Base Standard.'' This recommended practice was 
published in June 2010. The agency is currently in the process of 
identifying appropriate performance requirements to be considered for 
HVEDRs. SAE J2728 will assist the agency in formulating potential 
performance requirements. However, the agency must also identify any 
implementation issues and economic impacts, as well as other data 
collection needs. NHTSA is will be making an agency decision on whether 
it will regulate HVEDRs in 2011.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Kay Bailey Hutchison 
                           to Ronald Medford
    Question 1. What is the status of the Motorcoach Safety Action Plan 
items under NHTSA's jurisdiction? What are the top action item 
priorities for your agency?
    Answer. The Motorcoach Safety Action Plan (the Plan) identified 10 
items under NHTSA's jurisdiction. The top three priority action items, 
Plan milestones and status for NHTSA are:

------------------------------------------------------------------------
     Action Item         Milestone Date                Status
------------------------------------------------------------------------
Initiation of                   Q1, 2010   The notice of proposed
 rulemaking for the                         rulemaking (NPRM) was
 installation of seat                       published in August 2010.
 belts                                      The agency is analyzing
                                            comments and expects to
                                            issue a final rule requiring
                                            seat belts on motorcoaches
                                            in 2012.
------------------------------------------------------------------------
Evaluation and                  Q4, 2009   Evaluation of test procedures
 development roof                           was completed in July 2009,
 crush performance                          and an agency regulatory
 requirements                               decision was made in January
                                            2010. The agency is
                                            considering an NPRM for end
                                            of 2011.
------------------------------------------------------------------------
Development of                  Q4, 2009   An agency regulatory decision
 performance                                was made in December 2009.
 requirements and                           The agency is considering an
 assessment of the                          NPRM for end of 2011.
 safety benefits of
 stability control
 systems on
 motorcoaches
------------------------------------------------------------------------

    The Plan identified seven additional items under NHTSA's 
jurisdiction:

------------------------------------------------------------------------
     Action Item         Milestone Date                Status
------------------------------------------------------------------------
Expand research on                  2010   In 2010 NHTSA expanded crash
 crash-avoidance                            avoidance research on
 warning systems                            motorcoach vehicles from a
                                            stability control focus
                                            (possible NPRM in end of
                                            2011) to include research of
                                            crash avoidance warning
                                            systems. The research
                                            parallels similar agency
                                            efforts focused on truck
                                            tractors.
------------------------------------------------------------------------
Initiate rulemaking             Q2, 2010   NPRM was published in
 to improve tire                            September 2010. We are
 performance                                assessing comments and
                                            research data, and an agency
                                            decision is expected in
                                            2012.
------------------------------------------------------------------------
Evaluate the                   2008-2011   NIST study was completed in
 feasibility of more                        December 2010. Now, the
 stringent motorcoach                       agency is conducting
 flammability                               additional research
 requirements                               necessary to develop test
                                            procedures. See also status
                                            for fire detection and
                                            protection systems.
------------------------------------------------------------------------
Evaluate the need for          2008-2011   Agency decision has been
 and performance of                         delayed until 2012.
 fire detection and                         Additional research is
 protection systems                         needed to identify test
                                            procedures and performance
                                            requirements and to evaluate
                                            existing fire detection and
                                            suppression systems. We
                                            expect to complete this
                                            research in 2012.
------------------------------------------------------------------------
Accelerate research            2009-2010   Testing was completed in Q2,
 on improved glazing                        2011. Further testing to
 and window retention                       evaluate different window
 techniques                                 designs and candidate
                                            performance requirements is
                                            currently underway. Agency
                                            decision is expected in
                                            2011.
------------------------------------------------------------------------
Develop enhanced                    2010   The assessment of egress
 emergency egress                           requirements was completed
 requirements, with                         in Q3, 2010. The agency is
 special attention to                       currently estimating the
 children, older                            cost of various egress
 people, and people                         options.
 with disabilities
------------------------------------------------------------------------
Make agency decision            Q2, 2010   Agency decision has been
 on installation and                        delayed to 2011. We are
 performance                                currently identifying
 characteristics of                         implementation issues
 heavy vehicle event                        related to appropriate
 data recorders                             performance requirements,
 (HVEDRs) on                                economic impacts and data
 motorcoaches                               collection needs so that the
                                            agency can make a decision
                                            on whether to regulate
                                            HVEDRs this year.
------------------------------------------------------------------------


    Question 2. In the 2009 ``Motorcoach Safety Action Plan,'' DOT 
identified 32 action items, including seven priority areas to improve 
the safety of buses, three of which are under NHTSA's jurisdiction. 
NHTSA acknowledges they are behind schedule on two of these three 
priority items, including a rulemaking for seatbelt installation, and 
the development of roof crush and vehicle integrity standards. What are 
the reasons for these delays?
    Answer. While there have been delays on some of the milestones, 
NHTSA has made good progress on its motorcoach safety initiatives. 
NHTSA completed its three priority action items listed in the 
Motorcoach Safety Action Plan and established the next milestones to 
complete the regulatory process.
    The NPRM requiring seat belts on motorcoaches was delayed from Q1, 
2010 to Q3, 2010 because additional testing and evaluation were 
necessary as new technical issues were identified during initial tests; 
complications developed with the compliance test methods; obtaining 
reliable cost estimates took longer than anticipated; and additional 
coordination was necessary with multiple agencies on several difficult 
issues that arose during the rulemaking process. The agency expects to 
develop the final rule in 2011 with anticipated publication in 2012. An 
agency decision for motorcoach rollover structural integrity was 
slightly delayed because estimating the cost of the various proposals 
under consideration took longer than anticipated. The testing of 
motorcoach roof crush procedures and performance requirements was 
completed according to schedule.

    Question 3. What is the status of the seatbelt rulemaking? When is 
it to be completed, and when can we expect that seatbelts will be 
required on buses?
    Answer. On August 18, 2010, NHTSA issued a NPRM that would require 
all new motorcoaches sold in the U.S. to be equipped with lap/shoulder 
belts to enhance motorcoach occupant protection in crash and rollover 
events, primarily by preventing occupant ejections. The agency is 
currently analyzing NPRM comments and expects to publish a final rule 
in 2012. If the proposed lead time requirements are adopted in the 
final rule, seat belts would be required on motorcoaches 3 years after 
final rule publication.

    Question 4. I understand NHTSA is also undertaking a review of 
window glazing and window retention to research performance 
requirements, but that this action is also delayed. What is the status 
of this rulemaking? When will it be completed?
    Answer. The effectiveness of window glazing for passenger safety, 
especially occupant ejection, is closely related to the structural 
integrity of the motorcoach. Specifically, glazing is most effective 
when the structural integrity of the motorcoach is sound. For this 
reason, the agency prioritized its efforts to focus on improving 
structural integrity as well as requiring seat belt installation to 
reduce occupant ejection before completing its research on window 
glazing. Accordingly, the agency determined that this staggered 
approach would be the most effective and expedient method of ensuring 
an effective glazing requirement.
    The findings from this preliminary research indicate that further 
testing and development is warranted. Additional testing to establish 
performance requirements is currently underway, and an agency decision 
is expected in 2011.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                             Ronald Medford
    Question. NHTSA is primarily responsible for the rulemaking on 
seatbelt installation, among other items in the Motorcoach Safety 
Action Plan. I understand the seatbelt rulemaking has fallen behind 
schedule, and that a final rule is not expected until later in 2012. 
Some operators are already purchasing new motorcoaches with seatbelts 
installed. Have you consulted with these companies to ensure that their 
seatbelts will likely meet NHTSA requirements when the rule is finally 
released?
    Answer. During the rulemaking process, the agency met with 
motorcoach manufacturers, seat manufacturers, motorcoach operators and 
their associations at the request of these organizations. The agency 
considered and documented the input of these organizations in 
development of the NPRM, and will continue to do so in the development 
of the final rule. The agency also conducted its own testing on 
motorcoach seats currently equipped with seat belts. Based on these 
test results, the agency has determined that these seats equipped with 
seat belts would meet the requirements of the NPRM. These test results 
are available on www.regulations.gov (Docket No. NHTSA-2010-0112).
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                       Hon. Deborah A.P. Hersman
    Question 1. There are currently 100 open safety recommendations for 
motorcoach safety. In your view, what are the most important 
recommendations that, if acted on, would add the most safety benefit?
    Answer. Several of NTSB's open motorcoach safety recommendations 
are included on the Most Wanted List (MWL) of Transportation Safety 
Improvements. Among these motorcoach items on the MWL is occupant 
protection improvement, with recommendations directed to the National 
Highway Traffic Safety Administration (NHTSA). In 1999, the NTSB issued 
recommendations asking NHTSA to develop performance standards for 
motorcoach occupant protection systems that account for all types of 
crashes (H-99-47) and to develop performance standards for motorcoach 
roof strength that provide maximum survival space for all seating 
positions (H-99-50). The NTSB has cited inadequate occupant protection 
as a contributing cause in its last five motorcoach accident reports. 
Both Safety Recommendations H-99-47 and -50 are currently classified 
``Open--Unacceptable Action.''
    The NTSB would also like to see carriers operating with unsafe 
vehicles or unsafe drivers taken out of service. In 1999, the NTSB 
issued Safety Recommendation H-99-6 as a result of its special 
investigative report on select motorcoach issues. The two most 
important factors in safe motor carrier operations are the operational 
status of the vehicles and the performance of the individuals who drive 
them. If there are significant problems with vehicles or with the 
qualifications or fitness for duty of drivers, the Federal Motor 
Carrier Safety Administration (FMCSA) should rate the carrier as 
unsatisfactory, forcing correction of the problems within a specified 
time. Increased FMCSA oversight is critical because problems in either 
of these areas could result in severe consequences for safety, and if 
such problems persist, a motor carrier's authority to operate should be 
revoked. The NTSB has called on FMCSA to so revise its safety fitness 
rating methodology, but safety Recommendation H-99-6 is currently 
classified ``Open--Unacceptable Action.''
    Finally, the NTSB has recommended that the FMCSA do more to prevent 
medically unfit drivers from operating commercial vehicles. The Board 
has determined that serious flaws exist in the medical certification 
process for commercial vehicle drivers--flaws that can lead to 
increased highway fatalities and injuries for commercial vehicle 
drivers, their passengers, and the motoring public. The NTSB has issued 
a series of recommendations to strengthen the medical certification 
process to prevent medically unfit drivers from unsafely transporting 
passengers. These recommendations include ensuring that medical 
examiners are properly qualified and trained (H-01-17); developing a 
tracking mechanism for previous medical certifications (H-01-18); 
providing clear, updated medical regulations to guide examiners (H-01-
19); developing clear, accessible guidelines for medical examiners (H-
01-20); developing a review process that prevents the inappropriate 
issuance of medical certifications (H-01-21); and developing a 
mechanism for reporting medical conditions that arise between 
certifications (H-01-22). Half of these recommendations are currently 
classified ``Open--Unacceptable Action.''

    Question 2. How can we keep unsafe or unqualified drivers off the 
road?
    Answer. The NTSB's Most Wanted List of Transportation Safety 
Improvements also includes the issue of removing unsafe drivers from 
our Nation's highways, for which there are three key elements:

  <bullet> Preventing medically unfit drivers from operating commercial 
        vehicles. The NTSB has issued a series of safety 
        recommendations, listed above, to strengthen the medical 
        certification process and make it more difficult for medically 
        unfit drivers to operate a commercial vehicle.

  <bullet> Identifying those companies that use unsafe operators (H-99-
        6). Once identified, these carriers should be rated 
        ``unsatisfactory,'' thereby forcing them to rectify the issue 
        within a specified time. If driver problems persist, the 
        carrier should have its authority to operate revoked.

  <bullet> Ensuring that drivers do not violate hours of service (H-07-
        41). Fatigued drivers are unsafe drivers. The NTSB has 
        recommended that the FMCSA require all carriers to use 
        electronic on-board recorders (EOBR) to ensure that drivers do 
        not exceed their hours of service.

    Finally, though not on the Most Wanted List, the NTSB has recently 
recommended that the FMCSA require carriers to install cameras on their 
vehicles that record the driver and the roadway environment in the 
event of a crash or sudden deceleration (H-10-10). The NTSB has 
recommended that the FMCSA require that carriers review the camera data 
in conjunction with other performance data to verify that driver 
actions are in accord with company and regulatory rules and procedures 
essential to safety (H-10-11).
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                            Peter J. Pantuso
    Question 1. Do you only support ``Research and testing'' of the 
vehicle safety improvements to establish standards, or do you support 
requiring this equipment on newly manufactured buses once the standard 
is developed?
    Answer. ABA supports integrated research and testing of all safety 
enhancements for motorcoaches. We believe that the motorcoach is 
comprised of a series of safety systems that work in concert to protect 
the passenger. Our goal is to ensure that research and testing lead to 
either a single rulemaking or several interrelated rulemakings that are 
based on the research and applied to the manufacture of new 
motorcoaches. Our goal is to ensure that rules are promulgated in a 
fashion that uses an integrated systems approach and enhances safety 
while not degrading the effectiveness on one system by enhancing 
another.

    Question 2. At our September 2008 bus safety hearing, you testified 
that the reason industry has not installed seat belts is the lack of 
Federal standards, implying that it was a failure of government, not 
industry, that has prevented seat belts on buses. Do you still believe 
this is the case?
    Answer. Yes. The lack of a Federal standard for seat belts has been 
the primary reason that the industry has not implemented seatbelts on 
all new coaches. Seatbelts are not universal in their design, points of 
restraint, strength tolerances (G force) and anchorages. Our goal in 
pushing for research and testing was to ensure that the correct 
standard was developed given the crash environment of a motorcoach. 
Just as seatbelts in cars are different today than 30 years ago and 
seatbelts in airplanes are different than those in cars, we understand 
that a 45 foot motorcoach weighing 52,000 lbs. will require a specific 
belts, seat anchorage and floor strength. A very relevant example of 
the need for testing and research is the fact that NHTSA did not 
determine whether a two or three point seatbelt standard was 
appropriate for bus operations until after it had analyzed the testing 
data. If a motorcoach owner had installed two point belts before NHTSA 
had finished its research and testing on seat belts that owner could 
now be faced with the costs of installation, the liability in an 
accident for having a different standard and finally the requirement to 
remove the belts from the coach. In addition, smaller carriers may lose 
their insurance coverage if they install safety equipment that does not 
conform to federal standards.
    The requirement of a Federal standard goes beyond the choice of a 
two point or a three point belt. Depending on the G force requirement 
the belt must withstand, a bus manufacturer may have to redesign or 
replace seats, strengthen the floor or otherwise reconfigure or rebuild 
the motorcoach to install belts safely. Of course, cost is an issue but 
there are other factors. First, if there is a retrofit requirement, 
there is the question of whether such a standard can apply uniformly 
across the industry based on differing models, vehicle age and 
specifications. A second question is what company, operator or 
individual can properly install the seat belts either as a part of the 
original equipment or as a retrofit item and in what time frame. There 
is only one domestic motorcoach manufacturer and a total of four large 
manufacturers worldwide and the total number of motorcoaches entering 
the U.S. market from all sources is approximately 1,200 a year. The 
ability of any bus operator to have seat belts installed quickly is 
limited by this lack of readily accessible facilities. Additionally, 
without a Federal standard for new coaches there is the possibility 
that individual states will enact their own inconsistent standards 
ensuring only that an operator cannot legally operate in one or more 
states. A Federal standard is crucial to seat belt installation in the 
industry.

    Question 3. Based on your 2008 testimony, I concluded that the bus 
operators are relying on Federal standards to guide the industry in its 
safety improvements. What Federal safety requirements do you believe 
need regulatory clarity? Is the industry making any safety improvements 
on its own in areas addressed in our legislation, and if not, why not?
    Answer. Generally, whenever the Federal Government has an idea for 
improving safety, we in the bus industry applaud it. What is important 
is that when there is such an idea, that the issue be fully researched 
and studied. S. 453requires that NHTSA begin implementing regulations 
on several safety measures. ABA agrees that those measures should be 
researched to see if the standards should be updated. Specifically, I 
refer to window glazing, fire suppression and prevention, emergency 
egress and roof strength. Those topics must be researched to determine 
if regulatory clarity is needed. Furthermore, ABA believes that the 
standards for obtaining authority to operate should also be increased 
as well as the standards by which individual states issue commercial 
driver's licenses (CDLs) with passenger endorsements.
    As for the industry's safety improvements, ABA operators are 
placing Global Positioning Systems (GPS) in their motorcoaches for real 
time information about their buses locations. For this the industry has 
relied on the Intercity Bus Security Grant Program, a competitive grant 
program administered by the Department of Homeland Security. Greyhound 
Lines, one of ABA's largest members has used some IBSGP funds as well 
as its own money for other security upgrades. ABA members are also 
installing Electronic On- Board Recorders (EOBRs) in their equipment. A 
step made possible by the establishment of definitive EOBR performance 
standards. As to why other steps have not be taken, I can only restate 
ABA's main point, viz. that federal standards are the fundamental 
necessity for most safety equipment required for interstate motorcoach 
operators.

    Question 4. What, if anything, is the bus industry doing to prevent 
reincarnated or chameleon carriers from operating, which are a blemish 
to the industry?
    Answer. We wholly agree with Senator Hutchison. These reincarnated 
carriers are a blemish on the industry. ABA has for several years 
advocated higher standards for those who wish to enter the motorcoach 
industry. Several years ago I testified before the House T & I 
Committee on the need to investigate the wave of new curbside bus 
operators who were driving in interstate commerce without insurance, 
discernable maintenance facilities, which denied boarding to disabled 
citizens and even failed to employ drivers who spoke English. The so 
called reincarnated carriers are a subset of those illegal or unsafe 
operators and ABA supports vigorous efforts to get them off the roads. 
Thus, ABA advocates that the Federal Motor Carrier Safety 
Administration (FMCSA) pay more attention to the financial background 
and resources of motor carrier operators before they are given 
authority to operate in order to prevent ``bad actors'' from entering 
the industry. And we would support any legislation that allowed FMCSA 
to take the license plates off of the buses of any illegal motorcoach 
operators as well as operators who are place out of service by the 
agency. However, I must reiterate our support for more bus inspections 
and a requirement that every state have a bus inspection program that 
meets the minimum Federal standard. Moreover, ABA believes that a 
portion of the funds provided the states for inspections by the Motor 
Carrier Safety Assistance Program (MCSAP) should be set aside for bus 
inspections. Finally, if states are unwilling or unable to meet a bus 
inspection standard then a percentage of their MCSAP funds should be 
withheld and private inspectors hired to perform the task. Without a 
uniform bus inspection program, bad operators will gravitate to states 
with less stringent requirements. Such ``safe harbor'' states for 
illegal carriers must be closed or reducing fatalities will be more 
difficult no matter the vehicle enhancements mandated for motorcoaches.

    Question 5. If the lack of federal standards is an impediment to 
seatbelt installation as you previously testified, how is it that one 
of your largest member companies (Greyhound) moved forward with 
seatbelt installation on all newly manufactured buses? Do you expect 
other member companies to take action on their own?
    Answer. In my opinion Greyhound's very laudable action is not the 
answer for the largely small business motorcoach industry. Greyhound is 
essentially betting that the standard it is using to equip its buses 
with seat belts will ultimately be the one approved by NHTSA. If NHTSA 
does not approve that standard, liability concerns and insurance 
requirements may force Greyhound to remove and exchange the belts it 
has installed. What seems to be in Greyhound's favor is that given its 
size in the industry, resources available to it, and its motorcoach 
replacement schedule it may be able to meet the ultimate NHTSA standard 
on an accelerated time schedule and with the expenditure of fewer 
resources. For the bulk of the motorcoach industry, such a large scale 
move is not financially or logistically possible. Over 80 percent of 
our industry operates fewer than 10 motorcoaches and does not have the 
financial or technical capabilities of a Greyhound Lines. While there 
are more and more motorcoaches with seat belts coming into the Nation's 
fleet, I do not expect a large scale move to seat belts until a Federal 
standard is adopted.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                            Peter J. Pantuso
    Question. Many rural communities rely on bus service as their only 
means of intercity transportation, and there are more than 8 times as 
many communities served by bus than air in the United States. What is 
the bus industry doing to ensure that rural Americans continue to have 
access to bus service?
    Answer. ABA strongly supports the so-called 5311(f) program (49 
U.S.C. 5311(f)) which provides money to States to improve rural 
transportation service. In some states private bus operators are 
granted money by the states to extend their services to more rural 
areas in the states. Jefferson Lines, an ABA member company, has a long 
and good history of working with South Dakota to bring more service to 
the state. ABA has called for an increased percentage allocation in 
5311(f) funding in the coming transportation reauthorization bill. ABA 
also supports making permanent the Federal Transit Administration's 
(FTA) private match pilot program. This program allows states to expand 
section 5311(f) projects to include local match provided by the cost of 
the unsubsidized intercity bus service that connects with the 
subsidized service. This increases the percentage of the net cost of 
the subsidized service that section 5311(f) funds can subsidize from 50 
percent to 100 percent of the operational loss and requires 
collaboration and connection for services using the private match 
process. This program is also a great example of flexible spending in 
that if states certify through a consultation process that they have no 
unmet rural transportation needs the 5311(f) funds may be used for 
other projects.
    Finally, In order to reconnect rural communities that have been 
isolated from the broader transportation network with the contraction 
of EAS, ABA supports the beginning of an Essential Bus Service pilot 
program within U.S. Department of Transportation as a supplement to the 
very expensive Essential Air Service. In an EBS private operators would 
be empowered to create connections between non-urbanized areas and hub 
airports. It would also allow operators to make stops at intermediate 
points to expand the accessibility of the traveling public to the 
transportation network.
    Thank you for this opportunity. ABA looks forward to continuing to 
work with you to enhance the safety of motorcoach passengers, employees 
and increase the transportation options available to the traveling 
public.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                             Joan Claybrook
    Question 1. Is there one single safety improvement that you would 
recommend above all others to improve the safety of bus occupants?
    Answer. There is no single safety improvement that will ensure 
passenger safety on motorcoaches in a crash. While seat belts are 
obviously necessary, seat belts alone will not be enough to protect 
passengers in a crash. There is no silver bullet that will prevent 
crashes and protect bus occupants. That is why I support the 
comprehensive approach to improve safety taken by the Motorcoach 
Enhanced Safety Act. In order to prevent crashes, safety improvements 
are needed to make sure that drivers are highly qualified and able to 
operate motorcoaches safely, that states have competent maintenance and 
inspection programs to catch safety problems, and that new motorcoaches 
are built with safety technologies that can help avoid a crash. When a 
crash does occur, motorcoaches need to be designed to protect the 
passenger compartment and roof from collapse in a rollover crash or 
collision with highway bridge abutments, roadside appurtenances and 
obstacles, as well as impacts with other vehicles. Improved structural 
integrity can provide a margin of safety from interior injuries for 
both belted and unbelted occupants, and motorcoaches can be equipped 
with modern systems that suppress fires, protect against smoke 
inhalation and allow for quick passenger evacuation.

    Question 2. With respect to DOT's implementation of the Motorcoach 
Safety Action Plan, I've noted that they are behind in several key 
areas, including stability control systems, roof crush standards, and 
minimum knowledge requirements for operators. How will DOT keep on 
track with implementing the Motorcoach Safety Action Plan?
    Answer. Unfortunately, the DOT has already fallen behind in 
executing some of the key items in the Motorcoach Safety Action Plan. 
This is regrettable, but such delays will only become longer and more 
pronounced as the issues covered by the Action Plan become more 
technical. As important, many safety items in the DOT Action Plan have 
no specific deadlines. Public safety on motorcoaches should not be left 
to the mercy of bureaucratic procedures or subject to delays due to 
other priorities. That is why a clear mandate from Congress with 
specific deadlines are necessary to keep DOT on track and to ensure 
that motorcoach safety does not take a back seat within DOT.

    Question 3. The bus industry has expressed concerns over their 
estimated costs of the safety improvements that could be required under 
this legislation, depending on what is actually required after the 
Secretary completes the directed studies on each safety provision 
(industry estimates costs at $89,000 per bus). Do you have any specific 
information that leads you to believe the industry estimated costs are 
inflated? Which safety improvements did you analyze? To what degree has 
the industry inflated the costs? How did the Advocates derive their 
lower figures?
    Answer. Information that debunks the exaggerated cost claims of the 
bus industry are included in the Supplemental Statement I submitted to 
the committee at the hearing. Advocates' staff directly contacted 
motorcoach manufacturers and suppliers to obtain cost information and 
estimates on specific safety features and equipment. Other information 
was gathered from public sources including advertising and DOT agency 
reports. Advocates for Highway and Auto Safety looked at the industry 
cost claims for a range of safety features including electronic 
stability control (ESC), advanced glazing, electronic on-board 
recorders, fire protection equipment and fire suppression systems. 
Industry claims for these safety features were at least double and in 
some cases 4 to 5 times the cost quoted by the people who build 
motorcoaches. In one case, the industry cost figure cited is 22 times 
the actual cost we were quoted by a motorcoach supplier for comparable 
protection.
    Our figures show that the cost for upgrading safety on new 
motorcoaches is only a fraction of the $89,000 cost claimed by industry 
and amounts to about 10 cents a ride for the average motorcoach.
    The industry cost figures are highly inflated for four reasons. 
First, this is a tactic used to scare Congress away from taking action 
that would improve public safety. The industry has an interest in 
getting people to believe that the cost burden is tremendous in order 
to stave off action. Second, the industry is prohibited by antitrust 
law from sharing actual cost information among its members that 
participate in a trade association. Since they are not allowed to share 
and discuss pricing and cost data, they cannot obtain cost information 
from bus manufacturers and suppliers and thus are relying on inaccurate 
information from less dependable sources. Third, since regulations 
requiring specific performance requirements or equipment have not yet 
been issued, there is no way the industry can accurately predict what 
the regulations will require and what the actual cost will be. Finally, 
the industry does not take into account cost reductions and savings 
that come with mass production and improvements in design. The cost of 
any item is reduced, sometimes by an order of magnitude, when 
efficiencies of scale are introduced during mass production. Industry 
has not taken this factor into account in its cost figures.
                                 ______
                                 
Hon. Frank R. Lautenberg,
Chairman,
Subcommittee on Surface Transportation and Merchant Marine 
            Infrastructure, Safety, and Security,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Re: Hearing on ``Ensuring the Safety of our Nation's Motorcoach 
            Passengers''

Dear Mr. Chairman:

    Thank you for allowing the American Bus Association to submit for 
the record of the hearing held on Wednesday, March 30, 2011 this 
explanation of the costs associated with implementing the mandates 
contained in S. 453, the ``Motorcoach Enhanced Safety Act of 2011'' 
introduced by Senators Brown and Hutchison.
    S. 453 contains some eighteen safety mandates which the bill 
requires be implemented between one and three years after enactment. 
The implementation of these mandates will cost hundreds of millions of 
dollars while the bill does not allow any time for testing or 
integrated implementation for many of these mandates. Thus, the cost of 
increasing the roof strength of motorcoaches could be increased many 
times if after requiring increased roof strength, the NHTSA required 
motorcoaches to undertake advanced window glazing which could require 
bus companies to rip off the roofs of buses in order to implement a 
window glazing mandate. Given the number of mandates S. 453 requires, 
this circumstance could be repeated many times.
    The number of mandates to be implemented alone will cost many 
hundreds of millions of dollars to retrofit the 32,000 motorcoaches in 
the motorcoach fleet. Industry sources estimate that for a large 
carrier implementation of all 18 mandates would cost upwards of $60,000 
per motorcoach. ABA members insist that for smaller carriers the prices 
for implementation would be higher as smaller carriers would not be 
able to command a volume discount for implementation that the largest 
carriers could demand. Moreover, the costs of implementation would be 
built into the cost of new motorcoaches, thus any suggestion that bus 
operators could pay for these mandates over time is ludicrous.
    Equally wrong is the notion that as these mandates are implemented 
the prices for these mandates will decrease. Only 1,200 motorcoaches 
are built for the United States market each year from all sources and 
there is only one domestic motorcoach manufacturer. This limited volume 
in total sales will diminish the economies of scale that advocates tend 
to point to as a primary driver to reduce costs. One cannot simply draw 
parallels in implementation to the auto industry as the overall vehicle 
production in the motorcoach industry is de minimis. Additionally, the 
timelines in S. 453 require immediate implementation which will 
disproportionally hurt the majority of small businesses that make up 
the motorcoach industry. With 80 percent of the industry owning 10 or 
fewer vehicles the vast majority of new vehicle production will flow to 
the small number of larger companies that have the capital to invest in 
new coaches. The strain placed on the supply chain and the lack of a 
down market for used buses will force many companies out of business.
    Finally, may I point out that NHTSA, the agency that will oversee 
the development and implementation of these mandates, notes that 
retrofitting motorcoaches with seat belts alone, only one of the 18 
mandates in S. 453, would cost up to $40,000 per motorcoach (see 75 
Fed. Reg. 50958, 50979).
    Thank you for this opportunity to supplement the record. ABA looks 
forward to continuing to work with you to ensure safety for the 
Nation's 32,000 motorcoaches and the bus industry's 750 million 
passengers.
            Sincerely,
                                          Peter J. Pantuso,
                                                 President and CEO,
                                              American Bus Association.
                                 ______
                                 
                                                         April 2011
Letter ``Clarification Regarding Seat Belts Use Rates on Motorcoaches'' 
               from Advocates for Highway and Auto Safety
    During the question and answer period of the hearing on motorcoach 
safety before the Subcommittee, Senator Tom Udall (D-NM) asked a 
question regarding seatbelt use in motorcoaches. In his response, the 
Deputy Administrator of the National Highway Traffic Safety 
Administration (NHTSA), Ronald Medford, stated that ``about 20 percent 
of bus riders use the belts.'' Mr. Medford followed up his response by 
stating that the 20 percent figure was from Australia where ``they just 
surveyed the use in Australia and found that it was low.'' Advocates 
for Highway and Auto Safety (Advocates) would like to clarify the 
record on this point and submit information that indicates that Mr. 
Medford's response was inaccurate and omitted important, pertinent 
facts.
The Australian Study Was Not Really a ``Study''
    To begin, the work from which Mr. Medford draws his figures was not 
a scientific study but rather a review of existing information on the 
Australian experience with ``three point seat belts on coaches.'' \1\ 
Not only did the author of the review not conduct any research, but he 
clearly stated that ``no objective scientific observational studies 
have been conducted of seat belt wearing rates on coaches in 
Australia.'' \2\
---------------------------------------------------------------------------
    \1\ Griffiths, M., Paine, M., Moore, R., Three Point Seat Belts On 
Coaches--The First Decade In Australia, 2005.
    \2\ Id at 5.
---------------------------------------------------------------------------
There Is Currently No Verified Belt Use Rate On Motorcoaches in 
        Australia
    The review article makes clear that there has not been any 
objective study of motorcoach belt use rates in Australia. In fact, the 
only documented report cited in the article indicates that the use rate 
in one investigated fatal bus crash yielded a belt use rate of 90 
percent.\3\ The lower estimate of 20 percent belt use in motorcoaches 
cited by Mr. Medford comes from ``(unpublished) Police anecdotal 
records.'' \4\ Thus, Mr. Medford was citing unverified information that 
is not accepted as credible and valid. While this unverified figure of 
20 percent is mentioned in the Australian review article, the authors 
of the review specifically state that of the 52 occupants of one bus 
crash, only 5 were injured (2 fatally injured); all 5 injured occupants 
were unrestrained.\5\ That also means that all the restrained occupants 
were uninjured. Mr. Medford neglected to mention this in his testimony. 
The authors also stated that, in Australia, ``[s]ince 1994 there have 
been several serious bus crashes but no seat belt wearing occupant has 
been reported as receiving fatal or disabling injuries in any of these 
crashes.'' \6\ Again, this important fact was not addressed by Mr. 
Medford in his response to Senator Udall's question.
---------------------------------------------------------------------------
    \3\ Id.
    \4\ Id.
    \5\ Id. at 3.
    \6\ Id.
---------------------------------------------------------------------------
Proposed Rule Shows Even with Low Use Rates Seat Belts are Effective
    Finally, NHTSA itself, in the Preliminary Regulatory Impact 
Analysis (PRIA) conducted as part of the rulemaking process for NHTSA's 
proposed rule to require seatbelts in motorcoaches, indicated that a 
belt use rate of only 24 percent in motorcoaches would make the rule 
cost effective.\7\ Yet another fact that Mr. Medford failed to mention 
in his response.
---------------------------------------------------------------------------
    \7\ Preliminary Regulatory Impact Analysis: FMVSS No. 208 
Motorcoach Seatbelts, NHTSA, August 2010, NHTSA-2010-0112-0006.1, page 
78.
---------------------------------------------------------------------------

                                  <all>

</pre></body></html>
